<html>
<title> - HEARING ON CLEARING THE DISABILITY BACKLOG: GIVING THE SOCIAL SECURITY ADMINISTRATION THE RESOURCES IT NEEDS TO PROVIDE THE BENEFITS WORKERS HAVE EARNED</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
              HEARING ON CLEARING THE DISABILITY BACKLOG:
               GIVING THE SOCIAL SECURITY ADMINISTRATION
                   THE RESOURCES IT NEEDS TO PROVIDE
                    THE BENEFITS WORKERS HAVE EARNED

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                             Serial 110-79

                               __________

         Printed for the use of the Committee on Ways and Means



                   U.S. GOVERNMENT PRINTING OFFICE
48-116 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL, JR., New Jersey       JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                   Jon Traub, Minority Staff Director


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page
Advisory of April 16, 2008, announcing the hearing...............     2

                               WITNESSES

The Honorable Michael J. Astrue, Commissioner, Social Security 
  Administration.................................................     9

                                 ______

Sylvester J. Schieber, Chairman, Social Security Advisory Board..    62
Marty Ford, Co-Chair, Consortium for Citizens with Disabilities 
  Social Security Task Force.....................................    69
Mara Mayor, Member, AARP Board of Directors, Bethesda, Maryland..    91
Witold Skwierczynski, President of the American Federation of 
  government Employees National Council of Social Security Field 
  Operations Locals, Baltimore, Maryland.........................   102
The Honorable Frederick Waitsman, administrative law judge, 
  Social Security Administration, and Vice Chair, Social Security 
  section of the Federal Bar Association, Atlanta, Georgia.......   119

                       SUBMISSIONS FOR THE RECORD

America's Health Insurance Plans, Statement......................   189
American Bar Association, Statement..............................   192
Association of Administrative Law Judges, Statement..............
Barbara Gay, Statement...........................................   193
Colleen M. Kelley, Statement.....................................   194
Connie Plemmons, Statement.......................................   198
David A. Hansell, Statement......................................   198
Harry Wanous, Statement..........................................   200
James F. Allsup, Statement.......................................   200
Linda Fullerton, Statement.......................................   202
National Association of Disability Representatives, Statement....   214
National Law Center on Homelessness & Poverty, Statement.........   217
Service Employees International Union, Statement.................   222
The American Civil Liberties Union, Statement....................   222
The Federal Managers Association, Statement......................   225


HEARING ON CLEARING THE DISABILITY BACKLOG: GIVING THE SOCIAL SECURITY 
 ADMINISTRATION THE RESOURCES IT NEEDS TO PROVIDE THE BENEFITS WORKERS 
                              HAVE EARNED

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:14 a.m., in 
room 1100, Longworth House Office Building, Hon. Charles B. 
Rangel (Chairman of the Committee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS
                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE
April 16, 2008
FC--21

                 Chairman Rangel Announces a Hearing on

           Clearing the Disability Backlog--Giving the Social

           Security Administration the Resources It Needs to

                Provide the Benefits Workers Have Earned

    House Ways and Means Committee Chairman Charles B. Rangel today 
announced that the Committee will hold a hearing on the Social Security 
Administration's (SSA's) large backlog in disability claims and other 
declines in service to the public resulting from years of underfunding 
of the agency's administrative expenses. The hearing will take place on 
Wednesday, April 23, 2008 in the main Committee hearing room, 1100 
Longworth House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    In recent years, SSA's workload has grown significantly due to the 
aging of the population and new responsibilities stemming from Medicare 
and homeland security legislation. Despite a productivity increase of 
more than 15 percent since 2001, the administrative funding SSA has 
received has been well below the level needed to keep up with this 
growing workload. From Fiscal Year (FY) 1998 through FY 2007, SSA 
received a cumulative total of $1.3 billion less than was requested by 
the President, and $4.6 billion less than the Commissioner's own budget 
for the agency.
      
    As a result, by the end of calendar year 2007, SSA staffing had 
dropped to almost the level in 1972--before the start of the 
Supplemental Security Income (SSI) program--even though SSA's 
beneficiary population has nearly doubled since that time.
      
    Due to the combination of rising claims as the baby boom generation 
ages and prolonged underfunding, Social Security and SSI disability 
claims backlogs have reached unprecedented levels. More than 1.3 
million applicants for disability benefits are currently awaiting a 
decision on their claim, and total waiting times often extend into 
years. In addition, as SSA tries to address the backlog crisis, the 
agency is forced to divert its limited resources away from its day-to-
day operations in field offices and payment processing centers in order 
to try to manage the disability backlog. The result is an increase in 
long lines, delays, busy signals, and unanswered telephones, and 
growing concern about closures and consolidations of local field 
offices. Resource shortages have also forced the agency to cut back on 
program integrity activities, even though such activities have been 
demonstrated to generate considerable savings to the Trust Fund.
      
    Under the President's FY 2009 proposed budget, the agency would be 
able to make modest progress toward addressing the disability claims 
backlog, but service in the field would continue to decline. Moreover, 
proposals to assign additional workloads to SSA, such as expanding 
SSA's role in verifying the work-authorization status of employees, 
would, if enacted and not funded in full each year, force SSA to shift 
scarce resources away from its core functions to carry out these new 
workloads.
      
    In announcing the hearing, Chairman Rangel said, ``We are alarmed 
by the deterioration in service to our constituents and the suffering 
of those who must wait years to receive benefits they desperately need. 
Despite its well-earned reputation for being a can-do agency, the 
Social Security Administration simply cannot do its job without 
adequate funding. We have been working on a bipartisan basis to address 
this problem, and will continue to do so until the disability claims 
backlog is eliminated and SSA's capacity to provide high quality 
service to the public is restored.''
      
FOCUS OF THE HEARING:
      
    This hearing will focus on SSA's large backlog of disability 
claims, its impact on applicants with severe disabilities who are 
awaiting a decision on their claim, and SSA's plan to reduce the 
backlog. It will also focus on the role of SSA resource shortages in 
the growth of the backlog; other effects of these shortages, including 
the impact on service in local field offices, telephone service, and 
SSA's ability to conduct program integrity activities; and the need for 
increased administrative funding in FY 2009 to address these problems.
      
DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:
      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Committee Hearings'' 
(http://waysandmeans.house.gov/Hearings.asp?congress=18). Select the 
hearing for which you would like to submit, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, email and ATTACH your 
submission as a Word or WordPerfect document to the email address 
provided, in compliance with the formatting requirements listed below, 
by close of business Wednesday, May 7, 2008. Finally, please note that 
due to the change in House mail policy, the U.S. Capitol Police will 
refuse sealed-package deliveries to all House Office Buildings. For 
questions, or if you encounter technical problems, please call (202) 
225-1721.
      
FORMATTING REQUIREMENTS:
      
      The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
      1. All submissions and supplementary materials must be provided 
in Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
      2. Copies of whole documents submitted as exhibit material will 
not be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
      3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov

      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>

      
    Chairman RANGEL. We regret that we're starting late, but 
this is a very unusual type of hearing, because most of the 
work that should be done by the Congress in identifying the 
problem has already been done. So, it's not a Republican or a 
Democratic initiative; it's a question of how many Americans 
have played by the rules, paid their dues, have become 
disabled, and their Government, for whatever reason, is unable 
to provide the services that belong to them.
    Because there are so many people, and the resources are so 
limited by the Social Security Administration, we have lawyers 
now making appeal to those people that have waited 2 and 3 and 
4 years, where they claim that as lawyers they can do better 
than the U.S. Congress.
    So people are being victimized by believing in their 
government, and of course in believing that they can for 
outside assisted.
    In addition to that, a lot of Members for honorable reasons 
believe that the Social Security system can and should be used 
for other purposes because they have been so effective in 
getting in the past, that is, what people deserve from the 
Social Security system, survivor system, that they're going to 
expand it. That can only make matters worse.
    So I just want the Ranking Member to know that in meeting 
with Chairman Bachus this morning we all are trying to find 
creative ways to get this agricultural thing going. If we come 
up with anything, then we would be able to present it to you, 
because you've played such an important role, not only with 
Republicans in the House, not only in the conference, but with 
the President, since for some reason you have a much better 
working relationship with him than I do.
    But I won't have to worry about that too long.
    [Laughter.]
    Chairman RANGEL. Having said that, if the Committee would 
permit, what I would like to do is to yield to Mr. McNulty and 
then to Dr. McDermott. At some point in the hearing I would ask 
for them to chair that part while I'm away, and then hope that 
you might designate the Ranking Members on the Social Security, 
the family income, because they have really--Mr. Johnson and 
Mr. Weller have worked so hard in the national good. We don't 
have to--that is, Mr. McCrery and I don't have to tell you that 
where we disagree we don't think it's helpful to let the whole 
Congress and country know it; but I do believe that this is one 
of the subjects that we do not have any problem in recognizing 
the severity of what is hitting so many Americans who deserve 
better service than they're getting.
    So I'd like to yield to you for whatever statement you'd 
want to make.
    Mr. MCNULTY. Thank you, Mr. Chairman.
    For more than 70 years, Social Security has provided 
essential income support for literally hundreds of millions of 
workers and families. In 2007 alone nearly 613 billion was 
provided to more than 53 million Americans in the form of 
retirement, survivors' disability, and Supplemental Security 
Income benefits.
    Through a national network of Social Security field and 
hearing offices and state disability determination offices, 
over 74,000 staff serve the public every day through work that 
includes processing claims, issuing Social Security number 
cards, crediting earnings records, and educating the public. We 
recognize the hard work of these dedicated professionals.
    Regrettably, the Agency's service to the public has 
suffered in recent years. This is due in large part to limited 
funding at a time of increasing workloads, those increasing 
workloads, of course, due primarily to the aging of the baby 
boomers. There are longer lines at local offices, more busy 
signals received by callers to Social Security's 800 number, 
and a hearing backlog so deep, the average waiting time for a 
decision is over 16 months.
    Commissioner Astrue has said, ``It is a moral imperative to 
reduce the disability backlogs.'' I couldn't agree more, and 
I'm sure the Chairman also agrees.
    Since his arrival, Commissioner Astrue has made addressing 
disability backlogs his number one priority. As he will tell us 
today, he has accelerated or implemented multiple initiatives 
to decrease the backlog and improve public service.
    Congress has begun stepping up to the plate as well. This 
year for the first time in 15 years, Congress has appropriated 
more than the President's budget request for the Social 
Security Administration (SSA), exceeding that request by close 
to $150 million. I understand Commissioner Astrue was able to 
get into the 2009 budget request to the President a 6-percent 
increase of this year's budget, so that's certainly an 
encouraging development.
    I think part of the credit for this increase in the budget 
goes certainly to the bipartisan work of our two Subcommittee 
chairmen, Mike McNulty and Sam Johnson, among others on the 
Committee.
    Unfortunately, though, administrative funding alone can't 
solve Social Security's service delivery and fiscal challenges. 
We already face what some would call a fiscal train wreck in 
coming decades, when the projected costs of Medicare, Medicaid, 
and Social Security impose unbearable burdens on future 
generations. Those projections are reality today for the Social 
Security disability program. Its cost--and remember the Social 
Security disability program is funded by a specific payroll 
tax--we often lump together the survivors' and the disability 
program, but there is a separate trust fund for the disability 
program, and for the last 3 years the outgo has been more than 
the income from the payroll tax dedicated to the disability 
program.
    Solving all of the challenges will require Members from 
both parties to come together to conduct a fundamental 
examination of the challenges and opportunities facing Social 
Security programs. Every day of delay means fewer choices, 
greater burdens on future generations. I think we all agree 
that our children and grandchildren deserve better than 
continued delay.
    Thank you, Mr. Chairman.
    Chairman RANGEL. I'd like to yield to Mr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. There are 750,000 
Americans for whom today's hearing is a matter of grave 
urgency. That's how many disability claims are pending before 
the Social Security Administration. The backlog is more than 
double what it was in the year 2000.
    While the blame rests with the administration, it's not the 
Social Security Administration I'm talking about. Year in and 
year out the line of disabled Americans applying for help has 
grown longer, while the Social Security budget has been short-
changed. Today three-quarters of a million Americans are 
waiting for Congress to do the obvious, find a solution. We're 
taking steps to fix this, because these disabled Americans 
deserve nothing better.
    The backlog in processing disability claims is a burden and 
a barrier for disabled individuals who are waiting for critical 
cash assistance and healthcare coverage. Perhaps no group faces 
a greater challenge as a result of these backlogs, than those 
who are applying for SSI.
    The SSI Program is often referred to as the ``safety net of 
last resort for the disabled and the elderly.'' It provides 
modest cash assistance the nearly 6 million disabled 
individuals who have very modest incomes and limited or no 
resources. The average monthly benefit for a disabled 
individual is $471, which is used to meet basic necessities, 
such as food, clothing, and shelter.
    Additionally, SSI beneficiaries are generally eligible for 
healthcare coverage once they get on the program through 
Medicaid. SSI applicants--remember these people have been 
waiting for two or 3 years with no healthcare benefits; they 
have to get on the program before they're eligible for 
Medicaid. They're much more vulnerable than most. They are 
being forced to wait for years when many don't have sufficient 
resources to buy food for the next few weeks.
    Making matters worse, these people often don't have 
healthcare access, as I said, to healthcare at all.
    For the Social Security Administration, the backlog is 
making it more difficult to adequately staff field offices with 
employees who can address the other critical needs, as well as 
the routine changes affecting beneficiaries, like changes in 
monthly income that directly affect the monthly benefit up or 
down.
    In other words, the current backlog is a lose-lose for 
everybody. Committing ourselves to securing full funding for 
Social Security Administration administrative budget is the 
right thing to do for the disabled individuals who need 
critical assistance now, and it's the right thing to do for the 
Social Security Administration.
    We know that nearly 80 million baby boomers will come 
knocking on our door in the next 20 years. As it stands now, 
the answer will be ``Go to the end of the line.'' It is a long 
line. That's not acceptable either to them or the 750,000 
disabled Americans waiting in line today.
    I think you, Mr. Chairman, for having this hearing.
    Chairman RANGEL. Mr. Johnson, who has really done great 
work with Mr. McNulty, I'd like to yield to you.
    Mr. JOHNSON. Thank you, Mr. Chairman. I appreciate your 
recognition, and thank you for holding this important hearing.
    Last year, Subcommittee Chairman McNulty and I successfully 
worked together to send the Social Security Administration some 
additional funding. The whole Committee supported that. It 
needs to better serve the American people. This funding won't 
solve all of Social Security's challenges, but it's a good 
first step.
    Many of those trying to receive benefits are angry. They 
want a process they can understand, and that's fair and that 
gives them the answers in a reasonable amount of time. That 
just isn't happening today. Commissioner Mike Astrue knows 
that, and he and his staff have been working hard to put into 
action needed changes.
    As we will hear, these efforts not only include added staff 
but also streamlining the application process, expanding the 
use of technology and developing new decisionmaking tools to 
help reduce processing time, and insure the right decision is 
made as soon as possible.
    Implementing needed change over the short term is 
necessary; however, as Ranking Member McCrery rightly points 
our or will point out, we cannot continue to ignore the greater 
challenges of facing Social Security today.
    As we were recently reminded by the Social Security 
trustees, long-term program costs cannot be sustained without 
change. Even more pressing are the immediate fiscal challenges 
facing the disability program. We need to take action, and the 
sooner we get to work the better. We should begin by finding 
ways to make disability determinations less complex, less 
costly, and easier for the public to understand.
    I believe we can achieve this goal while still insuring 
accuracy and fairness. It won't be easy to find the answers, 
but it's got to be done. Those who are unable to work are 
counting on us to secure Social Security's vital safety net. 
All Americans are counting on us to insure their hard-earned 
tax dollars are not wasted through fraud, abuse, or needless 
red tape. To that end I look forward to working with all my 
colleagues, particularly Mr. McNulty and with Commissioner 
Astrue.
    Thank you, Mr. Chairman. I yield back the balance.
    Chairman RANGEL. Thank you.
    So, Mr. McCrery, if you don't have any other opening 
statements at this point, I would like to call on Chairman 
McNulty, not only to take over the hearing, and at the 
appropriate time to share the chair with Dr. McDermott, as I go 
meet with the Senators on this important issue. Thank you.
    Mr. MCNULTY [presiding]. Thank you, Mr. Chairman for 
scheduling this hearing, and welcome, Commissioner Astrue.
    Today we focus on one of the most critical challenges 
facing the Social Security Administration, the unprecedented 
backlog and applications for disability benefits.
    Today more than 1.3 million Americans are waiting for a 
decision on their disability claims or their appeals. Due to 
this backlog, applicants who are suffering from severe 
disabling conditions often must wait for years, with little or 
no income and in many cases without health insurance. No one 
can hear their stories without being convinced that we must fix 
this problem and fix it soon.
    The root of the problem is simple. For too long SSA has 
been severely under-funded. From fiscal year 1998 through 2007 
SSA received a cumulative total of $1.3 billion less than what 
was requested by the President, and $4.6 billion less than the 
Commissioner's own budget for the Agency. As a result, by the 
end of 2007 Agency staffing had dropped to almost level in 
1972, even though SSA's beneficiary population has nearly 
doubled since that time. Other workloads have also increased as 
Congress imposed new responsibilities on the agencies, such as 
administering major portions of the medicare prescription drug 
program.
    SSA has worked hard to meet this challenge, increasing 
productivity by more than 15 percent since 2001. But these 
productivity increases and the hard work of SSA's dedicated 
employees cannot make up for the combined effects of staffing 
losses and increased workloads.
    The consequences of prolonged under-funding also extend 
beyond the disability backlogs. Service to the public in SSA's 
local offices across the country has also declined due to 
staffing shortages. Our constituents increasingly face long 
lines, busy signals, and other delays, and field office 
closures are a growing concern.
    Last year we made a start on turning this untenable 
situation around. For the first time in many years, Congress 
approved more money for SSA than the President had requested. 
This allowed SSA to hire additional administrative law judges 
and hearing office staff to address the backlog. But SSA's 
funding and staffing shortfalls are far too great to be 
remedied in one year.
    This year we are once again making a strong bipartisan 
effort to provide SSA with adequate funding. Under the 
President's budget the Agency would continue to reduce the 
backlogs, but service in the field would decline even further. 
SSA needs at least the additional $240 million above the 
President's budget request recommended in the House-passed 
budget resolution.
    I strongly urge Members of the Committee to join us in our 
effort to make adequate funding for SSA a priority this year, 
and I thank Ranking Member Johnson for his cooperation and 
dedication to this cause.
    At the same time, we must do our part not to burden SSA 
with new responsibilities that are not part of the Agency's 
mission. The Subcommittee on Social Security will hold a 
hearing in the coming weeks on the impact on SSA proposals to 
expand its role in immigration enforcement.
    Today we will hear from SSA Commissioner Michael Astrue. I 
commend you, Commissioner, for your untiring commitment to 
bring down the backlog. I'd also like to thank you for your 
responsiveness to the Committee's concerns, and your 
willingness to work and partnership with us as we seek ways to 
improve the disability process.
    I also look forward to hearing the views of other 
witnesses, including representatives of both SSA's 
beneficiaries and its workers on the problems the Agency faces 
and the measures SSA is taking to address them.
    It is important that the Committee have your perspectives 
as well, as we work to insure better treatment for applicants 
and beneficiaries alike.
    Without objection, other Members of the Committee will be 
allowed to submit opening statements for the record.
    At this time I would like to recognize Commissioner Astrue. 
Again, thank you for the work that you've done with us over the 
past year or so, Mike. We've made some progress. We need to 
make more, and we look forward to hearing your views and to 
having a dialog with you.

  STATEMENT OF THE HONORABLE MICHAEL J. ASTRUE, COMMISSIONER, 
                 SOCIAL SECURITY ADMINISTRATION

    Mr. ASTRUE. Thank you, Mr. Chairman.
    Mr. Chairman, and Members of the Committee, since I know I 
may not have another chance with the full Committee, I'd like 
to begin by thanking Mr. McNulty. He's been accessible, candid, 
and thoughtful, and both the Agency and I will miss him a great 
deal next year.
    I would also like to thank all of you for your continuing 
bipartisan support of Social Security. The additional $148 
million you helped obtain for 2008 has helped us significantly 
with staffing issues. We will replace SSA and DDS employees who 
leave this year and do a net hire of 1300 more employees for 
our direct service operation. In addition, we are hiring 175 
administrative law judges plus up to possibly 14 more for our 
new national hearing center, and 143 additional support staff 
for these ALJs across the country.
    Nevertheless, as many of you have said, we won't meet our 
many challenges simply by spending more money to maintain the 
status quo. Already some of the nearly 80 million baby boomers 
have begun filing for retirement. If we are not vigilant, this 
enormous caseload will hit while we're plowing through backlogs 
resulting from rising workloads and dwindling resources.
    We will continue to work smarter as we seek the resources 
we need to meet those challenges.
    On the retirement front, our upgraded E-services will 
include a greatly streamlined homepage and a more accurate 
online retirement benefit estimator. In September our 
simplified online retirement application will increase the 
usage rate, dramatically reducing filing time for the public, 
and 12-18 months later will begin to adjudicate the retirement 
claims without routine time-consuming review by our field 
representatives.
    With respect to disability, for the first time we are 
updating our medical listings on a rotating 5-year schedule and 
providing detailed guidance on rare diseases that are 
particularly difficult to adjudicate. Our program consultation 
process now allows DDSs to electronically clarify policy 
concerns that we have found in their decisions. Our responses 
are quick, they provide policy guidance and data that we share 
with all adjudicators, and lead to better quality decisions and 
policy clarifications.
    The new online appeals program will reduce errors, save 
field staff from the drudgery of manual inputs, and end one 
source of delay for claimants.
    Next week we'll meet with the DDSs to again discuss 
replacing 54 separate COBOL-based computer systems that are 
increasingly difficult and expensive to maintain. If we reach 
consensus, I will request support in my 2010 budget for this 
significant upgrade.
    We're making great progress with our two Fast-Track 
disability systems. One track is quick disability 
determinations, or QDD, where a computer model identifies 
highly probable allowances. About 2.3 percent of all new claims 
are now QDDs, with a 96 percent allowance rate and a 6-8-day 
processing time.
    The second program in this track, Compassionate Allowances, 
which will begin around Labor Day, identifies medical 
conditions that are so severe that they obviously meet our 
standards. Although too early to predict, we believe that by 
the end of 2009 about 4 percent of our claims will be Fast 
Track, possibly increasing to 6-9 percent by 2012.
    As for the hearing backlog, unfortunately there is no 
silver bullet. Instead, through streamlining and better use of 
existing resources, we've held down the backlogs while waiting 
for the infusion of new ALJs and support staff and the end of 
our inefficient paper-based systems.
    We are placing ALJs in the neediest office where space 
allows, while maintaining adequate support staff to ALJ ratios. 
Using video technology, ALJs nationwide and in the national 
hearing center can conduct hearings for offices with the worst 
backlogs. A pilot this summer will allow claimants to attend 
video hearings in their own lawyers' offices, an example of how 
new technology and thinking can be win-win for the Agency and 
the people we serve.
    Last year we cleared 65,000 cases pending for 1,000 days or 
more. This year we've already completed 63 percent, or about 
85,000 of the 135,000 cases pending for 900 days or more. These 
cases require more development and slow our backlog progress 
measured by total pending, but these are the most important 
cases, and we must resolve them first.
    For Fiscal Year 2009 I hope to reduce the tolerance level 
below 900 days but will wait until September to decide, 
depending on the anticipated timing and level of our funding.
    Our pilot to centralize hearing notice mailings should save 
considerable staff and make notices clearer. We have a number 
of other automation initiatives in progress.
    In conclusion, although we've made progress and it's slow 
and frustrating, we are looking forward to the convergence of 
two key events later this year, the substantial elimination of 
the remaining paper cases and full productivity of the new 
class of hired ALJs. This gives me, and should give this 
Committee, significant hope for progress next year.
    In Fiscal Year 2009, we will absorb at least an additional 
$400 million in built-in inflationary costs. An extended 
continuing resolution combined with these costs could force 
additional Agency contraction. Timely support of the 
President's budget is absolutely critical to continued 
improvement.
    Once again, I very much appreciate the bipartisan 
collaboration of this Committee and its support, and would be 
pleased to answer any questions that you have.
    Thank you.
    [The prepared statement of Hon. Michael J. Astrue follows:]

         Prepared Statement of The Honorable Michael J. Astrue,
              Commissioner, Social Security Administration

    Thank you for this opportunity to update you on our efforts to 
improve our service to the American public.
    I would like to start with Social Security's front door, the field 
office. The past few years have been tough for field offices. As 
overall agency employment dropped from 63,569 in 2003 to 60,206 at the 
end of 2007, field offices felt the effect of staffing losses more 
intensely because so many of our activities mandated by law are 
performed in our field offices.
    As staffing fell, workload burdens grew. The general population 
continued to grow, and it got older, which meant more retirement 
applications and more disability applications. New state laws aimed at 
illegal immigrants increased the number of people seeking replacement 
Social Security cards. New Federal statutes required claims 
representatives, teleservice representatives, and other field staff to 
take on complex and time-consuming new responsibilities in Medicare 
Part D. This year, our field offices are processing additional requests 
for 1099s to help taxpayers file for payments under the stimulus bill.
    Our field offices do their best, but simply cannot provide the 
level of service the public expects from the Social Security 
Administration at recent levels of funding. This Committee has 
recognized this problem and I would like to thank you for providing SSA 
with the resources to better fulfill our responsibilities to the 
American public. The 2008 appropriations was the first time that 
Congress has appropriated at or above the President's Budget request 
since 1993.
    We are grateful to you for your support, and it is helping our 
field offices and teleservice centers provide improved service. We will 
use some of the extra funding to strengthen our direct service 
operation with the hiring of 3,900 employees, 1,300 employees more than 
the expected losses for this year. We are not going to be able to meet 
our challenges by continuing to ask for more money to maintain the 
status quo. Increases in personnel and infrastructure costs alone for 
the fiscal year that starts this October will be at least $400 million.
    To cope with rising workloads and likely fiscal constraints, we 
have systematically reviewed the information that we routinely request 
from or provide to the public. We believe that if we can automate, 
reduce, or eliminate such information exchanges, we can improve 
efficiency as well as the quality of our service and the morale of our 
field employees. Our Ready Retirement Team has been leading this effort 
by focusing on streamlining the retirement application process, a 
logical choice because this past January the first of nearly 80 million 
baby boomers filed for retirement.
    This team already has driven change by determining that retirees 
born in this country may not need to provide their official birth 
certificate to prove their age. Instead, if a retiree alleges a date of 
birth that satisfies our authentication standards, we will accept the 
allegation. This simple change will allow baby boomers to file more 
effortlessly over the Internet, telephone, or in our offices, employing 
a more efficient process that will accelerate payment of the first 
check. Furthermore, field employees will save time on a significant 
number of claims each year.
    The Ready Retirement Team also has greatly improved the information 
available to people trying to decide the right date for their 
retirement. As we will soon announce, we are planning to provide people 
highly accurate on-line estimates of their monthly retirement benefits, 
which we compute by using their actual earnings records. Our current 
online estimators are difficult and time-consuming to use, and often 
fall short on accuracy. The new version will be simple, easy-to-use, 
and highly accurate. Our team worked hard with the technology and with 
privacy experts to ensure that the negligible risks of inappropriate 
disclosure of personal information justify the substantial benefits.
    Although our electronic services are usually ranked as the best of 
all Federal agencies, my judgment is they are far from good enough yet 
to deal with the imminent tsunami of baby boomers' claims. After broad 
consultation with experts and advocacy groups, next month we will be 
unveiling our new website, which will eliminate some of the visual 
clutter and be significantly easier for the public to navigate, 
especially if they are reaching out to us for the first or second time.
    Our improved website will introduce the public to the next critical 
Ready Retirement initiative: a total overhaul of our online retirement 
application. Our current online form was put up quickly about 8 years 
ago. It is nowhere near best demonstrated practices, and for most of 
this decade only about 10% of the public has chosen to apply for 
retirement online.
    In order to keep field offices from being totally overwhelmed, we 
are going to need to drive that online filing figure up from about 13% 
to 50% over the next 5 years. The Ready Retirement Team has a September 
27, 2008 deadline for the first step of a two-step implementation, and 
it has already shown a terrific prototype to advocacy groups, and the 
Social Security Advisory Board. We found that we could eliminate or 
simplify the vast majority of the application questions, and that we 
could use cues, links, streaming video, and other techniques from the 
best financial services websites to give the public a friendlier, 
faster, and simpler experience. We expect the current 45 minutes for 
the average online retirement filing to drop to an average of 15 
minutes.
    The second step of the Ready Retirement process requires 
modification of 39 separate COBOL-based systems and will involve some 
additional improvements to the form itself. The key improvement will be 
that our computers will automatically send the claim to payment without 
the involvement of a claims representative. In the coming years, this 
one change could free up enormous amounts of staff time.
    A similar work-saver that we recently implemented is iAppeals. As 
you know, State agencies, called Disability Determination Services, 
decide disability claims on our behalf at the first two levels of the 
adjudication process. Currently, to appeal an adverse Disability 
Determination Services decision, the claimant or the claimant's 
representative fills out a paper form and sends it to a field office, 
where the staff manually enters the appeal into a system.
    iAppeals, which is now used on a voluntary basis in about 10-15% of 
all cases, eliminates this unnecessary manual work, reduces the 
likelihood of human error, and ends one source of delay that 
contributes to backlogs. For these reasons, in the coming year, we will 
propose a regulation that will require claimants' representatives to 
use iAppeals; the status quo will be available for unrepresented 
claimants.
    We also are having a separate intercomponent team study the waiting 
areas in our field offices to improve both the efficiency of the office 
and the experience of the public. We expect to roll out many changes in 
the next year that will improve seating, layout, privacy, signage, and 
other small, but important, things that make visiting a field office a 
better experience.
    Last month, I authorized the purchase of new intake kiosks for 
field offices that will provide a modern, fast, and user-friendly tool 
for the public to register the reason for their visit. These kiosks 
incorporate touch screen technology and are similar to those many 
Americans use for airline travel. We are also piloting the use of 
personal computers in the field office reception area to provide the 
public with connectivity to the SSA Internet website. These personal 
computers provide an option for those people who may not have access to 
a personal computer, or may not have understood our e-service options, 
to transact their business with us electronically.
    We are looking at using an unobtrusive slideshow presentation to 
remind people of the documents they need in order to file a claim or 
receive a new or replacement Social Security card. Those people who do 
not have the necessary documentation with them can leave to get it and 
come back, or call a family member to bring it to them, so that they 
will have a fully successful visit. The slides will also provide 
information about our online and 800 number services so visitors know 
there are alternatives to visiting a field office the next time they 
need service.
    Before I discuss our efforts to improve our disability process, I 
want to mention that immigration initiatives and demographic shifts 
have further strained some field offices with demands for new and 
replacement Social Security cards. To ease this pressure, we have moved 
to specialized card centers, mostly in densely populated and rapidly 
growing urban areas. These centers allow us to provide faster, more 
efficient, and more accurate service to the public. We are co-locating 
these new centers with field offices because doing so is cost-
efficient, provides more career ladder opportunities to our employees, 
and most importantly, better serves the public.
    Now, I would like to turn to the disability backlogs by starting 
with an update about our efforts to improve the quality and speed of 
Disability Determination Services decision-making. In a time of agency 
contraction, for most of this decade the Disability Determination 
Services have suffered even deeper cuts than SSA. We have taken steps 
to reverse this trend, and I am very pleased that the Disability 
Determination Services will be able to replace all staff who have left 
or will leave their agencies this year. This support is a key part of 
our effort to bring the number of pending cases at the State level down 
below 500,000 for the first time since 1999.
    Additional resources are vital, but must be accompanied by our 
commitment to work smarter. A valid longstanding Disability 
Determination Services criticism of SSA is that our medical listings do 
not provide enough detail and do not keep pace with medical advances. 
In making disability determinations, SSA uses the Listing of 
Impairments (the Listings) which describes impairments that are 
considered severe enough to prevent a person from doing any substantial 
gainful activity. Although the Listings are a critical factor in SSA's 
disability determination and have been used in millions of cases since 
their initial development in 1955, I discovered last year that some of 
the important listings had not been updated for decades. Updating the 
Listings on a regular basis will allow disability adjudicators to 
resolve disability cases more accurately and efficiently. We have 
already published several final Listing regulations, and we have 
developed a schedule to ensure that we update all of our medical 
listings at least every 5 years.
    In addition, we have made a special effort to provide guidance to 
decision-makers on the rare diseases and conditions where we are most 
likely to delay decisions and make mistakes. This new emphasis on rare 
diseases and conditions is an important element of our effort to use 
computer technology to pull the straightforward cases out of the queue 
and resolve them in an unprecedented brief period of time. Our 
retrospective analyses indicate that a surprisingly high percentage of 
these cases are either decided incorrectly or take an unusually long 
period of time to adjudicate.
    The first piece of what will be a two-track fast-track system is 
now up and running across the country. It is called QDD--for Quick 
Disability Determination--and right now about 2.3% of all new claims 
are being identified for QDD processing, and over 96% of them are 
allowances. QDD allowances are being decided in an average of 6 to 8 
days. During the next several months, we expect the proportion of cases 
being identified for fast tracking will increase as we continue to make 
adjustments to, and test the limits of, the computer model. These 
adjustments should not affect the processing time nor the allowance 
rate for QDD cases.
    We are also getting close to piloting the second track, which we 
are calling compassionate allowances. These are cases where the disease 
or condition is so consistently devastating that we can presume that 
the claimant is disabled once we confirm a valid diagnosis. By deciding 
more cases based on medical evidence alone, we can reduce the number of 
claims that require further review.
    Since this is new territory, we do not know what the eventual mix 
of QDD and compassionate allowance cases will be, but a reasonable 
guess is that by the end of 2009, about 4% of our claims will be fast-
tracked. By the end of 2012, that number could be 6% to 9% of our 
claims. I stress, however, that right now these numbers are best 
guesses and that we will not really know until we have pushed this 
effort for a longer period of time.
    We have also extended nationwide the Request for Program 
Consultation, a Disability Determination Services quality initiative 
that was incorporated into Disability Service Improvement. As we are 
speeding up our processing of cases, it is essential that we maintain 
our focus on accuracy. An institutionalized forum for communication 
between Disability Determination Services and SSA on problematic cases 
is an important part of that effort.
    The Request for Program Consultation provides an electronic forum 
to resolve disagreements between the Disability Determination Services 
and our Office of Quality Performance. These disagreements may involve, 
for instance, whether a Disability Determination Services agency 
obtained appropriate documentation, applied policy correctly, or 
decided the case accurately. The Request for Program Consultation is a 
web-based application that is available to Disability Determination 
Services nationwide. The Request for Program Consultation website 
allows Disability Determination Services to submit requests 
electronically and those requests appear instantaneously for review by 
the Request for Program Consultation Team. The Request for Program 
Consultation Team analyzes and resolves cases within seven days. Prior 
to this consultation process, Disability Determination Services often 
waited several months for a definitive resolution on complex cases. The 
Request for Program Consultation allows us to gather data on each 
request and share it with all users so that they may use that 
information to write better policy and make better decisions.
    As we work to improve the timeliness and quality of our disability 
determinations, we are also considering longer-term systems 
improvement. We will be having important discussions with State 
administrators in New Orleans next week to discuss a unified 
information technology system to replace the current 54 separate COBOL-
based systems that are increasingly difficult to modify and expensive 
to maintain. A similar consolidation effort collapsed in early 1999, 
but we have been working toward this goal for nearly a year, and I am 
cautiously optimistic. If we can obtain a sufficient degree of 
consensus with our partners in the States in the next few months, we 
may move forward with this essential improvement provided we have 
sufficient resources.
    We are working on a new software tool called eCAT (Electronic Case 
Analysis Tool) for use by disability examiners. eCAT will prompt 
examiners about questions they should ask and documentation that they 
need before making a disability determination. The initial model for 
eCAT was developed by the Pennsylvania Disability Determination 
Services. Unfortunately, eCAT was implemented prematurely as part of 
Disability Service Improvement and failed miserably. The Virginia 
Disability Determination Services is helping us refine eCAT so that we 
properly implement a good concept. While eCAT will not be ready to 
pilot earlier than next year, it offers the hope of using cutting-edge 
technology to make faster, more accurate, and better-documented 
decisions.
    I would like to now turn to the hearings backlog. If you step back 
and look at the system as an economist would, we have had, for many 
years, issues of allocation and distribution of resources. The problem 
of allocation has been painfully clear--compared to 10 years ago we 
have about 176 % more disability cases. We have taken a big step toward 
resolving that problem by bringing onboard the 175 additional 
administrative law judges and additional staff to support them. If we 
can resolve space issues, we will also bring on another 14 National 
Hearing Center judges this year.
    The resource distribution problem is neither obvious nor is its 
cause clear to me. Nonetheless, when you look at where we were a year 
ago, it is clear that there was a longstanding imbalance in Office of 
Disability Adjudication and Review resources. In particular, the 
Chicago and Atlanta regions were dramatically under-resourced compared 
to the rest of the country. The hearing offices in many of the most 
backlogged cities--such as Atlanta, Cleveland, and Detroit--were 
receiving 3-4 times as many filings per administrative law judge as 
offices in Southern California and New England.
    We have moved swiftly to correct this problem. Where we can address 
it by changing jurisdictional lines in adjacent locations, we have done 
so. As an example, our suburban Pittsburgh office now serves Youngstown 
and other parts of eastern Ohio to take some of the burden off 
overloaded offices in Cleveland and Columbus. For the same reasons, we 
have reassigned responsibility for cases scheduled for video hearings 
to less busy offices. At our site in Toledo, we have video hearing 
capability, so that now administrative law judges in Boston assist the 
Toledo office with their video hearings.
    Our new National Hearing Center (NHC), which holds video hearings 
from a central location, also gives us the capability to move cases 
quickly and flexibly to conduct video hearings in the cities with the 
worst backlogs. Right now, our NHC administrative law judges are 
focusing their efforts on the backlogs in Atlanta, Cleveland, and 
Detroit. We are planning to expand this NHC initiative as soon as we 
can and intend to address the backlogs in Miami, Columbus, 
Indianapolis, and other cities where claimants have been waiting the 
longest.
    With the allocation of the 175 newly-hired administrative law 
judges, we have made equalizing resources a priority even though we 
have received some criticism for doing so. We are sending 10 to Ohio 
and just 1 to New England. That is not a regional bias--I am from 
Boston myself--but a data-driven decision that recognizes that there is 
a strong correlation between filings per administrative law judge and 
cases pending.
    We have also received some criticism that we are not providing 
adequate support staff for our administrative law judge corps. In my 
opinion, that is a fiction designed to sidetrack some of our 
productivity initiatives. Since I began as Commissioner, I have 
increased the number of support staff per ALJ from 4.1 to 4.4. The 
number of staff needed to support a disposition will change as we fully 
implement the backlog plan, but at the moment that number is difficult 
to project with any certainty. We know that automating many of our 
clerical functions will reduce the amount of time spent by staff on 
more routine tasks, and allow them to absorb additional workloads. We 
are also working to standardize our business process, which should 
result in additional staff efficiencies. We will continue to monitor 
the appropriate staff to ALJ ratio as the new processes are 
implemented.
    While we will still have a handful of offices that will be under-
resourced due to various barriers, such as the cumbersome process for 
adding additional space, we are just months away from no longer being 
able to offer resource issues as a defense to poor productivity. It is 
time for everyone from senior management to the most junior support 
staff to commit themselves to finding the best ways to work together to 
make sure that nobody waits an inexcusable period of time for a final 
decision on an appeal. Performance varies greatly from office to 
office, and we are working toward having the least productive offices 
model themselves, to the extent possible, after the more productive 
offices.
    While waiting for the new administrative law judges and support 
staff to be fully trained and productive, we have done our best to 
attack the backlogs with a series of administrative and regulatory 
changes that have slowed the increase in pending cases and slightly 
reduced average processing times. We could have made even greater 
progress, but chose instead to make the important commitment to clear 
out the most aged cases where the claimant has waited 1,000 days or 
more for a hearing. I would like to take a little time to explain why 
that decision is so critical.
    For most of this decade, SSA created rules and incentives focused 
solely on the most prominent metric for measuring the backlog--total 
cases pending. As logical as this decision may seem at first, if you 
think about it harder you will see that it creates a perverse incentive 
to focus on the easiest cases and to set aside the difficult ones. That 
is what happened until the start of the 2007 fiscal year, when we had 
about 65,000 cases over 1,000 days old, some of which had been pending 
for as long as 1,400 days.
    Even though these 1,000-day-old cases generally take 5-6 times 
longer than new cases to resolve, we set the goal of clearing them out 
by the end of the year. We came within 108 cases of that goal by the 
end of FY 2007, and I am happy to report that all of those cases are 
now gone. From a moral perspective, we had to dedicate our resources to 
clear out these cases because it is just wrong to let claimants wait an 
unconscionable length of time in order to meet a hearing-pending goal.
    We were not satisfied with our initial success, and for FY 2008, we 
redefined our goal as cases 900 or more days old. We had 135,000 of the 
newly-defined aged cases at the start of FY 2008. I am pleased to 
report that we are ahead of schedule for completing all 135,000 of 
these cases this year; we have already completed 63% of them. Our 
intention is to reduce the tolerance level again in FY 2009, but I plan 
to wait until September before doing so.
    I know you recognize that our ability to make continued progress 
with this workload in the next fiscal year will depend greatly on our 
fiscal position. If we do not receive a timely appropriation or must 
deal with the uncertainties and budget reductions created by a 
continuing resolution of unknown duration, our task will be much more 
difficult to accomplish.
    Reduction of the aged cases should also produce, later this 
calendar year, a real benefit for everyone who is waiting. The aged 
cases represent a large percentage of the paper cases in the system, 
and it is extraordinarily inefficient to run two complex hearing office 
systems instead of one. What should give everybody on this Committee 
hope for next year is that the paper cases should be substantially gone 
by the end of the year--around the same time that most of the new 
administrative law judges are reaching full productivity. The 
convergence of these two events means that we expect to hit the 
``tipping point''--where both total cases pending and average 
processing time are declining--sometime in January or February of next 
year, with the caveat that progress may be slow if we are still under a 
continuing resolution.
    We have other possible improvements in the pipeline. In June, we 
expect to start a 6-month pilot program with the National Organization 
of Social Security Claims Representatives, an association primarily 
comprised of lawyers. In this pilot, we are testing a program that will 
allow representatives to conduct video hearings from their offices. 
This initiative should offer convenience and comfort for many 
claimants, save time for attorneys, and cut down on our investment in 
bricks and mortar, a cost which increases above the rate of inflation 
year after year.
    We are planning on a test in Michigan which will use the same type 
of case profiling mechanisms that we used in our successful attorney-
advisor and informal remand initiatives to look at cases heading from 
the Disability Determination Services to Office of Disability 
Adjudication and Review. Michigan is a ``prototype'' State that does 
not have reconsideration, and we are looking at ways of providing a 
quick screening tool to enhance the quality of the initial 
determinations. What we learn from this screening activity may help us 
identify cases that can be triaged at an earlier point in the appeals 
process.
    We have started a pilot on centralized processing of notices, which 
may sound dull, but in theory should save an enormous amount of time 
for hearing office support staff that then can be used for moving 
cases. Regardless of the success of this pilot, at a minimum it will be 
an opportunity to make Office of Disability Adjudication and Review 
notices more up-to-date, clear, and user--friendly.
    We will continue to improve Office of Disability Adjudication and 
Review's basic electronic system. A new system to help support staff 
ready files for hearing should be rolling out state-by-state by the end 
of the year. We are working on systems that will improve docketing and 
allow authenticated attorney representatives to access the records to 
check files for such things as case status and evidentiary development. 
As I have said before, there is no magic bullet answer, just a 
multitude of small nitty-gritty improvements necessary to run a more 
efficient and compassionate process for the American public.
    Before I close, I feel obligated to bring one aspect of last 
month's Trustees' Report to your attention. Although the combined OASDI 
trust funds do not reach exhaustion until 2041, the disability trust 
fund will be exhausted in 2025 under current assumptions. Although that 
date is later than the 2019 trust fund exhaustion date for Medicare 
Hospital Insurance, it is one more reason why Congress needs to work 
together on a bipartisan basis with the administration to give younger 
Americans reason to have confidence in the future of Social Security.
    To conclude, we have made slow and frustrating progress in fixing 
our service delivery problems, but we are making progress, and I am 
grateful to each Member of this Committee for your support. As I have 
laid out in this testimony, changes that will take place between Labor 
Day and the end of the year--streamlined online filing, at least 175 
new administrative law judges picking up steam, and the full shift from 
paper to electronic systems in Office of Disability Adjudication and 
Review--should produce considerably more improvement next year. 
Operating under a continuing resolution for a prolonged period of time 
would worsen a situation already made difficult by years of increasing 
workloads and limited resources. It is also essential that we receive 
the full President's Budget for FY 2009 in order to keep up with 
increasing workloads and meet our commitment to eliminate the hearings 
backlog by the end of FY 2013. So I ask for your timely support of the 
President's budget.
    Thank you for this opportunity to lay out in detail our plans and 
progress, and I will be happy to answer any questions you have.

                                 <F-dash>

    Mr. MCNULTY. Thank you very much, Commissioner.
    Commissioner, under your hearing backlog reduction plan, 
the hearing backlogs would not be eliminated until the year 
2013, assuming adequate funding. Now I'm assuming that if we 
kind of keep on the track that we're on now, 148 million last 
year and maybe 240 this year, if we keep on that kind of a 
track, how significantly could we reduce that timeframe, in 
other words, get the backlog dispensed with even sooner than 
that?
    Mr. ASTRUE. Sure. That's a good question, Mr. McNulty. So, 
the plan that we laid out last year was based on some 
assumptions of what we would able to do and the funding that we 
would be able to get. I want to assure you that my staff is not 
comfortable, that that's the minimum level of performance. We 
are trying to beat those goals, and we work very hard to try to 
do that.
    So, for instance, when we laid out that plan, we assumed 
150 administrative law judges with the new funding. We're going 
to get at least 175, and if we can resolve some space issues 
related to the national hearing center, we're shooting for 
another fourteen more this year.
    So, we've exceeded the goal that we set for ourselves. 
We're trying to do that consistently. If we can get there 
faster, I want to get there faster.
    Mr. MCNULTY. Thank you, Commissioner. On that office space 
issue, we understand that that's an issue and in some cases a 
barrier to adding these new administrative law judges (ALJs) 
and some staff in the hearing offices. What could the Committee 
do to help you overcome some of these barriers in order to 
place the staff more quickly, where they're most urgently 
needed?
    Mr. ASTRUE. Thank you, Mr. Chairman. Some of this is built 
into the process. We go through GSA for leasing and renovation 
of space. They handle an enormous number of situations around 
the country. They generally do a pretty good job. But usually 
even under the absolute best scenario it takes at least a year, 
and often 18-24 months to acquire new space.
    Certainly expressions of support from the Committee that 
something is a priority, GSA tries to be responsive to that, 
and we'll try to work with the Committee to indicate if there 
are particular locations where the space issues are going to be 
very critical. I think it's likely--we're doing an inventory 
now and probably by some time next month we can sit down with 
the staff and work out where the critical places are. But 
they're probably Buffalo, Chicago, Albuquerque, a few other 
places around the country where the faster we can access space, 
either new space or add-on space, or renovation of space, could 
greatly help our efforts.
    When we finish that inventory, I think sitting down and 
working with the Committee staff to identify those places where 
you can express your support for the priority for those new 
space acquisitions would be very helpful to us.
    Mr. MCNULTY. Do you think we're actually going to be able 
to physically position those 175 new ALJs we're talking about 
for this year?
    Mr. ASTRUE. Absolutely. We have actual physical space for 
all 175. As I mentioned in more detail in my written testimony, 
one of the things that I think has been a problem historically 
is that there has been a pattern of under-allocating to the 
Chicago and Atlanta regions; so my understanding is that we 
have, I believe, filled every vacant office in the Chicago 
region, and just close to that in the Atlanta region.
    We are doing an inventory of our own space to see whether 
we can do some renovations. One of the benefits of moving away 
a from paper process to an electronic one is that it should 
free up some space So for instance, in Buffalo and some of the 
other hearing offices where space is an issue, we may be able 
to move faster with the renovation than by accessing new space 
if we can, for instance, clear out the paper file room, which 
is huge in a lot of these offices, and convert at least one or 
two parts of that office to a new judge's office. So, we're 
looking at that now, and we should be much more ready to have 
that conversation now that we've decided who's going where and 
what we're going to need next year, in the next 30 days or so.
    Mr. MCNULTY. Commissioner, on this video conferencing 
issue, it sounds like these initiatives as a substitute for in-
person hearings, will offer some relief to claimants facing 
long delays. But several of our leader witnesses point in their 
testimony that video conferencing is not a good option for some 
claimants, or some types of cases. What is your plan to insure 
that claimants maintain a meaningful right to an in-person 
hearing and are not faced with an impossible choice between a 
video hearing soon or an in-person hearing months or years 
later?
    Mr. ASTRUE. Well, certainly my view is that the quality of 
this technology has improved dramatically in recent years and 
it's come down in cost. I've sat through a fairly sensitive 
video hearing, and really felt that very little was lost in 
that conversation.
    So, I think for most claimants most of the time, this is a 
very real option where there's no loss in quality. On the other 
hand, if a claimant feels that way, they don't have to accept 
the video hearing and they can wait for an in-person hearing. 
For a lot of the claimants, the video hearing can often save on 
travel. If you've got a mobility impairment or some other 
aspect of your impairment that makes it difficult to travel, or 
you've got a psychological condition, where you're going to be 
more comfortable in your lawyer's office, or that type of 
thing, I think the video hearings are going to be a blessing 
for that certain segment of the disability population. But any 
claimant who doesn't feel comfortable with it; doesn't have to 
do it. We find in practice that very few claimants actually 
turn down the option of the video hearing; but some of them do, 
and we're always sensitive to claimants who feel that way.
    Mr. MCNULTY. Thank you, Commissioner. The Ranking Member 
Mr. McCrery may inquire.
    Mr. MCCRERY. Thank you, Mr. Chairman.
    Commissioner Astrue, there has been a lot of talk around 
Congress that we may end up with a continuing resolution to 
fund government operations for fiscal year 2009. If that's the 
case, what effect would that have on your operations and the 
effectiveness of Social Security Administration operations and 
customer service during the coming year?
    Mr. ASTRUE. It would be bad. We would go back to a 
situation where we would have some form of hiring freeze. We've 
been looking at that recently. Probably not a full hiring 
freeze in the beginning. But you would see some substantial 
contraction of staff, so you'd see deterioration of service 
times in the teleservice centers and the DDSs, in particular.
    To the extent that we need to make some commitments on 
physical space, at some point we need to show GSA that we're 
actually going to need the space and we're going to be able to 
fill them with bodies. So, there's a risk, as I understand it, 
that if we're back in a situation where we've got a hiring 
freeze and financial issues, it may also slow up the space 
acquisition process.
    So, it would have some immediate impacts that would be bad, 
but it could also have a longer term impact, because we are 
going to need some additional space in some parts of the 
country in order to deliver the kind of service that I think 
everybody here wants us to deliver.
    Mr. MCCRERY. Again, in the budget that the President has 
presented, it calls for a 6-percent increase over 2009 funding, 
is that right?
    Mr. ASTRUE. Yes, it does.
    Mr. MCCRERY. Will that 6-percent increase solve all your 
problems?
    Mr. ASTRUE. I wish. One of the things that we heard loud 
and clear from the Congress as I came in was that the first 
priority had to be disability backlog production. We agreed 
with that. In fact, we had to talk--at one point the Senate was 
talking about limiting the increase in funds to only that, 
which I think wisely they backed off from.
    But I think one of the things that wasn't clear to the 
Congress in past years that we've made a point of being 
transparent on, is that in all these years of contraction, 
there have been workloads that have been set aside that are 
less critical to most Americans. A lot of those relate to 
program integrity, so they have substantial long-term costs for 
the system.
    But there is work that's not getting done, and my 
predecessor's last budget was predicated in part on that, but I 
don't think it was laid out clearly enough to the Congress what 
those were. I don't think Congress understood. Certainly when I 
came here a lot of Members did not understand why that budget 
request was as high as it was. So, we've been very transparent. 
Nobody likes to lay out where they're failing.
    But I think it's important for us to explain to everyone in 
Congress what is not getting done, and why, and how who we've 
done the prioritization, so that you can make the judgments on 
funding as to what gets done in the coming years and what 
doesn't get done.
    Mr. MCCRERY. Now let's talk for just a minute about the 
situation with the trust fund for disability. I mentioned in my 
opening remarks that for the last 3 years outlays of the 
disability program have exceeded revenue coming in, and the 
trust fund is going therefore slowly be drained. In less than 
two decades it's projected that promised benefits, current 
benefits won't be payable.
    You've been conducting some demonstration projects around 
the country related to gradually offsetting benefits due to 
earnings, and determining the impacts of funding treatment for 
those with certain mental impairments. Do you have any 
preliminary results of those? Can you tell how those and other 
projects might help us to fundamentally reform the disability 
program?
    Mr. ASTRUE. Yes. Several good questions. I also mentioned 
in my testimony the 2025 date on the disability trust fund. I 
think it would almost be insulting to raise the issue of the 
retirement trust fund generally. There's been so much 
discussion. You all know that date. But there is a tradition 
that the trustees and the actuaries tend to report the combined 
retirement and disability trust funds. I do think that the 
status of the disability trust fund sometimes gets overlooked 
as a result of that. So, I did make a point of mentioning that 
in my testimony, because I think that's important for the 
Committee to consider.
    We don't have any data yet on the demonstration projects 
that you've mentioned. We're hopeful that they it will provide 
some real benefit for claimants, and some marginal improvement 
in the trust funds. We are also looking at the question of work 
incentives much more broadly. I think it's fair to say that 
it's my perspective that the Ticket to Work Program generally 
has been disappointing in terms of its result. So we do have a 
task force now within the Agency that's looking broadly at the 
question of work incentives with the idea of perhaps coming up 
with a package of regulatory and legislative proposals. 
Probably early 2009 is our timetable now.
    Mr. MCCRERY. Thank you, Mr. Chairman.
    Mr. MCNULTY. Thank you. The Ranking Member, Mr. Levin, may 
inquire.
    Mr. LEVIN. Welcome.
    Mr. ASTRUE. Thank you.
    Mr. LEVIN. This is a hearing, as we know, on the disability 
backlog. So, I want us to focus on that, and look at from the 
perspective of the person who's waiting, and not get lost in 
some of the details, the organizational details that are 
important.
    I think everybody here has to face up to what's been 
happening this last decade, especially those who had a major 
responsibility. I think we need to face the music on this. As I 
understand it, I have a chart that shows--and these are the 
appropriations these last 10 years--that from 1999 to 2007 
Congress cut the SSA budget by 4.6 billion compared to what had 
been requested by the Commissioner. Indeed, compared to what 
OMB requested, which was much less than the Commissioner's 
request, Congress cut SSA's budget by $1.3 billion. The result 
of this, one result is that today people are waiting--what's 
the average for a hearing, Mr. Commissioner?
    Mr. ASTRUE. It's a moving target, but it's just over 500 
days.
    Mr. LEVIN. That's a year and a half.
    Mr. ASTRUE. Yes.
    Mr. LEVIN. You and have met to talk about this, and I just 
want everybody to have a sense of responsible and I think a 
sense of outrage, because that's the way our constituents who 
file these claims, they have every right to feel outrage.
    Now you and I have discussed this. The average is a year 
and a half. In many places it's much more than that, right?
    Mr. ASTRUE. Yes, it is.
    Mr. LEVIN. For those who are covered by the office in Oak 
Park, Michigan, the average processing time is 764 days, right?
    Mr. ASTRUE. Yes. That's close to the worst in the country.
    Mr. LEVIN. What do we say to somebody who's waiting--that's 
over two years. Right?
    Mr. ASTRUE. That's correct.
    Mr. LEVIN. When Congress, the last ten years until the 
recent action where we increased the budget, I don't always say 
to them, ``Now you've inherited this and this new Congress has 
tried to begin to rectify it.'' Let me just ask you--we've 
talked measures to balance between hearing offices. You've said 
it's going to take until what year before we get a total grip 
on this?
    Mr. ASTRUE. The plan that we laid out for Congress last 
year, which was based on a number of assumptions that may 
change, was 2012. We hope to do better than that, and we work 
very hard to try to better than that, and I like to think that 
we're ahead of schedule. But if you want to say, ``I want to 
see the real progress, I want to be able to make an initial 
judgment,'' you probably won't be able to tell whether we're 
really hitting the target clearly until the first quarter of 
next year.
    We've made progress with the total pending; the increase in 
the total pending is down the last two fiscal years. It would 
have been down more except we made the priority of the aged 
cases, which take a lot more time to remove from the system. 
That was with a record low number of ALJs.
    With all the improvements coming, with the infusion of new 
ALJs, there should be a dramatic turn somewhere around the 
beginning of next year, or maybe a little sooner.
    Mr. LEVIN. When you say a dramatic turn, what does that 
mean?
    Mr. ASTRUE. Well, we're hoping and expecting that the 
backlog will hit a tipping point when the new ALJs are fully 
productive, when the paper cases are substantially gone, then 
we're going to be able to start driving it down at 
approximately the same rate that it went up. It was going up at 
about 75,000 cases a year for most of this decade. For 2007 it 
went up 32,000, if I remember correctly. Annualized for the 
first half of this year, it's about 11,000. So, it's been 
coming down, even with limited lower resources, on the basis, I 
think, of better management and improved productivity at ODAR. 
I want to give the staff at ODAR a lot of credit. The only 
reason it wasn't a lot worse this year is we got about a 10 
percent improvement in productivity, and that's a great credit 
to a lot of the people that are working very hard to try to 
solve this.
    Mr. LEVIN. My time's up. I just wanted everybody to face 
the facts here, and I think what has happened in this country 
with disability is indefensible, and we're now taking steps 
to--I mean the hole was dug so deeply. This institution helped 
to dig that hole.
    Mr. ASTRUE. As you know, Mr. Levin, we've talked about this 
several times now. I don't disagree with your basic premise, 
and for me it was a motivating factor to try to come back and 
fix it. I mean that's really the big challenge in the Agency. A 
lot of the other big-picture issues have been taken away from 
the Agency, so when you sign up to be Commissioner these days, 
you're signing up to try to fix this problem, and that's what I 
signed up for. It's that frustrating government doesn't move 
quickly, but I think you've got enough data now to say ``It's 
starting to move in the right direction; there are some good 
plans in place that have not had a chance to take effect yet.'' 
There is some real reason to hope it's going to be 
substantially better next year.
    Mr. MCNULTY. Thank you, Mr. Levin. Mr. Herger may inquire.
    Mr. HERGER. Thank you, Mr. Chairman. Commissioner Astrue, 
earlier this year, both the Office of Management and Budget and 
the Government Accountability Office identified the 
Supplemental Security Income Program as having had improper 
payments of over $4 billion, and the Old-Age Survivors and 
Disability Insurance Program is having had improper payments of 
over $2.5 billion in fiscal year 2007. I'd like to ask you 
about the Administration's effort to effectively protect 
against waste, fraud, and abuse. We all want to see the 
application process for disability benefits move as quickly and 
as accurately as possible. But at the same time we have an 
obligation to make sure that disability benefits are paid to 
those who are disabled and not to those who don't satisfy 
program requirements.
    For example, for years incarcerated individuals were 
improperly receiving Social Security and welfare checks, until 
our republican-led reforms in 1996 and 1999 successfully ended 
this practice, saving taxpayers billions of dollars. Additional 
reforms in 2004 cracked down on fugitive felons who were 
illegally receiving Social Security and SSA disability 
payments.
    Mr. Commissioner, what are we doing to prevent fraud and 
abuse in the disability application progress? As we strive to 
shorten waiting times, I certainly hope we continue to pay the 
proper attention to paying the right benefits to those who 
actually qualify. Would you please discuss your ability to 
achieve both goals, shortening waiting times, while still 
getting eligibility decisions right?
    Mr. ASTRUE. It's a very good question. We've got so many 
important things that we're trying to do all at once. It's 
difficult, but I agree that the program integrity work is very 
important, and when it's set aside, there are long-term costs 
for the public that we'll never recoup.
    So, I think it's important for the Congress--I know this 
Committee understands--but it's important for the Congress as a 
whole to understand that when the budget got squeezed over the 
15-year period that Mr. McNulty laid out, one of the very 
important things that stopped being done the way that it should 
be done is that the number of continuing disability reviews in 
Title XVI and re-determinations in Title IV dropped 
dramatically. The reason for that is it was one of relatively 
few discretionary workloads.
    A lot of what we do is absolutely mandated by Congress. As 
a result, the numbers have dropped dramatically. The accuracy 
is not where we would like it to be in Title XVI. Last year's 
appropriation allows us to increase that important work. That 
2009 budget anticipates that we will also move in that 
direction.
    But when something's been allowed--as with the hearing 
backlogs--when something's been allowed to degrade over a 
decade, you know as much as it's important, I can't fix it in a 
year. So, even though there's substantial progress, we're not 
going to catch up on all the cases that should have been 
reviewed. We're going to be behind almost no matter what 
happens in the 2009 budget. But we're going to try to catch up 
as much as possible, get our accuracy rate as high as we can 
possibly get it.
    I should also mention that one of the casualties has been 
the Inspector General's budget, which took a real cut, for 
instance, last year. They do some very important work. I know 
they're independent and they make their own requests, but they 
do some very important work for us, and so I would like to put 
in a little bit of a plug for the Inspector General, as well, 
who's critical in our efforts on waste, fraud, and abuse.
    Mr. HERGER. I thank you, Mr. Commissioner.
    Mr. ASTRUE. Thank you.
    Mr. HERGER. I yield back.
    Mr. MCNULTY. Thank you, Mr. Herger. Dr. McDermott may 
inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. When I came to 
Congress I came in 1989, at a time when we had a savings and 
loan crisis in this country. In my view, at least a major 
reason why that was created was that the Reagan Administration 
cut the number of banking examiners, so that banks never got 
examined. Then we found all this mess and we spent billions of 
dollars bailing them out, because we did not have the proper 
administrative work done by the administration. It was 
deliberate not to go in and look at what banks were doing.
    Now I think it's unfair for us to accuse, or to beat you up 
today, and I don't intend to. I want to say that GAO has 
actually taken you off the list of places where people ought to 
look for fraud, waste, and abuse. Well, my colleague brings 
that issue up. It is a red herring, in my view. It is not the 
place to be looking. We're talking about people who are not 
even adults in many cases; they're children, and we're talking 
about cases in my area you have to wait 575 days to get taken 
care of; 578 days in Seattle before your appeals is brought up 
for a hearing.
    Now what I'd like to ask you is how many of those appeals 
actually qualify for SSI benefits, when all is said and done at 
the end of that appeal process?
    Mr. ASTRUE. Right. The allowance figure at the hearings 
level has gone up in recent years, which is predictable, 
because as the delays increase, it's an open-ended process; so 
if people's conditions deteriorate--they may not have been 
eligible in the beginning of the process, but they get benefits 
if they're eligible later in the process.
    Mr. MCDERMOTT. The percent who get paid if they're 
benefits----
    Mr. ASTRUE. It's a little over 60 percent.
    Mr. MCDERMOTT. So . . .
    Mr. ASTRUE. Well, you have to realize that relatively few 
of the cases appeal from the states. So, about 33-35 percent--
we'll get you the precise number for the record--are allowed at 
the DDS level. Approximately a third. For all the hearings and 
appeals process, add about another 5 percent to that total, so 
it's about 38-40 percent who actually end up getting benefits.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.001
    

    Mr. MCDERMOTT. If that's true and you have all the 
experience you have in the SSI Program, you must have a profile 
of those most likely to get approved at the end of the process 
2 years from now, right?
    Mr. ASTRUE. Yes. Absolutely. Again, we've embraced that in 
a major league way. Not just at the back end of the process, 
where our quality of people have been very helpful in building 
precisely the kind of templates that you see, so we can pull 
those cases out, not put them through the whole process, and 
decide them quickly. That's been very helpful; we've been doing 
that both in terms of the voluntary remand program and the 
attorney advisor program. We'll give you information on those 
templates.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.002
    

    But I think it's important to do that on the front end, as 
well. So we've put a lot of effort into this Fast-Tracking in 
the front end, and I know some people think, well, you know, 
the percentage isn't big enough, but if we can get that number 
up to approximately 10 percent of the cases in the next few 
years--you have to realize, we're looking at more than 2.5 
million filings per year--if we can get up to 10 percent that 
means that a quarter million Americans each year will get their 
benefits within 6-8 days, which is what we're hitting now.
    So, I think it's very important at every stage of the 
process to try to figure out where we're going wrong, figure 
out what the patterns are, and try to address that. We've tried 
to that very systematically in a way that I don't think we've 
done before.
    Mr. MCDERMOTT. I'm aware of what you're doing, and what I'm 
going to ask you is: What can we do additionally to give you 
authority or flexibility to make those decisions earlier rather 
than putting people through a two-year waiting period to 
finally give them their benefits, by which time they are worse, 
and qualify?
    Now some of those things you will know up front. They're 
going to get worse if we don't do anything medically for these 
people. They have no healthcare benefits. You know they're 
going to be worse, so you could actually save money, it seems 
to me, if you dealt with it up front. I'd like to hear your 
suggestions about things we could do to make this better for 
the process to work for those who you know you're ultimately 
give money to.
    Mr. ASTRUE. Well, that's a good forward-looking question. 
On one of the things, we're not quite ready yet. One of the 
recurring debates over decades in the system is whether we need 
the state to perform two levels of review. There are a lot of 
reasons right now where it's important to claimants to have 
that second level of review; although there was a Clinton 
Administration initiative to eliminate that, and we still have 
eight states that don't have the recon.
    There are some issues on that, and I've talked to Mr. Levin 
about that in some detail, because one of the reasons that the 
filing rates in Michigan appear to be so high is that there are 
probably a lot of cases coming out of the state that shouldn't 
be there in the first place. We've got a new Federal-level 
initiative to see if we can screen those out with exactly the 
kind of templates that you're talking about.
    But I think that it's important to try to do as much right 
up front as possible. So, we have a new computer system that 
was rolled out prematurely in DSI, that was a disaster, that we 
pulled back. We spent a year and a half trying to do it right. 
It's getting close. The modified system will do a lot more 
queuing for the state employed in the beginning; it will help 
them assemble the records much more easily.
    If we can do that well and we can find out much better 
mechanisms for getting medical records into the process early -
because one of the reasons the whole system is just so 
ridiculously inefficient is that at the point where we make 
decisions, we don't have the full medical records. There's 
joint responsibility on that. Some of that is claimant, some of 
that is their attorneys. Some of it is ours. Some of it is 
hospitals. Some of it is physicians.
    So we're trying to get a handle on that. Particularly in a 
time when the world is moving to electronic medical records, to 
try to make sure that we use our resources as efficiently and 
compassionately as possible, so that we make the very best 
decisions as early as possible in the process. We've got room 
for improvement, but we've got to make sure that we do it 
right. There's a history in this Agency because of concerns 
from the public of rushing a lot of things that aren't ready 
for prime time. There's been a lot of damage to the Agency from 
some very well intended initiatives.
    So, one of the things again--and you may get frustrated 
with us about this--but if you look through the testimony of 
the panelists, we've got a lot of things that are being 
piloted. I think that's best-demonstrated practice.
    Before we roll them out for the American public, we want to 
make sure that they operate the way that they were supposed to 
operate. So, the e-cat system again, which was one of those 
things that was inflicted on the public too early helped create 
backlogs in New England, where we'd never had them before. We 
pulled that out, but now we're trying to do it right, and 
before we roll that out more broadly, you can rest assured that 
we'll take one state, two states, tested in a limited way, 
before we bring it out more broadly.
    But the general idea is if we can contract the process, 
make it as good as possible as early as possible, that's the 
ultimate answer to reducing some of these waiting times in the 
grand scheme over a slightly longer haul. That has to go in 
tandem with all these incremental things we're trying to do to 
make the status quo run better in the meantime.
    Mr. MCNULTY. Thank you, Dr. McDermott.
    Mr. MCDERMOTT. Thank you for your indulgence, Mr. Chairman.
    Mr. MCNULTY. Thank you, Dr. McDermott.
    Mr. Camp may inquire.
    Mr. CAMP. Well, thank you, Mr. Chairman.
    Before I ask my question, I just want to go back to 
something Mr. McDermott mentioned. While GAO may have taken the 
Agency off the high-risk category, Office of Management and 
Budget and the GAO have identified the Supplemental Security 
Income Program as having had improper payments of over $4 
billion, and the Old-Age Survivors and Disability Insurance 
Programs as having had improper payments of over $2.5 billion. 
I think we all have an interest in having program integrity and 
insuring that improper payments are confronted so that those 
people who are truly needy are receiving those payments.
    I just want to thank your staff on the frontlines that I 
know my office works with closely, and appreciate their efforts 
on behalf of all of those going through the disability process. 
Michigan is one of those ten prototype states you mentioned in 
your testimony, and so the reconsideration process is 
eliminated there. GAO in 2002 decided not to expand this 
because of some problems with administrative costs, increased 
appeals, and we're seeing in Michigan longer wait times.
    Mr. ASTRUE. Right.
    Mr. CAMP. You mentioned in your testimony that you're 
looking at a screening tool.
    Mr. ASTRUE. Right----
    Mr. CAMP. For states like Michigan. Could you just 
elaborate on this initiative and what plans it might have for 
states like Michigan that have seen their wait times increases?
    Mr. ASTRUE. Sure. So, 14 months ago we probably spent most 
of the first four months trying to get a handle on DSI. Then 
when we resolved what we needed to do on that, we focused on 
the backlog nationally with as much intensity as possible. We 
started a process about six months ago to try to look much more 
at the local level at individualized solutions, to try to 
figure out where the problems were. In most of the prototype 
states, it doesn't appear that it creates an enormous problem 
at the hearing level, but it does appear that there's a 
potential problem in Michigan. So, you know, the automatic 
response is, ``Well, we'll just make them do what everyone else 
does and go to recon'', which would be expensive, time-
consuming, politically controversial, and might not help the 
problem for some time.
    What we've tried is to look at a faster, quicker, and 
smarter model. So we're looking at precisely the kind of 
templates that Congressman McDermott was referring to, to see 
if we can identify the cases that are coming out of the DDS in 
Michigan that probably shouldn't be there in the first place; 
try to do a very quick review--and by ``quick'' I'm talking 
about 7-10 days as the target, and either send them back to the 
DDS with instructions as to what needs to be done, or if they 
should simply be allowed, we will have a process within ODAR to 
send it over with the recommendation so that there can be a 
quick allowance of those cases.
    If that works, it's possible that that may be a model that 
we could use more broadly around the country. But again, I 
don't like to over-promise. I like to know what's really going 
to happen before we roll it out to the rest of the country.
    But I think it could be helpful in Michigan, and we should 
know, I would hope, by the end of the year.
    Mr. CAMP. Well, in private disability insurance by law, 
those have to receive their determinations within 45 days. Many 
times they get their determinations in 30 days. Are there any 
tools that the private sector is using that the SSA could learn 
from?, and why are they able to make their determination so 
quickly?
    Mr. ASTRUE. We do look at the private insurers from time to 
time. They also look at us. I think that there are some 
differences and I think that we do have much more of a problem 
in terms of accessing medical records.
    You know, typically with private insurance, you have an 
employer who is very financially motivated if an employee 
deserves disability benefits to cooperate with that and help 
them walk through the process. We don't have anything 
comparable there. So that's one of the big differences, I 
think, between the private insurance and what we do, is that 
the challenge of assembling the medical records so that we can 
make a fair decision in the particular case is a little bit----
    Mr. CAMP. To that end I understand you're working on a 
health information technology system. Clearly automating the 
collection of those medical records would be helpful.
    Mr. ASTRUE. Right.
    Mr. CAMP. Can you just sort of tell me the status of that 
initiative?
    Mr. ASTRUE. Well, it's a moving target. We do have what we 
call Electronic Records Express, and that's been helpful. It 
will be somewhat limited until the rest of the private sector 
moves to electronic records. But it is helping. I think 
generally we're feeling we're getting more records earlier, but 
we still--one of the root causes of inefficiency in the system 
is that we just don't have the right information at the right 
time. We've got a long way to go before we're really up at the 
level that everybody would want. Some of that's not under our 
control, but we're trying to get there as fast as we can.
    Mr. CAMP. Thank you. Thank you, Mr. Chairman.
    Mr. MCNULTY. Thank you, Mr. Camp.
    Mr. Lewis may inquire.
    *Mr. LEWIS. Thank you very much, Mr. Chairman. Thank you, 
Mr. Commissioner, for your service. Thank you for being here. 
Mr. Commissioner, I represent Atlanta, which has the highest 
backlog for disability appeal in the country. The average 
processing time in the Atlanta Northfield Office is 828 days. 
That is the absolute worst, the very worst in the country.
    Mr. ASTRUE. You have the second-worst in Atlanta as well.
    *Mr. LEWIS. In Atlanta, it's not much better than 750 days. 
I have 51 individuals in my district who have contacted me for 
assistance in dealing with the office of hearing appeals. The 
oldest case has been pending in my office since August 13, 
2004. In fact, I just found out that this case was resolved 
last week after more than 11 hundred days. That is disgraceful. 
That is unacceptable.
    I'd like for you to tell Members of the Committee, do you 
have a plan for Atlanta?
    Mr. ASTRUE. Yes, we have. Again, I share your feelings 
about the situation in Atlanta. It was the second hearing 
office that I went to. I went up to Boston first to get a 
handle on DSI, and then I wanted to see the worst places in the 
country, so I went to Atlanta second.
    We've hired as many ALJs as we have offices now. We're 
looking at the possibility if the funding level comes through 
next year, we had plans last year for five new hearing offices 
that we scrapped because of the continuing resolution. Atlanta 
was on the list, and I would expect that Atlanta will be on the 
list next year.
    Atlanta was one of the three cities that we focused on with 
the National Hearing Center, so they've been getting relief 
through those video hearings. We've had our quality people 
going in on a special initiative to help prepare cases in 
Atlanta. Atlanta was one of the cities with the overtime at the 
end of last year, where we brought in people from operations, 
again to prepare the old paper cases and flush them out of the 
system.
    But Atlanta's inexcusable. I don't have any argument with 
you. In terms of backlog, they're the worst in the country 
right now. We're moving as fast we can to try to address that. 
I wish I could move it faster. I think you'll see some real 
progress in about 6 months.
    But I think that over the long run, Atlanta's one of the 
cities I think as I mentioned before that is growing extremely 
rapidly. We had four cities in this country last year that 
added 100,000 people or more to the population. With all the 
incentives to keep the status quo in the system, it's very 
difficult for us to move the resources into the places that 
need it the most, and it's a struggle for us.
    But I do think that we're going to need significant 
additional capacity in the Atlanta area. We've got two hearing 
offices downtown. I would suspect that the third would probably 
be in suburban Atlanta.
    *Mr. LEWIS. Mr. Commissioner, it is my understanding that 
two-thirds of all appeals are ultimately decided in favor of 
the applicant. So maybe the Social Security Administration is 
getting it wrong so many times. Following Mr. McDermott's line 
of questioning, is it a way to get it right the first time?
    Mr. ASTRUE. That's a very logical conclusion that people 
come to quickly, but I think it's really not fair. A relatively 
small number of the claimants appeal in the first place. They 
are generally by definition the close-call cases, and there are 
a number of reasons why the decisions are different at the 
hearings level. One is if the condition of the claimant 
deteriorates, they may not have been eligible at the beginning, 
but particularly with the long waits, they are then eligible. 
They are often represented by attorneys at that stage, who are 
often critically helpful to claimants, not only in assembling 
medical records but identifying the impairment. A number of the 
people that get decision letters don't even allege the 
disabling impairment at the first level, because there is some 
stigma or some emotional concern. I saw this in the video 
hearing I attended in Dallas, where it didn't look like the 
claimant was going to win the appeal. I don't know, I'm pretty 
sure that the person did. But what was most significantly 
disabling, she didn't want to allege. The ALJ it out of her.
    So, part of it is this is our people doing their job. You 
know, the ALJs don't represented just the Agency. That's a 
historic and unique part of our system. They represent the 
claimants as well. A lot of times they pull out of the 
claimants, even when they're represented, the real basis for 
the disability, or pull out the information that was not 
available earlier in the record to make a decision. Because the 
states don't see the claimant; they're doing a purely paper 
review. So, it does change the result to have that interaction 
at the later stage in a smaller number of the close-call cases.
    *Mr. LEWIS. Thank you. Well, Mr. Chairman, if I just may 
ask just--well, Mr. Chairman, I used my time. You've been very 
liberal with me. So, I yield back. Thank you, Mr. Commissioner.
    Mr. MCNULTY. Thank you, Mr. Lewis.
    The next Member I want to introduce I want to thank, not 
just for his service to the Committee and for his service as 
Ranking Member of the Subcommittee on Social Security, but also 
for his heroic service to our country, Mr. Johnson of Texas.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    I appreciate that. Commissioner, a recent inspector general 
report raised concerns about the performance of administrative 
law judges finding ``that the Office of Disability Adjudication 
and Review's ability to process projected hearing requests and 
address the growing backlog of cases will continue to be 
negatively impacted by the caseload performance of some ALJs if 
their status quo performance levels continue.'' Subcommittee on 
Social Security Chairman McNulty and I have asked the IG to dig 
deeper into the performance issues and assess the ALJ 
management tools and practices utilized by the agency. Is it 
not true that some ALJs are doing nothing, zero, zip during the 
work day? I would like to know what action you are taking and 
what changes in the law we can make that would help that? If 
you would elaborate, I would appreciate it.
    Mr. ASTRUE. No, I would be delighted to. Let me first of 
all preface by saying the vast majority of the ALJs are solid 
professionals, behaving themselves well and trying to work 
productively.
    Mr. JOHNSON. What is the total number of ALJs?
    Mr. ASTRUE. Right now, let's see, we were down to about--we 
will correct this for the record, but we were down to about 
1,025, we have 40 that came on board approximately last week. 
We will have a couple more classes coming in May and June, so 
we are hoping by the end of the year to be somewhere between 
1,175 and 1,200.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.003
    

    Mr. JOHNSON. But I did not want to interrupt you, you are 
talking about a minimal problem but if it is 10 or 12 even, you 
are talking about people----
    Mr. ASTRUE. No, let me separate it into two categories, 
although they do tend to overlap. We have had some serious 
misconduct issues, and we have had some serious productivity 
issues with a significant minority of the judges. Historically, 
I think this is part of the fallout from the eighties where 
Congress stepped in to correct certain problems in the system 
and protect the independence of the administrative law judges 
and generally I am supportive of that, but that has calcified 
into a lack of accountability. Many Commissioners have given up 
trying to discipline administrative law judges, and my feeling 
is that is wrong. If you are a judge, you need to treat 
claimants with respect, you need to treat the taxpayers with 
respect by putting in a full day, and we do have judges who do 
not do that.
    I have prosecuted this ALJ to the fullest so far and I am 
hoping that he will be terminated. He held two Federal jobs for 
3 years and falsified military documents for the other job in 
order to pull off the fraud. He has not been contributing in 
Atlanta. So, a casual attitude toward misconduct has a bottom 
line cost for the people that we all serve. My feeling is these 
are test cases. If the Merit System Protection Board removes 
the judge, as we have asked them to do, great, then we have 
made progress. If they do not, I am going to come back to all 
of you and scream bloody murder and say you need to do 
something about it.
    We have had other serious misconduct issues. One ALJ one 
just pled to on a prostitution charge. We have had some assault 
issues. I think that is inexcusable for a judge and a judge who 
actually does that should be terminated no question, but the 
Merit Systems Protection Board has been extremely lenient on 
judges, which is why most Commissioners have given up. But we 
are not giving up, we have about a dozen cases over there now. 
We had one judge who had not done a case in seven and a half 
years and would not schedule cases, and I was advised that had 
to go through a redress program in order to make something 
stick. So, we have done that, we have been assigning hearings. 
He has been resisting. He has done a handful of cases now, I 
think they are all or substantially all allowances, so I am not 
sure he is doing the real work. I am going to stand up to 
judges like that, and it would be helpful for this Committee to 
have GAO take a look at some of these cases and look 
specifically at some of the cases that have gone before the 
Merit Systems Protection Board and ask the question are these 
one, two and three day suspensions that tend to be the most 
that the ALJs get in those cases, are they really adequate to 
protect the American public?
    Mr. JOHNSON. But the Congress is sitting here ready to help 
you and all you have got to do is ask.
    Mr. ASTRUE. Will do, and I think that we will have a lot 
more information shortly as to whether the MSPB is going to 
stand up in some of these atrocious cases.
    Mr. JOHNSON. Thank you. Thank you, Mr. Chairman.
    Mr. MCNULTY. I think the Ranking Member of the Subcommittee 
on Social Security. Mr. Becerra may inquire. Excuse me, Mr. 
Neal may inquire.
    Mr. NEAL. Thank you very much, Mr. Chairman. Welcome, 
Commissioner.
    Mr. ASTRUE. Thank you.
    Mr. NEAL. Last week during tax disclosure time for the 
candidates for president, I must tell you I was delighted to 
read and then to hear that Senator McCain is a Social Security 
recipient. I offer that not as a political statement as much as 
it is an indication of what a policy triumph Social Security 
has been and its egalitarian nature. You know how ferociously 
many of us on this Committee guard Social Security. I think if 
there is one message that you would take from here, it is what 
the debate last year over what Social Security accomplished and 
it indicated very clearly that the American people were not 
about to forfeit Social Security without knowing what was 
coming next and the argument that many of us made was that we 
should add on to Social Security as opposed to subtracting from 
it. I think Senator McCain's announcement last week that he was 
a Social Security recipient serves all of us very, very well.
    Let me be specific, my Social Security office in 
Springfield does a terrific job and there is great interaction.
    Mr. ASTRUE. I am glad to hear that.
    Mr. NEAL. Well, I have great faith in them, and I must tell 
you that the role the constituent work plays in Social Security 
is vital and people do not start with a call to a congressional 
office, they end up calling a congressional office.
    Mr. ASTRUE. Right.
    Mr. NEAL. It is a very important consideration and they 
have been, as I have indicated, very good to work with. Let me 
see if I can cut through some of this though and maybe with a 
general question, you can shed some light on the issue of 
assignment as it relates to judges. Hearing offices around the 
country vary considerably in the size of their backlogs and the 
amount of time claimants must wait for a hearing. In some 
offices, the wait is less than 300 days while in others it is 
approaching 900 days. In some offices, each judge has fewer 
than 300 cases pending while in other offices each judge has 
1,700 cases pending. What measures do you take, and is it 
similar to the criminal justice system with Federal judges in 
terms of trying to seek a balanced workload that can be 
measured for Members of the administrative judgeship 
discipline? How did this balance happen?
    Mr. ASTRUE. Right, right. So, I appreciate that question. 
One of the things we laid out in the written testimony, which I 
believe is the first for the agency, that what has contributed 
to the very phenomenon that you are concerned about and Mr. 
Lewis is concerned about in district, of the resources that we 
have had, which have not been enough, we have mis-allocated 
them over time so that we do not have enough capacity in the 
right places and part of this is it does get politicized. When 
you are shifting around resources in Social Security, wherever 
you are taking them from, the Commissioner is going to get a 
hard time so it is easy to let the status quo go. But what we 
have been trying to do very systematically is to equalize the 
resources to a large extent around the country as best we can. 
So, in the allocation of the administrative law judges, I am 
unapologetic about the fact that some of the Members here are 
not getting much benefit, some are getting a lot. I am from New 
England, but I have no New England bias New England is only 
getting one. Ohio alone is getting 13. But the reason for that 
is if you look at the filings per administrative law judge in 
places like New England, southern California, you will see 300 
to 400 per administrative law judge. If you look at Mr. Lewis' 
district, it is 1,200, 1,400, same in Cleveland and places like 
that, and I cannot justify that. So, in the allocation of the 
administrative law judges, we have realigned a lot of the 
service areas to try to help the struggling offices and also 
with the National Hearing Center so that we have got a 
centralized cadre of judges that can move into the worse 
backlog hearing offices like that because if you go through the 
traditional process, it can be two, three, even 4 years, before 
you get physical space up and running and moving and that is 
not fast enough. My term is over by the time that gets a 
benefit. That is not fast enough.
    So, we are really doing the three things, the allocation 
this time, we have looked very systematically at the regional 
imbalances, to the extent that we can, we have tried to fix 
that with this allocation. Second, we have done realignments, 
some of them are very creative, the Toledo remote site is now 
part of Boston and those types of things but those work and 
they are starting to help, and I think expanding the National 
Hearing Center is critical to this initiative.
    Mr. NEAL. What you briefly said was it is possible during 
your tenure that you could be there for the groundbreaking but 
not there for the ribbon cutting?
    Mr. ASTRUE. That is pretty close, Mr. Neal.
    Mr. NEAL. Thank you. Thank you, Mr. Chairman.
    Mr. MCNULTY. Thank you, Mr. Neal. Mr. Brady may inquire.
    Mr. BRADY. Thank you, Mr. Chairman. I may I suggest this is 
a critical round of questioning, both Mr. Lewis and Mr. Johnson 
I think ran out of time to really go deeper into their 
situations, perhaps at the end of this we might consider 
allowing both of them an additional round of questioning 
because I think both situations are worth exploring.
    Mr. MCNULTY. We will go back to allow Members to ask 
additional questions.
    Mr. BRADY. Thank you. Commissioner, two questions, one 
local, one national. In the Houston region in 2001 and 2002, we 
had serious problems in our disability offices, long backlogs, 
dramatic variance in disapproval rates and real concerns about 
whether there is minority bias in the decisionmaking. Since 
then, in the downtown office that handles our cases, my 
caseworkers tell me there has been a dramatic improvement in 
response time, the quality of the decisions and clearly they 
feel our people on the ground in our office----
    Mr. ASTRUE. That is good to hear, I was holding my breath, 
thank you.
    Mr. BRADY. No, you need the experts and they are, but 
looking at the numbers for this year, we have two offices in 
Houston, one in downtown that goes east, one in Bissonnet that 
has the western side plus the northern area. The question I 
have for you, in one the downtown office processing time, 
backlogs are 50 percent better than in the adjacent office, 
even the judges according to the numbers you provided are more 
productive. The downtown office is third in the nation in cases 
pending in a good way, Bissonnet 33rd. The downtown office is 
top 10 in processing time, Bissonnet is far below average. My 
question is I understand the disparity nationwide, I do not 
understand the disparity in the same town.
    Mr. ASTRUE. Yes, that is a very fair question. A lot of 
these issues you can talk about as if we were a big machine, 
and that is helpful, but one of the things to realize is that 
in each of these hearing offices, the key movers are the 
administrative law judges. It is a relatively small number of 
judges in each office. If there are human issues, performance 
issues, it has a pretty big impact on the area. So, it is our 
view that the issue with the Bissonnet office is a human issue. 
We have got three judges there that are historically very 
unproductive. We have several others being counseled by the 
Hearing Office Chief to try to improve their productivity. So, 
I do not believe that there is anything terribly significant in 
terms of resources or the demographics of the filing profile 
that account for any profound differences. Again, if I am 
wrong, we will correct it for the record, but I believe you 
have got three of I think it is eight, again I may have that 
wrong, judges where there are some significant performance 
issues and that hurts everybody.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.004
    

    Mr. BRADY. Thank you. Would your office sit down with me 
and just dig deeper into this.
    Mr. ASTRUE. Gladly, yes.
    Mr. BRADY. Obviously what we want is if someone has got a 
legitimate disability claim, I do not want them going into a 
line that is longer and moving slower by 50 percent than their 
neighbor across the street.
    Mr. ASTRUE. Yes.
    Mr. BRADY. Which is sort of the case today.
    Mr. ASTRUE. I do not want that either but, as I said, we 
have identified that there are some issues.
    Mr. BRADY. Right.
    Mr. ASTRUE. We are doing our best within the considerable 
constraints to try to deal with that.
    Mr. BRADY. Thank you. National question, I think the 
additional ALJ electronic system of clearing off the aged 
cases, again a good decision, all those are helpful. Part of 
the problem has been I think too many cases make the ALJ level 
that should be resolved either through the quick termination or 
at the state level, and there has been wide variances in 
productivity and cases determined at the state before they get 
to the ALJs, have you been able to measure the variance between 
disapproval rates and productivity levels at the state level, 
and maybe more qualitatively, have you been able to measure the 
cases that should have been determined before they went to the 
ALJ--before they got into the line, the very long line, that 
could have been disposed of in either first two determinations, 
have you been able to measure that?
    Mr. ASTRUE. Yes, there are some inherent difficulties 
comparing state to state performance but within those 
constraints, yes, we do. We measure again not by allowances or 
denials but we just look at accuracy, and we look at a sample 
of 3 percent of the cases, an equal number of allowances and 
denials, to try to make sure that we are maintaining acceptable 
levels of accuracy. There is a threshold on accuracy, which I 
think I recall but I will supply that for the record, where if 
a state falls below that, then we go through a rehabilitation 
process and try to do some intensive work to get them up to the 
same level of accuracy. In general, the states do a pretty good 
job. As a matter of fact, they do a very good job, and they do 
it with less money than we do. Their state workers tend not to 
be paid as well as ours, they have a lot of struggles with 
turnover of staff. In general, they do a very good job, they 
are not perfect. Generally, they maintain high levels of 
accuracy by our standards but there is a level of accuracy that 
is hard to account for because our people look at it based on 
the record that they had before them. If we do not get the 
right information there early, we can make a right decision 
based on the information we have but it is not the ultimate 
right decision so we cannot relax there, we have got to try to 
push as hard as we can to try to make sure that the full 
medical record is available for the claimant whenever we make a 
decision and that the claimant has alleged what the claimant 
should be alleging and that is a real issue in a significant 
percentage of cases. Such as those involving depression, 
sexually transmitted diseases. A lot of times the claimant does 
not come forward with what is really disabling.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.005
    

    Mr. BRADY. Alright, thank you, Commissioner. Thank you, Mr. 
Chairman.
    Mr. MCNULTY. Thank you, Mr. Brady. Mr. Becerra may inquire.
    Mr. BECERRA. Thank you, Mr. Chairman. Commissioner, thank 
you for being here and to all your staff that you bring with 
you as well. We appreciate the work that you have done in 
trying to help us increase the resources you have to hire those 
ALJs that we all agree you need and that is about as positive 
as I am going to be in the 5 minutes that I have.
    Mr. ASTRUE. Okay, I understand, I am braced.
    Mr. BECERRA. You have I believe something in the order 
1,300 local or field offices throughout the nation to service 
people who come to the Social Security Administration, whether 
it is for disability claims, whether it is for retirement 
benefits, whether it is to get a new Social Security card, to 
renew an old one, to do an employment check, whatever it is, 
those 1,300 local field offices handle over 40,000,000 visits 
every year and it is probably going to increase once the Baby 
Boomers start to retire. My understanding is that the wait time 
for most Americans going into these offices, local field 
offices, is somewhere between two and 4 hours before they can 
be serviced by a live body in one of your offices. You can 
respond after I finish this.
    My understanding as well is that on average half of those 
people who make a phone call to a local office never get 
through because the phone is busy. Now, I could go on and on 
but what concerns me is not so much what we already know, that 
you do not have enough resources and enough staff and that is 
why people wait forever and that is why you have millions, 
thousands of Americans waiting years to get benefits on a 
disability. My concern is that your budget request for this 
coming year, 2009, is actually less than your budget request 
was for 2008. The President's budget, you submit a budget to 
the President, the President then submits a budget to us, and 
then we pass a budget. The President's budget for 2009 
allocates more money to ALJs but it does it at the expense of 
the field offices that are overloaded to begin with, and so you 
are taking from Peter to give to Paul. So, far, you have closed 
two offices, local field offices, this year. Last year, you 
closed 17 field offices. You plan to hire, as you have 
testified, somewhere between 175 to 189 administrative law 
judges this year. That is great, but you plan to hire 143 
support staff for those AL judges. By your own accounts where 
you talked about having 4.4 support staff for every ALJ. If you 
are going to hire 175 to 189 ALJs but you are only going to 
hire 143 support staff, that includes the attorneys, the 
medical evidence technicians, all those folks who have to make 
the work work well for the ALJ so we do not have the abuse that 
some of our colleagues have talked about and the fraud, how are 
you going to do it when you have fewer support staff coming in 
than you have ALJs coming in when you need four support staff 
for every ALJ? Mr. Commissioner, this is not the way we should 
do business, something has to change. You need to shake things 
up. I am surprised at how sedate this hearing is. I cannot 
believe that we are here talking to you as if we are going to 
go through another day, and we can just go ahead and go along 
and get along. This will not change. We are talking about 
people in America who work, who worked in this country, this is 
not welfare. In order to qualify for disability benefit under 
the program, you have to have worked. Many of these people are 
in their golden age and now facing these disabilities and first 
they cannot go into an office without waiting hours before they 
can get service. Second, once they submit their claim, it may 
take them not just 400 some odd days that it takes in a LA 
office but in Atlanta it could take up to 800 or 900 days. You 
should be telling us, ``Mr. Chairman, Members of Congress, this 
cannot go on. We are going to change this, we are not going to 
do it with a 5-percent increase or with 175 ALJs. We have got 
to shake this place up.''
    You parachuted in recently into a mess, so this is not 
directed at you personally as the Commissioner. This is 
directed at SSA, which for years submitted budgets which were 
too low, to an Administration, which for years has underfunded 
you, and to a Congress, which until last year underfunded you 
to the tune of billions of dollars, and so we are all 
complicit. Actually, those who voted for that are complicit. I 
did not support those budgets.
    Mr. ASTRUE. Okay.
    Mr. BECERRA. What I would say to you is this, as my time 
has expired and if the Chairman is gracious enough to give you 
time to respond, fine, but I do not see how we are going to get 
anywhere we need to go with folks who have waited 2 hours to 
get serviced in a local office or those folks who have waited 
700 days to receive a benefit for which they worked and paid 
into the system for unless you tell us we got to shake things 
up.
    Mr. ASTRUE. Okay, I think I have got about 12 questions 
there, so I am not going to be able--you will have to remind me 
which ones I have, I am not trying to be unresponsive. So, let 
me just say as a predicate, most of your facts are right. The 
waiting times in the field offices are not anywhere near that 
bad. There are some really unacceptable----
    Mr. BECERRA. Are you willing to come with me to one of the 
local field offices?
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.006
    

    Mr. ASTRUE. We will supply the actual data.
    Mr. BECERRA. Are you willing to come with me to a local 
field office and see how long it takes?
    Mr. ASTRUE. I am.
    Mr. BECERRA. Okay, we will set that up.
    Mr. ASTRUE. I also say that I am aware that we have maybe 
100 to 150 offices where it is really out of control and they 
tend to be the inner-city offices and the border offices, and 
that is a direct consequence of the contraction of the funding 
and being in long-term hiring freezes. Unless you close a lot 
of additional offices, it is much easier when you are 
contracting to take employees out of the larger offices and 
that is what has happened. So one of the consequences of the 
freeze has been McAllen Texas and 125th Street in New York, 
those have some very unacceptable waiting times. I have been in 
some of those offices, I have not been in all of them, but I 
have been in some of them. So, yes, I am not denying--but it is 
not quite as broad as you indicated. It is not the routine 
office, it is more localized.
    Mr. BECERRA. Commissioner, if you bought a car, would you 
wait two years to get that car? If you bought a house, would 
you wait 2 years to be able to go into that house?
    Mr. ASTRUE. No. I am not justifying the status quo, we have 
been trying to change it but let me say a couple of things, and 
I hope as I am not taking any of this personally, you will not 
take any of this personally as well.
    [Gavel.]
    Mr. MCNULTY. If I could just suggest to my colleague that 
the time has expired, let us allow the Commissioner to make an 
additional response and then we will move on to the next 
questioner. As I stated previously, if there are Members who 
want to have a second round, we will entertain that. So, 
Commissioner, why do you not wrap up on this round?
    Mr. ASTRUE. So, in terms of being an advocate for the 
agency and being dedicated to get the proper level of funding, 
I will be quite honest, I do not feel like I have anything to 
apologize for because I walked into a situation where we were 
on a continuing resolution, we were on a full hiring freeze, we 
had furlough warnings, and despite the furlough warnings, 
Congress did not act and give us an appropriation. So, in that 
context when I made my first recommendation, which was for 
Fiscal Year 2009, I looked at what had been done and there was 
a very high request the year before and when I came up to talk 
to the key Members of Congress about that, they gave that the 
back of the hand and said, ``That is a dead on arrival budget, 
we did not pay any attention to it.'' Then I also looked at the 
15 years where Congress came in below the President's request 
and it looked to me like there was a pattern of Congress using 
that as a starting point as to how much lower they would go. 
So, in terms of my decisionmaking, I said how high can I make 
OMB go? I went for the number that I thought would work, it 
did. At 6 percent, we are way over almost every other domestic 
agency in the Federal government. We also worked with all of 
you and worked with OMB so there was no veto threat on the $148 
million over the President's budget and we got it. So, as far 
as I am concerned, on my watch, we have done pretty well-being 
an advocate for the agency and getting the adequate level of 
funding.
    I also think there is a changed environment. There is now 
concern about the work that we are not doing, in large part 
because we are telling you about it, which we were not doing 
before, and that may color what we do next year. But I think 
that what I did in terms of my recommendation and my advocacy 
was to get the best possible funding with all the constraints 
that we could, and I think we did it. So, I want to be very 
clear, I do not think I have anything to apologize for in that 
regard.
    Mr. MCNULTY. Thank you, Commissioner. Thank you, Becerra. 
Mr. Ryan may inquire.
    Mr. RYAN. Thank you, Mr. Chairman. Commissioner, I guess I 
will pick up where my friend from California left off, but 
first let me say I appreciate your just most recent explanation 
here, that was very telling, very helpful. Many of us who are 
strong fiscal conservatives, if there is one area where we 
think that more resources need to be deployed, it is this area, 
more ALJs, all of this. So, you need to use those of us here at 
this dais as advocates when it comes to this appropriations 
process, and that is just something I want you to do.
    Mr. ASTRUE. We have and all of you but particularly Mr. 
Johnson,----
    Mr. RYAN. Yes.
    Mr. Astrue [continuing]. And Mr. McNulty have been just 
absolutely terrific.
    Mr. RYAN. Conservatives, liberals, Republicans and 
Democrats, we all----
    Mr. ASTRUE. Again, it is why I feel I can say I take no 
offense. I do not see the problem here but I think in terms of 
making the case more broadly to the Congress, we still have a 
lot of work to do.
    Mr. RYAN. Right, so let me get to my question.
    Mr. RYAN. I just have 5 minutes.
    Mr. ASTRUE. I am sorry.
    Mr. RYAN. You have been parachuted in, you have put 
together a plan, you have to execute it, and I have three 
questions and I will ask them up front because this is 
something we are all experiencing. You mentioned in your 
opening statement that progress is being made in wait times for 
obtaining a hearing, however in Wisconsin, my constituents are 
experiencing an average wait period of 620 days, as an increase 
of almost 33 percent over the 2004 levels, and it is an 
increase of 3 percent over last year. So, question one, what 
effect will these new initiatives, such as the Quick Disability 
Determination, have on reducing this wait time and when do you 
believe this effect will be seen? That is question one.
    Question two, because of the 5 minutes, I want to get 
through these.
    Mr. ASTRUE. Yes.
    Mr. RYAN. As you know, the inspector general recently 
released a report on ALJ caseload performance that stated among 
other things that a substantial minority, I think 30 percent of 
ALJs, have not completed even 400 cases. In Wisconsin, for 
example, there is currently a backlog of 998 cases per ALJ. I 
understand some cases take a long time, low production numbers 
can be misleading, but is the SSA planning on taking any 
concrete steps within the constraints of the administrative 
procedures acts to introduce reasonable production metrics and 
standards? That is question two.
    Question three, another concern I have is the ratio of 
decisions of ODAR judges that they are issuing which appear to 
reverse the state DDS' determination. Approximately one-third 
to one-half of the ODAR level cases that my office assists 
constituents with end up in a reversal of the state DDS 
decisions. So, from an appellate level, that strikes me as a 
bit high, the reversal rate is pretty darn high. Is this rate 
of reversal proportional to other areas in the country? Does 
the SSA see a lack of uniformity in the application of 
standards by the various state DDS bureaus?
    Mr. ASTRUE. Okay, a lot there.
    Mr. RYAN. That is why I asked them all up front.
    Mr. ASTRUE. I know and, again, I apologize if I am not 
fully responsive, and I would be happy to supplement for the 
record.
    Mr. RYAN. I would appreciate that.
    Mr. ASTRUE. For the QDD and compassionate allowance cases, 
I think more than a lot of people recognize these are cases 
that have to a greater extent than people believe often gone 
off track in the system. When we have gone back, particularly 
at the less prominent cases, we have found that 20 to 40 
percent of them either resulted in inappropriate denial or just 
took way too long to decide.
    Mr. RYAN. Twenty to 40 percent?
    Mr. ASTRUE. Yes, they should have been easy cases. So this 
is why we are very systematically trying to identify these 
cases and just stop them from being a problem. It will make 
things a little bit more efficient at the DDS level, I think we 
picked up 6 days in average processing time last year. They 
were mostly other from factors. I think this will be marginally 
helpful in the time but the main reason you do it is just to 
make sure that these people do not get lost in the system.
    In terms of Milwaukee, my understanding is we are under-
resourced there and you will be moving from eight to 12 
administrative law judges----
    Mr. RYAN. By when?
    Mr. Astrue.--There are three classes currently being 
brought on board, April, May and June, that will bring us up 
to, it is a little bit of a moving target but about 135 are in 
those three classes. We are trying to get to the final at 
minimum 175, so an additional 40 or so we should be hiring off 
the OPM roster by August. So, we should be up to a full 175 by 
August.
    Mr. RYAN. So, we should expect 12 in Milwaukee by August?
    Mr. ASTRUE. There may be a question if there is an August 
hire, it may drag because most of these judges relocate, but 
more or less yes. After the hearing, we will give you an 
update. I do not know the specifics of the particular slots 
that we hired in Milwaukee, but we will be happy to provide 
that for you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.007
    

    In terms of ALJ productivity, it is a real issue in the 
system. We have established for the first time productivity 
standards for the administrative law judges in that we are 
expecting 500 to 700 cases a year, a significant portion of 
them are not meeting that.
    Mr. RYAN. Thirty percent of them are under 400 right now?
    Mr. ASTRUE. That is right. Right now, the challenge is to 
change the culture and for the most extreme cases, make it 
clear that they are at a far deviation from the standard. I 
think it is a dialog we need to have with the Congress as to 
whether we need to put more teeth into those standards.
    Mr. RYAN. These standards are now, they are out?
    Mr. ASTRUE. They are out, 500 to 700.
    Mr. RYAN. They are known?
    Mr. ASTRUE. Yes.
    Mr. RYAN. What are the consequences and the incentive 
structures? Are they guidelines or strictures or what?
    Mr. ASTRUE. Well, I do not want to seem facetious, it is 
more of a guideline than a rule right now and, again, we are 
bumping up against a lot of the statutory requirements.
    Mr. RYAN. Right, that is why I asked the question.
    Mr. ASTRUE. But, yes, certainly in the extreme cases. We 
have a judge who has not done a case in seven and a half years, 
it should not be necessary but when you go to take disciplinary 
action, having a formal policy indicating the agency's 
expectations are, will be helpful in some of those extreme 
cases.
    Mr. RYAN. You have a judge that has not done a case in 
seven and a half years?
    Mr. ASTRUE. Well, he is now because I am making him do them 
but he had not for seven and a half years.
    Mr. RYAN. He is still working for the SSA?
    Mr. ASTRUE. He had not for seven and a half years is my 
understanding.
    Mr. RYAN. He is still working there?
    Mr. ASTRUE. In terms of the ratio of reversals, again a 
relatively small percentage of the cases go up to the hearing, 
about one million claimants do not appeal their cases. We are a 
little bit stuck. If we had a low reversal rate, people would 
say it is not a fair process, it is not truly independent, and 
we would get criticism for that. In recent history, it has been 
about a 50 percent reversal rate. That has drifted up pretty 
much in tandem with the increase in the delays, and I think the 
primary reason why the allowances are going up is because of 
those delays, and they are just claimants with degenerative 
diseases and conditions that did not qualify but two years 
later do qualify.
    Mr. RYAN. Well, with the 620 delay, I can see the----
    Mr. ASTRUE. Yes, that is right. It would be logical to 
assume that the reversal rate will go down when we get those 
backlogs down. But I also do not want to mislead you by 
suggesting that the system is perfect. I think between the 
DDSs, the range on the variances when you really get deep into 
the numbers is pretty small. I think they do an outstanding job 
by and large.
    I will be honest, at the level of appeal, we do not do as 
good a job. If you look at the variations between 
administrative law judges, there is no justification for some 
of them. We have one that denies I think about 96 percent of 
the cases. We have a handful, 10 to 15, I do not remember the 
precise number, we will supply it for the record, who allow 
approximately 95 percent of their cases. I do not think either 
is right. We have a statute that we have to adhere to. It is a 
tough standard, and there are some hard cases where as a human 
being you look at it and say that is a tough result but it is a 
statute, and we should be enforcing it, as you have told us to 
enforce it, and that is what I tell ODAR to do.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.008
    

    Mr. RYAN. Alright, thank you.
    Mr. MCNULTY. Thank you, Mr. Ryan. Mr. Blumenauer may 
inquire.
    Mr. BLUMENAUER. Thank you, Mr. Chairman. Thank you, Mr. 
Commissioner, for being here. I would like to I guess take up 
where my last two colleagues, we are not the worst in the 
country but we are about in the bottom 10 percent. I think we 
131st was the last that I saw with over 700 days. I want to get 
a sense from you in an area where we do not have some of those 
dynamics that you are talking about, we are just playing sort 
of white bread, small metropolitan area, not with unusual 
characteristics, we are not really old, we do not have 
challenging populations. I am trying to get a handle on what I 
am able to tell people back home about why we are getting 
whacked around and what is going to happen about it for those 
of us who are not at the bottom but clearly unacceptable I am 
sure to you, certainly to me, and without question to the men 
and women who are trapped in this system in Portland and 
surrounding environments in Oregon.
    Mr. ASTRUE. Right. If you could excuse me, I have got one 
thing I want to check with my staff before I respond?
    Mr. BLUMENAUER. Sure, sure.
    Mr. ASTRUE. I want to get the answer right, I have got some 
uncertainty on a couple of things related to Portland, so if 
you would indulge me, if I could answer that for the record, I 
want to make sure that we get it right. It is the right 
concern, and I am concerned about it too but let me make sure 
we get you a fair and complete answer and if we could do that 
for the record, I would appreciate it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.009
    

    Mr. BLUMENAUER. I defer to that, we would rather have an 
accurate answer that does not haunt you or me. I would like 
some extra special attention to make sure that it is aligned 
properly. As I say, ours should be a region, I do not 
understand the special stresses, the lengthy time, it is 
driving the people that we are working with crazy.
    Mr. ASTRUE. I do know, Senator Cantwell asked a somewhat 
similar question last year in a hearing before the Senate 
Finance Committee and one of the things that is true for the 
Seattle region is the productivity of the ALJs tends to be 
lower than most of the rest of the country if I remember 
correctly. It is not entirely clear why that it is true. In 
Washington state, I think the rotation of judges up to Alaska 
is a factor, and we are trying to get a handle on that. But I 
am not sure----
    Mr. BLUMENAUER. I do not want mousetrap you, I respect your 
kind offer to spend a little extra time to try and get the 
facts nailed down.
    Mr. ASTRUE. I have also just got a note. One of the things 
I was checking here that was in my chart did not look accurate, 
and I am glad that I checked. So, I do have--ODAR just told me 
that there are two additional judges coming in Eugene and two 
coming in Portland, so there is some help coming. It may not be 
adequate, but we are going to do the best we can as fast as we 
can.
    Mr. BLUMENAUER. Well, I appreciate to know that there is a 
little help on the way, and I appreciate your kind offer to 
double check to make sure that we have got the facts and the 
situation in place and look forward to working with you and the 
agency to make sure that these people are properly served. 
Thank you.
    Mr. ASTRUE. Thank you, and we are happy to do so. We have 
sat down, particularly recently, with a number of the Members 
of the Committee to talk about the situations in their states, 
and we would be happy to do that for you as well.
    Mr. BLUMENAUER. I look forward to scheduling a few minutes 
to follow up to see what we can do together.
    Mr. ASTRUE. Great.
    Mr. BLUMENAUER. Thank you. Thank you, Mr. Chairman.
    Mr. MCNULTY. Mr. Linder may inquire.
    Mr. LINDER. Thank you, Mr. Chairman. Since the beginning of 
this hearing was used to blame Ronald Reagan for this crisis, 
let me just deduce some facts. It started in 1980 when Jimmy 
Carter agreed with two chairmen to increase the FDIC insurance 
from $40,000 to $100,000 and let us sleep a little less and it 
will become development companies, creating a huge market and 
jumbo CDs. Bill Frenzel proposed a solution to that four or 
five years later, and it would have cost $8 billion, it was 
turned down. That is just to put some facts on the table.
    Now, on to our subject. I want to follow-up with what Mr. 
Ryan first raised, between December 1 of last year and April 
22nd of this year, 17 of 18 appeals that we had before ODAR 
reversed, and it strikes me that somehow or another you need to 
inform me of the front-end or the back-end of this process. 
That is a 94 percent reversal rate.
    I want to raise an issue that is going to come before us 
shortly that and that is Mr. Schieber is going to report that a 
national Research Council report highlighted real 
vulnerabilities facing the agency if a systematic transition 
has not begun more moderate infrastructure including moving 
away from COBOL, a 1950s system, to a current technology. For a 
five year period ending in 1998, Congress gave $900 million to 
the agency and dedicated investment to information technology, 
what did you do with the $900 million and are you going to be 
looking for more?
    Mr. ASTRUE. The agency has made some significant 
investments in IT; we could not deal with hundreds of millions 
of American and their records and their service needs each year 
without relying on IT. I do think that some of the criticisms 
of the National Academy of Science report are well-founded. I 
think that the agency got comfortable with the COBOL technology 
and that the funding issues made it unrealistic to find a way 
out. I do think that we are to some extent painted into a box. 
For a number of the peripheral systems----
    Mr. LINDER. Excuse me, just a moment. If you are 
comfortable with a COBOL-based system, and you may be the only 
people still using it----
    Mr. ASTRUE. I am not telling you--I am saying we have been, 
I think my systems people will tell you I am on their case on 
this. We have about 36 million lines of COBOL code, and the 
question is how do we get rid of as much of it as quickly as we 
can.
    Mr. LINDER. The point is if you want to move this country 
and you to an electronic-based medical records system, you are 
not going to be able to do it with that system.
    Mr. ASTRUE. Right, so we have moved increasingly to web-
based systems, we are making some progress but given the huge 
amount of code that we inherited, it is going to take some 
time. One of the reasons, one of the things we would hope to do 
if we come to agreement with the states on the state system is 
move it out of the 54 separate--every time we make a change in 
state disability determination systems, Bill Gray and his 
people have to do 54 separate COBOL programs amending the 
status quo, and it is incredibly time consuming, expensive and 
it is a real issue going forward. We have been negotiating with 
the states for about 9 months to see if we can come to an 
agreement on specifications to go to a web-based system or 
something else that is non-COBOL-based that is unified around 
the country. It would be an enormous step forward if we can do 
that, and we are looking for other opportunities to do that, 
and we will have to ask for special funding from the Congress 
for most of the changes.
    One of the most problematic aspects of the NAS report is 
that the core of the system, which we call ``MADAM,'' is all 
COBOL-based and the magnitude of moving that system to anything 
other than what it is now. It is enormous. So I will be honest, 
we have got plans for a lot of the peripheral systems to move 
away from the COBOL. I think we are going to be able to do it 
on my watch. Technologically and financially, I do not think 
that on my watch we are going to be able to fix the issue with 
the core part of the program, but we have got to start a 
process toward doing that. That is probably a 10 year project 
and 10 years is probably past my half life.
    Mr. LINDER. Mine too, thank you.
    Mr. MCNULTY. Thank you, Mr. Linder. Mr. Pascrell may 
inquire.
    Mr. PASCRELL. Thank you, Mr. Chairman. Commissioner Astrue, 
am I pronouncing that correctly?
    Mr. ASTRUE. Yes, you are.
    Mr. PASCRELL. You have been very forthright today. We have 
confirmed that we have a large backlog of disability claims, 
and we confirm that this has a tremendous impact on applicants, 
extending the time period, et cetera, et cetera. You have a 
plan to reduce the backlog, you relayed it before the 
Committee. What is the administration's solution to this 
backlog since this has not just occurred in the last 6 months, 
this occurred over several years, has it not, Commissioner?
    Mr. ASTRUE. Right, it really started in 2001.
    Mr. PASCRELL. 2001.
    Mr. ASTRUE. Right.
    Mr. PASCRELL. More people come into the system. What is the 
Administration's overall plan to deal with this tremendous 
backlog in your mind?
    Mr. ASTRUE. Well, it divides really into two categories, 
one is as I think we have said pretty forthrightly, in terms of 
resources we have had what economists would call both an 
allocation issue, we have not had enough, and a distribution 
issue in that we have not been putting it in the right places. 
So I think we have laid out a fair amount of detail in the 
written testimony how we have been trying to do that.
    Mr. PASCRELL. So, Commissioner, if you looked at the 
demographics back in 2002 and you saw the shrinking amount of 
resources, I am not talking about you personally.
    Mr. ASTRUE. Thank you.
    Mr. PASCRELL. You saw the shrinking amount of resources, 
one could very easily conclude that we are heading for a 
disaster here.
    Mr. ASTRUE. Well, in fairness to people who were here, I do 
not think it was clear in 2001 what would be happening in terms 
of resources going forward. I am not sure that people actually 
believed that we would be under-funded to the extent that we 
were, so in fairness to people,----
    Mr. PASCRELL. You mean you think the administration did not 
know that, did not understand what the ramifications are?
    Mr. ASTRUE. I think we understood, I think the people that 
were within the agency understood what the ramifications would 
be if Congress under-funded us to the extent that actually 
happened. It did happen but in 2001, I do not think in fairness 
to the people who were here, I do not think that they 
anticipated that that would happen.
    Mr. PASCRELL. There are quite a few Social Security 
disabled in New Jersey in my district. Do you know the 
situation at Newark, 509 days per applicant.
    Mr. ASTRUE. Right.
    Mr. PASCRELL. That is not acceptable to you?
    Mr. ASTRUE. No.
    Mr. PASCRELL. It is sure as heck is not acceptable to me. 
The Social Security disability backlog has caused extreme 
hardship. You have to talk to the caseworkers in each of our 
offices. They get no accolades because we think all the action 
is happening down here. All the action as far as I am concerned 
that is significant is happening back in our districts. These 
constituents are unable to work but still must pay for their 
medications. There are other healthcare needs. They have to pay 
for their housing, living expenses for themselves and their 
families while they wait months or even years for SSA to hear 
their case. One New Jersey resident filed for disability 
benefits in 2005 due to severe coronary artery disease, 
recurrent congestive heart failure, requiring a pacemaker 
defibrillator, diabetes, orthopedic impairments, hypertension, 
other serious ailments, his case is still pending before an 
administrative judge. This is cruel and unusual punishment.
    Another constituent who applied for benefits in has not yet 
had a hearing and his temporary rental assistance is being cut 
off this month. Without help from SSA, he is going to be 
homeless. The anecdotal stories here are not anecdotal, these 
are real people that have faces on them. I know you care about 
that, I really do. I do not think there is a person on this 
Committee who questions your loyalty to the task and your 
ability to move forward, but you cannot do it without 
resources.
    Mr. ASTRUE. That is right.
    Mr. PASCRELL. What we need is more people in your 
department to speak out against what I consider to be an 
atrocity, and I do not believe you closed 17 offices during 
this period of time.
    Mr. ASTRUE. Well, actually to go through the numbers, we 
have in terms of a net, we went down I think just a couple of 
offices this year. We do every year and it is the exact same 
process that has been since the Carter Administration, although 
under my watch, we give more notice to Members of Congress than 
we have historically. Historically, we have only worked through 
district offices, so we now give duplicate notice to Washington 
offices as well. We typically for the last 30 years, contract 
about two to three offices a year. That has been pretty much 
the trend, it is the same process. The numbers you are hearing 
come from people that I think are trying to mislead you because 
just--they call a consolidation of two offices a closing, they 
do not look at the net because we open offices too. In fact, 
your colleague to your left, we had this conversation that part 
of the reason why we do this is that we have got places like 
Las Vegas and Atlanta that are exploding in population and if 
we have contracting resources, and we cannot move any of those 
resources, it means that Mr. Lewis' constituents and Ms. 
Berkley's constituents get short-changed compared to others. 
So, we kept it approximately level for a long, long time.
    Mr. PASCRELL. Well, then how many offices have you closed 
since 2001?
    Mr. ASTRUE. Net--again, we will give you the precise 
numbers. It is the exact same trend for 30 years. It averages 
two to three per years. There has been no significant deviation 
from that trend in terms of the net.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.010
    

    Mr. PASCRELL. Mr. Chairman, this is the lowest amount of 
employees for the problem that we have in 32 years.
    Mr. ASTRUE. Yes, that is right and what that creates is----
    Mr. PASCRELL. You cannot put icing on that one.
    Mr. ASTRUE. For Mr. Lewis and Mr. Rangel and the Members 
that have inner-city offices, I do not think that they fully 
appreciated that they take a disproportionate hit. Because if 
you cannot close the small, under-utilized offices, where we 
have lost a lot more employees and the people that are the most 
stressed now, and there are some exceptions from it, but it is 
the field workers in the inner-city offices and the major 
border city offices because we cannot create employees out of 
nowhere. If we do not have the money to pay for them, they 
disappear.
    Mr. PASCRELL. I agree.
    Mr. ASTRUE. So I do not think we have done anything 
radical. As a matter of fact, if you look at it in the big 
picture, it would not be unreasonable for Congresswoman Berkley 
to say to me you should close more so that you can----
    Mr. PASCRELL. Commissioner, my point is that the 
administration has been, not you, your Administration has 
been--the administration, the people who hired you, that is who 
I am talking about.
    Mr. ASTRUE. I will be honest with you, I run substantially 
independently. No one has told me from OMB that I have to do 
this or do that in terms of offices. I come in and in terms of 
the hearing offices, the processing centers, and the regional 
offices---I look at it and I try to balance it out to say, `` 
How can we serve the American people best?'' One of the things 
that I think is a bit different from before is that we are 
trying I think a little harder to be fair regionally but that 
means that resources have to be moved from one place to another 
and if you are one of the locations that is losing a resource, 
I understand that people are unhappy about that but at some 
point, when you have a city like Las Vegas that is exploding, 
it is not fair to say that an office that serves four times as 
many people in Las Vegas than in some place in the East in an 
area that is not growing should not get more resources. So, a 
lot of the moving around has been part of an effort to balance 
things out geographically and the general trend. If someone is 
telling you we have closed net 17 offices last year, they are 
just wrong.
    [Gavel.]
    Mr. ASTRUE. That might be right, it averages two to three 
years and it has been about the same trend and in part it is a 
reaction, as you say, to the long-term under-funding of the 
agency. We have been forced to make a lot of hard choices, we 
do the best we can.
    Mr. MCNULTY. Thank you, Mr. Commissioner. Thank you, Mr. 
Pascrell. Mr. Tiberi may inquire.
    Mr. TIBERI. Thank you, Mr. Chairman. Thank you, Mr. 
Commissioner, for being here today and spending time with us on 
a very important issue. I represent a district in Columbus, 
Ohio, central Ohio, you mention it in your testimony and know a 
lot of people who work in the local office, and they are 
hardworking folks, overwhelmed doing their job representing or 
trying to help people throughout central Ohio. I would also 
like to thank some of your employees in Springfield, 
Massachusetts and Orland Park, Illinois and in Roanoke, 
Virginia. I am sure Ms. Tubbs Jones will thank them as well 
because Ohio in particular has been using this new technology 
to allow claimants to go before a TV set and give their 
testimony. But, as you know, we are being just slammed.
    Mr. ASTRUE. Yes.
    Mr. TIBERI. Two years in central Ohio and now claimants are 
going before a TV set. I know you have addressed the situation 
or begun to address the situation, particularly in Cleveland 
but also a couple of judges in Columbus and a few in Cincinnati 
as well. You mention in your testimony that after you deal with 
Cleveland and Atlanta, you are going to deal with Columbus and 
Indianapolis, so one question is how are you going to do that? 
In doing that, are you also prepared to look at not just the 
judge issue but also the support staff issue, the hearing room 
issue and all the related issues that our constituents face 
because it is obviously not just one problem that we need to 
solve, it is myriad of problems throughout the entire system 
that a person is backlogged for two years on.
    Mr. ASTRUE. Right, so the good news from your perspective 
is we did look at the regional variations, and I believe that 
Ohio is the big winner in the country.
    Mr. TIBERI. Because we were the big loser.
    Mr. ASTRUE. You were the big loser before and that is 
right, and I think you have 13 administrative law judges coming 
into the state of Ohio, and so that is a first step. I think 
that you put your finger on having the ability to move quickly 
with the electronic hearings is critically important to 
addressing these backlogs and, again, because they can spring 
up very quickly. A lot of these offices are four or five or six 
people. You have a judge retire, you have a couple of judges 
that all of a sudden become dysfunctional, and it makes a huge 
difference in that local area. So, having the capacity to have 
some judges in a few central locations who can move quickly 
into the areas of worst backlog and help them out as we have 
been helping Cleveland out----
    Mr. TIBERI. But you still need hearing rooms for the 
claimant to go to.
    Mr. ASTRUE. Yes, that is right. In some places in the 
country, we are pretty well set for that but to make this 
easier, and I went through this with Mr. Levin personally a 
couple of weeks ago, Oak Park is a pretty bad situation as well 
and right now they do not have the hearing rooms equipped so 
that people can have electronic hearings from other locations. 
That equipment is being put in now, and there will be four of 
those hearing rooms in Oak Park. So, we have gone through a 
fairly systematic review of facilities with the new model of 
realizing that this is going to be part of what we do going 
forward to make sure that the physical space in the various 
hearing rooms gives us the opportunity to get help from the 
outside because it is critically important for the most 
backlogged offices.
    Mr. TIBERI. So, what is the plan? You mention in your 
testimony that Columbus, Miami, Indianapolis are next on the 
docket----
    Mr. ASTRUE. Right.
    Mr. TIBERI [continuing]. To address this problem, how do 
you----
    Mr. ASTRUE. Right now, we have a pilot national hearing 
center with five administrative law judges just hearing cases 
from Detroit, Cleveland and Miami. We are trying to add another 
14 between now and the end of the year. We are hoping that we 
can move more quickly than the norm because we are not trying 
to get new space, with all the contraction, we do have some 
excess space in some of our facilities and generally we can 
renovate space much faster than acquiring new space. So, what 
we are trying to do is expand in Falls Church, which is where 
ODAR is headquartered, we have been able to access some space. 
We believe we are going to be able to access space in the 
relatively short run in Chicago and Albuquerque, and so we 
should be moving up in the range of 20 to 25 national hearing 
center judges fairly soon. Whether we can get them on board by 
the end of the fiscal year, we are not sure yet for all of them 
but we are going to try.
    Mr. TIBERI. Well, I hope you will allow me to follow up 
with your staff on Columbus and central Ohio as it progresses.
    Mr. ASTRUE. Right, I would be happy to do that.
    Mr. TIBERI. I yield back.
    Mr. MCNULTY. Thank you, Mr. Tiberi. Ms. Berkley may 
inquire.
    Ms. BERKLEY. Thank you very much, Mr. Chairman, and let me 
personally thank you for being so helpful to me and my office 
on this issue and many others. Thank you very much for being 
here, I enjoyed the meeting that we had in the library a few 
weeks ago, and I appreciate the forthright manner in which you 
are addressing the Committee. We all seem to be on the same 
page and have the interests of our senior and disabled 
population in our minds when we are discussing these issues.
    As you are well aware, Mr. Commissioner, my district of Las 
Vegas has one of the fastest growing senior populations in the 
country, therefore it is very important to me that the area 
field offices and the card center have the resources and 
personnel that they need to provide our seniors with the 
quality of service that they deserve and have earned.
    Since the Las Vegas card center opened last year, I have 
worked very closely with the Social Security Administration and 
our local employees in the office to address a number of the 
problems. You are well aware of the problems that we started 
with.
    Ms. BERKLEY. They range from inadequate signs, the first 
time I went to the Card Center, I thought I was going to a 
dermatologist office, and I am glad that we were able to fix 
that. There was insufficient seating for the elderly and 
disabled, people were standing for hours. There was 
insufficient staffing, long, long wait times and long lines 
where many of my--the lines were so large that they were going 
out the door and in 110 degree temperature having older 
Americans and disabled standing out in that heat was obviously 
very dangerous as well as unacceptable.
    I cannot thank you enough and after listening to all of my 
colleagues' problems, I am a very grateful person but you have 
helped us to correct the majority of the deficiencies at the 
Card Center.
    Mr. ASTRUE. Right.
    Ms. BERKLEY. We have added 70 seats, which makes a big 
difference, seven additional employees, all 19 windows are now 
open for service, wait time has dropped from well over two 
hours to less than a half hour, all of that is just wonderful. 
I do have still concerns that I would want to share with you. 
There is some concern about the Card Centers, and you know that 
even though the Card Center is centrally located in Las Vegas, 
it still services many of the rural areas that surround Las 
Vegas. I know that, although they are not my constituents, they 
are Nevadans, that they can go to their field office, there are 
hours but there only once a month. Perhaps, and listening to 
other people's problems, this may not be as significant as some 
of the others but if you are one of the people living in these 
rural areas with no access, it becomes a problem, perhaps we 
can rather than once a month going to their field offices, 
perhaps we could make it a little easier by extending that to 
maybe twice a month if that is possible.
    Also, I received I would not say complaints but there are 
some concerns that the employees had a lot of overtime between 
January and tax day, maybe that is just standard operating 
procedure and maybe with the additional employees that have 
been assigned to Las Vegas, that problem will be eliminated, 
but I think I feel the need to share that with you.
    We also have one of the shorter waiting times for 
disability decisions with an average of less than a year, but 
having heard what some of my colleagues said, even a year in my 
opinion is a shamefully long time if you are waiting for these 
disability benefits.
    But my question to you is this under the President's 
budget, SSA would make progress in addressing the disability 
backlogs but it seems that it is at the expense of other areas, 
other non-disability areas. If this is the case, it seems that 
the backlog in other areas would rise dramatically, and we 
would lose ground in areas that we have really made some 
progress. Is that the case? What do you recommend and how much 
would it cost to avoid this decline in service to the public? 
How much more do you need? Perhaps Congress ought to take some 
responsibility for this, if you do not have the resources to do 
the job we are tasking you with, what resources do you need 
that we should be putting in your budget?
    Mr. ASTRUE. Sure. I would like to give you a more detailed 
response for the record but let me give you a short response. 
This year's appropriation, for which we are grateful, and the 
President's budget for next year allow us to not only improve 
with the disability program but also to make some significant 
investment in systems, to bolster the field offices, to bolster 
the teleservice centers, so there will be continued improvement 
in the front line services. We have tried to be very 
transparent about what we think we are going to have difficulty 
doing, and we are trying to get to as many of those as 
possible. We laid those out in the President's budget. We have 
actually made some progress in some of those workloads because 
we have had an unexpectedly large increase in productivity so 
far this year, so we actually are a little bit ahead of 
schedule on some of these back-end workloads. There is some 
softness in the numbers because we cannot track a lot of these 
things very accurately but it is in the range of $400 million 
in terms of the things that we are not doing in order to get 
staff up to that level.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.011
    

    Ms. BERKLEY. Was it $400 million or $400 billion?
    Mr. ASTRUE. $400 million.
    Ms. BERKLEY. Million; ``M''.
    Mr. ASTRUE. I think we deliver pretty good value for the 
money. The people work very hard, the systems are getting 
better and better to make them more productive, and so you get 
a lot for your dollar in my opinion in Social Security.
    Ms. BERKLEY. Let me ask you one other question, I just did 
not understand if that is $400 million over----
    Mr. ASTRUE. Yes.
    Ms. BERKLEY [continuing]. The budget?
    Mr. ASTRUE. Yes, we identified the workloads where we did 
not ask for the money this year so that Congress would 
understand what choices we were making in terms of the 
prioritization. If they thought we made inappropriate 
prioritizations, you have the information to choose 
differently.
    Ms. BERKLEY. Thank you very much.
    Mr. MCNULTY. Thank you, Ms. Berkley. Ms. Tubbs Jones may 
inquire.
    Ms. TUBBS JONES. Good afternoon, Commissioner, how are you?
    Mr. ASTRUE. I am fine, thank you. How are you?
    Ms. TUBBS JONES. I am doing very well, thanks. How long 
have you been in office now?
    Mr. ASTRUE. About 14 months.
    Ms. TUBBS JONES. About 14 months. I guess our first meeting 
was not probably the most exciting of your meetings, and I 
really do want to compliment you on the work that you have 
done, and I could put up statistics that justify the additional 
six judges in Cleveland. I want to thank you for them, and I 
will not put the statistics on the record, you already know 
them. I was so excited to be able to say some wonderful things 
to you but do you know what?
    Mr. ASTRUE. Oh, do not spoil it now.
    Ms. TUBBS JONES. Enjoy that moment because I am coming 
after you right now.
    Mr. ASTRUE. I know, I know.
    Ms. TUBBS JONES. I was a judge for 10 years, Commissioner, 
and I have been working the 10 years I have been in Congress 
with administrative law judges of the Social Security 
Administration, and you just threw them under the bus. You just 
threw those judges who do such a wonderful job under the bus by 
talking about one who has not heard a case in seven and a half 
years, by talking about another, I do not even remember what 
the heck you said about them, but I wish--see, I have learned 
that when you oversee a group of folks that not only do you 
challenge or chastise those that cause problems, you spend as 
much time saying great things about the people who keep the 
ship up when they do not have the kind of support that they 
need. I think that if you said it, I missed it, so I am going 
to give you the opportunity to say it again, the great work 
that the administrative law judges who are there, who are 
handling the kind of caseloads that they have, do a great job. 
I think you owe it to them, Commissioner.
    Mr. ASTRUE. I have answered the same type of question 
several times from different angles. I have said here, first of 
all, the vast majority of them do great work, and I said that 
here earlier.
    Ms. TUBBS JONES. Say it again so all those administrative 
law judges can hear you say that, the vast majority of them.
    Mr. ASTRUE. The vast majority of them do great work. Then 
also in particular I gave them credit. This is a year where we 
have seriously had contracting resources in ODAR, and the 
progress on the backlog is pretty stunning. The increase in the 
pending is coming down dramatically and it is because not just 
the ALJs but the attorney advisors, the support staff, the 
whole team, they are working together as teams. The 
productivity is up about 10 percent, at least in the measure 
that I consider most important, and I know some of the staff 
behind me has differences of opinion, they have different 
measures. But if you look at dispositions per ALJ per day, and 
again that is attributing the attorney-advisor decisions and 
those things to them, they are up about 10 percent this year. 
The backlog would be a lot worse without that improvement and 
there have been some particular offices that have been 
historically problematic that have done terrific work. But I do 
feel that I have to identify that there is a minority, it is 5 
to 10 percent, where there are both conduct issues and 
productivity problems.
    Ms. TUBBS JONES. That is what I want, that is what I want 
you to make it clear for the record because there is 5 to 10 
percent and that means that you have a 95 or 90 percent staff 
who are doing a great job. It is important to me.
    Mr. ASTRUE. Trust me, we are absolutely on the same 
wavelength.
    Ms. TUBBS JONES. Okay.
    Mr. ASTRUE. But you are in at the point now where I believe 
in Cleveland you will have 15.
    Ms. TUBBS JONES. Thank you. I am going to stand up and say 
thank you.
    Mr. ASTRUE. If you have one who is not carrying weight, you 
might not see that much of an immediate impact but for some of 
the other Members here, we have offices in----
    Ms. TUBBS JONES. I do not want to get lost in that, I do 
not have a lot of time.
    Mr. ASTRUE. Okay, right.
    Ms. TUBBS JONES. I just wanted it to be clear.
    Mr. ASTRUE. Alright, I think we are in agreement.
    Ms. TUBBS JONES. Okay.
    Mr. ASTRUE. Okay.
    Ms. TUBBS JONES. Tell me, there is one other area that I 
have some concern about, and I would ask you to take a look at 
it, would you? Ohio is one of those states where there was a 
higher than average first time approval rejection, am I saying 
that correct?
    Mr. ASTRUE. I understand.
    Ms. TUBBS JONES. You understand what I am trying to say, 
right?
    Mr. ASTRUE. The denials are higher.
    Ms. TUBBS JONES. I mean denials, yes. I am not asking you 
necessarily to give me an answer today, but what I would like 
to have happen is to have a look at not only Ohio but other 
places across the country where we seem to have that, can we 
figure out what that can be attributable to.
    Mr. ASTRUE. Right. It is a great question, we are getting 
it from a couple of other Members as well. That statistic 
looked at in isolation can often be very misleading because the 
composition of the filings, the demographics are very different 
from state to state. Interestingly, some of the states with the 
lowest allowance rates, which should give you, it is a first 
level cause of concern and you are asking the right question. 
But when you look deeper, they are putting a higher percentage 
of people on to disability than most of the states with very 
high allowance rates and part of that is--and I know there has 
been some criticism of insurance companies lately on this point 
but in my world, what I hear anecdotally from people on the 
line is that a number of states have policies that refer people 
to us and make us make a decision before they get state 
benefits of one kind or another and it is a budget device. What 
that means is that we get a lot of people that probably should 
not be there in the first place that have to go through our 
process to comply with state requirements.
    Ms. TUBBS JONES. Well, then what I would ask you to do is 
for someone in your shop to work with us to see if we can 
address that particular issue.
    Mr. ASTRUE. Okay.
    Ms. TUBBS JONES. Because it then becomes your business 
because it is in your shop and it may well be the business of 
the particular state, and we have an obligation to sit on the 
state agencies as hard as we sit on you.
    Mr. ASTRUE. Right, so we will--I accept that as a charge, 
so we will look at that. We will give you as much detailed 
information about Ohio policies as possible so you can decide 
whether----
    [the information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.013
    

    Ms. TUBBS JONES. Who I want to beat up in Ohio.
    Mr. ASTRUE. Yes.
    Ms. TUBBS JONES. Thanks, Mr. Commissioner.
    Mr. ASTRUE. Thank you.
    Mr. MCNULTY. Thank you, Ms. Tubbs Jones. We have now 
completed the first round. I think there are just a couple of 
requests for follow-up. I think Mr. Brady had a follow-up 
question.
    Mr. BRADY. Thank you, Mr. Chairman. I will be brief and 
thank you for the courtesy by the way. Commissioner, I know 
that earlier this year, you suspended a proposed rule dealing 
with reforms of the inefficiencies of the appeals process, and 
I know you have been having conversations with various interest 
groups on those rules. I want to encourage you to do that, but 
I hope you understand that a number of us want you to pursue 
reforms in the appeals process. No reasonable person can 
justify the system we have today. We are not seeking efficiency 
for efficiency sake. We are seeking a quicker appeals process 
that is fair and more accurate and hopeful that if we can do it 
as efficiently as possible, other resources can be used to 
quicken the process and make it more fair and accurate 
throughout the whole system. So, I hope you will continue to 
pursue the reforms that Congress needs to take.
    Secondly, I appreciate the straight talk about our 
administrative law judges or any other part of the system. We 
have needed this for a long time to improve the system. It may 
not be comfortable but whether it is, we have some judges or 
staff or whatever who are not productive and a Congress that is 
not providing you the resources you need, we need to hear that 
type of straight talk, so thank you.
    Final point, in the system today, just looking and 
reviewing the original definition of ``disability,'' clearly 
medical advances, occupational advances, the fact that a 
quarter of the jobs we have today did not even exist 25 years 
ago. There are now opportunities where people who would be 
disabled and have no chance for a work life, today because of 
advances in medicine and technology are able to do that. At the 
DDS level, has there been an effort to expand beyond just the 
medical diagnosis of disability to incorporate occupational 
experts who can identify a potential work life that a claimant 
could have so that we are looking at disability in the 21st 
century, occupational disability rather than just as a medical 
issue as it was originally I think probably developed?
    Mr. ASTRUE. Yes, good questions. So, in terms of the 
regulation question, I am proud of the fact that we have made 
an enormous amount of change in the last year, 99 percent of 
that has been relatively uncontroversial. We got caught off 
guard on the objections to a couple of the provisions of this 
regulation. I still think on the merits, we were trying to do 
the right thing for the right reason but the costs of having 
the argument are not worth it. We have had pretty good 
discussions with the advocates, and we think actually there may 
be--it may be 18 months down the road but there may be some 
better ways of getting to substantially the same result once we 
have better systems, and we can do queuing theory for docketing 
and that type of thing. So, we are hoping, we are not giving 
up, we are going to try to get to the same general result 
through a different process.
    In terms of medical advances, I probably should not say 
things like this but actually I think one of the things you 
should have been critical of the agency for many years is we 
have not been good enough about keeping up. One of the reasons 
why cases are decided wrongly by the DDS is we do not give them 
clear enough guidance or updated enough guidance. We have had 
regulations on our listings issued on my watch that had not 
been updated since 1979, 1985 for the digestive listing and 
that is not acceptable. Right now, we are on a five year 
schedule for every regulation. If you look at the docket, you 
will see we are issuing a lot more regulations in the medical 
area than we have historically. We are doing every five years 
now, we hope to actually do every three years, I do not know if 
we are going to be able to get there. But I think that is 
critically important, and we are making it harder for that 
staff because we are asking them to go to a level of detail 
that they have not gone down to before. We have typically 
stopped at a fairly high incidence rate. If you look at the 
cases that go off track, a significant percentage of them are 
ones where it is not the DDS' fault, it is our fault in 
Woodlawn because we have not given them sufficient guidance.
    Mr. BRADY. I guess the question is more directly did DDS 
examiners and ALJs have access to the occupational experts who 
can help determine if there is a work life that is available to 
a claimant?
    Mr. ASTRUE. Right. To a large extent, yes, although there 
is an issue in some places in quality and quantity because I 
think we have not increased the compensation for these folks 
for decades. We are hoping to do that for both the medical and 
the vocational experts. We also need to do better in the 
vocational area. We have relied historically on a guide 
produced by the Department of Labor, which they have decided 
not to produce anymore, so we are going to try to take that 
over and not only update it but improve it and adapt it more 
for our purposes than what the Department of Labor does. So, I 
do not think it is a crisis in terms of where we are, but are 
we at best demonstrated practices? No. Can we do better? Yes. 
Are we trying to get there? Yes.
    Mr. BRADY. Thank you, Mr. Chairman. Thank you, Mr. Brady. I 
believe Mr. Becerra had a follow-up.
    Mr. BECERRA. Thank you, Mr. Chairman. Commissioner, again, 
thanks very much for your time and all the responses and please 
continue do the work. As I said to you, I did not have a lot of 
space in my 5 minutes for good news, but I think in every 
respect your responses prove that you are trying to do what you 
can personally, Michael Astrue is trying to do what he can as 
the Commissioner to make changes, so we appreciate that. I urge 
you to continue to be candid with us. As I said, I urge you to 
shake things up. When you come here, shake them up not just 
internally but when you come here shake them up. Recognize that 
you have to obviously get your paycheck but if you do the right 
thing, you will get paid more than just with a paycheck, so I 
just urge you to continue what you are doing.
    Mr. ASTRUE. Thank you. We have been doing a fair amount of 
shaking up. We have been trying to do it as politically 
sensitive away as possible. I also should say I have really 
been blessed in that we have put together a fairly new team. 
There has been a lot of shaking up within the agency, and they 
have just really come together and done an absolutely first 
class job, This agency is too big for any one person to change, 
and I give a lot of credit to a lot of the people sitting 
behind me and some of the people who are not here today.
    Mr. BECERRA. I would love to see it register on the Richter 
Scale so you keep at it.
    Mr. ASTRUE. Okay.
    Mr. BECERRA. Support staff?
    Mr. ASTRUE. Yes?
    Mr. BECERRA. You did not have a chance to get to the 
question to answer because I ran out of time but I do not know 
how much you can give us now but perhaps in writing give us a 
more elaborate response but I am very concerned that as you 
hire the ALJs that we know we need, you will not have the 
support staff. You already do not have the support staff, so to 
hire at less than a one to one ratio when you need a four to 
one or so or five to one ratio.
    Mr. ASTRUE. Yes, so let me give you the short answer. We 
will give you a longer answer for the record because I do think 
that some people, their heart is in the right place, have 
misunderstood some of our budget numbers. So, one of the things 
that we did even in a time of contracting resources, we 
realized that the judges cannot do the work without the support 
staff, and we knew approximately when the judges were coming 
in. To make it as seamless as possible, we advance hired 
support staff in anticipation of the new ALJs to some extent. 
So, on my watch we started at 4.1 support staff per ALJ. Unlike 
a lot of the rest of the agency, that did not go down, that 
went up. So, that went up to about 4.4. When the new judges are 
absorbed and with the hiring that we also are doing of support 
staff, we will be back down to about 4.1.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.013
    

    Now, an interesting question is that the right number or 
not? For the time being, I think that will work. But one of the 
things that we do not know and what we want to be a little 
careful about over hiring. The profile of staffing you need is 
going to change fairly dramatically when you move from an 
antiquated paper system to a relatively good, admittedly 
needing some improvements of the electronic system profile of 
people and the number of people that the old studies from 1991 
indicated really do not make any sense anymore. So, we are 
looking at that.
    Mr. BECERRA. Okay.
    Mr. ASTRUE. But we understand how important they are.
    Mr. BECERRA. Please and if you can just elaborate more in 
writing, that would help us to understand how you are going to 
do it.
    Mr. ASTRUE. We would be happy to do that.
    Mr. BECERRA. Field offices, do you have any plans to close 
any field offices this year?
    Mr. ASTRUE. My understanding is that we do not have any 
plans pending other than we worked through local communities 
and the political leaders. We do some consolidations and that 
type of thing. We do relatively few over the objection of 
Members of Congress and political communities. There are none 
of that profile now. There are some routine consolidations 
going on and, again, I do not know. I do not get terribly 
involved in this process, the career people run it. Your best 
guess is that the future is going to look like the past. The 
net, there will be about 15 to 20 offices that are affected in 
some way. Net is at the end of the year we will be one to three 
fewer probably, but it might not be that many. There is no goal 
or anything like that. There has been I think some very 
regrettable partisan attacks saying that there are plans to do 
something that is a huge break from the past, and we are going 
to cut half the offices, and I just want to denounce that here. 
I think it is being done for partisan purposes. It scares 
employees. It scares the public. I think it is shameful. So, 
again, I have been up explaining this over and over again. It 
is no different from when I started. It is no different really 
since the Carter Administration, it is going to be about the 
same.
    Mr. BECERRA. Then on that, again, if you just keep us 
informed.
    Mr. ASTRUE. Will do.
    Mr. BECERRA. Perhaps in writing give us a more elaborate 
answer to that.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.014
    

    Mr. ASTRUE. Would be delighted.
    Mr. BECERRA. Finally just a quick comment, on the appeals 
process, I want to say thank you very much for taking a breath 
before you move forward in instituting some of the changes that 
have been proposed to the system, which many of us believe 
could have hurt the process because it would have made it more 
burdensome upon the claimants, the beneficiaries, so we 
appreciate that and we hope you will continue to keep us 
apprized and all the stakeholders apprized and allow them to be 
a part of any system that you ultimately recommend.
    Mr. ASTRUE. Okay, thank you.
    Mr. BECERRA. Thank you.
    Mr. ASTRUE. I should also note by the way I was out in one 
of the hearing offices in your district just a couple of weeks 
ago, which is the historical low performer for about a decade 
in the system, and we sent them a signal that things needed to 
change. I have to be honest, I was dubious that would happened 
but if you actually look at the statistics in your Pasadena 
office, there has been a remarkable pick-up in the last six 
months. The spirit there seems to be very different and so in 
terms of--part of this, as you were saying, is cultural and 
insisting on change. So, at least, I think you have got about 
four hearing offices in the vicinity of your district, one of 
them has really made a pretty substantial improvement in the 
last six months, so it can happen.
    Mr. BECERRA. Thank you very much. Mr. Chairman, thank you.
    Mr. MCNULTY. Thank you, Mr. Becerra. Mr. Meek may inquire.
    Mr. MEEK. Thank you, Mr. Chairman. I have been in a couple 
of meetings in my office, but I have been listening to some of 
the questions that I wanted to raise here that have already 
been raised at least eight or nine times. You have been very 
skillful, Mr. Administrator, of trying to give the same 
response. But let me just say this very quickly, all of us are 
victims of closing of offices and also backlog of hearings or 
appeals, I have a two to three year backlog. As you know, 
myself and Congresswoman Debbie Wasserman-Shultz and Alcee 
Hastings from south Florida fought vigorously to keep the 
Hollandale Beach office in my district open to provide services 
for the people of south Broward County in Florida--I mean in 
Hollywood, Florida. But I wanted to ask the one thing I did not 
hear, and I was checking with my staff, have you all researched 
in any way possible some sort of information that can be 
gathered so we will not have so many of these appeals to try to 
cut them in half because right now the backlog as we look two 
to three a year, what kind of work has gone into trying to--I 
even heard your response about a person who was a judge and has 
not heard a case in seven some odd years, but is there anything 
being done outside of making sure that all hands are on deck to 
hear these cases to clear up the backlog or seeing if some of 
these cases can be resolved prior to a full blown hearing?
    Mr. ASTRUE. Sure. Again, that has been an important part of 
the initiative and it gets complicated, so with your permission 
I will supplement for the record but let me give you the short 
answer. We have two I think successful to date initiatives at 
ODAR to essentially take those cases out of the system and 
decide them quickly. One is we have gone back to a Clinton era 
initiative, that I am not entirely clear why they terminated, 
that gave more authority to attorney advisors to get rid of 
cases of certain profiles to just allow them----
    Mr. MEEK. I am sorry, you said attorney advisors?
    Mr. ASTRUE. Attorney advisors, we have lawyers who work 
essentially like law clerks for our judges in the hearing 
offices and when I came, they could not decide anything, they 
only could draft for judges to decide. But a lot of the judges 
are overloaded and some of evidence cases changed. Maybe a 
technical issue that has changed. There are categories of cases 
that we do not need to bother an administrative law judge for, 
so in these cases the Attorney--advisor program has been 
reasonably successful. I think that program is actually 
continuing to add improvements.
    Our Office of Quality Performance has been instrumental in 
helping us design templates where we can now analyze the 
caseload electronically and look for markers that suggest that 
this might be a case that is off profile, that needs more 
development or should just be allowed, and we have taken those 
cases and generally sent them back to the DDSs for a decision, 
a lot of those cases are allowances.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.015
    
    [GRAPHIC] [TIFF OMITTED] T8116A.016
    

    We are also, as I mentioned to the Members of for the 
Michigan delegation, in those states that do not have 
reconsideration, it is probably more likely that there is a 
higher percentage of cases going to ODAR that probably should 
not be there in the first place. So we are looking at some new 
screens and we are up and running I think in June and July in 
Michigan to try to see if before those cases ever get into ODAR 
at all, whether they should either be sent back to the DDS or 
they should go to ODAR with the suggestion that they should 
consider a prompt allowance.
    Mr. MEEK. Let me ask this question because, as you know, we 
are under time limits. Have those reforms as it relates to 
taking down the backlog before you get to a full blown hearing, 
I heard you talk about the fact that the appropriations process 
has not been helpful, and I am pretty sure the Office of Budget 
and Management has not been the best friend in the world of 
setting the stage already.
    Mr. ASTRUE. I actually do not have any complaints about the 
OMB. I will be honest we did better with them than I thought we 
would.
    Mr. MEEK. Okay, but it is not the ideal world that we need 
to get us out of the hole.
    Mr. ASTRUE. Not the ideal world.
    Mr. MEEK. So, I guess has this been highlighted in your 
request this year of saying these--especially with the backlog 
issue, are these issues Congress you can look at in helping us 
deal with the backlog because if that is--if these reforms are 
working, then these are the things that we need to look to in 
the short term, especially under these budget restraints that 
we are under now, of how we can deal with some of those cases. 
My wife is an administrative law judge, and I can tell you 
right now, not for you all, I just want to clarify that.
    Mr. ASTRUE. My wife used to be a Democratic staffer for a 
Congressman.
    Mr. MEEK. I just want to clear that up, but I think it is 
important that we look at these, the things that are working 
maybe below the radar screen but would help break down the 
backlog because I can tell you right now, I have constituents 
coming into my office saying, ``I do not know why I am coming 
to see you because you have not been able to do anything about 
my problem.''
    Mr. ASTRUE. Right.
    Mr. MEEK. So I am thinking that if we can get that, if 
someone from your staff, at least for me, I will be an advocate 
as it relates to the appropriate appropriations Committee of 
dealing with this and saying we need to pinpoint money right 
here so that you have the kind of army you need to deal with 
those cases and set them on priority, you may be able to clear 
a lot of them.
    Mr. ASTRUE. That is a great question, I would be happy to 
work with you on this. One of the things that I think is 
important to keep in mind is that for the first part of this 
decade, the backlog was going up pretty consistently about 
75,000 cases a year. In my first fiscal year, that dropped to 
about 32,000. I think annualized right now, and I will correct 
this for the record if I am misremember, we are at about 
24,000. It is not where we want to be. We have had fewer 
resources, and so there should be real progress when the 
resources come. Those initiatives that we put in to try to put 
our finger into the hole into the dam right from the get-go, I 
think have been working pretty well. We may need your help on 
some of these. So, for instance, I think the attorney--advisor 
proposal initiative has been helpful, it is a factor in keeping 
the backlog down. Right now, it is a sun-setted regulation so 
that will come up for permanent extension with the new 
Administration and, as undoubtedly you know, I am going to be 
inflicted on the next Administration. I think it is highly 
likely that we are going to want to work with the new 
Administration to make sure that that program is extended at a 
minimum and maybe we will want to expand it in certain ways. I 
think it is going to be important probably for some Members of 
this Committee to be fluent on what we are doing, satisfied 
that we are doing the right things and help us with the new 
Administration, whoever it is that is trying to figure out what 
to do. We are doing the right things here on some of these and 
where we are going to need help with the new OMB.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.017
    

    Mr. MEEK. Well, thank you so very much for your response. 
Mr. Chairman, I thank you for your work in this area. As you 
know, I am the only Member from Florida on this Committee, and 
with all of the folks that we have involved in Social Security, 
you know this is a majority priority for us, so thank you, and 
I look forward to working with your staff.
    Mr. ASTRUE. Thank you.
    Mr. MCNULTY. Thank you, Mr. Meek. If there are no further 
questions, we will close the first panel. On behalf of Chairman 
Rangel and Ranking Member McCrery, I want to thank you, 
Commissioner, for being with us today for your testimony.
    Mr. ASTRUE. Thank you.
    Mr. MCNULTY. For your hard work on this issue and for 
staying with us for about three hours to answer our questions. 
Shortly, we will adjourn the first panel, and I will turn the 
Chair over to Dr. McDermott, who is going to chair for the 
second panel. But before I do that, Commissioner, I know that 
you are very serious about tackling this backlog problem. You 
have shown that, you have demonstrated that by your actions, 
and we have been there to try to help you with the additional 
money in last year's budget, even more in this year's budget, 
and we want to keep moving in that direction. I know you have 
looked at this problem from the perspective of the agency, and 
I know you have traveled around the country to look at it from 
the perspective of our constituents, the American citizens. I 
just want to leave you with a thought about looking at it from 
our perspective, the representatives of the people. One of the 
things that we kind of pride ourselves on when we serve in 
elective office, and I have served in elective office for 39 
years, is that when a constituent comes to us and asks for 
help, that we get them an answer in a timely fashion.
    Mr. ASTRUE. Yes.
    Mr. MCNULTY. We have all had the experience of having 
constituents come to us, meet with us face to face with what 
seems to us to be a very obvious case where they deserve these 
benefits, which they have paid for, and we respond back to 
them, ``We will get back to you with an answer in a year or two 
years or more.'' This is an example of government at its worst. 
It is an embarrassment to us as representatives of the people. 
Many Americans are suffering because of what has gone on in the 
past with regard to this backlog issue. I am one that does not 
tend to look backward and try to assess blame as to how we got 
into the situation that we are in, I want to look forward and 
figure out how the hell we get out of this thing and get back 
to a position where we are properly representing our 
constituents and making sure that when they are entitled to 
benefits from their government, which they have paid for, that 
they get them in a timely fashion. So I exhort you today, 
Commissioner, to keep doing what you are doing, let us know 
when we need to do more because we want to step up to the plate 
and make that happen. Also that we all be on guard to make sure 
that other peripheral outside issues do not end up interfering 
with this modest progress that we have made up until now and 
which we hope we can accelerate in the weeks and the months and 
the years ahead. Thank you, Commissioner.
    Mr. ASTRUE. Thank you and I agree with you 100 percent. 
Again, thank you for your support, Mr. Johnson's support, the 
support if the entire Committee has been vital to help turning 
around things, and we are going to count on you at least as 
much going forward, so thank you.
    Mr. MCNULTY. Thank you, Commissioner. We will hear from the 
second panel and Dr. McDermott will assume the Chair.
    Mr. MCDERMOTT [presiding]. The Committee will come to 
order. Witnesses on the panel would take their seats at the 
dais, we welcome you and we also are grateful that you have 
stayed, waiting three hours. You have now heard from the 
administrator and the Committee a variety of perspectives about 
what the problem here is and what ought to be done and so 
forth. You have all submitted testimony to the Committee, and 
without objection, your full testimony will be put into the 
record. I would hope that as you testify here, you do not 
merely re-do what is in your report because it is already 
there, and what we would like most from you is to respond to 
what you have heard so far. I think that although there are 
just a few Members here, there are plenty of staff listening 
and so this is an important learning experience for us, to hear 
your response to what the administrator said. I hope that with 
that in mind, you will adjust your testimony. I know after you 
have spent all that time belaboring over it, it is desirable to 
come and read it to us but do not please. We really want to 
hear what you have been thinking about for the last three hours 
as you have sat and listened to this hearing.
    We have today with us Mr. Schieber, who is the Chairman of 
the Social Security Advisory Board, and we will start with you, 
Mr. Schieber. If you will press the little green button there 
in front of you, I think you can probably get on the air.

 STATEMENT OF SYLVESTER J. SCHIEBER, CHAIRMAN, SOCIAL SECURITY 
                         ADVISORY BOARD

    Mr. SCHIEBER. Mr. Chairman, Mr. McCrery, I want to thank 
you and all the Members of the Committee for holding this 
hearing, this is extremely important. I have been on the Social 
Security Advisory Board since January of 1998. The first report 
we wrote when I joined the Committee, the Advisory Board, was 
on disability. I think we have done some 15, 16 reports, 
statements, major statements on the disability program since 
then. In many regards, we have known for quite a long time 
about the problems that we are talking about today. They were 
on the horizon long before they got here.
    I think as you think about this problem and how to address 
it and some of the issues that were raised in the earlier 
discussion, we need to think about this as a process from 
beginning to end. Part of the problem here is that there is no 
one single owner of the process throughout its various stages. 
You start with your application at the DDS level but that is 
really not a single process itself. There are 50 states, each 
has its own independent DDS. In addition to the 50 states, we 
have got four other systems, one for the District of Columbia, 
one for Guam, the Virgin Islands and Puerto Rico. Just in terms 
of operating systems, there are three broadly used systems but 
then two of the states have their own hybrid systems that they 
use. Even as they implement them on single platforms, there are 
variations from one state to another.
    We heard a bit this morning about the need to move away 
from COBOL. The Social Security Administration, as they move 
into the electronic age, has been forced to cannibalize 
operating budgets to try and move out of the fifties technology 
platform that they are on and that has simply not been enough. 
They recently moved to the electronic disability folder and now 
virtually all of their applications are taken in electronic 
form. But to a considerable extent they cannibalized their 
operating budgets during the period they were developing that.
    A number of years ago, I was doing a presentation, I have 
worked in the private sector over virtually all of my career 
for a major investment organization, and the chief executive 
officer was doing a presentation for all the senior Members of 
their staff, and he was talking about literally spending 
billions of dollars to invest in the new technology platform. 
They were not cannibalizing their current operating budgets, 
the people with money invested through them had to be able to 
check on what was in their accounts during that period of time. 
They were making a capital investment and they were going to 
amortize that over a period of time.
    I think if you want to address the problem we have here on 
the system side, literally moving from the fifties into a more 
modern era, you may need to think about moving in that 
direction to deal with this problem. It does not necessarily 
need to be a long-term added commitment, it needs to be a 
capital investment with accountability, that they need to put 
together a system that starts from the beginning and is thought 
through all the way to the end of the process so there is 
actually integration. When we think about the DDS system and 
the 54 systems or whatever they have there, they are hooking up 
to Social Security systems and those have not been integrated 
in the way that they should. So, as they move into the new era, 
they ought to figure out how to integrate those systems.
    One of the other major issues that they face as they move 
into the new era are productivity issues, and I raise that in 
my testimony and it came up a number of times here today. There 
was an article in the Federal Times last week about ODAR, 
Office of Disability Adjudication and Review. A number of their 
people have become upset as they have implemented the 
electronic file that they no longer can work at home as much as 
they used to. They cannot have as many days when they are not 
working on site in the office. The reason for that is all of 
the concern that we all know about with electronic files, and 
because Social Security is determined to maintain for the 
security of these files, they have to be kept secure computers. 
But as they have moved to processing electronic files, that is 
now required that people work in the office more than they did 
in the past and there has been a complaint filed and the 
mediator has found in favor of the worker. So, we are forcing 
the agency to deal with again fifties processes, revolving 
around paper files. In fact I am not sure paper files are any 
more secure at home than computer files but that is another 
story.
    We heard some concerns about ALJ productivity. There are a 
couple of issues on ALJ input productivity. One of them has to 
do with how many cases these ALJs hear. There are quite a 
substantial number of ALJs in 2006 that I know of that handled 
fewer than 200 cases. The Commissioner has now said that he 
would like for the ALJs to handle as many as 600 or 700 in a 
year. He is going to need to be able to encourage and actually 
enforce that kind of productivity if he is going to achieve 
what he is trying to achieve.
    But there is another issue here, there is also an output 
productivity concern that we all need to have. There is a group 
of ALJs on the other side of the productivity equation, a group 
of ALJs that is hearing massive numbers of cases. In 2006, 
there was one that disposed of 2,500 cases. Think about 
handling 2,500 cases, these are complicated cases, in the 
period of a year, and one of the things that I know is that as 
the disposal rate goes up, the approval rate goes up and that 
should be a concern to all of us.
    I have looked at the corps of ALJs, the ones in the 240 to 
700 case disposition a year, and I have found judges that have 
an approval rate of 30 percent, I have found judges that have 
an approval rate of 99 percent. Now, I think both of those 
numbers are wrong. I think that if there is a judge that is not 
approving cases, that probably there are people who are worthy 
of getting these benefits that are being denied. But when we 
approve cases on a rubberstamp basis and we are not paying 
attention to the law and we are not paying attention to the 
facts, we are giving away money that is very substantial that 
we owe the taxpayers some concern about.
    The average cost of one of these cases, lifetime cost, is 
well over a quarter of $1 million dollars. We need to be wary 
about the issues that we are facing and that is part of the 
stewardship issue that has been raised here a couple of times 
this morning. One of the issues on stewardship that you need to 
focus on, I know there is a difference between operating 
budgets and trust fund money, but time after time when we have 
looked at the stewardship issues, the review of disability 
cases does catch individuals who do not deserve to be receiving 
benefits who are receiving them. The estimate by the Social 
Security actuaries is that for every dollar we spend here, we 
return $10 to the taxpayer. But we have canceled doing much of 
this work in recent years because of the other burdens that the 
system is trying to deal with. This is pound penny wise and 
pound foolish. I would think that if you went home and tried to 
explain this to your constituents, you would have a hard time 
convincing them that this is good policy.
    So, I guess my comments, and I will close here, are that we 
first of all need to think about this on a holistic basis, 
maybe we need to make some capital investments so we can get 
out of some of the morass that we are in. We cannot cannibalize 
operating budgets. The Commissioner is dealing with this 
massive backlog of cases, but if we want to move into the 21st 
century, we have to bring on new systems and they have to be 
systems that are based in the current technology and they have 
to be coordinated from beginning to end. I will close in saying 
in my opening comments, I said in some regard this reminds of 
the story from Greek mythology, Sisyphus. As I say, I have been 
on the advisory board for 10 years now, we have been look at 
this issue all of that period of time. We have pushed this rock 
up the hill time after time, but it seems to keep rolling back 
on top of us and it is time that we all start thinking about 
this in a much more logical and smarter fashion than we have 
been.
    Thank you very much.
    [The prepared statement of Sylvester J. Schieber follows:]

         Prepared Statement of Sylvester J. Schieber, Chairman,
                     Social Security Advisory Board

    Chairman Rangel, Mr. McCrery, Members of the Committee. I am 
pleased to have this opportunity to appear on behalf of the Social 
Security Advisory Board to discuss the backlogs in the Social Security 
disability programs as well as the current funding situation. I would 
like to give you the Board's perspectives on the continuing challenges 
facing the agency and our concerns about the future.
    As I reflect on the current state of affairs at the Social Security 
Administration I am reminded of Sisyphus from Greek mythology. As you 
will recall, the gods condemned Sisyphus to endlessly pushing a rock up 
a hill only to have it roll down again and again. It strikes me that 
this is exactly what is happening to the employees of the Social 
Security Administration who are charged with running the disability 
programs and the citizens who are touched by it. We owe them a better 
future.

Is History Being Repeated?
    The difficulties with the disability program are not new to the 
Advisory Board. Since the Board's inception in 1995, the bulk of its 
work has focused on the disability program. I personally have been on 
the board for more than 10 years now and it has been our major 
preoccupation over my entire tenure. Beginning with one of the Board's 
earliest reports in 1998, we expressed concerns about the 
sustainability of the program given the anticipated growth in the 
workload, its resources, its labor intensive processes, and the 
perceived lack of consistency in applying Social Security's own 
policies. And that was at a time when there were only 1.2 million new 
claims filed every year, and the backlog in the hearings process was 
under 400,000 claims. Moreover, this was after a period when the agency 
had diverted resources from other parts of the program in order to 
return the appellate process to a semblance of efficiency.
    But by 2001 the Advisory Board felt compelled to issue another 
report citing deteriorating service in the field offices and a 
disability program that was swamped with a backlog of claims. By 2001, 
Social Security's capacity to serve the public was increasingly at risk 
due to a long-term reduction in staff levels, increased volume of 
claims, and the overwhelming burden of complex program rules. The then-
Chairman of the Advisory Board told The New York Times in February 2001 
``Unless there's fundamental change, we will soon see disruptions of 
service. The Social Security agency lacks the ability to handle 
existing workloads, and those workloads are bound to increase in the 
next decade. Everybody knows there is a long-term deficit in the 
financing of Social Security. But there's also a deficit in the 
agency's ability to provide good service, and that should be equally 
alarming to Congress and the public.''
    When I appeared before the Social Security Subcommittee in February 
2007, applications for disability benefits were averaging 2.5 million 
per year. The Disability Determinations Services (DDS) had a little 
less than 550,000 initial claims pending. But this DDS pending backlog 
was due to extraordinary pressure on the DDSs to adjudicate initial 
claims as a priority workload. What gave the impression as being good 
customer service at one stage actually resulted in increased workloads 
and delayed processing downstream. Resources were diverted from 
processing reconsideration cases in order to process the initial 
claims. The backlog at the DDS's reconsideration stage grew by 30,000 
and an ever-larger fraction of individuals found themselves waiting 
nearly 6 months for an initial decision.
    On average, about 75 percent of those denied at the reconsideration 
level file for a hearing before an administrative law judge. So, it 
should be no surprise then that as the DDSs cleared out their backlog 
of reconsideration cases, cases flowing into the hearings level climbed 
to 579,000. By the end of 2007, there were 746,000 cases in the 
hearings queue waiting for an ALJ judgment.
    Today, we are half way through Fiscal Year 2008, a year in which 
the Congress actually increased the President's budget request by $150 
million. The additional funding has provided SSA with some flexibility 
this year. The SSA managers have not had to choose between hiring 
administrative law judges and keeping the lights on in the field 
offices. I would like to tell you that this one time injection of 
additional resources has been enough to turn the tide. But it has not.
    Today there are over 560,000 initial claims and 107,000 requests 
for reconsideration pending in the DDS and another 756,000 claims at 
the appellate level. I suppose that if there is any ``good news'' it is 
that the waiting time for a hearing has held steady at 503 days in the 
Office of Disability Adjudication and Review. Personally, I believe 
that taking an average of 503 days to process these cases at the 
hearings level should be an embarrassment to us all.
    The Social Security Administration's employees have always taken 
pride in their ``can do'' attitude even in the face of growing 
workloads, new workloads, and insufficient resources. But the reservoir 
of optimism is low.
    We can talk about our commitment to public service and our 
willingness to address the needs of those individuals who turn to 
Social Security on a daily basis. But the reality is that thousands of 
disability cases languish for years as the claims representatives, the 
disability adjudicators, and the administrative law judges struggle 
with crushing backlogs and steadily declining numbers of workers. If we 
want to achieve the goals of this program, we have to pay for it.

Pressure on the DDS has Negative Affects on the Hearings Level
    The focus of this hearing--clearing the backlogs and providing 
adequate resources--needs to be about more than just the state of the 
workload at the hearings level. It must take into consideration the 
critical steps all along the determination process. It must recognize 
the problems with the systems infrastructure that supports the work 
being done by staff at all levels. It must acknowledge that the baby 
boomers that will cause problems for the retirement program down the 
road are now in their disability prone years resulting in increased 
applications that would require higher productivity if the workforce 
handling cases remained stable. But it has not remained stable; we have 
seen the result of the triple jeopardy: a workforce that is being 
shrunk relentlessly, steady workload increases, and a lack of 
technological investments that could balance demands.
    DDS claims processors operate under processing time, productivity 
measures, and quality control rules that put unreasonable stress on 
their process and, as a result, change behavior. Forcing managers to 
choose to adjudicate one type of claim, whether it is an initial claim 
or a request for reconsideration, over another sends a very strong 
message about their relative importance. Moreover, a quality review 
process that targets allowance decisions almost exclusively also sends 
an unintended message. Only a small fraction of denied cases are 
selected for quality review. The chance of an insufficiently documented 
denial determination sliding through the system unchecked cannot be 
discounted. There may be many reasons why there has been a steady 
decline in allowance rates in the DDS, but it certainly seems likely 
that inadequate investment which has led to a ``start and stop'' type 
of work environment is a major factor. This is not about a culture of 
denial but more about human nature. When faced with pressure to clear 
cases quickly, adjudicators may take shortcuts and those shortcuts can 
lead to unintended outcomes.
    One of the initiatives in the Commissioner's Plan to Eliminate the 
Hearings Backlog is the informal remand process. Cases that were denied 
by the DDS and are waiting for a hearing at the Office of Disability 
Adjudication and Review (ODAR) are being screened and where appropriate 
returned to the DDS for another look. The program has been in place for 
about a year now and the cases that are sent back have been purposely 
selected because they are the most likely to be proper allowances. 
Nonetheless, out of the 34,000 cases informally remanded so far, the 
DDSs have allowed 43 percent and well over two-thirds of those were 
allowed without any additional development. There are a variety of 
reasons why these cases are now being approved without gathering more 
evidence than was gathered months or years ago, but we cannot discount 
that processing pressures in earlier stages of adjudication could have 
caused inadequate review the first time around. An added sad footnote 
to this story is that some of the cases now being given a favorable 
disability determination after being remanded to the DDSs sat in the 
hearings queue at the ODAR level for three or four years before being 
returned for DDS review. Of course, this gives rise to the question: If 
we had enough evidence years ago to decide that these applicants were 
disabled, why didn't we reach the conclusions then?
    From the Board's perspective, there must be investment in the front 
end of the process. SSA and DDS management should not have to make 
choices about which cases are adjudicated timely and fully developed 
and which are not. But that is the situation in which the disability 
system managers continue to find themselves.
    SSA has made tremendous strides in the development of the 
electronic folder. For all of its strengths, it has some striking 
weaknesses; primarily that it is not a ``single system''. Case 
production processes are not coordinated from beginning to end. First, 
there are 50 state DDSs plus five other territories and offices working 
with five different basic IT operating systems. Even in cases where 
DDSs are on a common main platform, there have been variations in their 
adaptation from one DDS to the next. While all of these operating 
systems and their variants feed data to the electronic folder, the 
actual development and decision analysis is captured only in each DDS's 
own case processing system. And beyond that, there is virtually no end-
to-end consistency in developing and adjudicating cases.
    The main goal in initiatives like the development of the electronic 
applications folder may be to drain the backlog swamp, but there are so 
many alligators nipping at the various components they have lost focus 
on the way forward. Consider the development of an approach to support 
the systematic case determination process for the DDSs. To this end, an 
electronic tool, known as eCat, was created to help adjudicators 
develop claims on a consistent and complete basis. The budget to 
develop this system was cannibalized from the Social Security operating 
systems budget resulting in a patchwork approach to development and 
support. Robbing Peter to pay Paul is generally a recipe for failure, 
but it is particularly unwise in systems development.
    The eCat system was rushed through development, was unfinished at 
roll out, did not work when it was put into production and brought the 
rest of the electronic case processing system to a grinding halt. As a 
result, a promising new tool was pulled from operation because of poor 
execution and the rush to premature implementation. Today, there is a 
new initiative underway in a lab environment that appears to hold great 
promise, but it is not clear how it will be integrated into an 
overarching integrated system.
    While the eCat experience is disconcerting, we recently learned 
that the Office of Disability Adjudication and Reviews is evolving its 
own electronic adjudication tools to take advantage of the electronic 
folder, including a format for decision writing that is designed to 
bring greater consistency and improved productivity. It appears that 
ODAR has only cursory awareness of the DDS eCat initiative and has had 
no input into its development even though they are the ``recipients'' 
of the decisional outcomes. Furthermore, they have not been able to 
explore how eCat can lead to efficiencies in the hearings development 
process. There appears to be a lack of a holistic electronic systems 
strategy that is linked to a well thought-out process structure, that 
is properly resourced and that emphasizes the interdependence of the 
operating components.

Building an Infrastructure for the 21st Century
    Ten years ago the Advisory Board questioned how well the Social 
Security Administration would be able to develop the technological 
infrastructure that would be needed to support the growing number of 
claims. We believed then as we do now that in order for the agency to 
meet its workload challenges, it must have a forward--thinking service 
delivery strategy that capitalizes on advances in technology. The 
National Research Council issued a very compelling report last year 
wherein they stated that the agency faces fundamental challenges in its 
ability to deliver services and urged SSA to articulate a vision for 
electronic service delivery.
    Furthermore, they highlighted the very real vulnerabilities facing 
SSA if they did not begin a systematic transition to a more modern 
infrastructure. This is not about buying the latest fancy personal 
computers. This is about moving away from COBOL-based operating 
systems, a 1950's technology, to modern software languages and tools. 
This is about moving away from manual work sampling to integrated data 
collection that permits inline measurement and quality review systems 
that can assess what works, what does not, and the difference between 
the two. We are talking about the potential for redesigning work in an 
organization that is stifled by institutional barriers between 
components and work rules that are crippling productivity advances.
    When Social Security Commissioner Michael Astrue took over his 
current position, he found a backlog of disability applications that 
had been in the ALJ hearings queue for more than 1,000 days. Last year 
he set as a goal for the agency disposing of all of these cases. This 
year, he has set as a goal eliminating the backlog of some 135,000 
cases that would be 900 days old at the end of the fiscal year. 
Commissioner Astrue and the people involved should be applauded for 
implementing any effort to reduce hearings backlogs and waiting times 
for decisions.
    Yet we read in the Federal Times last week that a group of Social 
Security employees has filed a complaint against the agency because the 
implementation of the electronic disability application process has 
reduced the number of days that case technicians in the Office of 
Disability Adjudication and Review can work at home as they help 
prepare cases for ALJ hearings. In this modern era, with concerns about 
the security of private personal information in government files, 
Social Security has determined that applicants' electronic files must 
be maintained on agency computers and the implementation of the new 
technology has reduced the amount of work that can be done outside of 
office sites preparing cases. The mediator hearing this complaint has 
ruled that Social Security must reinstate the work-at-home policies 
that were workable in the old paper-file world but outmoded in the 
modernized environment.
    One cannot help but wonder whether the taxpaying public might find 
it ironic that it is unreasonable to expect people who are being paid 
to prepare disability cases for hearings to come to the office to work 
during the time they are being paid but that it is reasonable to expect 
disability applicants to wait up to 899 days to have their appeals for 
benefits heard by an ALJ. The parsing of this story may help to explain 
why all of the leading candidates for President from both political 
parties have sensed the American public's desire to change the way 
things are done in Washington.
    We are painfully aware that future Congresses and Administrations 
will be facing resource constraints that will become more austere than 
anything we have seen to date. Rather than commit to long-term 
increased support of what is an unsatisfactory process for the 
stakeholder at all levels, maybe it is time to restore a temporary 
multi-year capital fund to modernize the functions at all levels of 
this operation and develop systems to implement the solutions. This 
capital budget would be for limited duration and come with a 
stipulation that the net results be a modern integrated system that 
delivers efficiencies in the operation, increases throughput of 
workloads, and shortens the processing time for applicants. If there is 
need for legislative action to modernize and facilitate the 
determination process as part of this modernization effort, the agency 
should come forward with recommendations to achieve this.

Invisible Workloads
    In the Advisory for this hearing, the Committee noted that the 
agency is forced to divert resources away from routine workloads in the 
processing centers in order to manage the volume of cases awaiting 
decisions. This is an unfortunate trade off to be forced to make. 
Without adequate funding for the post-entitlement work done in the 
processing centers, the spouses and children of disabled workers may 
not receive their benefits in a reasonable timeframe. Beneficiaries who 
report earnings on a timely basis may be overpaid because the workers 
in the processing center could not reconcile the information in time to 
make the needed adjustments. SSA estimates that it will cost around 
$400 million in FY 2009 just to keep on top of this backroom work, 
annually, without consideration of what work is already unresolved. 
Unless there is sufficient investment in this workload, the post-
entitlement backlogs will be the next headline.
    As the agency that touches virtually every individual in the 
country through its benefit programs or through its repository of 
records, SSA is the agency that Congress turns to when it needs 
assistance with carrying out broad national initiatives. The welfare 
reform legislation in the mid-1990's meant that the field staff had to 
become experts in immigration and naturalization records; Medicare 
Modernization rules mean that they now have to make more complicated 
Medicare premium calculations based on complex tax rules, and they have 
acquired an ongoing workload comprised of determining the 
qualifications for Medicare Part D low income subsidy redeterminations. 
And now there is discussion about adding additional non-mission 
workloads revolving around immigration and Medicare.
    Historically, Congress funds the start-up costs for these programs 
but does not make provisions for the ongoing costs of doing the work. 
The agency is expected to absorb the cost in the out years in its 
``base'' budget. However, because fixed costs such as rent, guards, and 
salaries exceed the average growth in the administrative budget, there 
is no cushion to absorb additional work without additional resources. 
These workloads must be funded appropriately and that includes for the 
long term.
    I would like to add a word of caution, however, that this is about 
more than just money. I know that one of the reasons that Social 
Security is assigned these tasks is because they have the critical 
national mass that does not exist elsewhere. And, they have an 
outstanding workforce. But the accumulation of these added mandates is 
reaching the point of critical stress for this agency--we are 
perilously close to adding the proverbial straw that breaks the spine 
here.
    In my testimony before the Social Security Subcommittee last year, 
I pointed out that SSA has been forced into curtailing its stewardship 
responsibilities even though that workload returns benefit savings that 
are many times its administrative costs, $10 in savings for every $1 
spent. By the end of this fiscal year, it is estimated that there will 
be just around 1.3 million claims sitting in a backlog that should have 
these reviews performed. I realize that there is a budgetary 
distinction between administrative and benefit spending, but that is an 
artificial distinction that most taxpayers supporting Social Security 
would consider ludicrous. You might want to support an incentive-based 
stewardship approach whereby the Agency can retain a percentage of such 
stewardship savings. Abandoning the ability to minimize improper 
payments is not only wasteful, but will worsen the future year total 
deficits that will constrain future discretionary spending.
Maintaining Public Service in an Era of Growing Workloads
    Over the next 10 years, SSA's workload will increase dramatically. 
Retirement claims will jump by over 40 percent and disability claims 
will rise by nearly 10 percent. Last December there was much fanfare as 
the first of the 80 million baby boomers applied for retirement 
benefits. The agency expects to process 4.3 million claims in 2008 and 
is bracing itself for a 23 percent increase by 2013. The recently 
released 2008 OASDI Trustees Report estimates that by 2015 there will 
be 50 million retirees, widows and widowers, and dependents receiving 
benefits and they will be expecting efficient and modern service from 
the Social Security Administration.
    But the anticipated growth in claims does not stop there. The baby 
boomers are entering their disability prone years and the number of 
initial disability claims is projected to rise steadily from 2.5 
million to close to 2.7 million by 2013. Unless there is a fundamental 
rethinking of the definition of disability and how this vital safety 
net fits into the 21st century, the Trustees tell us that the number of 
disabled workers receiving benefits is projected to grow from 7.1 
million at the end of 2007, to 8.7 million in 2015. The ``silver 
tsunami'' of the baby boomers will most assuredly place a tremendous 
strain on SSA's resources unless the shortfall in funding and the need 
for modernization are addressed.

Long-Term Solvency
    I hate to remind the Committee about the grumpy uncle whom no one 
wants to claim as part of the family, but I feel obligated in my 
position to raise with you the issue of the long-term solvency of this 
vital program.
    The recent Trustees Report might seem to suggest that the outlook 
for financing has improved relative to earlier measurements. The better 
estimates in this year's report relate largely to changed assumptions 
about immigration levels and do not change the underlying story about 
the challenges that our nation's demographics pose for Social Security. 
Disability is part of that demographic challenge.
    An aging population brings with it greater incidence and prevalence 
of disability. In this regard, the Disability Insurance (DI) Trust Fund 
component of the system is underfunded and the funding of DI is a 
problem that will need to be addressed by Congress. The timing of the 
disability funding shortfall precedes that of the Old Age and Survivors 
Insurance (OASI) Trust Fund. Thus, any surplus that might be viewed in 
OASI as a buffer will be short lived. The contingencies regarding 
disability and the related work limitations are substantially different 
than in the case of the Old Age insurance program and they deserve 
careful consideration. Resolving the disability financing situation and 
any reforms that might go along with it should not be an afterthought 
in the solvency discussion.
    Mr. Chairman, I hope these comments are helpful to the Committee as 
it examines the backlogs in the disability programs and addresses the 
need for increased resources in order to support them. These critical 
safety net programs have been a major concern of the Social Security 
Advisory Board and we intend to keep a close watch on them. I would be 
happy to provide any additional information that may be helpful to you, 
and I would be happy to answer any questions you may have.

                                 <F-dash>

    Mr. MCDERMOTT. Thank you for your testimony.
    Marty Ford, who is the cochair of the Consortium for 
Citizens with Disabilities Social Security Task Force.
    Ms. Ford?

STATEMENT OF MARTY FORD, CO-CHAIR, CONSORTIUM OF CITIZENS WITH 
            DISABILITIES SOCIAL SECURITY TASK FORCE

    *Ms. FORD. Thank you Mr. Chairman and Members of the 
Committee. Thank you for inviting me to testify.
    As you know, Social Security and SSI benefits are the means 
of survival and a lifeline for millions of people with 
disabilities. As you know, the delays and the backlogs are 
intolerable. When a decision is appealed, people can wait years 
for a hearing, but they also wait additional time for a 
decision, and then again wait for the actual payment of 
benefits. That needs to be kept in mind. In the meantime, their 
lives are unraveling, their families are torn apart, their 
homes are lost, their health deteriorates, and some people die 
before a decision is made.
    One of the CCD Members, the National Organization of Social 
Security Claimants; Representatives conducted a quick survey of 
their representatives to get an update on how the backlogs are 
affecting people. My complete testimony has stories from 29 
states, and I want to mention a few.
    A man from Brooklyn, New York who has major depressive 
disorders and other conditions requested a hearing in March of 
2004. The hearing office failed to send him a notice, and the 
hearing was dismissed when he did not appear. He obtained an 
attorney who asked to reopen the case. Following a hearing, the 
ALJ issued a favorable decision. He got his first SSI payment 
four and a half years after his appeal. While waiting, he lost 
access to medical coverage, his attorney helped him prevent 
eviction, he went to food pantries, and he actually had to 
borrow money to ride the subway to his hearing.
    A Florida woman's disabilities stemmed from a shooting and 
chronic obstructive pulmonary disease. After her claim was 
denied, she requested her hearing in April of 2006. Nearly 2 
years later, just this March, the ALJ allowed benefits. 
Unfortunately, she died before receiving the written decision. 
While waiting, she lived with her mother who has dementia and 
chain smokes. About a week before her death, she told her 
attorney that she believed she would die if she could not get 
into a smoke-free living situation. Her attorney believes that 
her compromised living situation due to lack of income 
shortened her life.
    A 61-year-old Michigan man requested a hearing in September 
of 2005. His case was transferred to another hearing office 
because of an overload in the Grand Rapids office, and a 
hearing was held in 2007. Over two and a half years after his 
request, he received a favorable decision in February, but as 
yet he has received no benefits. His is dependent on his 
children to pay his bills.
    I could go on, and as I said, my testimony contains a 
number of these examples. These are just a few of the claimants 
who have faced real hardship and the time constraints here 
don't allow me to fully convey the pain and anguish that they 
and their families have endured.
    As has been fully discussed today, the problems are due to 
the lack of funding for the administrative process for SSA. We 
think that the President's budget request for fiscal 2009 does 
not go far enough. Even under that budget, SSA predicts a 
combined shortfall of 8,100 work years, 8,100 work years short 
for fiscal 2008 and 2009. At the same time, SSA must continue 
to streamline and operate more efficiently. Commissioner Astrue 
has indicated that the agency has begun a number of initiatives 
to expand technological and other improvements.
    My testimony includes additional recommendations for 
improvements in developing evidence earlier in the process, and 
we think that this is one of the keys to why some of these 
cases go on too long. In the case examples, there are many that 
are listed as having on the record decisions. While some of 
that may be due to the fact that the person's condition has 
worsened, advocates are reporting that in many cases, some of 
this evidence should have been obtained earlier in the process 
if it had been requested or if what was needed had been 
explained to the providers and to the claimants.
    In all the initiatives, we think care has to be taken to 
determine how any process change will affect the claimants and 
beneficiaries for whom the system exists. People who find they 
cannot work at a sustained and substantial level due to 
disability are faced with a host of personal, family, and 
financial circumstances that impact how effectively they can 
maneuver the system.
    SSA must continue to improve its role in ensuring that an 
individual's claim is fully developed before a decision is 
made, and we urge Congress to provide SSA with the resources 
necessary and provide over and above that which the President 
has asked for, as SSA needs it.
    Thank you.
    [The prepared statement of Marty Ford follows:]

       Prepared Statement of Marty Ford, Co-Chair, Consortium for
         Citizens with Disabilities Social Security Task Force

    Chairman Rangel, Ranking Member McCrery, and Members of the House 
Ways and Means Committee, thank you for inviting me to testify at 
today's hearing on Clearing the Disability Backlog--Giving the Social 
Security Administration the Resources It Needs to Provide the Benefits 
Workers Have Earned.
    I am a member of the public policy team for The Arc and UCP 
Disability Policy Collaboration, which is a joint effort of The Arc of 
the United States and United Cerebral Palsy. I serve as Chair of the 
Consortium for Citizens with Disabilities (CCD), and also serve as a 
Co-Chair of the CCD Social Security Task Force. CCD is a working 
coalition of national consumer, advocacy, provider, and professional 
organizations working together with and on behalf of the 54 million 
children and adults with disabilities and their families living in the 
United States. The CCD Social Security Task Force (hereinafter CCD) 
focuses on disability policy issues in the Title II disability programs 
and the Title XVI Supplemental Security Income (SSI) program.
    The focus of this hearing is extremely important to people with 
disabilities. Title II and SSI cash benefits, along with the related 
Medicaid and Medicare benefits, are the means of survival for millions 
of individuals with severe disabilities. They rely on the Social 
Security Administration (SSA) to promptly and fairly adjudicate their 
applications for disability benefits. They also rely on the agency to 
handle many other actions critical to their well-being including: 
timely payment of their monthly Title II and SSI benefits to which they 
are entitled; accurate withholding of Medicare Parts B and D premiums; 
and timely determinations on post-entitlement issues that may arise 
(e.g., overpayments, income issues, prompt recording of earnings).

I. THE IMPACT ON PEOPLE WITH DISABILITIES OF INSUFFICIENT FUNDING FOR 
        SSA'S ADMINISTRATIVE BUDGET
    As the backlog in decisions on disability claims continues to grow, 
people with severe disabilities have been bearing the brunt of 
insufficient funding for SSA's administrative budget. Behind the 
numbers are individuals with disabilities whose lives have unraveled 
while waiting for decisions--families are torn apart; homes are lost; 
medical conditions deteriorate; once stable financial security 
crumbles; and many individuals die.\1\ Numerous recent media reports 
across the country have documented the suffering experienced by these 
individuals. Access to other key services, such as replacing a lost 
check or promptly recording earnings, also has diminished. Despite 
dramatically increased workloads, staffing levels throughout the agency 
are at the lowest level since 1972.

Backlog in Appeals of Disability Claims: The Human Toll
    The National Organization of Social Security Claimants' 
Representatives (NOSSCR), a member of the CCD Social Security Task 
Force, recently conducted a quick survey of their members for an update 
on how the backlogs are affecting claimants. The following short 
descriptions of individual's circumstances are a sampling of what is 
happening across the country to claimants who are forced to wait 
interminably for decisions on their appeals. Your own constituent 
services staff are likely well aware of similar situations from your 
Congressional district.

    <bullet>  Mr. R is 38 years old and lives in Brooklyn, New York. He 
has major depressive disorder, anorexia nervosa with severe weight 
loss, somatoform disorder, and generalized fatigue. He applied for SSI 
benefits in September 2003 and requested a hearing in March 2004. The 
ODAR hearing office failed to send a Notice of Hearing for the hearing, 
scheduled in December 2006. As a result, Mr. R did not appear and his 
hearing request was dismissed. He obtained representation in June 2007 
after the dismissal. His attorney immediately contacted the ALJ and 
submitted all documents establishing that Mr. R was never informed of 
the hearing. She also sent all medical evidence she had obtained. The 
attorney asked the ALJ to reopen the case and to schedule an expedited 
hearing. The hearing was finally held in November 2007 and the ALJ 
issued a favorable decision in late November 2007. There still was a 
delay in receipt of benefits as Mr. R did not receive his first SSI 
past due installment payment until March 2008 and his first SSI monthly 
payment until April 2008.
         While waiting for the hearing decision and benefits payments, 
Mr. R lost his welfare benefits and Medicaid, so he could not receive 
treatment. His anorexia nervosa was so extreme as to cause severe tooth 
decay requiring dentures. He received an eviction notice for his 
apartment but his attorney worked with the landlord to stave off 
eviction based on the fact that a new hearing was being scheduled. 
Because his welfare case was closed, Mr. R had no money. He had to go 
to food pantries for any donation and his neighbors helped him from 
time to time. He even had to borrow money to ride the subway to his 
hearing.

    <bullet>  Ms. K applied for disability benefits in August 2004. She 
lived in Key West, FL. Her husband shot her 5 times in the liver and 
abdomen and then killed himself. Her disabilities stemmed from these 
injuries and from chronic obstructive pulmonary disease (COPD). Her 
claim was denied and she requested a hearing in April 2006. Nearly two 
years later, her hearing was held in March 2008 and the ALJ stated that 
benefits would be awarded. Unfortunately, Ms. K died in late March 2008 
of long-term complications from her wounds and COPD, before the written 
decision was received. Because she did not have money to live 
independently, she was forced to live with her mother. The mother, who 
has dementia, is a chain-smoker. During the last part of her life, Ms. 
K had frequent hospitalizations. She would then return to her mother's 
house and her condition would worsen. Her attorney last saw Ms. K about 
a week before her death. Ms. K told her attorney that she believed she 
would die if she could not get into a smoke-free living situation. 
Since Ms. K died in part from COPD, her attorney believes that her 
compromised living situation, due to the lack of income, shortened her 
life.

    <bullet>  Mrs. G, a 58-year-old woman from Georgia, worked her 
entire life, the last 15 years at a convenience store. Over time, she 
developed degenerative joint disease and cardiovascular problems. In 
2004, she deteriorated to the point that she stopped working. She had a 
house where she had lived for many years but fell behind on the 
payments. Her attorney had to intercede on her behalf several times to 
stop foreclosure. Her car, which she fully owned, sat idle because she 
could not pay the tag fees and could not afford gas. Three years after 
she applied, she had a hearing. While the ALJ stated at the hearing 
that a favorable ruling would be forthcoming, it still took more than 
six months after the hearing before she received her favorable 
decision. Even then she had trouble getting her monthly benefits 
started. Several months passed and still she did not receive past due 
benefits. As she still owed back mortgage payments, the mortgage 
company started foreclosure proceedings again. She reported to her 
attorney that the anxiety over her claim was making her cardiovascular 
problems worsen. She never received her past due benefits. She died 
still waiting. Her attorney notes that Mrs. G is his fourth client who 
has died in the last three years while waiting for a favorable decision 
and payment of benefits.

    <bullet>  Mr. M lived in the Chicago, IL, area. He had various 
medical problems, but the most significant one was the need for kidney 
dialysis, which became apparent after the application was filed. The 
need for dialysis meant that his impairment met one of the listings of 
impairments, at least as of the date that the dialysis began. His 
request for hearing was filed in January 2007. Mr. M's medical 
condition worsened. In addition, he did not have a permanent residence 
and stayed with his sister for part of the time that his claim was 
pending. However, he informed his attorney that his sister was moving, 
that he could no longer stay with her, and that he had no alternative 
place to live.
         In July 2007, his attorney began a series of contacts with the 
ODAR hearing office in an effort to have the case considered for an 
``on the record'' decision or to schedule a hearing on an expedited 
basis given Mr. M's medical condition and lack of a permanent 
residence. Between July 2007 and February 2008, his attorney sent five 
letters, left multiple voice mail messages, and spoke with the hearing 
office director about Mr. M's case. Finally, in February 2008, the 
hearing office called to schedule the case in April 2008, sixteen 
months after the appeal was filed. Unfortunately, Mr. M died in March 
2008. As a result, he never received the benefits to which he was 
entitled. He died destitute. And because this was an SSI claim, no one, 
including his sister who helped him, will be eligible to receive the 
retroactive benefits.
    <bullet>  Mr. O, from Richmond, Missouri, died in the lobby of the 
ODAR hearing office while waiting to be called for his hearing on April 
2, 2008. He was 49 years old and is survived by his wife and 4 
children. He filed his SSI application for disability in November 2005, 
alleging inability to work due to uncontrolled diabetes with 
neuropathy, and shoulder and arm pain. He had worked for 14 years as a 
truck driver. His claim was denied in March 2006 and he promptly filed 
a request for hearing in April 2006. While waiting for hearing, he had 
numerous problems with child support authorities and his home was 
foreclosed upon. His representative filed a dire need request in July 
2007 to expedite the hearing, but he did not receive a hearing date 
until February 2008, when the hearing was scheduled for April 2, 2008, 
the day he died.
    <bullet>  Mr. N lived in the Charlotte, North Carolina area. He was 
57 years old and died in August 2007. As an adult, he obtained a degree 
in theology. From 1986 to 1997, he worked doing maintenance on power 
generating stations. He developed heart disease and emphysema and, from 
1998 to 2004, he did less strenuous work. In June 2005, he filed a 
claim for Title II disability benefits. His claim was denied and he 
requested a hearing in April 2006. During the wait, he developed a spot 
on his lung, but could not afford a CT scan for an accurate diagnosis. 
In May 2007, he received a foreclosure notice, lost his house, and had 
to move in with his daughter. He died in August 2007 of ischemic heart 
disease. In February 2008, months after his death, his claim was 
approved on informal remand to the DDS.
    <bullet>  Mrs. M, a 33 year old former waitress and substitute 
school teacher, lives in Muskogee, Oklahoma. She has degenerative joint 
disease of the lumbar spine, neck and hands; hearing loss; left wrist 
injury; migraines; tingling/numbness in the left knee and left foot; 
right hip problems; dizziness and nausea. She filed her application for 
benefits in August 2005 and a request for hearing in May 2006. Mrs. M 
is married with three children, including one son who is disabled. 
After a nearby plant explosion damaged their home in 2004, the family 
was forced to move into an apartment. Evicted in 2007, they have had no 
permanent residence since then and have been forced to live in a 
variety of temporary settings, including a shelter for women and 
children (Mrs. M's husband slept in the car). After the 2007 eviction, 
Mrs. M's attorney sent letters to the ODAR hearing office requesting an 
expedited hearing because of the family's homelessness. Mrs. M received 
a fully favorable decision on March 26, 2008, nearly two years after 
she filed her request for a hearing. Her disabled child also received a 
favorable decision on March 25, 2008. On April 7, 2008, an SSA district 
office worker informed the attorney that both Mrs. M and her disabled 
child were in pay status.

    A full set of these stories, submitted from 29 states, is located 
at the end of this testimony. Without a doubt, people with severe 
disabilities are bearing extraordinary and unnecessary hardship as a 
result of the persistent under-funding of SSA's administrative 
expenses.

Inadequate Funding of SSA's Limitation on Administrative Expenses
    The primary reason for the continued and growing disability claims 
backlogs is that SSA has not received adequate funds for its management 
costs. Although Commissioner Astrue has made reduction and elimination 
of the disability claims backlog one of his top priorities, without 
adequate appropriations, the situation will deteriorate even more.
    Recent Congressional efforts to provide SSA with adequate funding 
for its administrative budget are encouraging. The Fiscal Year 2008 
appropriation for SSA's Limitation on Administrative Expenses (LAE) was 
$9,746,953,000. This amount was $148 million above the President's 
request and was the first time in years that the agency has received at 
least the President's request.
    While the FY 2008 appropriation allows the agency to hire some new 
staff and to reduce processing times, it will not be adequate to fully 
restore the agency's ability to carry out its mandated services. 
Between FY 2000 and 2007, Congress appropriated less than both the 
Commissioner of Social Security and the President requested, resulting 
in a total administrative budget shortfall of more than $4 billion. The 
dramatic increase in the disability claims backlog coincides with this 
period of under-funding the agency, leaving people with severe 
disabilities to wait years to receive the benefits to which they are 
entitled.

Processing Times Have Reached Intolerable Levels
    The average processing time for cases at the hearing level has 
increased dramatically since 2000, when the average time was 274 
days.\2\ In the current fiscal year, SSA estimates that the average 
processing time for disability claims at the hearing level will be 535 
days,\3\ nearly twice as long as in 2000. It is important to keep in 
mind that this is an ``average'' and that many claimants will wait 
longer. In addition, the average processing times at the initial and 
reconsideration levels have grown over the last ten years by about 20 
days at each level, with some cases taking much longer.\4\
---------------------------------------------------------------------------
    \1\ If a claimant dies while a claim is pending, the SSI rule for 
payment of past due benefits is very different--and far more limited--
than the Title II rule. In an SSI case, the payment will be made in 
only two situations: (1) to a surviving spouse who was living with the 
claimant at the time of death or within six months of the death; or (2) 
to the parents of a minor child, if the child resided with the parents 
at the time of the child's death or within six months of the death. 42 
U.S.C. Sec. 1383(b)(1)(A) [Section 1631(b)(1)(A) of the Act]. In Title 
II, the Act provides rules for determining who may continue the claim, 
which includes: a surviving spouse; parents; children; and the legal 
representative of the estate. 42 U.S.C. Sec. 404(d) [Section 202(d) of 
the Act]. Thus, if an adult SSI claimant (age 18 or older) dies before 
actually receiving the past due payment and if there is no surviving 
spouse, the claim dies with the claimant and no one is paid.
    \2\ Social Security Disability: Better Planning, Management, and 
Evaluation Could Help Address Backlogs, GAO-08-40 (Dec. 2007) (``GAO 
Report''), p. 22.
    \3\ Social Security Administration: Fiscal Year 2009 Justification 
of Estimates for Appropriations Committees (``SSA FY 09 Budget 
Justification''), p. 6.
    \4\ GAO Report, p. 20.
---------------------------------------------------------------------------
    The current processing times in some hearing offices are striking, 
and much longer than the 535 days targeted by SSA in FY 2008. SSA 
statistics from March 2008 for its 144 hearing offices\5\ indicate that 
the average processing time at 47 hearing offices is above the 
projected average processing time. There is wide fluctuation, with some 
offices over 700 days and even over 800 days.
---------------------------------------------------------------------------
    \5\ ``National Ranking Report by Average Processing Time'' for the 
month ending March 28, 2008.
---------------------------------------------------------------------------
Impact on Post-Entitlement Work
    While the impact of inadequate funding on the backlog in disability 
decisions is unacceptable, there are also other important functions 
which SSA cannot perform in a timely manner. SSA has many mandated 
responsibilities, which include: paying benefits; issuing Social 
Security cards; processing earnings for credits to worker's records; 
responding to questions from the public on the 800-number and in the 
field offices; issuing Social Security statements; processing 
continuing disability reviews (CDRs) and SSI eligibility 
redeterminations; and administering components of the Medicare program, 
including subsidy applications, calculating and withholding premiums, 
making eligibility determinations, and taking applications for 
replacement Medicare cards.
    One aspect of post-entitlement work that has slipped in the past is 
the processing of earnings reports filed by people with disabilities. 
Typically, the individual calls SSA and reports work and earnings or 
brings the information into an SSA field office. However, due to budget 
constraints, SSA often fails to input the information into its computer 
system and does not make the needed adjustments in benefits. Months or 
years later--after a computer match with earnings records--SSA sends an 
overpayment notice to the beneficiary, demanding re-payment of 
sometimes tens of thousands of dollars. All too often, however, SSA 
will indicate that it has no record of the beneficiary's earnings 
reports. Many individuals with disabilities are wary of attempting to 
return to work out of fear that this may give rise to the overpayment 
scenario and result in a loss of economic stability and healthcare 
coverage upon which they rely.
    Advocates report seeing problems of overpayments and underpayments 
generated by the inability of SSA to open its mail. Clients describe 
sending in pay-stubs and not seeing any change in benefits for 6 
months. One advocate indicated that his client protested and requested 
waiver of an overpayment, insisting that she had reported and sent in 
pay stubs as required. She requested that a Claims Representative 
search the mail room and reported that a year's worth of specially 
colored envelopes from her were found lying unopened in the district 
office mail room.

Impact on Performing Continuing Disability Reviews (CDRs) and SSI 
        Redeterminations
    The processing of CDRs and SSI redeterminations is necessary to 
protect program integrity and avert improper payments. Failure to 
conduct the full complement of CDRs would have adverse consequences for 
the Federal budget and the deficit. According to SSA, CDRs result in 
$10 of program savings and SSI redeterminations result in $7 of program 
savings for each $1 spent in administrative costs for the reviews.\6\ 
However, the number of reviews actually conducted is directly related 
to whether SSA receives the necessary funds. SSA's Budget Justification 
refers specifically to CDRs based on medical factors.\7\ It is 
important when SSA conducts work CDRs that it assess whether reported 
earnings have been properly recorded and ensure that they properly 
assess whether work constitutes substantial gainful activity (SGA).
---------------------------------------------------------------------------
    \6\ SSA FY 09 Budget Justification, p. 18.
    \7\ SSA FY 09 Budget Justification, p. 92.
---------------------------------------------------------------------------
The Number of Pending Cases Continues to Increase
    In its recent report, the Government Accountability Office (GAO) 
noted that the hearing level backlog was ``almost eliminated'' from FY 
1997 to FY 1999, but then grew ``unabated'' by FY 2006.\8\ The number 
of pending cases at the hearing level reached a low in FY 1999 at 
311,958 cases. The numbers have increased dramatically since 1999, 
reaching 752,000 in FY 2008.\9\
---------------------------------------------------------------------------
    \8\ GAO Report, p. 20.
    \9\ SSA FY 09 Budget Justification, p. 6.
---------------------------------------------------------------------------
    SSA received funding in FY 2008 to hire approximately 150 new 
Administrative Law Judges to conduct hearings and some additional 
support staff. We understand that SSA has already hired 135 ALJs. It 
will take some time for the judges to be trained and to get up to speed 
in hearing and deciding disability cases. However, productivity is not 
related solely to the number of ALJs, but also to the number of support 
staff. While SSA senior managers and ALJs recommend a staffing ratio of 
5.25,\10\ in 2006, the ratio of support staff to ALJs was 4.12. The 
actual ratio represented nearly a 25 percent decrease from the 
recommended level, at a time when the number of pending cases had 
increased dramatically. When the support staff to ALJ ratio was higher 
(FY 1999 to FY 2001) \11\, the number of pending cases older than 270 
days was much lower.
---------------------------------------------------------------------------
    \10\ GAO Report, p. 32.
    \11\ Id.
---------------------------------------------------------------------------
Decreases in Staffing Result in Decreases in Services
    Beyond the crisis in cases pending for hearings, SSA estimates that 
in FY 2009 it will have a staffing deficit of essentially 8,100 full-
time staff.\12\ The FY 2008 shortfall is 3,300 workyears, and the FY 
2009 shortfall is projected to be 4,800 workyears. We understand from 
Social Security officials that these figures must be added together to 
see the cumulative shortfall of 8,100 staff. This shortfall explains 
the concerns mentioned above regarding the agency's ability to carry 
out its mandated services.
---------------------------------------------------------------------------
    \12\ SSA FY 09 Budget Justification, page 92, Table 3.2--Key 
Performance Targets, under Selected Outcome Measures.
---------------------------------------------------------------------------
Impact of New Workloads
    We were pleased that in the recent Economic Stimulus Act of 
2008,\13\ Congress recognized the added work that SSA will incur as a 
result of the legislation and appropriated an additional $31 million to 
the agency for FY 2008. However, over the past decade, Congress has 
passed legislation that added to SSA's workload, but did not 
necessarily provide additional funds to implement these provisions. 
Recent examples include:
---------------------------------------------------------------------------
    \13\ Pub. L. No. 110-185.

    <bullet>  Conducting pre-effectuation reviews on increasing numbers 
of initial SSI disability allowances. SSA must review these cases for 
accuracy prior to issuing the decision.
    <bullet>  Changing how SSI retroactive benefits are to be paid. SSA 
must issue these benefits in installments if the amount is equal to or 
more than three months of benefits. The first two installments can be 
no more than three months of benefits each, unless the beneficiary 
shows a hardship due to certain debts. Under prior law, the provision 
was triggered only if the past due benefits equaled 12 months or more. 
SSA must address these hardship requests and handle the increased 
number of installment payments.
    <bullet>  SSA's Medicare workloads. SSA has workloads related to 
the Medicare Part D prescription drug program, including determining 
eligibility for low-income subsidies; processing subsidy changing 
events for current beneficiaries; conducting eligibility 
redeterminations; performing premium withholding; and making annual 
income-related premium adjustment determinations for the Medicare Part 
B program.

Mandatory Employment Verification Would Overwhelm SSA
    We are very concerned about the potential impact of legislation 
under consideration to mandate the use of the electronic employment 
eligibility verification system (EEVS) to all employers. Since 1996, 
employers have had the option of verifying names and Social Security 
Numbers of new hires against SSA's database through EEVS, an e-
verification pilot program operated jointly by SSA and the Department 
of Homeland Security (DHS). Currently 53,000 employers use it to verify 
the legal status of job applicants. Most are participating voluntarily, 
but some are required to use the EEVS by law or due to prior 
immigration violations. Studies have found that the current system, 
used by less than 1% of all employers, is hampered by inaccuracies in 
the DHS and SSA records. If made mandatory, the errors in EEVS would 
require millions of U.S. citizens and legal immigrants to interact with 
SSA to prove that they are eligible to work. At a hearing of the Social 
Security Subcommittee on June 7, 2007, the SSA witness indicated that 
SSA would need at least 2,000 to 3,000 additional staff to handle the 
new workload.
    Given the current shortage in administrative resources for SSA 
discussed above (8,100 workyears short in FY 2009), we cannot support 
increased mandatory responsibilities of this magnitude. Past experience 
with new workloads for SSA make us wary of the capacity to fully fund 
the administrative responsibilities on a sustained basis. Such a 
mandate could have further devastating effects on the disability 
determination system which is already so overwhelmed.

CCD Recommendations Regarding SSA Limitation on Administrative Expenses 
        Funding
    The President's request for the SSA FY 2009 LAE does not go far 
enough to put the agency on a clear path to provide its mandated 
services at a level expected by the American public. SSA must be given 
enough funding to make disability decisions in a timely manner and to 
carry out other critical workloads. Due to the serious consequences of 
persistent and cumulative under-funding of SSA's administrative 
expenses, we strongly recommend that SSA receive $11 billion for its FY 
2009 LAE. This amount will allow the agency to make significant strides 
in reducing the disability claims backlog, improving other services to 
the public, and conducting adequate numbers of CDRs and SSI 
redeterminations. At a minimum, SSA should receive the President's 
request of $10.327 billion plus $240 million for integrity work.
    In addition, CCD also urges Congress to separate SSA's LAE budget 
authority from the Section 302(a) and (b) allocations for discretionary 
spending. The size of SSA's LAE is driven by the number of 
administrative functions it conducts to serve beneficiaries and 
applicants. Congress should remove SSA's administrative functions from 
the discretionary budget that supports other important programs. The 
LAE would still be subject to the annual appropriations process and 
Congressional oversight.

II. RECOMMENDATIONS FOR IMPROVING THE DISABILITY CLAIMS PROCESS
    Money alone will not solve SSA's crisis in meeting its 
responsibilities. Commissioner Astrue has committed to finding new ways 
to work better and more efficiently. CCD has numerous suggestions for 
improving the disability claims process for people with disabilities. 
Many of these recommendations have already been initiated by SSA.\14\ 
We believe that these recommendations and agency initiatives, which 
overall are not controversial and which we support, can go a long way 
towards reducing and eventually eliminating the disability claims 
backlog. Finally, we have raised concerns about SSA proposals to revise 
the appeals process for claimants who have received initial denials of 
their disability claims.
---------------------------------------------------------------------------
    \14\ Commissioner Astrue announced a number of initiatives to 
eliminate the SSA hearings backlog at a Senate Finance Committee 
hearing on May 23, 2007. The 18-page summary of his recommendations is 
available at www.senate.gov/finance/sitepages/hearing052307.htm. An 
update on the status of the recommendations/initiatives is the subject 
of the Plan to Eliminate the Hearing Backlog and Prevent Its 
Recurrence: End of Year Report, Fiscal Year 2007, SSA Office of 
Disability Adjudication and Review (``ODAR Report'').
---------------------------------------------------------------------------
Caution Regarding the Search for Efficiencies
    While we generally support the goal of achieving increased 
efficiency throughout the adjudicatory process, we caution that limits 
must be placed on the goal of administrative efficiency for 
efficiency's sake alone. The purposes of the Social Security and SSI 
programs are to provide cash benefits to those who need them and have 
earned them and who meet the eligibility criteria. While there may be 
ways to improve the decision-making process from the perspective of the 
adjudicators, the bottom line evaluation must be how the process 
affects the very claimants and beneficiaries for whom the system 
exists.
    People who find they cannot work at a sustained and substantial 
level are faced with a myriad of personal, family, and financial 
circumstances that will have an impact on how well or efficiently they 
can maneuver the complex system for determining eligibility. Many will 
not be successful in addressing all of SSA's requirements for proving 
eligibility until they reach a point where they request the assistance 
of an experienced representative. Many face educational barriers and/or 
significant barriers inherent in the disability itself that prevent 
them from understanding their role in the adjudicatory process and from 
efficiently and effectively assisting in gathering evidence. Still 
others are faced with having no ``medical home'' to call upon for 
assistance in submitting evidence, given their lack of health insurance 
over the course of many years. As seen earlier in this testimony, many 
are experiencing extreme hardship from the loss of earned income, often 
living through the break-up of their family and/or becoming homeless, 
with few resources--financial, emotional, or otherwise--to rely upon. 
Still others experience all of the above limits on their abilities to 
participate effectively in the process.
    We believe that the critical measure for assessing initiatives for 
achieving administrative efficiencies must be the potential impact on 
claimants and beneficiaries. Proposals for increasing administrative 
efficiencies must bend to the realities of claimants' lives and accept 
that people face innumerable obstacles at the time they apply for 
disability benefits and beyond. SSA must continue, and improve, its 
established role in ensuring that a claim is fully developed before a 
decision is made and must ensure that its rules reflect this 
administrative responsibility.

1. Improve Development of Evidence Earlier in the Process
    CCD supports full development of the record at the beginning of the 
claim so that the correct decision can be made at the earliest point 
possible and unnecessary appeals can be avoided. Improvements at the 
front end of the process can have a significant beneficial impact on 
preventing the backlog and delays later in the appeals process.
    Developing the record so that relevant evidence from all sources 
can be considered is fundamental to full and fair adjudication of 
claims. The adjudicator needs to review a wide variety of evidence in a 
typical case, including: medical records of treatment; opinions from 
medical sources and other treating sources, such as social workers and 
therapists; records of prescribed medications; statements from former 
employers; and vocational assessments. The adjudicator needs these 
types of information to make the necessary findings and determinations 
under the SSA disability criteria.
    Claimants should be encouraged to submit evidence as early as 
possible. However, the fact that early submission of evidence does not 
occur more frequently is usually due to many reasons beyond the 
claimant's control, including:

    <bullet>  State agency disability examiners who fail to request and 
obtain necessary and relevant evidence, including the failure to 
request specific information tailored to the SSA disability criteria;
    <bullet>  The failure of SSA and state agency disability examiners 
to explain to claimants or providers what evidence is important, 
necessary, and relevant for adjudication of the claim;
    <bullet>  Cost or access restrictions, including confusion over 
Health Insurance Portability and Accountability Act (HIPAA) 
requirements, which prevent claimants from obtaining records;
    <bullet>  Medical providers who delay or refuse to submit evidence;
    <bullet>  Inadequate reimbursement rates for providers; and
    <bullet>  Evidence which is submitted but then misplaced.

    Claimants' representatives are often able to ensure that the claim 
is properly developed. Based on the experiences and practical 
techniques of representatives, we have a number of recommendations\15\ 
that we believe will improve the development process:
---------------------------------------------------------------------------
    \15\ Our recommendations include those made by Linda Landry, 
Disability Law Center, Boston, MA, at the SSA ``Compassionate Allowance 
Outreach Hearing for Rare Diseases'' held in Washington, DC, on 
December 4, 2007. Her testimony is available online at: http://
www.ssa.gov/compassionateallowances/
LandryFinalCompassionateAllowances2.pdf.

    <bullet>  Provide more assistance to claimants at the application 
level. At the beginning of the process, SSA should explain to the 
claimant what evidence is important and necessary. SSA should also 
provide applicants with more help completing application paperwork so 
that all impairments and sources of information are identified, 
including non-physician and other professional sources.
    <bullet>  DDs need to obtain necessary and relevant evidence. 
Representatives often are able to obtain better medical information 
because they use letters and forms that ask questions relevant to the 
disability determination process. However, state disability 
determination service (DDS) forms usually ask for general medical 
information (diagnoses, findings, etc.) without tailoring questions to 
the Social Security disability standard. SSA should review its own 
forms and set standards for state-specific forms to ensure higher 
quality.
    <bullet>  Increase reimbursement rates for providers. To improve 
provider response to requests for records, appropriate reimbursement 
rates for medical records and reports need to be established. 
Appropriate rates should also be paid for consultative examinations and 
for medical experts.
    <bullet>  Provide better explanations to medical providers. SSA and 
DDSs should provide better explanations to all providers, in particular 
to physician and non-physician treating sources, about the disability 
standard and ask for evidence relevant to the standard.
    <bullet>  Provide more training and guidance to adjudicators. Many 
reversals at the appeals levels are due to earlier erroneous 
application of existing SSA policy. Additional training should be 
provided on important evaluation rules such as: weighing medical 
evidence, including treating source opinions; the role of non-physician 
evidence; \16\ the evaluation of mental impairments, pain, and other 
subjective symptoms; the evaluation of childhood disability; and the 
use of the Social Security Rulings.
---------------------------------------------------------------------------
    \16\ This evidence is often given little or no weight even though 
SSA's regulations provide that once an impairment is medically 
established, all types of probative evidence, e.g., medical, non-
physician medical, or lay evidence, will be considered to determine the 
severity of the limitations imposed by the impairment(s).
---------------------------------------------------------------------------
    <bullet>  Improve use of the existing methods of expediting 
disability determinations. SSA already has in place a number of methods 
which can expedite a favorable disability decision if the appropriate 
criteria are met, including Quick Disability Determinations, 
Presumptive Disability in SSI cases, and terminal illness (``TERI'') 
cases.
    <bullet>  Improve the quality of consultative examinations. Steps 
should be taken to improve the quality of the consultative examination 
(CE) process. There are far too many reports of inappropriate 
referrals, short perfunctory examinations, and examinations conducted 
in languages other than the applicant's.

2. Expand Technological Improvements
    Commissioner Astrue has made a strong commitment to improve and 
expand the technology used in the disability determination process. CCD 
generally supports these efforts to improve the disability claims 
process, so long as they do not infringe on claimants' rights. The 
initiative to process disability claims electronically has the prospect 
of significantly reducing delays by eliminating lost files, reducing 
the time that files spend in transit, and preventing misfiled evidence. 
Some of the technological improvements that we believe can help reduce 
the backlog include the following:

    <bullet>  The electronic disability folder: ``eDIB.'' The 
electronic folder should reduce delays caused by the moving and 
handing-off of folders, allowing for immediate access by different 
components of SSA or the DDS.
    <bullet>  Electronic Records Express (ERE). ERE is an initiative to 
increase the use of electronic options for submitting records related 
to disability claims that have electronic folders. Registered claimant 
representatives are able to submit evidence electronically through the 
SSA secure website or to a dedicated fax number using a unique barcode 
assigned to the claim.
    <bullet>  Findings Integrated Templates (FIT). FIT is used for ALJ 
decisions and integrates the ALJ's findings of fact into the body of 
the decision. While the FIT does not dictate the ultimate decision, it 
requires the ALJ to follow a series of templates to support the 
ultimate decision.
    <bullet>  Use of video hearings. Video hearings allow ALJs to 
conduct hearings without being at the same geographical site as the 
claimant and representative and has the potential to reduce processing 
times and increase productivity. We support the use of video 
teleconference hearings so long as the right to a full and fair hearing 
is adequately protected; the quality of video teleconference hearings 
is assured; and the claimant retains the absolute right to have an in-
person hearing as provided under current regulations.\17\
---------------------------------------------------------------------------
    \17\ 20 C.F.R. Sec. Sec. 404.936 and 416.1436.
---------------------------------------------------------------------------
3. New Screening Initiatives
    We support SSA's efforts to accelerate decisions and develop new 
mechanisms for expedited eligibility throughout the application and 
review process. Ideally, adjudicators should use SSA screening criteria 
as early as possible in the process and we encourage the use of ongoing 
screening as claimants obtain more documentation to support their 
applications. However, SSA must work to ensure that there is no 
negative inference when a claim is not selected by the screening tool 
or allowed at that initial evaluation. There are two initiatives that 
hold promise:

    <bullet>  Quick Disability Determinations. We have supported the 
Quick Disability Determination (QDD) process since it first began in 
SSA Region I states in August 2006 and was expanded nationwide by 
Commissioner Astrue in September 2007.\18\ The QDD process has the 
potential of providing a prompt disability decision to those claimants 
who are the most severely disabled. Since the QDD process's August 2006 
implementation in Region I states, the vast majority of QDD cases have 
been decided favorably in less than 20 days.
---------------------------------------------------------------------------
    \18\ 20 C.F.R. Sec. Sec. 404.1619 and 416.1019.
---------------------------------------------------------------------------
    <bullet>  Compassionate Allowances. In July 2007, SSA published an 
Advance Notice of Proposed Rulemaking (ANPRM) on a proposed new 
screening mechanism to be known as Compassionate Allowances.\19\ SSA is 
``investigating methods of making `compassionate allowances' by quickly 
identifying individuals with obvious disabilities.'' While there is no 
definition of disabilities that are considered ``obvious,'' there is 
emphasis on creating ``an extensive list of impairments that we [SSA] 
can allow quickly with minimal objective medical evidence that is based 
on clinical signs or laboratory findings or a combination of both. . . 
.'' Like the QDD process, SSA is looking at the use of computer 
software to screen cases by searching claims for key words in the 
electronic folder.
---------------------------------------------------------------------------
    \19\ 72 Fed. Reg. 41649 (July 31, 2007).
---------------------------------------------------------------------------
4. Other Hearing Level Improvements
    <bullet>  The Senior Attorney Program. In the 1990s, senior staff 
attorneys were given the authority to issue fully favorable decisions 
in cases that could be decided without a hearing (i.e. ``on the 
record''). While the Senior Attorney Program existed, it helped to 
reduce the backlog by issuing approximately 200,000 decisions. We are 
pleased that Commissioner Astrue has decided to reinstate the program 
for at least the next two years\20\ and has proceeded with 
implementation.\21\ We believe that this initiative will help to reduce 
the backlog of cases at the hearing level.
---------------------------------------------------------------------------
    \20\ The interim final rule reinstating the program was published 
in August 2007 and became effective on October 9, 2007. 72 Fed. Reg. 
44763 (Aug. 9, 2007).
    \21\ ODAR Report, p. 3.
---------------------------------------------------------------------------
    <bullet>  Increasing the time for providing notice of hearings. 
Current regulations in most of the country provide only a 20-day 
advance notice for ALJ hearings. This time period is not adequate for 
requesting, receiving, and submitting the most recent and up-to-date 
medical evidence prior to the hearing. SSA has proposed to expand the 
75-day hearing notice requirement nationwide.\22\ We strongly support 
this proposed change. This increased time period will mean that many 
more cases would be fully developed prior to the hearing and lead to 
more on-the-record decisions, avoiding the need for a hearing.
---------------------------------------------------------------------------
    \22\ 72 Fed. Reg. 61218 (Oct. 29, 2007).
---------------------------------------------------------------------------
CCD Response to the NPRM: Amendments to the Administrative Law Judge, 
        Appeals Council, and Decision Review Board Appeals Levels
    On October 29, 2007, SSA published a Notice of Proposed Rulemaking 
(NPRM), which would make major changes to the appeals process.\23\ We 
had very serious concerns about the proposed rule's impact on claimants 
and beneficiaries and submitted extensive comments on behalf of over 30 
national organizations.\24\ Our overarching concern was that many 
aspects of the proposed process would elevate speed of adjudication 
above accuracy of decision-making. This is problematic and not 
appropriate for a non-adversarial process.
---------------------------------------------------------------------------
    \23\ Id.
    \24\ See: http://www.c-c-d.org/task_forces/social_sec/
CCD_NPRM_comments_FINAL_12-27-07.pdf.
---------------------------------------------------------------------------
    On balance, we urged the Commissioner not to implement this NPRM 
unless significant changes were made to protect the rights and 
interests of people with disabilities. Our measure is whether the 
process will be fair. While there are some positive proposed changes, 
e.g., a 75-day hearing notice (the current rule provides only a 20-day 
notice); de novo review by the ALJ; and retaining a claimant's right to 
administrative review of an unfavorable ALJ decision, we noted that the 
package of proposals, as a whole, would result in more decisions that 
are not based on full and complete records. Claimants would be denied 
not because they are not disabled, but because they would not have had 
an opportunity to present their case. It is appropriate to deny 
benefits to an individual who is found not eligible, if that individual 
has received full and fair due process. It is not appropriate to deny 
benefits to an eligible individual simply because he or she has been 
caught in procedural tangles and barriers. We believe that the flexible 
nature of the current non-adversarial, truth-seeking process must be 
preserved.
    As you know, on January 29, 2008, after the close of the public 
comment period, Commissioner Astrue informed Representative McNulty, 
Chairman of the Social Security Subcommittee, that in light of the 
concerns expressed by the public and Members of Congress, he was 
suspending the rulemaking process for the provisions that were 
controversial.
    Following that announcement, Commissioner Astrue met with members 
of NOSSCR and CCD to discuss those areas of the proposed rule 
considered controversial. We felt the meeting was productive and 
believe that Commissioner Astrue and his staff are working in good 
faith to address the serious concerns raised by advocates. We look 
forward to another meeting or follow-up on those issues which SSA 
officials agreed to reconsider.
Claimant Stories Provided by Representatives in April 2008

ALABAMA
    <bullet>  Ms. S was a court reporter for 26 years in Mobile, 
Alabama. She stopped working in March 2002 due to severe carpal tunnel 
syndrome, chronic obstructive pulmonary disease (COPD), and psychiatric 
impairments. The claimant filed a claim on her own in 2002 and lost at 
the ALJ level a few years later and never appealed. She then sought 
representation and her attorney helped her file a new claim. Two 
hearings were held and there were two Appeals Council remands. By this 
time, Ms. S had undergone several carpal tunnel release surgeries 
without any real relief, became dependent on a continuous positive 
airway pressure (CPAP) machine to facilitate her breathing, and her 
dementia became increasingly progressive to the point that she was 
completely dependent on her adult son and her sister. Following a 
request to the ALJ for an ``on the record'' decision, after the second 
Appeals Council remand, the ALJ issued a favorable decision on March 
28, 2008.

ALASKA
    <bullet>  Ms. B of Sitka, Alaska, applied for Title II and SSI 
benefits in March 1998. After initial denial of both claims, she had a 
hearing in March 2000. The unfavorable ALJ decision was issued more 
than one year later in April 2001. She filed a hand-written appeal to 
the Appeals Council in May 2001. In her appeal, she wrote that her 
condition was grave because she had severe headaches, dizziness, lost 
balance, had blurry vision, and severe head pain and fatigue. Five and 
one-half years later, the Appeals Council denied review in December 
2006. Ms. B was unrepresented through that point. She obtained counsel 
to file an appeal to Federal court. Upon reviewing the administrative 
record, her attorney immediately noticed that the record contained 
substantial records from another person, including the other person's 
name. These are the same medical records upon which the ALJ denied her 
claim in 2001, including the finding that Ms. B was not credible. The 
fact that these records belonged to another individual was obvious.
         In Federal court, the incorrect records were brought to the 
attention of the SSA Office of General Counsel (OGC) and the court. In 
May 2007, Ms. B's attorney and the SSA attorney agreed to a remand, 
which the court approved. Since May 2007, there has been no action by 
SSA to move this claim toward disposition. Ms. B's attorney has filed a 
request for an ``on the record'' decision but has received no response. 
Ms. B is now receiving benefits but only since 2007 when she received a 
favorable ALJ decision on a subsequent application. However, that 
decision only paid benefits starting in September 2003.

ARKANSAS
    <bullet>  Ms. R lives in Fayetteville, Arkansas, and filed for 
Title II and SSI benefits in April 2001. Her claim was denied and a 
hearing was held in December 2002. Her SSI claim was allowed but the 
Title II claim was denied based on lack of insured status. On appeal to 
the Appeals Council, proof was submitted that she had worked and was 
insured, but the claim was denied again. Ms. R filed an appeal in 
Federal court, which was remanded in April 2004 because the 
administrative record was lost. Nearly two years later, in January 
2006, the Appeals Council finally remanded the case to an ALJ, 
certifying that all efforts to locate the file had been exhausted, to 
have an immediate hearing to reconstruct the file. Ms. R's attorney has 
continually contacted the hearing office regarding the remand hearing 
based on the court's order four years ago. There has still been no 
hearing set on this matter. Being restricted to SSI has seriously 
affected her financial situation and she is being denied the Title II 
disability payments, for which she has worked.
    <bullet>  Mr. M filed a claim for benefits some time in late 2005, 
which was denied. He lives in Pettigrew, Arkansas. A hearing was 
requested in October 2006 and held in January 2008. A decision has not 
yet been received. Mr. M has had a series of strokes, which affect his 
ability to comprehend and his condition continues to worsen. He also 
has been forced to move from place to place, because his family cannot 
afford to pay for his living expenses and they lost their home.
    <bullet>  Ms. C from Farmington, Arkansas, filed a claim for 
benefits in early 2006. After being denied, she requested a hearing in 
August 2006. A hearing was held in September 2007, but it was another 
six months before she received a favorable decision, which was more 
than two years after she filed her claim. During this time, Ms. C. lost 
her home, which she shared with an abusive and alcoholic man because 
she had no money and no other place to live. She now moves around, 
including staying with her parents.
    <bullet>  Ms. M filed a claim for benefits in August 2005 while 
living in Florida. The claim was denied and she requested a hearing in 
April 2006. Following that hearing request, Ms. M moved to 
Fayetteville, Arkansas, and obtained representation. Beginning in 
November 2006, her attorney requested that her file be transferred from 
Florida to Arkansas. The transfer finally occurred ten months later in 
September 2007. A hearing was held in March 2008. Ms. M continues to 
decline in physical, emotional, and mental health. She had been living 
with a sister, but was asked to leave. She moves from family member to 
family member, and has no money for medical treatment or even basic 
necessities.

CONNECTICUT
    <bullet>  Mr. C, who worked as a landscaper, has liver failure. 
While waiting two years for a hearing, he became homeless. By the time 
his hearing was held, he was living in his car in the middle of winter. 
He was hospitalized right after the hearing and the hospital had no 
place where he could be discharged. He waited for two months after the 
hearing for a favorable ALJ decision and another month after that to 
start receiving benefits.

FLORIDA
    <bullet>  Ms. K applied for disability benefits in August 2004. She 
lived in Key West, FL. Her husband shot her 5 times in the liver and 
abdomen and then killed himself. Her disabilities stemmed from these 
injuries and from chronic obstructive pulmonary disease (COPD). Her 
claim was denied and she requested a hearing in April 2006. Nearly two 
years later, her hearing was held in March 2008 and the ALJ stated that 
benefits would be awarded. Unfortunately, Ms. K died in late March 2008 
of long-term complications from her wounds and COPD, before the written 
decision was received. Because she did not have money to live 
independently, she was forced to live with her mother. The mother, who 
has dementia, is a chain-smoker. During the last part of her life, Ms. 
K had frequent hospitalizations. She would then return to her mother's 
house and her condition would worsen. Her attorney last saw Ms. K about 
a week before her death. Ms. K told her attorney that she believed she 
would die if she could not get into a smoke-free living situation. 
Since Ms. K died in part from COPD, her attorney believes that her 
compromised living situation, due to the lack of income, shortened her 
life.
    <bullet>  Mr. F filed a claim for disability benefits in September 
2004 and was denied twice before his hearing in July 2006. He has well-
documented uncontrolled seizure disorder and used a wheelchair for the 
first six months of his disability. He is 56 years old. While waiting 
for his hearing, he could not pay his utility bills and his electricity 
and water were turned off. He lived without any utilities for over six 
months. He and his wife lived in a trailer. For water, they would carry 
empty milk containers to a communal water faucet in the trailer park to 
fill them. They used this water to wash dishes, bathe and flush toilets 
for over six months. At the hearing, the ALJ approved the claim but 
with an onset date of only two months prior to the hearing, and Mr. F 
has appealed the onset date.
    <bullet>  Mr. B is a 48 year old former mechanic who lives in 
Bradenton, Florida. He has diabetes mellitus, failed back surgery 
syndrome, three disc herniations in his lower back and two in his 
cervical spine, ambulates with a cane, and has developed depression and 
anxiety. His application was filed in September 2004. He has not yet 
had a hearing, which is scheduled for June 18, 2008. He is a workers' 
compensation recipient. However, in the interim, his benefits were 
significantly reduced. He had to move in with eight other family 
members and depends on them for financial support. The workers' 
compensation carrier has denied several of his medical bills on grounds 
that his conditions were pre-existing, so he has had no medical care 
for some time.
    <bullet>  Ms. L was a 44 year old female with advanced, end-stage 
breast cancer. She lived in Bradenton, Florida. She filed an 
application for benefits in 2002, her request for a hearing was filed 
in August 2005, but she died from her condition in April 2006. She was 
living with her mother at the time.
    <bullet>  Mr. M is a 57 year old former businessman. He has end-
stage kidney failure, uncontrolled hypertension, and anemia. He had 
numerous reports stating his condition was terminal. He filed an 
application in 2004 and a request for a hearing in August 2005. He was 
awarded benefits without a hearing in April 2006 by the ALJ, after his 
attorney sent two letters requesting an ``on the record'' decision. 
Until the ALJ decision, his phone, electricity, and other utilities 
were cut off. His house went into foreclosure. He had no medical 
insurance and his wife could not afford to support him.
    <bullet>  Mr. D was a 56 year old laborer with a 6th grade 
education. He had end-stage lung cancer. In 2007, he filed an 
application in West Virginia, then moved to Florida. He died in 
February 2008. While waiting for a determination, he lost his home, 
car, wife, and all sources of income. He died in a hospice with no 
family knowledgeable about his whereabouts.

GEORGIA
    <bullet>  Mr. A is 23 years old. He previously received SSI 
benefits due to a heart transplant. His benefits were terminated. Now, 
Medicaid will no longer pay for his anti-rejection medication. If he 
does not get this medication, he will die. His hearing request was 
filed in February 2007 but no hearing has been scheduled.
    <bullet>  Mrs. G, a 58 year old woman, worked her entire life, the 
last 15 years at a convenience store. Over time, she developed 
degenerative joint disease and cardiovascular problems. In 2004, she 
deteriorated to the point that she stopped working. She had a house 
where she had lived for many years but fell behind on the payments. Her 
attorney had to intercede on her behalf several times to stop 
foreclosure. Her car, which she fully owned, sat idle because she could 
not pay the tag fees and could not afford gas. Three years after she 
applied, she had a hearing. While the ALJ stated at the hearing that a 
favorable ruling would be forthcoming, it still took more than six 
months after the hearing before she received her favorable decision. 
Even then she had trouble getting her monthly benefits started. Several 
months passed and still she did not receive past due benefits. As she 
still owed back mortgage payments, the mortgage company started 
foreclosure proceedings again. She reported to her attorney that the 
anxiety over her claim was making her cardiovascular problems worsen. 
She never received her past due benefits. She died still waiting. Her 
attorney notes that Mrs. G is his fourth client who has died in the 
last three years while waiting for a favorable decision and payment of 
benefits.

HAWAII
    <bullet>  An attorney in Honolulu reports that the ALJ who hears 
claims in the Honolulu ODAR hearing office has been out on sick leave 
since November 2007. Since then, no hearings have been held in the 
State of Hawaii. For reasons he does not know, the SSA Regional Office 
in San Francisco, CA, did not make arrangements to have the hearing 
docket handled by a visiting ALJ. He personally has about 50 clients 
waiting for their cases to be scheduled. Like other claimants, these 
are individuals with severe illnesses that prevent them from working 
and they have no income. After the attorney and his clients wrote to 
one of their Senators, SSA began to schedule video hearings for the end 
of April 2008 in Honolulu, which the attorney reports is the first 
action since the end of November 2007. However, the other islands in 
Hawaii are not set up for video hearings.

ILLINOIS
    <bullet>  Mr. M lived in the Chicago, IL, area. He had various 
medical problems, but the most significant one was the need for kidney 
dialysis, which became apparent after the application was filed. The 
need for dialysis meant that his impairment met one of the listings of 
impairments, at least as of the date that the dialysis began. His 
request for hearing was filed in January 2007. Mr. M's medical 
condition worsened. In addition, he did not have a permanent residence 
and stayed with his sister for part of the time that his claim was 
pending. However, he informed his attorney that his sister was moving, 
that he could no longer stay with her, and that he had no alternative 
place to live.
         In July 2007, his attorney began a series of contacts with the 
ODAR hearing office in an effort to have the case considered for an 
``on the record'' decision or to schedule a hearing on an expedited 
basis given Mr. M's medical condition and lack of a permanent 
residence. Between July 2007 and February 2008, his attorney sent five 
letters, left multiple voice mail messages, and spoke with the hearing 
office director about Mr. M's case. Finally, in February 2008, the 
hearing office called to schedule the case in April 2008, sixteen 
months after the appeal was filed. Unfortunately, Mr. M died in March 
2008. As a result, he never received the benefits to which he was 
entitled. He died destitute. And because this was an SSI claim, no one, 
including his sister who helped him, will be eligible to receive the 
retroactive benefits.
    <bullet>  Mr. R, age 48, has Lou Gehrig's Disease and became 
disabled in January 2006. His claim was denied and his hearing request 
has been pending since October 2007. He spent five years caring for his 
ailing mother prior to her death and now needs assistance with most 
activities of daily living. However, his wife cannot afford to stop 
working and he cannot afford to hire an assistant. He may not live long 
enough to have a hearing.
    <bullet>  Mr. J is 51 years old. He previously received disability 
benefits for five years due to a back injury. He returned to work as a 
truck driver but was re-injured on the job. His employer did not have 
workers' compensation insurance. He has an inoperable spinal disorder. 
His application was filed in October 2005 and his hearing request was 
filed more than two years ago in March 2006. His attorneys' requests 
for an ``on the record'' decision and for expedited reinstatement of 
benefits have been denied. Mr. J's treating physician strongly supports 
this disability claim. Mr. J and his wife have lost every financial 
asset that they accumulated while they were working and they now live 
with the wife's elderly mother who lives on a fixed income. 
Exacerbating his impairment, Mr. J was in a car accident in April 2008, 
which injured his neck and head and knocked him unconscious.
    <bullet>  Ms. K is a 52 year old woman, and a resident of Joliet, 
IL. She has major depression with psychosis, diabetic neuropathy, chest 
pain, and arthritis. She was 48 years old when she applied for Title II 
disability benefits in 2004. She requested an ALJ hearing in February 
2006 and still does not have a hearing scheduled. Since she applied in 
2004, she has suffered deteriorating health and severe financial 
hardship, including a utility shutoff during one of the coldest winters 
in recent memory. Her attorney has been told that because she has a 
paper file, this has further delayed the scheduling of her hearing. Her 
attorney requested an ``on the record'' decision without the need for a 
hearing based on the strength of her case and her long wait, but this 
request was denied.
    <bullet>  Mr. B from Freeport, IL, requested a hearing in November 
2001 and a hearing was held in May 2002. No decision was issued and the 
ALJ scheduled a supplemental hearing, which was held nearly 18 months 
later in October 2003. An unfavorable decision was issued, more than 
two years after a hearing was requested. He appealed to the Appeals 
Council but the file was misplaced. After Congressional intervention, 
the file was located and a decision remanding the case to the ALJ was 
issued in August 2007, more than three years after the ALJ decision. It 
has been more than 6 years since he first requested a hearing. Mr. B, 
who is impoverished, is still waiting for a new date for his remand 
hearing.

INDIANA
    <bullet>  Mr. I, a 46 year old resident of Indianapolis, Indiana, 
was a school bus driver. He developed high blood pressure, diabetes and 
lost vision in one eye. He could no longer work. He applied for 
benefits in February 2004. Without income, he had to choose food over 
his medication. His diseases became uncontrolled and he was found 
unconscious on his apartment floor. He was hospitalized and eventually 
died in February 2007. A favorable decision was issued in August 2007, 
nearly six months after his death.

IOWA
    <bullet>  Ms. H is a Henderson, IA, resident and is now 48 years 
old. She filed her application in March 2005 and requested a hearing in 
December 2005. Nearly two years later, the hearing was held in November 
2007, but she still has not received a decision five months later. All 
evidence was submitted before the hearing and there was no post-hearing 
development ordered by the ALJ. Ms. H has Hepatitis B and C and has had 
Interferon treatments for almost a year. She also has severe arthritis, 
gastroesophageal reflux disease, and depression. Her physician has 
written that she needs to rest three hours out of an eight hour work 
day and that pain would interfere frequently with her attention and 
concentration.

KENTUCKY
    <bullet>  Ms. R, age 53, of Richmond, Kentucky, worked as an 
inspector for a rubber operation. She had cancer and then disability 
due to a mastectomy, nerve damage, emphysema, hypertension, plus other 
conditions, including depression. She applied for benefits in October 
2006. Her case was appealed to the ALJ level. However, before a hearing 
was scheduled, Ms. R died in March 2008. Her family continues the case.

MARYLAND
    <bullet>  Ms. W is a 30 year old former retail employee who lives 
in Westminster, Maryland. As a result of an automobile accident, she 
has various cervical, thoracic and lumbar spinal conditions which cause 
severe instability in her legs and affect her in all activities of 
daily living, including working. She has not been able to work since 
the accident and will be unable to work indefinitely. She filed her 
application for benefits in early 2006, which was denied. She requested 
a hearing in August 2007. The hearing was held on February 13, 2008, 
and a favorable decision was issued on March 27, 2008. While this story 
has had a positive end result, the path to getting there was anything 
but positive. By the time of her February 2008 hearing, she was 
homeless and had been living out of her beat-up, old car for months. 
She was unable to pay any bills, including rent, and she was evicted. 
During this time, she was unable to communicate with her attorney. She 
also could not obtain proper medical treatment, and her condition 
continued to deteriorate. She has finally found shelter, but is still 
awaiting receipt of her first benefits payment.

MASSACHUSETTS
    <bullet>  Ms. W lived in Worcester, MA, and was 45 years old when 
she died from end-stage liver disease. She died in January 2008, while 
waiting for a hearing. She filed an application in 2005 but it was 
lost. She filed another application in late 2006 or early 2007, which 
was denied, in part, because of failure to consider that her condition 
was expected to result in death. She obtained representation and 
requested a hearing in July 2007, but the appeal was not processed 
promptly pending receipt of the 2005 file, which had been lost. Between 
September 2007 and January 2008, her attorney contacted the SSA 
district office and the ODAR hearing office on eight different 
occasions, requesting that the processing be expedited because Ms. W 
was in desperate need of funds and was feeling quite ill. In December 
2007, the district office said the file had been sent to the hearing 
office, but the hearing office denied receiving the file. On January 
14, 2008, the attorney finally received a letter from the hearing 
office acknowledging receipt of the hearing request. Ms. W died on 
January 18, 2008.
    <bullet>  Mr. F is a 45 year old sheet metal mechanic from 
Fitchburg, MA, who worked for the same company for 25 years. He filed 
his application in May 2006 at the urging of his doctor. Following 
surgery for a cervical fusion, he has had complications, including 
decreased range of motion, severe and constant headaches, severe 
chronic pain, arm and hand numbness, and hip and back pain. His hearing 
request was filed in December 2006. While waiting more than two years 
for a hearing, he also developed severe anxiety and chest pain. By the 
time of his hearing in October 2007, he had lost his beloved home to 
foreclosure, lost both his wife's and his cars to repossession, lost 
his boat, lost his 401(k) account, and nearly lost his 16 year old 
daughter to severe depression after they lost their home and were 
forced to move into the unfinished basement of a relative. Mr. F 
received a favorable ALJ decision in December 2007 after his attorney 
requested an expedited hearing.

MICHIGAN
    <bullet>  An attorney in Saginaw, Michigan, reports that the 
current delay between filing a request for hearing and the date of the 
hearing in his area ranges from 24 to 28 months. This delay is on top 
of waiting anywhere from two months to four months to hear whether the 
initial application has been approved. While some ALJs will issue a 
decision on the record, it often takes one to two months to get the 
written decision and another one to four months for the individual to 
actually get paid. Many clients are experiencing a delay of three years 
or more between the time of initial application and the time they 
finally get their benefits. He has had numerous clients who have lost 
their homes, cars, and other property while waiting. Many of his 
clients have had to go through bankruptcy because of the delay. These 
financial stresses also contribute to family stresses and several of 
his clients have gotten divorced and attribute the divorce directly to 
financial stresses.
    <bullet>  Mr. H is 61 years old and lives in Holland, Michigan. He 
was unable to work and applied for disability benefits in March 2005. 
He requested a hearing in September, 2005, more than 30 months ago. His 
attorney requested an ``on the record'' decision in the fall of 2007, 
after his case was transferred to another ODAR hearing office because 
of overload in the Grand Rapids, Michigan ODAR office. The ALJ denied 
the request and a hearing was held in November 2007. Two years and 8 
months after requesting the hearing and 3 months after the hearing, he 
received a favorable decision from the ALJ in February 2008. As of 
April 10, 2008, he has received no benefits. Mr. H needs his disability 
benefits so his children do not need to continue to pay his bills.
    <bullet>  Ms. M, a 46 year old woman living in Muskegon, Michigan, 
applied for disability benefits in March 2004 because she could no 
longer work due to degenerative osteoarthritis of the hips and spine, 
obesity, and psychological impairments. While waiting for her hearing, 
she received a foreclosure notice on her house and was behind on her 
utility bills. Her impairments worsened due to stress and uncertainty 
about where she would live. Her representative filed a request for an 
expedited hearing based on ``dire need'' in May 2006. After the 
hearing, the ALJ issued a favorable decision in September 2006 but she 
never received any of her benefits until December, 2006--far too late 
to save her house.

MISSISSIPPI
    <bullet>  Mr. C, a 58 year old former machinist who lives in Como, 
Mississippi, has severe neck, right shoulder and arm pain after . . . 
ound tumor was removed from his neck, and he is illiterate. These 
conditions prevent him from working. He filed his application for 
benefits in November 2004. He had a hearing January 9, 2008. During his 
wait for a hearing, he lost his home to foreclosure and was unable to 
afford required tests for his impairments.
    <bullet>  Ms. D, a 47 year old former data entry clerk who lives in 
Doddsville, Mississippi, has fibromyalgia, chronic obstructive 
pulmonary disease, and severe anxiety, which prevents her from 
performing even simple work tasks. She filed her application for 
benefits in March 2005. While waiting for a hearing, she has become 
homeless and unable to stay in a shelter, due to having to work for 
board, which she is unable to do. Because she has nowhere to cook, she 
only is able to eat food that does not require cooking.
    <bullet>  Mr. L, a 45 year old former equipment operator who lives 
in Louisville, Mississippi, lost 20% to 30% of his lung capacity in a 
workplace accident. He also has severe migraine headaches, daily 
blackout spells, and severe post-traumatic stress disorder (PTSD), all 
of which prevent him from working. He filed an application for benefits 
in February 2006. While waiting for a hearing, he is 3 payments behind 
on his home and risking foreclosure, has lost all of his vehicles, and 
all utility bills are about 3 months behind.
    <bullet>  Mr. J is a 50 year old former truck driver who lives in 
Leland, Mississippi. He has Type I diabetes, a pinched nerve, and back 
problems. He applied for benefits in March 2006. While waiting for a 
hearing, he has been forced to live in his truck for four months.
    <bullet>  Mrs. G is a 53 year old former machine operator who lives 
in Greenwood, Mississippi. She has Type II diabetes, moderate 
degenerative disc disease, a herniated disc, and an esophageal 
restriction. She applied for benefits in October 2006. She is currently 
waiting for a hearing date. Her home is in the final stages of 
foreclosure.
    <bullet>  Mrs. K is a 53 year old former secretary who lives in 
Kosciusko, Mississippi. She has diabetes, protruding discs, spinal 
stenosis, arthritis, carpal tunnel syndrome, and depression. She 
applied for benefits in March 2006, and is waiting for a hearing date. 
She has just become homeless.

MISSOURI
    <bullet>  Mr. O, from Richmond, Missouri, died in the lobby of the 
ODAR hearing office while waiting to be called for his hearing on April 
2, 2008. He was 49 years old and is survived by his wife and 4 
children. He filed his SSI application for disability in November 2005, 
alleging inability to work due to uncontrolled diabetes with 
neuropathy, and shoulder and arm pain. He had worked for 14 years as a 
truck driver. His claim was denied in March 2006 and he promptly filed 
a request for hearing in April 2006. While waiting for hearing, he had 
numerous problems with child support authorities and his home was 
foreclosed upon. His representative filed a dire need request in July 
2007 to expedite the hearing, but he did not receive a hearing date 
until February 2008, when the hearing was scheduled for April 2, 2008, 
the day he died.
    <bullet>  Mrs. C is a 40 year old Marine Corps veteran who lives in 
Columbia, MO. She has been unable to work as an over-the-road trucker 
since December 2004 because of migraines, degenerative disc disease of 
the neck and lower back, and depression. Her husband, a truck mechanic, 
supports the family of four, including a daughter in college, on $1,900 
monthly take-home pay. Mrs. C filed for benefits in April 2005 and 
requested a hearing, which took place in March 2007. Her claim was 
denied in December 2007 and she appealed to the Appeals Council in 
February 2008. In March 2008, Mrs. C traveled from Missouri to Colorado 
and had neurosurgery, following a diagnosis of Chiari Malformation. Her 
recovery is uncertain.
    <bullet>  Mrs. Y is a 37 year old registered nurse, from Columbia, 
Missouri, who is married with three small children. She had a very good 
work record until she became incapacitated by pelvic and hip pain in 
December 2004, following the worsening of an injury during delivery of 
one of her children. Her claim for Title II benefits was denied in 
December 2006 and she requested a hearing. The family had already filed 
for bankruptcy. While waiting for a hearing, her condition worsened. 
She needs a rare surgery performed by only a few surgeons in the 
country and which requires a six-month recovery period in a hospital 
bed and another six months using a wheel chair. The family would need a 
different house that is accessible. Despite the financial and medical 
information, SSA did not expedite the hearing for 13 months. She 
finally received a favorable ALJ decision in February 2008.
    <bullet>  Mr. L, a 26 year old former nurse's assistant from St. 
Louis, Missouri, has grand mal seizures that have been occurring more 
and more frequently, and that make it dangerous for him to work. He had 
to stop working as a nurse's assistant, as he had some severe seizures 
at work, which caused injury to him and the fear of injury to patients 
with whom he worked. He filed his application for benefits in August 
2006. Since he has been awaiting a hearing, he has become homeless. He 
now lives with his girlfriend's family, which is very difficult for Mr. 
L and his girlfriend's family, as they are forced to care for and 
financially assist a young man who is not related to them, simply 
because they do not want to see him homeless. Mr. L has no health 
insurance, and he cannot afford the very expensive medications that are 
needed to help keep his seizures under better control. It is a ``Catch 
22'' for him since he cannot work because he has seizures that are 
uncontrolled, yet he cannot control the seizures until he has the money 
to pay for the medications. He has been waiting almost two years to 
even be heard by an ALJ.

NEBRASKA
    <bullet>  Ms. O is now 56 years old and lives in Omaha, Nebraska. 
By late 2004, symptoms from her bipolar disorder, combined with a new 
diagnosis of cerebral degeneration, worsened her coordination and 
cognitive skills, and precluded all work. In January 2005, she lost her 
job as a cashier at a grocery store where she had been employed for 15 
years. She filed her claim in June 2005. She filed a request for 
hearing January 2006. On October 26, 2006 she asked for an ``on the 
record'' decision because she had been hospitalized for both her 
physical and mental impairments and her treating sources found 
significant limitations. The request was denied and she is still 
waiting for her hearing to be scheduled, more than two years after her 
appeal was filed. She has exhausted all of her savings and is dependent 
on county general assistance and the county mental health clinic for 
all of her treatment.
    <bullet>  Mr. B, a 46 year old former cook who lives in Seward, 
Nebraska, has Bipolar I Disorder, unspecified organic brain syndrome, 
paranoid personality disorder and borderline personality disorder, 
which prevent him from working. He filed his application for Title II 
and SSI benefits in December, 2005. While waiting for a hearing, which 
was requested in July 2006, he has lost his Medicaid benefits and has 
been without medical treatment and prescriptions since July, 2007.
    <bullet>  Ms. K, a 49 year old former dry cleaning clerk who lives 
in Omaha, Nebraska, has depression, post-traumatic stress disorder, 
adjustment disorder with anxiety, chronic obstructive pulmonary disease 
and fibromyalgia, which prevent her from working. She filed her 
application for Title II benefits in October 2005 and requested a 
hearing in July 2006. Ms. K is in an abusive marital relationship, but 
has been unable to move out and find an alternative residence because 
she does not have the income and resources to leave her husband. Also, 
she is dependent upon her husband's health insurance so that she can 
receive treatment and prescription medications for her disabling 
conditions.

NEVADA
    <bullet>  Ms. L is 45 years old and lives in Las Vegas, Nevada. She 
worked as a clerk for an area resort. She has back, hip, knee and 
breathing problems and suffers from pain including headaches and 
abdominal pain. She also has depression and has not been able to 
continue working. She applied for benefits in March 2005 and was denied 
in August 2005. Her case was appealed to reconsideration and she 
received a decision, again denying the claim, nearly three years later 
in April 2008. Her case is now pending at the ALJ hearing level. She 
has received utility cut-off notices and foreclosure notices. She 
recently has contacted her Congressional representative to help 
expedite her case.

NEW JERSEY
    <bullet>  Mrs. E, a 50 year old former cardiac nurse who lives in 
Eastampton, New Jersey, has severe pain from impairments of her lower 
back, hips and shoulders (post-surgeries bilaterally) as well as 
depression and anxiety attacks. These conditions have made it 
impossible for her to work since 2003. She applied for benefits in 
2005. While waiting for a hearing, she has exhausted all of her 
retirement savings and is now being threatened with foreclosure due to 
past-due mortgage payments. Her hearing has finally been scheduled for 
May 2008.
    <bullet>  Mr. N, now 59 years old, from Northvale, New Jersey, was 
originally denied by an ALJ in February 2005. After appeals through the 
Federal court level, the case was remanded to the ALJ in November 2006. 
In January 2008, 14 months after the court remand order and 35 months 
after the first ALJ denial, the ALJ issued a fully favorable ``on the 
record'' decision. Mr. N has a severe mental impairment and has 
expressed suicidal ideation throughout the process. At the time the 
claim was approved in January 2008, foreclosure proceedings were 
started by his mortgage company. Mr. N is married with 2 teenage sons.
    <bullet>  Mr. H was living in a homeless shelter in Hackensack, New 
Jersey, at the time of his February 2006 hearing. The ALJ, despite 
knowing of the client's homeless situation and receiving a letter from 
the client threatening suicide, did not issue a decision until October 
2006, more than 7 months after the hearing date.
    <bullet>  Mr. F is a resident of Florence, New Jersey. He 
originally filed his claim for Title II and SSI benefits on December 1, 
1997. He has mental retardation, a separate learning disability, and a 
herniated lumbar disc. His claim has been heard by an ALJ three 
separate times so far. After his last hearing, he was found to be 
disabled at a date after his Title II insured status expired. He has 
been eligible for SSI benefits of less than $600.00 per month and not 
the Social Security benefits of at least $1,000.00 per month he had 
worked to earn. The last ALJ decision was appealed to the Federal 
district court, which remanded the case on June 1, 2007. A fourth 
hearing is now scheduled for May 1, 2008.

NEW MEXICO
    <bullet>  Mr. R lives in Rio Rancho, New Mexico, and applied for 
benefits in November 2005. His hearing was held in August 2007. Eight 
months later, he is still waiting for a decision from the ALJ. In the 
meantime, he tried to return to work in order to have money for living 
expenses. An acquaintance gave him a job with accommodations for his 
disability. Even with the accommodations, he was unable to complete 
even two months on the job, which SSA considers to be an unsuccessful 
work attempt. Now Mr. R is certain that he cannot work at any job.
    <bullet>  Ms. A lives in Albuquerque, New Mexico, and applied for 
benefits in October 2005. Her hearing was held in November 2007, more 
than two years later. She has had to give up her own home and move in 
with her adult children. She calls her attorney every month, and the 
attorney calls the hearing office to check on the status of the case. 
Her case is still in post-hearing review with the ALJ, even though 
there is no further development that needs to be completed.

NEW YORK
    <bullet>  Mr. R is 38 years old and lives in Brooklyn, New York. He 
has major depressive disorder, anorexia nervosa with severe weight 
loss, somatoform disorder, and generalized fatigue. He applied for SSI 
benefits in September 2003 and requested a hearing in March 2004. The 
ODAR hearing office failed to send a Notice of Hearing for the hearing, 
scheduled in December 2006. As a result, Mr. R did not appear and his 
hearing request was dismissed. He obtained representation in June 2007 
after the dismissal. His attorney immediately contacted the ALJ and 
submitted all documents establishing that Mr. R was never informed of 
the hearing. She also sent all medical evidence she had obtained. The 
attorney asked the ALJ to reopen the case and to schedule an expedited 
hearing. The hearing was finally held in November 2007 and the ALJ 
issued a favorable decision in late November 2007. There still was a 
delay in receipt of benefits as Mr. R did not receive his first SSI 
past due installment payment until March 2008 and his first SSI monthly 
payment until April 2008.
         While waiting for the hearing decision and benefits payments, 
Mr. R lost his welfare benefits and Medicaid, so he could not receive 
treatment. His anorexia nervosa was so extreme as to cause severe tooth 
decay requiring dentures. He received an eviction notice for his 
apartment but his attorney worked with the landlord to stave off 
eviction based on the fact that a new hearing was being scheduled. 
Because his welfare case was closed, Mr. R had no money. He had to go 
to food pantries for any donation and his neighbors helped him from 
time to time. He even had to borrow money to ride the subway to his 
hearing.

    <bullet>  Ms. T lives in Ronkonkoma, New York. She is 55 years old. 
She was a pharmacy technician for over thirty years. She has been 
hospitalized three times in the past year for chronic obstructive 
pulmonary disease (COPD). She has been unable to work since December 
2005. She filed for benefits in January 2007 and requested a hearing in 
May 2007. Her husband's income is not enough to meet their needs and 
they have had to borrow money from family in order to meet living 
expenses. This winter, they had no choice but to reduce their 
expenditure on oil for the household. They tried to reduce the 
household temperature, but this causes worsening of her lung symptoms. 
In addition, Ms. T is depressed and constantly worries about what will 
happen when the next month's bills become due.

NORTH CAROLINA
    <bullet>  Mr. N lived in the Charlotte, North Carolina area. He was 
57 years old and died in August 2007. As an adult, he obtained a degree 
in theology. From 1986 to 1997, he worked doing maintenance on power 
generating stations. He developed heart disease and emphysema and, from 
1998 to 2004, he did less strenuous work. In June 2005, he filed a 
claim for Title II disability benefits. His claim was denied and he 
requested a hearing in April 2006. During the wait, he developed a spot 
on his lung, but could not afford a CT scan for an accurate diagnosis. 
In May 2007, he received a foreclosure notice, lost his house, and had 
to move in with his daughter. He died in August 2007 of ischemic heart 
disease. In February 2008, months after his death, his claim was 
approved on informal remand to the DDS.
    <bullet>  Ms. G, from the Charlotte, North Carolina area, was 50 
years old when she died. She had worked in the garment trade, in 
management, and retail. She applied for Title II benefits about January 
2007 and requested a hearing in June 2007. She died April 4, 2008, 
probably from heart disease with complications of chronic pancreatitis 
and hyperparathyroidism. Her attorney notes that the facts leave out 
that Ms. G was a funny, vital woman, with two children age 18 and 21. 
She had left an abusive and controlling husband, and was trying to make 
it on her own, with absolutely no income.
    <bullet>  Mr. E died on August 21, 2007, at age 52 from congestive 
heart failure, chronic atrial fibrillation, pneumonia, obesity and 
peripheral artery disease. He lived in the Charlotte, North Carolina 
area and worked for 15 years as a pipe insulator, and usually held a 
second job. He applied for Title II benefits in March 2006, which was 
denied, and requested a hearing in November 2006. Four months after his 
death, on December 27, 2007, a favorable decision was issued without 
hearing.
    <bullet>  Ms. R, a 52 year old former cook and waitress who lives 
in Rocky Mount, North Carolina, has Major Depressive Disorder, post-
traumatic stress disorder, panic attacks, carpal tunnel nerve damage in 
both hands, chronic obstructive pulmonary disease, and migraine 
headaches. These conditions prevent her from working. She filed her 
application for benefits in November 2006. While waiting for a hearing 
she encountered numerous hardships, including: being on the verge of 
committing suicide; having extreme debilitating joint pain and disk 
pain; becoming homeless; and having frequent nausea due to migraine 
headaches. Her claim was approved in March 2008 by the ALJ after her 
attorney submitted a ``dire need'' request.

OKLAHOMA
    <bullet>  Mr. H, from Tulsa, Oklahoma, filed an application for 
disability benefits in March 2006, due to Hepatitis B and liver and 
renal failure. Unfortunately, he died on September 13, 2007, without 
having been able to attend a hearing.
    <bullet>  Ms. B, from Tulsa, Oklahoma, filed an application in 
April 2006 and has not yet been scheduled for a hearing. She has 
Multiple Sclerosis and a mental impairment. In July 2007, her attorney 
wrote the hearing office requesting an ``on the record'' decision. She 
is so desperate that she is willing to change her date of disability 
onset to a later date. As of April 2008, no action has been taken on 
the request. Since the request was made, Ms. B has been hospitalized on 
at least two occasions for her psychiatric condition.
    <bullet>  Ms. K, from the Tulsa, Oklahoma area, has a rare kidney 
disease and is passing a kidney stone almost once a week, which causes 
severe pain. She is diagnosed with Major Depressive Disorder, Graves 
Disease, recurrent and severe pain disorder, and recurrent kidney 
stones. Her treating physician has stated that she could not return to 
work. After her application was denied in 2006, she requested a 
hearing. In the summer of 2007, her attorney submitted additional 
evidence from her treating doctor. No action has been taken. She is in 
dire financial straits.
    <bullet>  Mrs. M, a 33 year old former waitress and substitute 
school teacher, lives in Muskogee, Oklahoma. She has degenerative joint 
disease of the lumbar spine, neck and hands; hearing loss; left wrist 
injury; migraines; tingling/numbness in the left knee and left foot; 
right hip problems; dizziness and nausea. She filed her application for 
benefits in August 2005 and a request for hearing in May 2006. Mrs. M 
is married with three children, including one son who is disabled. 
After a nearby plant explosion damaged their home in 2004, the family 
was forced to move into an apartment. Evicted in 2007, they have had no 
permanent residence since then and have been forced to live in a 
variety of temporary settings, including a shelter for women and 
children (Mrs. M's husband slept in the car). After the 2007 eviction, 
Mrs. M's attorney sent letters to the ODAR hearing office requesting an 
expedited hearing because of the family's homelessness. Mrs. M received 
a fully favorable decision on March 26, 2008, nearly two years after 
she filed her request for a hearing. Her disabled child also received a 
favorable decision on March 25, 2008. On April 7, 2008, an SSA district 
office worker informed the attorney that both Mrs. M and her disabled 
child were in pay status.

SOUTH CAROLINA
    <bullet>  Mr. A was living in Augusta, South Carolina, when he was 
in a car accident. In his 30s, he had been working as a computer 
professional, but the accident resulted in a severe and chronic pain 
condition. He could not sit down, stand up or lay down for more than 15 
minutes at a time. He applied for SSDI benefits in January 2003. His 
case was denied in September 2003. At reconsideration, his case was 
denied again in August 2004. His mother was required to return to work 
from her retirement to help him with medical costs. Mr. A died five 
months before his December 2006 hearing from an accidental overdose of 
pain medication. He would have been 41 years old this year. The ALJ 
denied the claim and his mother has continued the case by filing an 
appeal to the Appeals Council. No decision on the appeal has been 
received.

TENNESSEE
    <bullet>  Ms. B from Tiptinville, Tennessee, died in July 2006 just 
shy of her 52nd birthday due to chronic obstructive pulmonary disease 
(COPD). Ms. B was a school cafeteria cook her entire life and stopped 
working in September 2002 due to back and lung impairments. She was on 
an oxygen machine, as well as a continuous positive airway pressure 
(CPAP) machine. She filed her claim for benefits in 2002 and was denied 
for the first time by an ALJ in February 2005 after waiting 5 months 
for a decision from her first hearing in September 2004. The claim was 
appealed to the Appeals Council and two years later was remanded back 
to the ALJ to reconsider the treating doctor's opinion. An ALJ allowed 
the claim with an ``on the record'' decision in April 2008.
TEXAS
    <bullet>  Ms. T is 34 years old and had a good work history. Four 
years ago, she developed gastrointestinal problems and lupus. She has 
no health insurance or other income to use for medical treatment, even 
though recent tests indicate she has had heart damage. She is 5 feet, 6 
inches tall, but over the last four years her weight has been as low as 
77 pounds, which should meet a listing of impairments. She has been 
waiting for a hearing over 1000 days even though her attorney has sent 
``dire need'' letters and requested an ``on the record'' decision. The 
ALJ has denied the requests. A hearing has finally been set for later 
in April 2008.
    <bullet>  Mr. D is a veteran and living in domiciliary care at an 
area VA Hospital. He was homeless and had cancer three times in a 
period of just over two years. During the second episode of cancer, he 
had a pulmonary embolism and was put on life support. The VA could not 
find his family to see about ceasing the life support and the veteran 
was in the nursing home for a period of time. Miraculously, Mr. D 
survived and then had to have surgery for a brain tumor. He had to wait 
over one year for his hearing. There were thousands of pages of medical 
records in his file. At the hearing, he and his attorney learned that 
the hearing office had not sent the medical records to the medical 
expert witness for pre-hearing review. This delayed the decision. Mr. D 
eventually received a favorable decision and his benefits.
    <bullet>    A woman in the Paris, Texas area had heart and kidney 
problems. She had a stent inserted so she could have dialysis. She was 
waiting to start dialysis when her condition deteriorated and she died. 
Three weeks later, she received a favorable ALJ decision. Her attorney 
had requested an ``on the record'' decision before the claimant died, 
but to no avail.

VIRGINIA
    <bullet>  Ms. H was a 47-year-old receptionist living in a nursing 
home in Fairfax, Virginia, after having been homeless on and off since 
2003. She had an extensive medical history which included cervical, 
dorsal and lumbar spinal strains, pinched nerve, shoulder pain, 
uncontrolled diabetes mellitus, diabetic neuropathy, nephritic 
proteinuria, hypertension, obesity and dyslipidemia. She also had 
severe kidney disease including an acute episode of renal failure. In 
June 2007, she was hospitalized with a myocardial infarction after 
which she had two strokes. One in the cerebellum was complicated by 
hydrocephalus requiring neurosurgical relief.
         Ms. H first applied for SSI and Title II benefits in January 
2004, having last worked in October 2003. She had an ALJ hearing in 
August 2005 and was denied again in October 2005. She was not 
represented at that hearing. She reapplied on her own sometime in 2006 
and obtained legal assistance in July 2006. Another request for hearing 
was filed in March 2007. Ms. H had a heart attack in June 2007 but her 
legal representative was not informed until August 2007. The 
representative immediately requested a favorable ``on the record'' 
decision. The ODAR hearing office did not respond until January 2008. 
Ms. H received her Notice of Award on February 4, 2008. She received 
her retroactive benefits on March 28, 2008. She died on April 3, 2008.

WASHINGTON
    <bullet>  Ms. S is a 38 year old resident of Seattle, Washington, 
who is dealing with a combination of autoimmune diseases, which have 
progressively worsened. She had to drop out of medical school because 
of her medical condition. She cannot work and her chronic disease 
continues to worsen. She applied for benefits in May 2003. Her 
representative sent briefs to the ODAR hearing office in February 2004 
and July 2005. Her case was denied by the ALJ, remanded by the Appeals 
Council, denied by the ALJ again, and eventually appealed to Federal 
district court. The court remanded the case for a new ALJ hearing. As 
of April 2008, her case is still pending for a third ALJ hearing, yet 
unscheduled.
    <bullet>  Mr. W is 48 years old and was a manager at a social 
services organization in the area of Oshkosh, Wisconsin. He experienced 
a worsening of mental illness (neurotic depression) and stabbed 
himself. He survived but endured homelessness. He lived in a boarding 
house for a time. He was getting food from shelters and the Red Cross. 
He filed for benefits in March 2006 and was finally approved for 
benefits in February 2008.

CONCLUSION
    As you can see from the circumstances of these claimants' lives and 
deaths, delays in decision-making on eligibility for disability 
programs can have devastating effects on people already struggling with 
difficult situations. On behalf of people with disabilities, it is 
critical that SSA be given substantial and adequate funding to make 
disability decisions in a timely manner and to carry out its other 
mandated workloads. We appreciate your continued oversight of the 
administration of the Social Security programs and the manner in which 
those programs meet the needs of people with disabilities.
    Thank you for the opportunity to testify today. I would be happy to 
answer questions.

ON BEHALF OF:
American Council of the Blind
American Foundation for the Blind
American Network of Community Options and Resources
Council of State Administrators of Vocational Rehabilitation
Easter Seals, Inc.
Epilepsy Foundation
Goodwill Industries International, Inc.
Inter-National Association of Business, Industry and Rehabilitation
National Alliance on Mental Illness
National Association of Disability Representatives
National Disability Rights Network
National Multiple Sclerosis Society
National Organization of Social Security Claimants' Representatives
NISH
Paralyzed Veterans of America
Research Institute for Independent Living
The Arc of the United States
Title II Community AIDS National Network
Tourette Syndrome Association
United Cerebral Palsy
United Spinal Association

                                 <F-dash>

    Mr. MCDERMOTT. Thank you very much for your testimony.
    Ms. Mara Mayor is on the AARP Board of Directors in 
Bethesda.
    Ms. Mayor.

   STATEMENT OF MARA MAYOR, MEMBER, AARP BOARD OF DIRECTORS, 
                       BETHESDA, MARYLAND

    *Ms. MAYOR. Good afternoon. Thank you very much Chairman 
McDermott, Ranking Member McCrery, Members of the Committee.
    AARP appreciates this opportunity to give our perspective 
on what underfunding the Social Security Administration means 
for Americans, especially those who are 50 and over. I would 
just add as a parenthesis, my husband is a retired attorney who 
volunteers at a local social services agency where one of the 
things he does is he works with people on disability appeals on 
a regular basis, so I have sort of an extra view from the 
trenches on this one.
    The programs under the jurisdiction of the Social Security 
Administration are for not only the promise of earned and 
deserved benefits, but also the promise that they will be 
reasonably, in fact compassionately, administered. 
Unfortunately, as we are hearing, today SSA is no longer the 
gold standard of service it once was. The deterioration in 
service reflects an increased workload and a pernicious pattern 
of underfunding. SSA's core responsibility is managing the Old 
Age and Survivor's Insurance Program, the Disability Insurance 
Program, and the Supplemental Security Income Program.
    These tasks will be even more challenging as the boomers 
apply for Social Security benefits. You have heard numbers. 
Just one interesting statistic, in the next 10 years alone, 
nearly 13 million new beneficiaries will be added to the roles, 
which translates to 16,000 per working day. That is a lot of 
people. The boomer retirement comes at a time when the SSA 
field offices are, as you know, strained. Despite the hard work 
of thousands of dedicated Social Security employees and 
managers, SSA is dealing with service issues that would make 
even the strongest of organizations blanch.
    To complicated the problem, SSA now plays a key role in 
assessing the correct premium for Medicare Parts B and D, and 
processes applications for the low-income subsidy of Medicare 
Part D. That is not all. In recent years, the agency has become 
an important element in the nation's homeland security efforts. 
By conducting millions of Social Security number employment 
verifications and other immigration related activities. Given 
the enormous strain the Agency already faces in meeting its 
obligations, AARP has grave concerns about proposals to expand 
these types of activities.
    To make matters worse, as you know, resources have only 
been shrinking. SSA is at its lowest staffing level in 35 years 
despite having about twice the number of beneficiaries it had 
35 years ago. In addition, we know that some field offices have 
been closed or consolidated. The numbers may be modest, as the 
Commissioner indicated, but AARP is very concerned about the 
trend. If the trend continues in this direction, essential 
services will slip even further.
    AARP Members and the general public are counting on the 
fact that Social Security will be there financially when they 
retire or become disabled, and need to be able to count on the 
fact that the Social Security office will be there. You have 
heard about the infrastructure, I won't go into that, it is 
clearly a big issue. Clearly important resources are needed to 
ensure the Agency can meet its workload, and it is not 
happening and so the question is why. Although SSA's 
administrative expenses are paid from the trust funds, these 
expenses are subject to non-Social Security spending caps and 
across the board cuts. This means funding has been artificially 
low in order to comply with spending targets unrelated to 
Social Security. As a result, over time there has been a 
steadily increasing gap between SSA's needs and the final 
appropriation. Reducing funding as though SSA actually competed 
for discretionary dollars has ill-served the Agency and the 
millions who rely on it.
    We want to stress the impact on the American people, and 
particularly those who are 50 and over, of these expanding 
responsibilities coupled with less adequate resources. Clearly, 
inefficient funding will hamper the Agency's ability to serve 
the wave of boomers as they retire, and it will make it 
impossible to make significant headway in reducing the 
horrendous backlog of services in its disability program. While 
the disability programs are potentially available to anyone 
regardless of age, it is those over 50 who make up a major 
percent of their recipients.
    AARP believes Congress must respond to this funding crisis 
in several ways. Provide the Agency with the resources it needs 
to address the disability backlog, reject any further expansion 
of administrative activities not directly related to the 
Agency's core mission, and exclude SSA funding from any 
domestic spending cap. We need to keep the promise of 
reasonable administration of programs overseen by the Social 
Security Administration, programs on which the American people, 
and particularly those 50 plus rely.
    On behalf of the more than 39 million Americans who are 
Members of AARP, I thank you for this opportunity and would be 
happy to answer questions.
    [The prepared statement of Mara Mayor follows:]

    [GRAPHIC] [TIFF OMITTED] T8116A.018
    
    [GRAPHIC] [TIFF OMITTED] T8116A.019
    
    [GRAPHIC] [TIFF OMITTED] T8116A.020
    
    [GRAPHIC] [TIFF OMITTED] T8116A.021
    
    [GRAPHIC] [TIFF OMITTED] T8116A.022
    
    [GRAPHIC] [TIFF OMITTED] T8116A.023
    
    [GRAPHIC] [TIFF OMITTED] T8116A.024
    
    [GRAPHIC] [TIFF OMITTED] T8116A.025
    

                                 <F-dash>

    Mr. MCDERMOTT. Thank you for your testimony.
    Mr. Skwierczynski, who is the president of the American 
Federation of Government Employees National Council of Social 
Security Field Operations Locals, your testimony please.

    STATEMENT OF WITOLD SKWIERCZYNSKI, PRESIDENT, AMERICAN 
FEDERATION OF GOVERNMENT EMPLOYEES, NATIONAL COUNCIL OF SOCIAL 
     SECURITY FIELD OPERATIONS LOCALS, BALTIMORE, MARYLAND

    *Mr. SKWIERCZYNSKI. Thank you, Congressman McDermott, 
Congressman McCrery, and the rest of the Committee, thanks for 
inviting me.
    I am with the union, I represent 50,000 bargaining 
employees who work for Social Security, and we certainly have a 
crisis due to the failure of the Administration and Congress to 
properly fund the Agency. The witnesses here and the 
Commissioner have already talked about some of the disconnects 
that have occurred with regards to the disability process.
    Part of the problem is that not only have we been forced to 
deal with an incredibly increasing workload in the disability 
process, but Congress has asked us to do other work, such as 
the Medicare D subsidy, Medicare B appeals, and more stringent 
evidentiary standards for Social Security number work. If in 
fact there is some effort to expand our work with no match in 
e-verify workloads in the immigration area, it will require an 
incredible infusion of resources not only for staff but also to 
upgrade our computers.
    Applicants who file for disability hearings, from the time 
they file the initial claim, takes about two years to get a 
decision. That is outrageous. Right now, in this fiscal year 
the Agency is only going to do 33 percent of its continuing 
disability reviews and 60 percent of its SSI reconsiderations, 
ensuring that many un-reviewed beneficiaries will incur 
unnecessary overpayments. Fifty-one percent of the people who 
tried to call a field office last year got no answer, and 25 
percent who called the 800 number couldn't get through. Right 
now, with the baby boomers filing initial claims, retirement 
claims this year, we have about 16-percent increase in traffic 
into our offices. Efforts by the public to try to communicate 
with SSA employees have become a frustrating experience 
characterized by delays, busy signals and unanswered calls.
    Clearly we need more resources. We would suggest that an 
$11 billion administrative budget in fiscal year 2009 would be 
a start, and also an increase of 5,000 FTE over current numbers 
would be a start. Enacting off budget legislation for the SSA 
administrative budget is the only conceivable solution to the 
yearly struggle against budget caps and Congressional scoring 
requirements that results in inadequate SSA budgets year after 
year, staffing cuts, and the consequent poor service. Off 
budget could solve the absurdity of a system where the trust 
fund is making huge surpluses, but it is used for everything 
but SSA's resource requirements.
    We also would recommend federalizing the disability program 
and eliminating the current Federal/state bifurcation in 
deciding disability claims. What we have now is we have 54 
different disability systems out there with different qualities 
of workers, different rules, and different training systems. 
There is no consistency. In some states the approval rates are 
55 percent on initial claims, others are 25 percent with no 
evidence that, in those states with higher approval rates, the 
people are more sick than in other states. The current system 
no longer makes sense, it needs to be federalized. It would 
provide consistency not only to the staff, but to the 
decisionmaking process and to the training.
    The most disturbing impact of the budget shortage is that 
the Administration is using the lack of resources as an excuse 
to initiate fundamental changes in SSA's evidentiary standards 
and the way the Agency operates that will permanently damage 
Social Security as a responsible social program and harm the 
American public who rely on Social Security as their primary 
source for retirement, survivor, and disability security. The 
major transformation supported by the administration is to 
diminish the historical personal service role of SSA employees 
in the claims process. If claims can be filed by the public 
without employee review and assistance, the savings to 
administrative expenses certainly could be substantial.
    But what would be the impact of that change? Already this 
year, SSA has made some major changes in evidentiary 
requirements. No longer do we ask for proof of age from 
applicants for retirement benefits if their allegation upon 
retirement matches their allegation when they got their Social 
Security card. No longer to we check on somebody's citizenship, 
again if their allegation matches when they first got a card to 
when they filed for a claim. No longer do we seek wag earnings 
information, that is earnings not posted on their earnings 
record of individuals who file for retirement even though that 
information would tend to increase their benefits.
    All three evidentiary requirements I just mentioned hinge 
on an SSA employee to review the evidence and certify its 
accuracy. Eliminating such evidence enhances the opportunity 
for fraud and incorrect payments.
    SSA intends to introduce a new Internet Social Security 
benefit application in September. The goal is to allow 
claimants to file applications on the Internet without 
intervention or review by a Social Security employee. 
Currently, all Internet claims are reviewed by a Social 
Security employee.
    We have done surveys with the people who do review those 
claims. 61 percent of our claims reps who review these claims 
have informed us that over 50 of the claims they review, the 
individuals have chosen months of election to start their 
retirement benefits that are to their disadvantage. If you have 
no reviews, you will have millions of people who will be filing 
claims that will be choosing a pathway to retirement which are 
not in their best interests.
    Mandatory reviews and contacts ensure advice and assistance 
on advantageous month of election, pursuit of benefits for 
other eligible family members that ensure that the claimants 
understand the impact of their benefit choices whether they 
file for widow's benefits or retirement benefits or spouse's 
benefits, and also that they get an explanation of their 
reporting responsibilities.
    The Internet application also eliminates a number of 
questions which are designed to ferret our fraudulent people 
who are retiring that aren't really retiring and also to elicit 
earnings from the military or the railroad which would tend to 
increase their benefits.
    The stated Administration goal is to eliminate the claims 
review so that it will be the applicant's responsibility to 
make the right choices without help. As a substitute to 
employee assistance, the administration plans to provide pop-up 
screens and expanded access to third parties. Rather than have 
trained government employees with a public service motivation 
assisting claimants, SSA plans to shift that role to third 
parties who will charge fees for their services and will have 
minimal training and knowledge of the program. The 
Administration has shifted its entire public relations program 
to a push for SSA claimants to file Internet claims. Some 
communications offer the public no other option.
    Concurrent with its emphasis on Internet claims, SSA has 
accelerated its office closing program with totally removes the 
option of face to face service to many SSA customers. Last 
year, the Commission closed 17 offices, which was the highest 
number of offices closed in the history of this Agency. Despite 
what the Commissioner said, you ought to review his numbers, 
the only offices that were open last year were enumeration 
centers which are not full workload offices, they just do 
Social Security number work.
    SSA's evidentiary changes and Internet claims without 
employee review will undoubtedly lead to an increase in fraud 
and incorrect payments. It will also lead to the transformation 
of a respected social agency from one where employees were 
trained to personally assist the applicants to benefits to 
navigate a complex system at a time of personal crisis when 
people are filing for retirement or disability or survivors 
benefits, perhaps because of the death of their husband or 
their wife or their mother or their father, to an agency that 
expects claimants to fend for themselves. If such claimants 
make unwise choices, it is their problem.
    Is this the Social Security Administration that Congress 
wants? If not, I would strongly urge that you ask some hard 
questions of the people who run Social Security and engage in 
some serious oversight and enact legislation preventing this 
tragic transformation of Social Security from occurring.
    I also ask that you please support Congressman Higgins' 
bill, H.R. 5110, which will require SSA to provide notice and 
rationale to Congress of any office closing, and also require 
the SSA Commissioner to submit the Agency budget directly to 
Congress, which is optional under the independent Agency system 
we have, rather than to OMB.
    Thank you.
    [The prepared statement of Witold Skwierczynski follows:]

 Prepared Statement of Witold Skwierczynski, President of the American 
Federation of Government Employees National Council of Social Security 
              Field Operations Locals, Baltimore, Maryland

    I thank Chairman Rangel, Ranking Member McCrery and Members of the 
Committee, for the opportunity to present this statement regarding the 
Social Security Administration's (SSA's) large backlog in disability 
claims and other deterioration in public service due to years of 
inadequate funding of the Agency's administrative expenses.
    As President of the American Federation of Government Employee's 
(AFGE) National Council of Social Security Administration Field 
Operations Locals and Spokesperson for the AFGE SSA General Committee,
    I present this statement on behalf of approximately 50,000 
bargaining unit Social Security employees who work in over 1500 
facilities nationwide. The employees represented by the Union work in 
Field Offices, Program Service Centers, Teleservice (800 Number) 
Centers, Regional Offices of Quality Assurance, Offices of Disability 
Adjudication and Review, Regional Offices, Headquarters Offices, the 
Wilkes-Barre Data Operations Center, and other sites throughout the 
country where SSA employees take, process and review claims for 
retirement, survivor, disability benefits and appeal requests for SSA 
and SSI benefits.
    The primary message the Union wants to convey to this Committee is 
that Social Security is in dire need of both additional administrative 
funding and Congressional oversight of its service delivery practices. 
The crisis in the disability program as manifested in the obscene 
delays in processing disability hearings appeals is primarily due to 
the failure of the President and Congress to adequately fund 
administrative expenses. Staffing levels have become much too low in 
SSA. This has affected not only the disability workloads but also all 
work that the Agency is required to accomplish.
    Unacceptable backlogs have escalated and critical integrity 
workloads are not done. The employees who work in the SSA front lines 
and interact with the public are assigned impossible workloads. They 
are expected to increase their productivity, interview more and more 
claimants, maintain a high level of accuracy, provide friendly and 
compassionate service while interacting with the public while Congress 
and the President not only assign more programs and workloads to the 
Agency but do so while reducing staff. Dedicated veteran employees are 
fed up with the deteriorating stressful work environment and count the 
days till they can retire. SSA changes priorities and engages in crisis 
management efforts to plug the rapidly multiplying holes in the dam. 
Employees are not asked or encouraged to provide input regarding what 
should be done to solve the Agency's problems. Instead they are just 
told what to do. The unfortunate victims of the decisions that have 
been made to starve the Agency are the American public who rely on SSA 
to provide them and their families with retirement, disability and 
survivor's benefit security. Also affected are the poor aged, blind and 
disabled who rely an SSA to provide subsistence SSI benefits so that 
they can survive. These victims are frequently faced with delays of 
over 2 years when they file for either SSA or SSI disability benefits. 
Only 30 % of initial claims for disability are allowed due to an 
archaic system in which state employees make decisions on whether 
claimants are eligible for a Federal disability program. If their 
initial claim is denied, the applicant is faced with a nightmare 
scenario of delays of one to three years before their appeal is decided 
by the Agency. Claimants find it difficult to interact with a Social 
Security employee when they need assistance. 25 % of the calls to the 
800 number are unanswered. If a claimant calls their local office they 
can't get through 51% of the time. Due to the decision to save money by 
closing offices, many claimants face lengthy commutes to find an SSA 
office. When they arrive they face lengthy waits. If they try to file 
their application through the internet, they must confront a complex 
set of questions and choices with little assistance. Consequently, re-
contacts by SSA employees are virtually universal and can cause lengthy 
delays in the claims process. In order to stretch resources, SSA has 
loosened evidentiary standards. Standard evidence such as proof of age, 
citizenship and development of recent wages not posted on a wage 
earner's earnings record is no longer requested in most cases. Thus, 
more ineligible claimants are approved for erroneous payments and more 
claimants are paid incorrectly. Once applicants begin receiving 
benefits, SSA can no longer review the accuracy of disability and SSI 
benefits by conducting Continuing Disability Reviews (CDRs) at the 
required levels due to staff shortages. In FY 08 the Agency will only 
conduct 33% of scheduled CDRs. Consequently, thousands of individuals 
who have recovered from their disabilities simply continue to collect 
benefits. Thousands of SSI recipients who have not reported changes in 
their income, resources or living arrangements continue to be paid 
incorrectly since the Agency doesn't have enough staff to review their 
cases and conduct redeterminations. In FY 08, SSA will only process 60% 
of scheduled SSI redeterminations. When their cases are reviewed, SSA 
assesses these SSI recipients with overpayments which are difficult or 
impossible to collect from a marginal population.
    Budget cuts and a shortage of personnel have been an issue at 
Social Security for over 20 years, but this Agency is now using both of 
them as an excuse to make a number of ``backdoor'' changes that AFGE 
feels will disadvantage the millions of Americans who are part of the 
``Baby Boom Generation.'' These changes include loosening evidentiary 
requirements that will enhance the possibility of fraud. In addition, 
SSA is planning to reduce the assistance provided to claimants when 
making their choices of when to effectuate retirement benefits. Such 
changes will increase the likelihood that claimants will make choices 
against their interests. This is all part of a plan to save money by 
shifting service to internet claims without employee review.
    Offices around the United States are being closed at an alarming 
rate. In 2007 SSA closed 17 offices--the highest number in SSA history. 
These offices are closed without examination of the adverse impact that 
such closures have on the affected community.
    SSA staffing shortages have encouraged 3rd party businesses to fill 
the void and offer to assist claimants in their interactions with SSA. 
Such assistance, of course, is for a price. Few claimants attempt to 
navigate the SSA hearings appeal system without representation. 
However, SSA has plans to encourage and assist 3rd parties in expanding 
the menu of services that they offer claimants for a fee. SSA 
traditionally has provided assistance to claimants as part of the FICA 
taxes that wage earners have paid during their working lives. Now SSA 
has plans to encourage claimants to fend for themselves and use 3rd 
parties who charge a fee instead of SSA employees. Expanding 3rd party 
involvement in the claims process due to budgetary constraints can only 
lead to pressure for future contracting out of core SSA services.
Disability
    Since Commissioner Astrue's arrival at SSA, he has made a few 
positive changes to address the short term problems regarding 
disability hearing backlogs, such as targeting cases older than 1000 
days and accelerating the rollout of the quick decision determination 
process throughout the agency. He has worked with OPM and Congress to 
hire 175 additional Administrative Law Judges (ALJs). He terminated 
most aspects of the ill conceived Disability Service Improvement plan 
initiated by his predecessor Jo Anne Barnhart. However, Commissioner 
Astrue has decided to hire and train insufficient support staff that 
each new ALJ relies upon to prepare cases for hearing and write and 
process post-hearing decisions. The Agency intends to hire only 143 
support staff for the new judges. SSA budgets 4.3 support staff for 
every ALJ. 0.8 support staff per the new ALJs falls extremely short of 
what is necessary to properly assist the ALJs. Failure to provide 
adequate support staff is a recipe for future disaster and will 
probably lead to continuing backlogs. The support staff is needed to 
schedule hearings, assemble case files and evidence, work with 
attorneys to insure smooth hearings, order and schedule consultative 
examinations and to write and process the eventual decisions. Absent 
such support, the system breaks down. Thus, we urge Congress to insist 
that SSA provide each ALJ with the staff necessary for them to do their 
job.
    Commissioner Astrue has reassigned Agency attorneys to review cases 
awaiting hearing. These attorneys are empowered to reverse denied 
reconsideration cases if the evidence indicates a disability. This has 
been done in an effort to reduce the 752,000 case backlog that existed 
at the beginning of FY 08. AFGE feels that SSA should expand this 
effort by utilizing non-attorneys within the Agency that have displayed 
the ability to make appellate decisions. SSA has previously used non-
attorneys in this roll with no evidence of adverse effect in the 
decision making process (e.g., Adjudicative Officers). The requirement 
of a law degree for this task limits the Agency's ability to expand the 
effort to concentrate energies to reduce the disability hearings case 
backlog and the lengthy processing times.
    SSA's approach to disability, past and present, fails to address 
the problems and inadequacies of the State Disability Determination 
Services (DDS). AFGE strongly believes that if problems with 
inconsistent decisions at the initial claims level are addressed, 
appeals will diminish. Disability claimants deserve consistent initial 
claims decisions and payments as soon as possible in the claims 
process.
    Unfortunately, the chances for a claimant to be approved at the 
initial level have a lot to do with where they live and their income 
rather than the nature of their disability. That's inherent in the 
system. Each state has different criteria for hiring Disability 
Examiners. Each state provides them with different pay and benefit 
packages. Some are unionized--others are unorganized. Each state 
provides somewhat different training to their employees. Employee 
retention rates vary dramatically from state to state. In effect, there 
are 50 different disability programs when there should be one.
    For example, State Agency Operations records indicate that those 
who can obtain medical attention early and often have a better chance 
of being approved for benefits than those who have limited income or 
resources. (See Attachment A) Nationwide, those applying for Social 
Security disability have a much greater chance of being approved than 
those who only apply for the Supplement Security Income (SSI) program.
    So far in FY 08 more than 61 percent of Social Security disability 
claims for benefits are approved in the Washington DC DDS, while just 
30 percent of those who file for benefits are approved in the South 
Carolina DDS. New Hampshire approves the most initial SSI only 
disability cases with more than a 55 percent allowance rate. However, 
residents of Michigan, Ohio, Alabama, South Carolina and Georgia are 
approved less than 30 % of the time by their respective DDS. The 
concurrent disability process shows inexplicable variable allowance 
rates depending on the state of residence. Allowance rates are low in 
every state. In New Hampshire and Washington the allowance rate is 
slightly more than 40 percent of the concurrent SSI/SSA initial 
disability claims. Less than 18 percent of those filing concurrent 
disability claims are approved in Georgia and Ohio. There is no 
evidence to show that residents of some states are twice as susceptible 
to become disabled as residents in other states. Obviously, different 
state initial claims approval rates have more to do with the bifurcated 
system than the health of residents of these states. Claimants are 
entitled to consistent decisions regardless of their state of residence 
or whether they are filing for Social Security or SSI disability 
benefits.
    According to the Government Accountability Office (GAO \1\), a 
majority of DDS's do not conduct long-term, comprehensive workforce 
planning, which should include key strategies for recruiting, 
retaining, training and otherwise developing a workforce capable of 
meeting long-term goals. The State DDS' lack uniform minimum 
qualifications for Disability Examiners (DE's) and have high turnover 
rates for employees and do not provide ongoing training for DE's.
---------------------------------------------------------------------------
    \1\ GAO Report 04-121, ``Strategic Workforce Planning Needed to 
Address Human Capital Challenges Facing the Disability Determination 
Services''
---------------------------------------------------------------------------
    AFGE is convinced that SSA is not able or willing to correct these 
problems. AFGE has expressed these concerns to the Subcommittee for 
several years and has seen little improvement with the State DDS 
situation. The State DDSs are required to use different disability 
criteria than those at the hearing levels. This has not been addressed 
by this Administration. It is a key problem that must be reconciled in 
order to reform the disability system. AFGE strongly believes that the 
only way to resolve the problems that plague the State DDS' is to 
federalize them. This will bring consistency to the initial claims 
decisions in the same way that the Supplemental Security Income program 
that was established in 1974 created a uniform system of benefits for 
low income blind, disabled and aged population.
    As AFGE has emphasized in previous testimony before the House Ways 
and Means Social Security Subcommittee, the Disability Claims Manager 
(DCM) pilot (another SSA initiative) proved to be highly successful in 
addressing many problems in the disability program. DCMs were 
responsible for making both the entitlement and disability decisions 
for initial disability claims. Processing time was significantly better 
than the bifurcated process. In fact, the DCM processing time of 62 
days was just over half of SSA's initial disability claim processing 
time goal of 120 days. Customer service improved dramatically and 
claimants expressed record high satisfaction rates with the DCM. The 
public preferred a process which allowed them to interact with the 
decision maker. Currently, the only interaction with the disability 
decision maker occurs at the hearing level when the ALJ conducts the 
hearing. Observation of the impact of the alleged disabling condition 
and evaluation of the credibility of the claimant is a prime reason for 
the high percentage of reversals at the hearing level. If the system 
was reformed so that claimants could interact with decision makers at 
all levels, it could result in improvements in the initial claims 
process.
    SSA surveys indicated that the public preferred the DCM caseworker 
approach to the current process. The DCM was a positive step in 
ensuring the public that consistent and equitable disability decisions 
were made by the Agency. Unfortunately, despite the positive DCM 
experience, SSA terminated the pilot. Although SSA contended that the 
DCM would cost more than the current process, the pilot was terminated 
before valid statistical data could be compiled regarding full program 
costs.
    It appears that the primary reason SSA terminated the DCM pilot was 
due to State resistance. Such resistance certainly was not based on a 
poor pilot result. Instead the decision appears to have been based on 
political considerations and the fear of losing work. Although the DDS 
system is completely funded by SSA, DDS employees are State workers 
enmeshed in their respective state bureaucracies. Unfortunately this 
split system is a major reason that so many disability cases are 
appealed and that the system is broken. Under the DCM pilot, even 
claimants who were denied expressed satisfaction with the process since 
they had the opportunity to have the decision explained to them by the 
DCM. Congress should be very concerned when SSA spends millions of 
dollars for a process that demonstrably improves the disability 
processing time and results in high claimant satisfaction but is 
rejected for political reasons. The concerns of the states are 
understandable in view of their unacceptably poor performance regarding 
decision consistency from state to state and their poor processing time 
in comparison to the DCM. However, the only real criteria should be the 
level of service that is provided to the claimant. Using customer 
service as a measure, the DCM exceeds State DDS performance in 
virtually every category.
    AFGE recommended to Commissioner Astrue that he reconsider the 
Agency decision to terminate the DCM pilot and implement the position 
of the DCM at SSA as soon as possible. The Commissioner has not acted 
on AFGE's recommendation. The Union is willing to work with the 
Commissioner in an incremental approach to improving the disability 
process. We understand there will need to be changes in policy, 
processes and institutional arrangements, as well as funding to 
implement the DCM. However, we feel that federalizing the entire 
disability process is a key to improving disability claims processing 
and correcting the current appellate nightmare.
    Legislative amendments to the Social Security Act would be 
necessary to allow SSA workers to make disability decisions; however, 
the crisis in disability processing requires immediate and long-term 
changes. When trained to make medical decisions, SSA employees can 
provide immediate relief to backlogged Disability Determination 
Agencies and provide faster and better service to the public by serving 
as a single point of contact. The pilot demonstrates that the public 
likes the DCM, employees enthusiastically support it, employees are 
capable of mastering all aspects of the claims process and that it 
provides substantially better service than the current disability 
product. As a short-term approach not requiring legislative change, 
AFGE is supportive of the ``Technical Expert for Disability'' position. 
It would provide high quality, trained field office employees the tools 
to assist disability claimants in both programmatic and medical issues, 
provide professional, personalized, service to applicants, focus the 
disability interview, make or recommend disability decisions, and 
assist the DDS's in their development and backlogs. This position could 
be utilized in the Commissioner's efforts to create a quick decision 
process for those claimants who are obviously disabled. In fact, 
training and enabling Technical Experts for Disability at the SSA field 
office will eliminate the current hand off to the DDS of such claims. 
This should further streamline the process and result in even faster 
decisions.
AFGE Recommendations_
    <bullet>   AFGE strongly urges Congress to enact legislation which 
permits Federal employees to make disability decisions without 
requiring the approval of States and take the necessary action to 
ensure the DCM is part of the solution to the disability problem.
    <bullet>   AFGE requests that Congress examine the current combined 
Federal and state role in the disability claims system and enact 
legislation to federalize the disability claims process.
    <bullet>   AFGE recommends that Congress urge the Commissioner to 
eliminate the requirement that post reconsideration disability 
adjudicators require a law degree.
SSA Budget and Staffing Cuts
    Based on the President's proposed budget for the next fiscal year, 
SSA will have lost more than 9% of its staff in just four years. SSA 
has experienced a dramatic increase in workloads as members of the Baby 
Boom Generation reach their peak years for becoming disabled and start 
filing for retirement benefits in 2008. From 2001 to 2007, productivity 
climbed an average of 2.5% per year, for a total gain of 13.1% since 
2001. SSA expects the increase in productivity for FY 2008 to be 2% 
\2\.
---------------------------------------------------------------------------
    \2\ SSA Budget FY 09



------------------------------------------------------------------------
                                            FY      FY      FY      FY
                                 FY 2005   2006    2007    2008    2009
------------------------------------------------------------------------
Budget Proposed                  9,379,3  9,403,  9,496,  9,677,  10,327
                                  24       000     000     000     ,000
------------------------------------------------------------------------
Budget Enacted                   9,178,5  9,286,  9,294,  9,745,  ......
                                  56       000     000     000
------------------------------------------------------------------------
SSA Full-Time Equivalents        62,937   63,131  58,985  60,064  60,293
 (FTEs)
SSA Medicare Modernization       1,268    0       0       0       0
 (FTEs)
Subtotal SSA FTEs (including     64,205   63,131  58,985  60,064  60,293
 OIG)
------------------------------------------------------------------------
Overtime/Lump Sum Leave          2,992    2,389   1,307   2,231   2,245
Overtime (associated w/Medicare  1,567    0       0       0       0
 Modernization)
Subtotal Overtime Lump Sum       4,559    2,398   1,307   2,231   2,245
 Leave
------------------------------------------------------------------------
                                 68,764\  65,529  61,292  62,295  62,538
                                  3\       \4\
Total SSA Work years (including  .......  (-3,23  (-4,23  (+1003  (+243)
 OIG)                                      5)      7)      )
------------------------------------------------------------------------

    Unless there is a turnaround in Social Security's operating budget, 
SSA's ability to get its work done will completely break down within 
the next five to ten years. According to SSA's own records, 1 out of 4 
callers failed to get through on Social Security's 800-number on any 
given day. Those who called any of the 1260 field offices for service 
in FY 07 did not have their calls answered 51% of the time. People line 
up before dawn outside many offices. The time it takes to pay 
disability claims to the most vulnerable people we serve can be 
measured in years instead of days or months.
---------------------------------------------------------------------------
    \3\ SSA, FY 06 Justification of Estimates for Appropriation 
Committees
    \4\ President Bush Budget for FY 08 for SSA, pg 1030
---------------------------------------------------------------------------
    The President's budget request for SSA in FY 09 is $10.327 billion. 
This budget would result in an increase in staff of only 229 FTE. After 
years of cuts, a modest increase is better than nothing but hardly 
enough to allow the Agency to reduce its backlogs while continuing to 
process its day to day work. Both the House and the Senate Budget 
Committees have recommended that the President's budget be increased by 
$240 million. AFGE and other groups interested in the SSA 
administrative cost crisis recommended that SSA be allocated $11 
billion in administrative cost or $673 million over the President's 
budget. This amount would restore some lost staff and allow the Agency 
the opportunity to significantly reduce backlogs.
    Currently, Congress borrows from the Social Security Trust Fund to 
offset deficit spending and finance the war in Iraq and other budget 
priorities. Meanwhile, Social Security is given barely enough funding 
to accomplish its basic service demands, resulting in poor public 
service, excessive delays and billions of dollars of improper payments. 
This is then case even though the trust fund collects $ billions more 
that is spent every year.
    The Omnibus Reconciliation Act of 1990 provided that SSA FICA taxes 
and benefits payments were ``off budget.'' Congress later interpreted 
that SSA's Limitation on Administrative Expenses (LAE) was not covered 
by the Omnibus Reconciliation Act of 1990, although the Social Security 
Act stipulates that administrative costs for the Social Security 
program must be financed by Social Security Trust Funds.
    Since the SSA LAE (e.g., staffing, office space, supplies, 
technology, etc.) is ``on budget,'' Congress decides on a yearly basis 
the amount that will be authorized and appropriated to administer SSA 
programs. Such appropriations are often insufficient to provide 
adequate staffing since funds for SSA's LAE are a part of the overall 
Labor, HHS, and Education appropriations. Programs such as medical 
research, healthcare and ``No Child Left Behind'' state grants are 
often viewed as more politically popular than SSA's LAE. Often SSA is 
left with insufficient staff and limited overtime making it next to 
impossible to adequately service the public. Such shortages adversely 
affect disability processing time and cause severe integrity problems.
    AFGE does not believe the American public deserves poor service 
from SSA. Some claimants waiting for a disability hearings decision 
lose their homes, declare bankruptcy, and some die before a decision is 
made on their disability claims appeal. Their families suffer 
tremendous financial hardships; some lose everything during the 
prolonged wait for a decision. The public deserves efficient, 
expeditious service. Currently, SSA's LAE is less than 2% of total 
estimated outlays. Historically, SSA's LAE has never exceeded 2% of 
expenditures.
    Removing SSA's LAE from discretionary spending caps will allow 
Congress to assess SSA's administrative requirements without regard to 
the competing budgetary demands of the Departments of Labor, HHS and 
Education agencies.
    In an ``off budget'' environment Congress would continue to 
maintain spending authority but would be unencumbered by artificial 
caps and budgetary scoring rules. However, AFGE strongly recommends 
continued Congressional authorization, appropriations and oversight of 
SSA's LAE.
    Congress should continue to appropriate SSA administrative expenses 
to ensure integrity and efficiency. Legislation should require SSA's 
Commissioner to document (in performance reports mandated under the 
Government Performance and Results Act) how funds have been and will be 
used to effectively carry out the mission of the agency, to meet 
expected levels of performance, to achieve modern customer-responsive 
service, and to protect program integrity. Most importantly, GAO must 
annually inform Congress regarding SSA's progress in achieving stated 
goals. Congress should also mandate that SSA's Commissioner submit the 
proposed budget directly to Congress as is now only optional in the 
independent agency legislation (P.L. 103-296, Sec. 101.) This 
requirement to submit the SSA budget directly to Congress is also 
contain in H.R. 5110 sponsored by Congressman Higgins of New York and 
endorsed by AFGE.

AFGE Recommendations_
    <bullet>  Congress should enact off budget legislation including 
SSA administrative expenses with benefits which are already off budget. 
Congress should retain appropriations and oversight authority albeit 
unencumbered by artificial budget caps and scoring restrictions.
    <bullet>  Congress should enact legislation requiring the 
Commissioner to submit the SSA appropriation request directly to 
Congress.
    <bullet>  Congress should support the House Budget Committee 
recommendation to increase the SSA administrative budget by $240 
million over the President's budget request.

Integrity Workloads
    SSA integrity work (i.e., continuous disability reviews (CDRs) and 
SSI redeterminations) has been significantly diminished due to budget 
cuts. Former Commissioner Barnhart suspended all SSI Redeterminations 
and Medical Continuing Disability Reviews (CDRs) during particularly 
tight budget periods. In FY 2008, SSA Commissioner Michael Astrue has 
significantly reduced these workloads. SSA projects completing 235,000 
medical CDRs in FY 08 instead of the scheduled 700,000. Instead of 
processing 2 million SSI redeterminations scheduled in FY 08, the 
Agency will only complete 1.2 million. These reviews return $10 for 
every dollar invested in CDRs and $7 for every dollar invested in 
Redeterminations. Without these reviews, billions of dollars of 
incorrect payments result. SSA will never collect some of the 
overpayments caused by insufficient integrity reviews.
    Furthermore, the collapse of integrity oversight of SSA's programs 
compromises the solvency of the Social Security Trust Fund. According 
to GAO's 2004 report on overpayments related to SSA programs, 
overpayment detections increased from about $1.9 billion to nearly $3 
billion between fiscal years 1999 and 2003 \5\ In 2005, SSA improperly 
paid $6.3 billion. OPM now reports that of eight Federal programs, 
including SSA's Old Age, Survivors and Disability Insurance and SSI 
programs, SSA accounted for more than 89 percent of the government's 
improper payments in FY 2006.
---------------------------------------------------------------------------
    \5\ GAO Report 04-924,''SSA Should Strengthen Its Efforts To Detect 
and Prevent Overpayments''
---------------------------------------------------------------------------
    AFGE supports fully funding Continuing Disability Review and SSI 
Redetermination workloads. AFGE does not support artificial spending 
limits for such workloads. Congress should authorize the resources 
necessary so that SSA can produce CDR and Redeterminations levels as 
envisioned in the Social Security Administration's strategic plan.
AFGE Recommendations_
    <bullet>  Congress should authorize the resources necessary so that 
SSA can produce CDR and Redetermination results as envisioned in the 
SSA strategic plan.

Internet Claims, Internet Social Security Benefits Application and 
        Ready Retirement
    The Social Security Administration has offered the public access to 
Internet services for almost a decade but with mixed results. On the 
positive side, ``service'' can be provided without contacting an SSA 
facility. The negative affects are not so obvious or made public by the 
Agency. Unfortunately, little has been done to correct these problems.
    They include:

    <bullet>  Programming flaws that do not correctly identify the 
``protected filing date.''
    <bullet>  Identity and privacy concerns
    <bullet>  Incorrect payments
    <bullet>  High volume of errors, resulting in re-contacts.
    <bullet>  Creation of a new backlog at Social Security
    <bullet>  No review process of the public's accuracy in completing 
applications.

    Additionally, SSA has implemented new policy changes in an effort 
to eliminate employee review of claims filed through the Internet 
altogether. These changes include:

    <bullet>  Lag earnings will no longer be routinely developed.
    <bullet>  No longer requiring proof of citizenship for age 60 or 
over
    <bullet>  No longer requiring proof of age for age 60 or over
    <bullet>  No longer assisting the claimant in determining the most 
advantageous month of entitlement.

    SSA argues that savings in work years that they project will be 
achieved through the relaxation of evidentiary standards and the 
elimination of advice and assistance to claimants will allow the Agency 
to concentrate on elimination of backlogs and improve Agency service. 
Unfortunately, AFGE asserts that such changes are dangerous and will 
result in enabling fraud, causing incorrect payments, and result in 
claimants making decisions that are not in their best interests. 
Therefore, the Union and the employees of SSA strongly disagree with 
the Agency's recent policy decisions.

No Development of Lag Earnings--Effective 1/23/2008
    Lag earnings are wages earned but not yet posted to the earnings 
record. In the past, the claims representative determines if the prior 
year's earnings have been posted to the applicant's earnings record. If 
not, they are manually added to determine an accurate and full benefit 
estimate. If the applicant has his/her W-2 form available, the wages 
can be easily added to the benefit computation at the initial 
interview. Lag wages tend to increase the benefit amount for most wage 
earners. Eventually SSA conducts a re-computation of the benefits when 
the IRS verifies the earnings and pays the beneficiary(s) accordingly 
if lag wages are not developed for the initial claim. Unfortunately, 
this process could take several months. The process sometimes takes 
years if particular conversion problems occur. Eliminating lag wage 
development insures that most claimants will be paid incorrectly until 
the benefit amount is recomputed after receiving IRS data.
No Development of Proof of Age and Citizenship--Effective 2/11/2008
    Historically, SSA requires claimants to submit evidence to 
establish their rights to benefits. One of the most important parts of 
the claims process is the gathering, recording and evaluation of this 
evidence.
    Why proof of age? To be entitled to reduced retirement benefits, a 
claimant must be fully insured and have attained age 62. Thus, the 
exact date of birth is critical to a claimant's eligibility for 
benefits. The year of birth also affects the benefit calculation. 
Retirement benefits at age 62 are reduced for every month prior to the 
full retirement age. Therefore establishing a correct date of birth is 
necessary to establish correct payment.
    Why proof of citizenship? In 1996, the Personal Responsibility and 
Work Opportunity Reconciliation Act of 1996 (PRWORA or Public Law 104-
193) was signed into law. Section 401(a) of the Personal Responsibility 
Act places restrictions on the payment of benefits to aliens in the 
U.S. under Title II of the Social Security Act. An alien eligible for 
benefits under Title II of the Social Security Act can be paid when he/
she is ``lawfully present in the United States as determined by the 
Attorney General.'' The Attorney General defined the phrase ``lawfully 
present in the United States'' for purposes of paying Title II benefits 
in regulations published on September 6, 1996 by the Department of 
Homeland Security (previously known as the Immigration and 
Naturalization Service).
    In February 2008, SSA made major policy changes that no longer 
require proof of age or citizenship for those filing for benefits that 
are over age 60 and make an allegation of date and place of birth that 
agreed with their Social Security number record, known internally as a 
``numident'' record. Thus, if an individual lied about their date and 
place of birth in order to get a Social Security number for a job and 
the person uses the same erroneous information at the time of benefit 
application, a match will exit and neither proof of age or citizenship 
will be requested by SSA. This change was instituted in February, 2008 
without any regulatory notice.

AFGE strong believes this is bad policy that will lead to fraud and 
        incorrect payments.
    Until the 1980's Social Security cards were issued without any form 
of identification. Much like a library card, one simply completed a 
short application, submitted the application to SSA and the Agency 
issued a number and a card. Allegations of date and place of birth were 
accepted on face value without evidentiary requirements. For the Baby 
Boomer generation, the Social Security card was an easy record to 
obtain if someone wanted to change their identity, age or even place of 
birth. The Administration's reckless decision to accept a person's 
allegation, as long as it agrees with the allegation on the original 
application, is inconceivable and unlawful.\6\ Its purpose is not to 
insure accuracy or to improve public service. The reason for these 
evidentiary relaxations is to create the ability for claimants to file 
Internet applications without any review or intervention of an SSA 
employee.
---------------------------------------------------------------------------
    \6\ Soc. Sec. Act as Amended in 1996, Sec. 202(y); P.L. 104-193; 
P.L. 104-208; P.L.105-33 8 CFR 103.12.
---------------------------------------------------------------------------
Accept Allegation of Month of Entitlement--Effective September 2008
    SSA officials have announced that in September, 2008 SSA will 
introduce a new Internet Social Security Claims Benefit Application 
(ISBA) which is a simpler retirement application, and which will be the 
vehicle for the Agency's ultimate goal of automated adjudication 
requiring no human review or intervention.
    Additionally, SSA will implement a new procedure that will require 
SSA claims specialists to stop providing advice and assistance to the 
retirement applicant to help them decide on the effective month to 
start their retirement benefits (i.e., month of election).
    Determining the correct or most advantageous month of entitlement 
(MOE) for an applicant is one of the most complicated and error prone 
issues in processing a retirement claim. Many factors must be 
considered when determining a MOE such as current work history, self 
employment, Totalization rules, and past disability history.
    In preparation for this hearing, AFGE has reviewed Sample RSI 
Quality Feedback Reports which capture errors taken form Regional 
Office of Quality Assurance reviews of retirement claims. These sample 
cases clearly exhibit various actions on the part of SSA resulting in 
incorrect payment amounts to the beneficiary. The following were some 
of the most common errors listed in these reports----

    <bullet>  Incorrect Date of Entitlement Causes Underpayment
    <bullet>  Incorrect Month of Election Given Causes Underpayment and 
Overpayment
    <bullet>  Failure to Discuss Reduced Rate of Entitlement Date 
Causes Underpayment
    <bullet>  Incorrect Determination on Entitlement Date Causes 
Underpayment
    <bullet>  Failure to Determine Government Pension Offset Applies 
Causes Overpayment
    <bullet>  Failure to Include Military Service Credits Resulting in 
an Underpayment
    <bullet>  Incorrect Posting of Military Service Credits Resulting 
in an Overpayment
    <bullet>  Incorrect Processing of Military Service Credits Causes 
Underpayment
    <bullet>  Failure to Identify Military Service Issue Results in an 
Underpayment
    <bullet>  Failure to Use 2001 Lag Wages Results in an Underpayment
    <bullet>  Failure to Take Action on Wage Gap After 1977 Causes 
Underpayment
    <bullet>  Failure to Discuss Earnings Record Thoroughly results in 
Underpayment

    An applicant's allegations will go unchecked unless all Internet 
claims are required to be reviewed by a trained SSA Claims 
Representative. SSA employees and AFGE are shocked and appalled that 
such changes will go forward despite the vast number of claims that 
currently require correction.
Internet Proficiency
    SSA employees assist people who are elderly, disabled, uneducated, 
poor and homeless. Many applicants struggle just to complete simple 
forms. SSA's applications were created to obtain information which will 
meet all requirements of the law including identifying potential 
individuals who may be eligible for benefits on a wage earner's record. 
As a result, SSA has invested millions of dollars to train its Claims 
Representatives (CR). However, the Agency now intends to create an 
Internet application which will not be reviewed by an SSA employee. 
This is prescription for disaster.
    SSA asserts that 2.5 million electronic transactions were completed 
by the public in FY 07. However, a substantial number of these 
electronic transactions were problematic to the degree that SSA 
employees were required to recontact the transactor. SSA employees are 
very concerned about the direction of the Agency strategy toward 
unreviewed Internet transactions because few Internet applications are 
completed accurately and, consequently, require recontact by SSA 
employees. A Claims Representative from the Seattle region who has 
processed Internet claims for more than a year recently told AFGE: ``I 
can only think of 2 [disability claims] which were done right. One was 
completed by a disabled registered nurse, and the other was completed 
by a physician who had cancer.'' AFGE recently surveyed SSA employees 
who process Internet claims. Seventy percent of the employees who 
responded stated that 90-100% of the claims they reviewed required some 
kind of re-contact. Such re-contacts included the need to develop new 
applications for spouses and children, obtaining correct dates of onset 
of disabilities, development of the correct month of entitlements for 
retirement claims, obtaining medical information, development of 
incorrect wage information, obtaining complete and accurate work 
histories, identifying government pensions and correct military service 
information. Employees reported that Internet claims take an average of 
2 re-contacts to secure the necessary information to complete the 
claim. Employees also report that each re-contact takes an average of 
30 minutes, which they feel is not reflected in Agency statistics. In 
many cases, it takes weeks and even months to get in touch with the 
applicant, who thought the claim was completed and, therefore, had no 
reason to communicate with SSA. Employees strongly believe that if they 
had assisted the claimants either face to face in the office or by 
telephone that the claims would have been done correctly--without the 
need for any re-contacts.
    Unfortunately, this cannot be verified by Agency statistics. SSA 
does not and will not perform audits on the Internet claims prior to 
employee review and correction. Instead, the claim is reviewed after an 
SSA employee makes the necessary corrections. This creates the illusion 
that the claims were completed correctly by the public. Thus, SSA has 
no data to indicate that a decision to remove Internet claims review 
will be beneficial to the public.

Loss of Protected Filing
    An application filing date protects a person's claim for benefits. 
This date is often used to establish eligibility and to determine when 
benefits can begin. In accordance with 20 CFR.630, 408.330 and 416.330, 
SSA must use a written statement (such as a letter) indicating the 
applicant's intent to file for benefits for themselves or another 
person. This is referred to as a protective filing, which can also 
serve as an application date. The law is clear that an expression of 
intent to file for benefits need not be on a specific form or any 
particular format. Therefore, the same rules apply to oral requests.
    Because potential payments are involved, SSA is required to send 
letters to people who fail to keep appointments and notify them that 
their benefits will be protected for up to six (6) months. If SSA does 
not send this letter, the protective filing date is left open and a 
person could be paid years of retroactive benefits if the matter is not 
dealt with promptly.
    However, SSA has decided NOT to apply this law to Internet claims. 
Under the current system, when someone initiates an application on 
SSA's Internet site but cannot complete it, SSA issues a confirmation 
number to the individual to re-access the application but the Agency 
does not consider the unsuccessful attempt to file evidence of a desire 
to file which would protect the date of filing. When, and if, a person 
completes the application and ``submits'' it to SSA, that is considered 
the date of filing. If a month or more pass, the claimant could have 
lost benefits. Listings and/or access to partially completed internet 
claims are not available to field office employees for follow-up 
purposes. AFGE believes this failure to protect the applicant's intent 
to file a claim is a violation of law. SSA has stated the new Internet 
application due to be released in September 2008 should establish a 
protective filing. However, there has been no effort to correct the 
current situation which due to the complexity of the Internet claims 
process is common and results in loss of benefits for some applicants.

Identity and Privacy Concerns
    SSA employees are unable to identify and verify the person who 
filed the application for benefits on-line. Employees have become aware 
of spouses, children, grandchildren, and unauthorized third parties 
(such as employees of the applicant) filing Internet claims. This 
leaves the system vulnerable to fraud, as claims could be easily filed 
with stolen identities. Recent SSA internal reports indicate that 
applicants continue to struggle to provide accurate, basic information, 
such as ``name'' information. In SSA's April 11, 2008 client vs. 
internet discrepancy report, more than 83% of the applications received 
had discrepancies in this area. To a trained Claims Specialist, this 
would be a red flag and suggest that the applicant may not be the 
number holder, but rather someone else filing on his/her behalf. 
Without verifying that the number holder actually filed or authorized 
the claim, the SSN holder's privacy could be compromised if claims are 
allowed to be processed through the Internet without employee review.

Internet Claims Processing and Backlog Potential
    Every office handles these cases differently. In some places, the 
Claims Representative can schedule an appointment to thoroughly review 
the application, remind the applicant of the documents that are needed, 
and check for any possible claims leads. Most offices force their 
employees to fit these claims into hours when the office is closed to 
the public or during overtime. Employees have not noticed any changes 
in the volume of teleclaims and in office claims due to the accelerated 
utilization of Internet claims by the public. Claims workload in 
general has increased as a result of the 1946 initial baby boom 
generation reaching retirement age in 2008. Thus, Internet claims 
review and recontact workload is an add on that requires finding time 
to process.
    Payment errors will increase if claimants are allowed to file 
Internet claims without review. Claimants are not familiar with the 
Windfall Elimination Provision (WEP) and the Government Pension Offset 
(GPO) provisions of the Social Security Act and the impact of these 
laws on their benefits.
    Applicants are confused when electing their Month of Entitlement 
(MOE). They generally do not understand how the annual earnings test 
works. Often, they will take advice from a friend or neighbor whose 
experience is very different from their own. The result: a loss in 
benefits (including Medicare at age 65). SSA employees who review 
Internet claims identify the choice of the month of election as the 
most frequent error. Currently, if upon review a disadvantageous month 
of election is found, the SSA reviewer must recontact the claimant and 
explain why the choice that they made appears disadvantageous. If the 
claimant insists on picking a disadvantageous month to start their 
benefits, employees must document the file that an explanation was 
given yet the claimant chose the disadvantageous start date anyway. The 
Agency is planning to eliminate this assistance and advice step 
completely concurrent with the introduction of the ISBA in September.

Other Problems with Incorrectly Completed Claims
    Claims submitted by spouses, family members or other third parties 
are often lacking information about prior marriages and/or children 
from prior marriages and/or relationships. Many times the person 
completing the forms simply does not know the relationship history of 
the applicant. By law, SSA considers the names of former spouses and/or 
children as leads for benefits. Without further investigation by a 
trained Claims Representative, these potential leads would be missed 
and family members would not be paid the benefits they are due.
    When an identified third party helps an applicant file for Social 
Security benefits on-line, we are required to obtain an Appointment of 
Representative (SSA-1696) form, signed and submitted to SSA. We also 
need Consent for Release of Information (SSA-3288) form signed and 
submitted before we can release any information to someone other than 
the claimant. An Internet claim does not provide this form.
    In spite of the numerous problems with Internet claims raised by 
the Union, Commissioner Astrue has directed all SSA employees to pass 
this message along to the public: use the internet rather than call the 
800-number or visit an office. In some parts of the country, field 
office employees and teleservice representatives (800-number agents) 
have been directed to tell each and every person contacting Social 
Security: ``the next time you have a problem, use our on-line 
service.'' This approach has not been well received and is perceived by 
the public as rude. Many SSA employees have been documented for poor 
performance for not directing the public to the Internet.
    This emphasis on Internet service deviates from the pledge that SSA 
has made to the American public which is reiterated every year when 
they are sent their earnings statements from SSA. This pledge is that 
the public determines which method they will utilize to interact with 
SSA. It can be in person, by phone, by mail or through the Internet. 
The Agency now is asking employees to sell the public on Internet 
claims even though employees realize that phone and/or face to face 
service is more likely to result in an accurate and complete 
application. Some Agency letters to the public now only provide the 
Internet option as the exclusive method for contacting the Agency.
AFGE Recommendations_
    Require SSA Commissioner Astrue to:

    <bullet>  Restore lag wage development in claims
    <bullet>  Restore proof of age development using the rules in 
effect before the 02/08 change
    <bullet>  Restore proof of citizenship development using the rules 
in effect before the 02/08 change
    <bullet>  Maintain a system of employee review of all Internet 
claims
    <bullet>  Pilot the new Internet Social Security Benefit 
Application before Agency wide implementation.
    <bullet>  Provide Congress with the pilot results which will 
include an evaluation of claims accuracy prior to SSA employee review 
prior to implementation
    <bullet>  Maintain employee review of all Internet applications 
until it can be shown that the accuracy level of Internet claims 
matches or exceeds the accuracy level of telephone and in person 
claims.
    <bullet>  Request Authorizing Committees to hold hearings on the 
effects of Internet claims on SSA workloads and on claimants.
    <bullet>  Continue to permit SSA customers to select the 
methodology for interacting with SSA that they prefer.
3rd Party Claims
    In another effort to determine how to do the Agency's business with 
inadequate resources, the Agency has been developing increasingly 
friendly relationships with 3rd parties that want to take over portions 
of SSA work. The plans for the ISBA application would allow 3rd parties 
to file claims and protect filing dates on behalf of the claimant. 
Initially, claimants will be required to sign an authorization document 
to enable 3rd parties to act on their behalf. However, SSA's goal is to 
eliminate that requirement. In fact, SSA intends to solicit 3rd parties 
to engage in bulk filing of electronic claims for multiple claimants. 
This will enable for profit companies to offer a filing service for 
claimants in return for a fee. Of course, currently filing applications 
through the Agency either via the teleservice system, face to face in 
an office or through he Internet is free. (The service was already paid 
for through taxes.) AFGE's concern is that expanding 3rd party claims 
opportunities to profit making companies is the first step to 
potentially contracting out core inherently governmental Agency 
functions. Allowing 3rd parties to file claims on behalf of individuals 
through the Internet without SSA review would enable these 3rd parties 
to actually authorize payment to their clients. This is a dangerous 
step towards the privatization of the Agency.
    SSA employees complain frequently about the low quality of the work 
product of many current 3rd party claims organizations. Typically 
states and institutions contract with 3rd parties who file disability 
claims with Social Security to, hopefully, remove such individuals from 
state benefit roles or to defray an institution's costs of care. The 
work product is frequently poor and requires recontacts for missing 
information or to correct erroneous information. Allowing an expansion 
of this effort to use 3rd parties to other types of applications 
without strict regulatory requirements will only result in problems.
    Currently attorneys and other 3rd parties are regulated with 
respect to the fees that they can charge for representation of 
claimants in hearings before ALJs. No rules exist for representation 
fees in initial claims. There are currently no regulatory standards 
regarding competency and fees for 3rd parties at the initial claim 
level.
AFGE Recommendations--
    <bullet>  Congress should enact legislation limiting contracting 
out in SSA due to the inherently governmental work of much of the 
Agency's business.
    <bullet>  Congress should pass legislation proscribing maximum fees 
for 3rd parties in initial claims.
    <bullet>  Congress should pass legislation requiring 3rd parties to 
register with SSA and requiring them to maintain minimal competency 
standards.
    <bullet>  Congress should pass legislation enabling SSA to revoke 
3rd parties registration privileges upon discovery of incompetence, 
fraud, price gauging, etc.
    <bullet>  SSA should be empowered to sanction 3rd parties for 
inappropriate conduct.
    <bullet>  3rd parties should not be permitted to register if they 
have a conflict of interest (e.g., relationships with SSA employees).
    <bullet>  3rd party fee structures and complaints against 3rd 
parties and 3rd party registration information should be fully 
disclosed to claimants.
    <bullet>  Access to claimants information protected by the Privacy 
Act should be severely limited to 3rd parties
    <bullet>  Claimants should be required to sign authorizations prior 
to SSA providing any claimant data to 3rd parties.
    <bullet>  SSA should be required to evaluate 3rd party performance 
through accuracy reviews. Such reviews should be released to the 
public.

Office Closures
    Face-to-face interviews in Social Security offices increased by 
nearly a million visitors from 2006 to 2007. Despite that increase, the 
Administration has decided to accelerate the closure Social Security 
offices across the country.
    SSA's criteria for office closure consideration are unknown to the 
union. Last October Commissioner Michael J Astrue informed AFGE that 
smaller offices in urban areas will be reviewed as office leases 
approach expiration. However, other high level Agency officials have 
informed their employees and union officials that SSA will look at all 
offices of 15 employees or less. When I asked Linda McMahon, Deputy 
Commissioner of Operations, in October 2007 about the Agency's office 
closing strategy, she responded that the Agency could close between 50 
and 200 offices.
    However, in February 2008, Commissioner Astrue publicly denied this 
after AFGE alerted Congress to the Agency office closing initiative. 
Since the Commissioner's public denial of an office closing plan, AFGE 
has been notified by SSA that additional offices will be closed in the 
future. Additionally, AFGE records indicate that in 2007 SSA closed a 
record number of offices. In 2007, the Administration closed 17 offices 
including:

    <bullet>  Burbank, CA
    <bullet>  Industry Hills, CA
    <bullet>  San Fransisco-Parkside, CA
    <bullet>  SF Western Addition, CA
    <bullet>  San Pedro, CA
    <bullet>  Hallandale, FL
    <bullet>  Miami-Central, FL
    <bullet>  St Louis NW, MO
    <bullet>  Warrensburg, MO
    <bullet>  Auburn, NY
    <bullet>  Bay Ridge, NY
    <bullet>  N Charleston, WV
    <bullet>  Nacogdoches, TX
    <bullet>  Cheektowaga, NY
    <bullet>  Bronx River, NY
    <bullet>  Carbondale, PA
    <bullet>  Brentwood, PA

    In 2008 SSA closed the Oskaloosa, IA office and recently announced 
its plans to close the Clinton, IA office effective June 1, 2008. SSA 
has also notified affected employees of its intention to close the St. 
Paul MN and the Portland OR Teleservice Centers in 2009.
    In recent media publications SSA stated that they agreed to keep 
the Bristol, CN office open due to an increase in the FY08 budget. This 
office was scheduled to close in 2007, but will remain open on a year 
to year basis, depending on budget constraints. Employees in the 
Clinton, IA office were also told that the Clinton office was being 
closed for budgetary reasons. The press was informed that the Agency 
would save $632,000 over a 5 year period by closing the Clinton office. 
No verification was provided for the $10,500/mo rent and utility costs 
for the 3 person office.
    AFGE is very disturbed by these statements. The Commissioner has 
neither notified Congress nor the union of the level of appropriation 
required to maintain the current field office structure. If these 
closures are due to budgetary shortfalls, then why hasn't this been 
brought to the attention of Congress? Why hasn't the Commissioner 
notified the Authorizing and/or Appropriating Committee?
    In Fiscal Year 2008 Social Security will be at its lowest staffing 
level since 1972. SSA continues to lose personnel through retirement 
and attrition and the announced FY 07 replacement ratio will result in 
an additional 1012 FTE reduction. The Bush Administration and SSA 
Commissioner Astrue are reluctant to ask Congress for more staff but 
that is the only answer to this crisis. Yet they are willing to reduce 
services to the public. AFGE strongly believes that SSA should be 
providing help through community-based field offices that offer full 
services. This can not be accomplished through further reductions of 
service to claimants and beneficiaries.
    SSA pays benefits to about 50 million people every month. Every 
year, SSA employees handle more than 6 million new claims for 
Retirement, Disability, and Survivors benefits. SSA also process 18 
million requests for Social Security cards and posts 265 million annual 
earnings items for covered workers. The Agency expects significant 
increases in the Continuing Disability Review (CDR) workloads, ``no 
match'' cases required by the Department of Homeland Security and the 
e-verify system. Under legislation proposed by Congressman Schuler and 
another bill by Congressman Sam Johnson, e-verify would be mandatory 
and result in 3.6 million additional interviews in the first year after 
enactment. Closing offices puts a significant burden on these 3.6 
million workers to correct their SSA records so that they can work. 
These workloads will further challenge employees. All this is 
accomplished at less than 2% administrative costs, while private 
insurance companies have administrative costs of between 12-16%. How 
does closing the field office in your district improve this record of 
service?
    It has become very clear to the employees of SSA and AFGE that the 
only effective method to prevent unnecessary office closures is to 
request legislation to provide for Congressional oversight on decisions 
impacting Social Security offices. On January 24, 2008, Representative 
Brian Higgins (D/NY) introduced the Social Security Customer Service 
Improvement Act, H.R. 5110. This legislation provides procedures that 
SSA's Commissioner must follow before closing an office. Those 
procedures include:

    <bullet>  Providing a detailed report to the House Ways and Means 
Subcommittee on Social Security and the Senate Finance Committee 
outlining and justifying the process for selecting field offices to be 
closed or otherwise have limited access. Such report shall include----

        <bullet>  an analysis of the criteria used for selecting field 
        offices for closure or limited access;
        <bullet>  the Commissioner's analysis and consideration must 
        include factors relating to transportation and communication 
        burdens faced by seniors and the disabled;
        <bullet>  a cost-benefit analysis for each field office closure 
        that takes into account:

          <bullet>  the anticipated savings as a result of the closure;
          <bullet>  the anticipated burdens, including communication 
        and transportation burdens, placed on elderly and disabled 
        citizens; and
          <bullet>  the anticipated costs associated with replacing the 
        services lost by the closure.

    <bullet>  The Commissioner must wait 6 months after the submission 
of the report to Congress to close or limit access to a Social Security 
field office.

    AFGE urges each Member of this Committee to support and co-sponsor 
this very important legislation to ensure that customer service is at a 
level that citizens deserve.
Until such legislation is passed by Congress, AFGE Recommends--
    <bullet>  Congress passes legislation enacting a moratorium on all 
office closures.

Social Security Card Centers
    In the last few years, Social Security has opened 6 Card Centers in 
New York City, Phoenix, Las Vegas and Orlando. The Commissioner 
informed the union that he intends to open at least 20 more such card 
centers. Existing personnel was used to staff these new offices. This 
card center concept is a bad idea. In fact, Social Security Card 
Centers are an example of how to provide really bad public service!
    During Fiscal Year 2007, SSA processed 17.6 million Social Security 
Number (SSN) applications for new or replacement Social Security cards. 
Most of them were processed in the 1260 field offices across the 
country. Virtually all of SSA's field office staff has been trained to 
process SSN applications. This would include clericals, Service 
Representatives, Claims Representatives, Technical Experts and 
management.
    Once card centers are opened, the public in a broad geographic area 
is required to do all their SSA card business in the card center. Local 
full service offices will not do SSN card work. This requires the 
public to travel in some cases long distances to get their SSA card 
business done. The Las Vegas card center services 5 county 
jurisdiction. Outlying cities are 200 miles from the card center. If a 
person has both SSA card business and other business with SSA, they are 
forced to visit 2 offices since card centers do no other work. Thus, 
the Agency has created a system insuring lengthy commutes for many 
customers and two stop shopping for others.
    The Las Vegas card center experienced huge workloads earlier this 
year. In January customers frequently started lining up at 6 AM at the 
card center door that didn't open till 9 AM. At the end of the day when 
the office closed at 4 PM, the 175 capacity waiting room was full and 
lines were out the door. Often the last customer was serviced after 7 
PM. SSA clients are inconvenienced, forced to wait hours for service 
and employees were faced with mandatory overtime to service all the 
customers. Universal e-verify or a resumption of the No Match program 
will only exacerbate this situation.
    SSA has always required its offices to be full service facilities. 
There are no offices exclusively devoted to disability or retirement 
claims. All field offices process whatever business that the public has 
with SSA. The card centers are the 1st deviations from this policy. 
They were established for security purposes. It was thought that 
employees who only did SS card work would have unique expertise. 
However, every SSA office outside of the card center jurisdictions does 
a high volume of SSA card work. Employees in field offices have as much 
expertise as card center employees in doing this work. The amount of 
inconvenience that is created with card centers is unnecessary. AFGE 
recommends that SSA drop the concept of card centers.
    SSA is unwilling to change this policy. Therefore, AFGE believes 
Members of Congress should:

    <bullet>  Require SSA Field offices to become full service 
facilities.
    <bullet>  Request Commissioner Astrue to reverse SSA's policy of 
forcing the public to leave a field office and commute to a Social 
Security Card Center when they either went to the wrong office or had 
multiple business with the Agency.
    <bullet>  Request Commissioner Astrue to suspend all plans to open 
additional Social Security Card Centers until this policy is reversed.
    <bullet>  Request the authorizing Committees to hold hearings on 
policies and problems related to Social Security Card Centers.
    <bullet>  Request Appropriation Subcommittees on Labor, HHS and 
Education to include language that would prevent SSA from using 
appropriated dollars to fund Social Security Card Centers.

                               Conclusion

    The Social Security system's Disability programs are a crucial 
component of the social safety net, and AFGE's Social Security 
employees take great pride in providing service to disability 
beneficiaries. Employees are sincerely concerned about the wellbeing of 
disability beneficiaries, and consider their role as helping those who 
are unfortunate enough to have experienced a disability to obtain the 
Social Security benefits they have earned.
    The Social Security Administration has a long and proud tradition 
of working constructively with its unionized workforce to make the 
Social Security system efficient, fair and ``customer-friendly.'' That 
is why Social Security remains so popular and successful. It is 
unfortunate; however, that I must report that the years of doing more 
with less has had a severe toll on the employee morale at SSA. In a 
recent AFGE survey of SSA workers, 45% reported that they are 
dissatisfied or extremely dissatisfied with their work experience at 
SSA. Survey responses would indicate that employee's greatest 
frustrations are staff shortages and a lack of time to process pending 
cases due to the pressure of constant interviewing. Overwhelmingly, 
employees report that they do not have enough time to devote to a 
quality work product, which includes accuracy, complete and proper 
explanations of rights and responsibilities to clients, investigation 
of any and all inaccuracies, etc--Backlogs are growing at tremendous 
rates.
    I urge the Committee to do whatever is necessary to insure that SSA 
receives sufficient appropriations to do the work that Congress demands 
from the Agency.
    AFGE is committed to serve, as we always have, as the employees' 
advocate AND a watchdog for clients, taxpayers, and their elected 
representatives.
    This concludes my statement. I will be happy to answer any 
questions that Members of the Committee may have.

                                 <F-dash>

    Mr. MCDERMOTT. Thank you for your testimony. We will now 
hear from one of those administrative law judges we have been 
hearing about.
    Frederick Waitsman is an administrative law judge from 
Social Security Division of the Federal Bar Association in 
Atlanta, Georgia.

 STATEMENT OF THE HONORABLE FREDERICK WAITSMAN, ADMINISTRATIVE 
  LAW JUDGE, SOCIAL SECURITY ADMINISTRATION, AND VICE CHAIR, 
    SOCIAL SECURITY SECTION OF THE FEDERAL BAR ASSOCIATION, 
                        ATLANTA, GEORGIA

    *Mr. WAITSMAN. Thank you Congressman McDermott and thank 
you Ranking Member McCrery and Members of the Committee. Thank 
you for convening this hearing on an issue of vital importance 
to millions of Americans.
    I am pleased to be here on behalf of the Social Security 
section of the Federal Bar Association. Although I am an 
administrative law judge, I am not here in that capacity and my 
remarks are solely those of the Social Security Section of the 
Federal Bar. You should know the Federal Bar represents a broad 
array of stakeholders working at all levels of the disability 
adjudication process.
    The primary concern of the Federal Bar is the integrity, 
independence, fairness, and effectiveness of the disability 
hearing process. The Commissioner is faced with a daunting task 
and limited resources. He has developed a number of initiatives 
to reduce the backlog and processing times. We have seen some 
of these initiatives result in progress and congratulate him on 
these successes.
    However, we believe even more can be accomplished with 
fiscal year 2009 funding in excess of the President's request. 
Therefore we have made the following six recommendations.
    One, SSA should continue to hire administrative law judges 
and fully staff the hearing operations. We have already talked 
quite a bit today about that needed staffing ratio. It has been 
said that hiring 175 judges without adequate staffing is like 
buying 125 trucks with gas for only 25. I would just caution 
that when we talk about these various reports that show the 
staffing ratio, make sure you know exactly what goes into them. 
The Atlanta area has two hearing offices, and when Medicare 
Part D subsidy went into effect, 10 of the decision writers 
were detailed for a year and half, physically moved, did 
Medicare work, yet they were counted as part of that staffing 
ratio. So, the intent of the 4.5 staffing ratio is workers 
actually at the work site conducting Social Security disability 
work.
    Two, Social Security should continue to fully implement the 
electronic disability process. SSA is strongly committed to a 
paperless file called eDIB that is a work in progress and needs 
to be fully funded to be successfully implemented. Improvements 
can be made to ensure the system can support the growing 
workload and not risk a slowdown or even a crash of the system 
with hundreds of thousands of claims.
    Third, SSA needs to fund capital expenditures to add new 
hearing offices and permanent remote sites. Both the current 
and the prior Commissioner approved several new hearing offices 
based upon the needs, but then, as the Commissioner said today, 
there were not enough funds available to build those 
facilities. That is one area that I think we need the 
Congressional help for additional appropriations so we can have 
facilities where the claimants and the cases are. I think we 
are truly in a crisis situation, and I would refer back to what 
we did when we faced Hurricane Katrina and the damage that did. 
I am more familiar of Mississippi, which was part our 
responsibility when I was in the management of the Atlanta 
eight state region. We lost an office to the hurricane, and so 
we had judges that volunteered to come in from all over the 
country and help out, and so we had, on short notice we were 
able to get temporary space, have it wired for video. The whole 
area didn't have hotel space, which was destroyed or occupied 
by FEMA workers, contractors, and everybody else, so we 
couldn't get hotels to send people, but we could do the video 
hearings, and so that area of southern Mississippi was not 
disadvantaged or as badly disadvantaged from lack of services. 
So, while it takes a long time to maybe build a full scale 
hearing office, more emergent efforts could be made.
    Fourth, Social Security should test initiatives before full 
implementation and not count on their success to justify 
reduced staffing. The Government Accountability Office has 
issued a number of reports highlighting weaknesses at Social 
Security caused by implementation of newer initiatives without 
sufficient preliminary testing. We believe that Social Security 
should hire temporary employees if it contends that we don't 
need as many employees because we are going to have some kind 
of new initiative that may reduce it somewhere in the future. 
There are plenty of retired employees and government programs 
for bringing back fully trained employees to work on a 
temporary basis.
    Fifth, Social Security should realign the workforce and 
staffing at the hearing level by transferring cases. We have 
talked about that a lot today, but the disparity across the 
country is striking.
    Sixth, the correct decision should be made as early as 
possible in the claim review process to reduce processing time, 
expense, and hardship to the claimant.
    I would point out two initiatives by the Commissioner that 
really proves the point that many of these claims shouldn't 
make it to the Administrative Law Judge stage, that it should 
have been approved at an earlier stage. These two processes 
sound the same, but actually involve totally different people.
    In the Atlanta region, or Atlanta's two offices, we have 
DDS, which is the state agency employees reviewing our 900 day 
old cases if the judge is not going to get to those in short 
order. They are reviewing the same evidence we have. They may 
update the evidence, but they don't have any authority to pick 
a later onset date so they are fully favorable. They are paying 
a high percentage of these cases without the necessity of a 
hearing, and these are the same employees or the same state 
agency which had denied it previously.
    Then we have DQB, the division of quality control which 
monitors the state agencies for their quality, and they have an 
initiative where they are coming in and also reviewing a 
different set of 900 day old cases, and once again, approving a 
large number of cases without any amendment to the onset date.
    So, Mr. Chairman, thank you once again for the opportunity 
to appear before you today. The Social Security section of the 
Federal Bar looks forward to working with you and the Social 
Security Administration in improving the disability process.
    Thank you.
    [The prepared statement of Hon. Frederick Waitsman 
follows:]

        Prepared Statement of The Honorable Frederick Waitsman,
     Administrative Law Judge, Social Security Administration, and
         Vice Chair, Social Security Section of the Federal Bar
                     Association, Atlanta, Georgia

    Chairman Rangel, Ranking Member McCrery and Members of the 
Committee:
    I am Rick Waitsman, Vice Chair of the Social Security Section of 
the Federal Bar Association. I am an Administrative Law Judge in the 
Office of Disability Adjudication and Review of the Social Security 
Administration in its Atlanta North office. As an Administrative Law 
Judge at SSA for the past fourteen years, I have heard and decided well 
over 8,000 appeals. I also have served in the management positions of 
Assistant Regional Chief Administrative Law Judge for Region IV-Atlanta 
and Administrative Law Judge in Charge of the Medicare Division. I have 
served in three hearing offices.
    I am very pleased to be here today representing the Social Security 
Section of the Federal Bar Association (FBA). My remarks today are 
exclusively those of the Social Security Section of the Federal Bar 
Association, and do not necessarily represent the views of the FBA as a 
whole. Moreover, my remarks are not intended to, nor do they 
necessarily reflect, the views of the Social Security Administration.
    Thank you for convening this hearing on a matter of critical 
importance to the Federal government's delivery of effective services 
to the American people. As you know, the Federal Bar Association is the 
foremost professional association for attorneys engaged in the practice 
of law before Federal administrative agencies and the Federal courts. 
Sixteen thousand members of the legal profession belong to the Federal 
Bar Association. They are affiliated with over 85 FBA chapters in many 
of your districts. There are also more than a dozen sections organized 
by substantive areas of practice, such as the Social Security Section.
    Unlike other organizations associated with the Social Security 
disability practice that tend to represent the narrow interests of one 
specific group, the Federal Bar Association's Social Security Section 
embraces all attorneys involved in Social Security disability 
adjudication. Our members include:

    <bullet>  Attorney Representatives of claimants
    <bullet>  Administrative Law Judges (ALJs)
    <bullet>  Administrative Judges at the Appeals Council
    <bullet>  Staff Attorneys at the Office of Disability Adjudication 
and Review
    <bullet>  Attorneys at the Social Security Administration's Office 
of General Counsel
    <bullet>  U.S. Attorneys and Assistant U.S. Attorneys
    <bullet>  U.S. Magistrate Judges, District Court Judges and Circuit 
Court Judges

    The common focus of the FBA's Social Security Section is the 
effectiveness of the adjudicatory process primarily with hearings in 
the Office of Disability Adjudication and Review (ODAR), the appeal 
process at the Appeals Council, and judicial review in the Federal 
courts. Our highest priority is to assure the integrity, independence, 
fairness, and effectiveness of the Social Security disability hearing 
process for those it serves--both Social Security claimants themselves 
and all American taxpayers who have an interest in assuring that only 
those who are truly disabled receive benefits.
    We appreciate the concern that was expressed by this Committee and 
the Social Security Subcommittee that resulted in the Commissioner's 
withdrawal of proposed rules that would have reduced the due process 
rights of claimants and cut disability benefits by two billion dollars. 
We strongly believe that the disability appeals backlog has not grown 
out of an excess of due process. While there should be a constant quest 
to improve the disability program, reforms should not arise out of 
procedural roadblocks that cannot be navigated by claimants.
    Furthermore, it is the Section's collective view that the Social 
Security disability program is under considerable strain. Current 
delays in the processing of claims are unacceptable. The Federal Bar 
Association previously urged Congress to increase funding for fiscal 
year 2008, and we applaud the Congress for appropriating funds in 
excess of the President's request.
    We thank the Ways and Means Committee for holding this hearing and 
for shining the spotlight on this unconscionable problem and the harm 
endured by hundreds of thousands of claimants who continue to wait for 
years to receive a final agency decision on their disability claim. 
During the painful wait, some appellants have lost their homes, others 
have been deprived of medical care and necessary medication, some have 
undergone bankruptcy, while others have suffered even the loss of 
custody of their children, and in perhaps the most tragic of cases, 
suffered from depression so severe that it has resulted in suicide. 
Sadly, it is no longer unusual to review a disability claim at the 
hearing level in which the claimant has died from the disabling 
impairment or taken one's life from the stress of lack of resources, 
without the benefit of temporary assistance from the Social Security 
Administration.
    I serve in the Atlanta North hearing office that was profiled in 
the February 2008 CBS Evening News Report on the hearing backlog. ALJs 
and appellant representatives who are members of the FBA's Social 
Security Section agree that the CBS report was an accurate depiction of 
the lives of those who await final agency decisions in the Atlanta 
North office, as well as other offices dealing with long waits. Some 
statistics about my office and its caseload illustrate the crisis at 
ODAR. The Atlanta North office started fiscal year 2003 with 3,104 
pending cases and during that year disposed of 3,624 cases with an 
average processing time of 302 days. In that same year, we successfully 
reduced the number of cases pending. However just 4 years later, at the 
start of 2007, our caseload had grown to 10,490 cases. And though we 
disposed of a record number of cases, our pending caseload continued to 
grow to 11,922 cases. That's why our processing time for 2007 jumped 
from 302 days to 751 days, despite a record--breaking number of 
decisions for the office and its ALJs. The backlog in fact would have 
skyrocketed even more had the Atlanta North Office not transferred over 
1,000 cases to other offices. While productivity issues can take their 
toll, the influx of new cases without additional resources was the 
foremost cause of waits for claimants. During this rapid growth in 
cases, we were able to dispose of about 2 cases per ALJ per day, but 
received about 4 cases per ALJ per day.
    When fiscal year 2008 began, the Commissioner of Social Security 
gave the Atlanta North office a numerical goal for the number of case 
dispositions relative to the size of our ALJ and support staff. The 
Commissioner's national goal was to dispose of all cases that had 
remained pending at ODAR for 900 or more days. Yet if we met our 
numerical goal, we still would not have disposed of enough cases to 
have eliminated our 900 day-old cases because we had more 900 day-old 
or older cases than our disposition goal. The goal did not even take 
into account claimants entitled to expedited case handling, such as 
Veterans from Iraq and Afghanistan, terminal illness cases, dire need, 
on the record requests, and court and Appeals Council remands.
    In the starkest and simplest of terms, we do not have the resources 
locally to handle the cases we are assigned. The Commissioner is 
providing help by sending in visiting ALJs, utilizing their support 
staff and permanently transferring cases to other offices. But these 
measures by themselves are insufficient. The bottom line is that SSA 
sorely needs a substantial increase in its funding so that meaningful 
justice can be promptly and fairly delivered to the hundreds of 
thousands of disability claimants who await an answer to their appeals.
    Social Security has an expression, ``Put a Face to the Case.'' We 
are not dealing with just numbers or files, but real people and real 
lives. Social Security at all levels has a dedicated workforce. It 
simply doesn't have enough employees to do the job the public expects 
and deserves. It should be emphasized that the issue is the length of 
time claimants must wait to receive a final agency decision. While the 
solution involves studying all steps of the process, we should not lose 
sight of the fact that in addition to the hearing backlog, the claimant 
waits approximately 103 days for an initial decision and 242 days for 
the Appeals Council. Approximately, 40 states provide a reconsideration 
step after an initial denial which results in additional delays. In 
previous testimony, the Social Security Section of the Federal Bar 
Association has urged that reconsideration be eliminated because the 
few cases that are approved do not justify the delay and expense. 
Notwithstanding that recommendation, additional funding is needed to 
increase the speed and accuracy of all stages of the application and 
appeal process.
    The Commissioner is faced with a daunting task and limited 
resources. He has developed a number of initiatives to reduce the 
backlog in offices with longer processing times. We have seen some of 
these initiatives result in progress and congratulate him on these 
successes. However, we believe even more can be accomplished with 
fiscal year 2009 funding in excess of the President's request.
    Therefore we offer the following six recommendations:

    1. SSA Should Continue to Hire Administrative Law Judges and Fully 
Staff Hearing Operations

    2. SSA Should Continue to Fully Implement the Electronic Disability 
Process (eDIB)

    3. SSA Needs to Fund Capital Expenditures to Add New Hearing 
Offices and Permanent Remote Sites

    4. SSA Should Test Initiatives Before Full Implemenation and Not 
Count on Their Success to Justify Reduced Staffing

    5. SSA Should Realign the Workforce and Staffing Components of the 
Office of Disability Adjudication and Review, and

    6. The Correct Decision Should Be Made as Early as Possible in the 
Claim Review Process to Reduce Processing at the Hearing Level

    Now let's take a look at each of these recommendations:

1. SSA Should Continue to Hire Administrative Law Judges and Fully 
        Staff Hearing Operations
    The Commissioner has announced plans to hire 175 ALJs this fiscal 
year, with offers accepted by 135. The first group will be reporting to 
training soon. Studies have shown that to have an effective hearing 
operation, it is necessary to have approximately 4.5 staff for each 
ALJ. The new hiring plan does not apply the 4.5:1 staffing formula to 
new ALJs or significantly address the continuing shortage of staff in 
the offices. The current staffing is well below the target and largely 
negates much of the potential productivity of the ALJs.
    While hiring additional ALJs is important, it should be noted that 
the hiring of approximately 135 ALJs is not an absolute increase in 
ALJs from prior years. It is only a down payment on the attrition that 
has taken place and does not come close to matching the phenomenal 
increase in pending cases. To hire ALJs without appropriate staff, 
however, is like hiring pilots to solve the problem of an airline not 
flying on time. The lack of support staff for an airline will still 
result in delays in boarding passengers, refueling, loading and 
unloading luggage, and necessary maintenance. It is the same with 
hiring ALJs without adequate staffing. Without adequate staff the cases 
will not be entered in a timely fashion into the computer system, the 
written evidence in cases will not be associated and placed in 
evidence, hearings will not be promptly scheduled, medical and school 
records to be utilized as evidence will not be ordered, inquiries from 
Congress, claimants and their representatives will not receive timely 
responses, consultative examinations will not be ordered, and decisions 
will not be timely drafted and mailed.
    Experience has shown that the loss of an ALJ in an understaffed 
hearing office does not usually result in a large percentage of his or 
her case production being lost. The support staff can only prepare so 
many cases to be heard and can draft only so many decisions. The other 
ALJs who were previously underutilized with the existing staff will 
pick up most, if not all, of the cases the departing ALJ would have 
produced. My office lost two ALJs to retirement during the last year, 
yet disposed of more cases than ever before. It is often said that 
hiring more ALJs without staff is just slicing the pie into more pieces 
without increasing the size of the pie.
    There is another worrisome concern, owing itself to the attrition 
of valuable support staff. The Commissioner has offered early 
retirements to ODAR employees and others. In addition, many of the 
newly hired ALJs were formerly either Hearing Office Directors, who are 
the highest non-ALJ in the office, or attorneys, who were either group 
supervisors or senior attorneys. This means that ODAR will be losing 
many of its best and most seasoned support staff. It is critical that 
these staff positions and others be filled. If SSA only hires ALJs, 
total productivity will rise only marginally, as the total number of 
cases will just be split more ways. Also there will be a loss of 
productivity as we use ALJs and senior staff to train the new ALJs and 
staff hired or promoted to new responsibilities.

2. SSA Should Continue to Fully Implement the Electronic Disability 
        Process (eDIB)
    SSA is strongly committed to a paperless file--called eDIB--but it 
is a work in progress and needs to be fully funded to be successfully 
implemented. Improvements need to be made to assure the system can 
support this growing workload or we risk a slowdown or even a crash of 
the system, which contains several hundred thousand electronic files.
    SSA is experimenting with National Hearing Offices in Falls Church 
and Albuquerque, in which ALJs will hear electronic cases from across 
the country by video. Since the two National Hearing Offices will only 
hear cases by video and not conduct in-person hearings, we are 
concerned that claimants will not have a realistic choice regarding 
their entitlement to an in-person hearing. Many of our members do not 
regard video hearings to be sensitive enough to decide close disability 
cases. It is often difficult to decide issues of pain, mental health, 
or veracity in person. A mere video image of a claimant may not promote 
the accurate resolution of such subtleties. For some claimants, 
appearing before a video camera makes them nervous, confused or 
otherwise unable to properly present their claims. We believe it may be 
a Hobson's choice to have a video hearing now, or an in-person hearing 
a year-and-a-half from now. Video hearings can help reduce the backlog 
provided the claimant always retains the right to an in-person hearing 
in the not distant future. We urge the Commissioner to provide real 
protection for the right to opt out of a video hearing without the 
punishment of additional significant delays. We caution that the amount 
of resources dedicated to electronic hearings not cause the 
Administration to lose sight of the claimant who has been waiting years 
to be heard on his paper file.

3. SSA Needs to Fund Capital Expenditures to Add New Hearing Offices 
        and Permanent Remote Sites
    A hearing office is an office where ALJs and staff are permanently 
assigned and hear cases. A permanent remote site is a location that SSA 
controls through ownership or lease where ALJs hold hearings, but no 
ALJs or staff are assigned. In the absence of permanent remote space, 
SSA uses temporary space, such as hotel conference rooms on an as 
needed basis, to hold hearings. Both the current and the prior 
Commissioner approved several new hearing offices based on the pressing 
need for the facilities. However, when the budgets were awarded, it was 
determined that adequate funding was not available. Two of the offices 
were Tallahassee and Ft. Myers, Florida. The need for permanent sites 
is even more important in an eDIB environment where computers are 
needed for each of the participants. An ideal situation provides for a 
permanent location so the equipment does not need to be stored, 
transported and set up for each day of hearings. Tallahassee not only 
does not have a hearing office, despite being approved by two 
Commissioners, but does not even have a permanent remote site. The 
option of video hearings does not exist in temporary remote sites 
because there is no place to install video communication lines and 
equipment. We believe additional funding is needed to establish 
permanent hearing offices at appropriate sites. Utilizing 2006 census 
data, Florida (with a population of 3.6 million people per office), 
Georgia (with 2.3 million people per office) and North Carolina (with 
almost 3 million people per office) have an extremely low number of 
offices relative to their population. By contrast, the other Region IV 
states have less than 1.5 million people per office. Undoubtedly, SSA 
needs additional funding to establish hearing offices and permanent 
remote sites within reach of the claimants they are mandated to serve.

4. SSA Should Test Initiatives Before Full Implementation and Not Count 
        on Their Success to Justify Reduced Staffing
    Late last year the Government Accountability Office issued a report 
that found that some of the key reasons for the backlog were the 
increase in applications, losses of key personnel, and management 
weaknesses. (Social Security Disability: Better Planning Management and 
Evaluation Could Help Address the Backlogs, December 7, 2007, GAO-08-
40) Management weaknesses were compounded by the implementation of new 
initiatives without sufficient preliminary testing. The Disability 
Service Improvements initiative (in the New England region) and the 
Hearing Process Improvement initiative were severely criticized by GAO 
for lack of adequate testing.
    We are similarly concerned that SSA's current implementation of new 
initiatives--like e-scheduling and other software improvements--without 
sufficient testing in pilot demonstrations will not offer promised 
productivity that SSA is counting on, and even possibly contribute to a 
larger backlog. For example, one new initiative--e-scheduling--is a 
centralized and computerized process of scheduling hearing 
participants: representatives, claimants, vocational experts, medical 
experts, and contract hearing reporters. Currently, a clerk calls these 
individuals to schedule and assure their availability. On the other 
hand, e-scheduling is more primitive in that it does not take into 
account the many variables that are involved in scheduling hearings. 
For example, many attorney representatives of claimants practice in 
multiple hearing offices, and the e-scheduling software does not know 
their Federal or state court schedule, the amount of time it takes to 
get from one hearing office to another if they are being scheduled for 
two offices in a day, how close an ALJ usually is able to keep on 
schedule, and other factors. While e-scheduling may work in some 
locations, it should be thoroughly tested before widespread 
implementation. More important, it should not be prematurely counted as 
a success that justifies a staffing reduction until it has been 
successfully implemented on a widespread basis. We have similar 
concerns regarding plans for the development of software to select and 
number medical evidence and eliminate duplicate exhibits. We believe 
ODAR should hire temporary employees to reduce the backlog until these 
initiatives are proven worthwhile.

5. SSA Should Realign the Workforce and Staffing Components of the 
        Office of Disability Adjudication and Review
    ODAR's workforce is not sufficiently balanced--in terms of the 
locations of ALJs and staff--to deal with the rising case backlog. For 
example, four offices have less than 300 cases pending per ALJ, while 
26 offices have over 1,000 cases pending per ALJ. A realignment can be 
accomplished by a combination of case transfers and the realignment of 
service areas. Although the Commissioner plans to actually reduce case 
transfers, this approach had proven largely successful, though used 
only sporadically. We urge the Commissioner to continue these transfers 
until there is roughly the same processing time throughout the nation.
    Variances in waiting time are due to inadequate staffing, high 
growth of new cases, and the misaligned boundaries of service areas. 
While lack of productivity is sometimes used to explain long waits, the 
data shows that 35 offices receive less than two cases per ALJ per day, 
but eight offices receive over four cases per day per ALJ. Since 
average ALJ productivity is less than 2.5 cases per day, the 
misalignment of ALJs and cases in those eight offices contribute to the 
backlog. Until these underlying reasons are addressed and successful 
action taken to correct the problems they create, an aggressive case 
transfer process is needed. Historically, case transfers have been 
short term efforts, but they need to be viewed as an integral part of 
the business process until the inequalities in waiting times are 
resolved.

6. The Correct Decision Should Be Made as Early as Possible in the 
        Claim Review Process to Reduce Processing at the Hearing Level
    There is great disparity among the various state agencies that make 
the initial and reconsidered determinations on disability claims. In 
fiscal year 2006, the national average of initial claims allowed was 
35%. Yet, Georgia allowed 25%, Tennessee allowed 23%, Kansas allowed 
28%, Ohio allowed 27% and South Carolina allowed 23%, while New 
Hampshire allowed 59%, District of Columbia allowed 54%, Hawaii allowed 
53% and Virginia allowed 44%. Congress has held hearings on this issue 
and there is still no compelling explanation of the disparity. One of 
former Commissioner Barnhart's proposals in the Disability Service 
Improvement initiative was to create a Federal quality assurance 
program involving centralized review of cases from all over the country 
by the same Federal office. This is currently being carried out on a 
localized or regional basis when the reviewing entity and respective 
review standard are known by the state. We believe there should be a 
quality assurance process that applies a national and uniform policy of 
review. Such a policy should address the sufficiency or completeness of 
medical evidence before a decision is made. We support further inquiry 
to better to determine the reasons for the wide disparity in allowance 
among the states and at different levels.
    If SSA continues the current process of excessively denying 
eligible claimants initially, the administrative costs will naturally 
escalate as more cases continue to be appealed and waiting times 
increase. Obviously, wrongful initial denials cause great hardship to 
citizens who have paid their Social Security taxes to obtain insured 
status and do not receive the benefits to which they are entitled.
    Eleven years ago, GAO testified to the House Social Security 
Subcommittee that ``Despite SSA attempts to reduce the backlog through 
its STDP initiatives, the agency did not reach its goal of reducing 
this backlog to 375,000 by December, 1996.'' (Social Security 
Administration: Actions to Reduce Backlogs and Achieve More Consistent 
Decisions Deserve High Priority, April 24, 1997, GAO/T-HEHS-97-118) The 
backlog at that time was defined as cases pending for more than 270 
days, and the goal was to reduce pending cases to the 375,000-mark. 
Today, the backlog has exploded to more than 750,000 pending cases. 
Last year, SSA targeted adjudicating aged cases of 1,000 days at ODAR 
and this year is targeting 900-day-old cases. GAO has issued other 
reports addressing the lack of an effective quality assurance program 
and the failed effort of improving consistency between the initial 
decisions and hearings at the appeals level. (See, e.g., Social 
Security Administration: Disappointing Results from SSA's Efforts to 
Improve the Disability Process Warrant Immediate Attention, February, 
27, 2002, GAO-02-322) SSA needs to be sure its national criteria are 
applied as uniformly as possible at all levels and in all states.
    While the experience of the members the FBA's Social Security 
Section is associated more directly with ODAR and the Appeals Council, 
we have noticed a significant decrease in service at the district 
offices, the teleservice center (800-number), the payment center, and 
the disability determination services. Essential workload such as 
continuing disability reviews and age 18 redeterminations to determine 
whether beneficiaries continue to qualify for benefits appear to be 
receiving less attention. It has been shown that continuing disability 
reviews (CDRs) save over $10 of program funds for every $1 spent in 
administrative costs of conducting CDRs. We urge the Congress to 
appropriate sufficient funds so that the backlog of CDRs and 
redeterminations can be significantly reduced and bring about service 
increases in all components.
    Mr. Chairman, thank you once again for the opportunity to appear 
before you today. The Social Security Section of the Federal Bar 
Association looks forward to working with you and the Social Security 
Administration in improving the disability process. I would be happy to 
answer any questions you may have.

                                 <F-dash>

    Mr. MCDERMOTT. Thank you very much for your testimony. I 
thank all the panel. Mr. McCrery will inquire.
    Mr. MCCRERY. Mr. Schieber, the focus of this hearing, of 
course, is on the problems that we are having near the end of 
the disability determination process and getting those appeals 
processed. But if some of these issues have been handled better 
early in the process, we maybe wouldn't have as big a problem 
to discuss today. What in your opinion are the most important 
investments and changes we can make to the beginning of the 
disability determination process to improve the whole system?
    Mr. SCHIEBER. Part of the challenge here is to gather 
sufficient information and good information as early in the 
process and on a systematic basis as you can. If you look at 
the DDS application process right now, in some states there is 
a relatively structured process for gathering information.
    This is a complicated program, and people come in with many 
disabling characteristics. Oftentimes, it really is quite 
difficult to ferret out exactly what it is that is the 
disabling condition. If you don't go through collecting the 
information on a systematic process, then it is going to be 
extremely uneven.
    Now, the Commissioner talked about the development of their 
eCAT system that they tried to roll out as part of DSI in the 
Northeast. Conceptually, it is an extremely good idea. They had 
an electronic process for leading the examiner through 
collecting information to build file so a decision could be 
made. But when they rolled it out, it had not been properly 
developed, had not been tested, and basically tied up their 
whole operating system so they had to take it back down.
    SSA and the DDSS have started to redevelop. They have been 
going through a process with the state of Virginia and 
redeveloping this in what they call a lab environment. We 
actually visited with the folks in Virginia and some of the 
Social Security folks just a couple of weeks ago, and it looks 
like they have something extremely promising. They are going to 
come out with an updated version, in July. Connecticut is using 
this system, and it looks extremely promising. I think you need 
to begin to gather the data on a consistent basis across all of 
these states, and it needs to be as complete as possible.
    One of the things that Social Security has done, it worried 
about the processing time at the front end of the application 
process, and encouraged the DDS's to move the application 
through in 90 days. Oftentimes that 90 day hurdle comes up and 
the medical data is not in the file. So, the DDS makes a 
denial, and they send it on up the line. When it gets up to 
ODAR for the appeals that medical evidence to be obtained for 
the file. Then as the ALJ begins to consider the case, they are 
considering a very different base of information than was 
considered at the front end of the process.
    That is what I was talking about earlier when I said we 
need to integrate this process from beginning to end. We need 
to think about getting all of the information as quickly as we 
can so we can make a comprehensive decision as soon as we can.
    Mr. MCCRERY. What can we do in Congress, if anything, to 
facilitate that?
    Mr. SCHIEBER. Well I certainly think that as you think 
about budgets and how money is going to be spent, you should 
strongly encourage, one, that they get themselves into a 
consistent DDS platform across all of the states. The Federal 
government is paying for the DDS operations. They need to be on 
a consistent platform. Then it needs to be totally integrated 
with the subsequent steps in the process. If there is 
determination that the information that has been passed on to 
ODAR has been insufficiently developed, the hearing office 
staff needs to be able to determine that very quickly and get 
it back to the DDS to get it fully developed.
    We just heard here about cases that are now being referred 
back to the DDSs from ODAR that have sat there for 900 days, 
and now there are decisions being made that this person is 
disabled without further development. This case sat there for 
900 days with the information we are using today to make a 
determination this person is disabled. That is insane. I don't 
have to go explain it to them, but I am sure you do 
occasionally, and I would think you would want to put a stop to 
that sort of activity.
    Mr. MCCRERY. If I might just ask one more question about 
physician's records.
    Mr. MCDERMOTT. Sure.
    Mr. MCCRERY. It seems that that is a recurring problem in 
getting everything together. We have a problem sometimes 
getting records from the physicians that have treated the 
individuals. Mr. Waitsman, do you find that to be a problem 
often?
    *Mr. WAITSMAN. It is. In Georgia, we pay a nominal fee, 
either free or $10 for the doctor to get the records or for the 
hospitals to give us the records. If you keep going back to the 
doctor at the initial stage, at reconsideration, the attorney 
every 6 months, every year, they write for records, and I write 
letters requesting records, eventually the providers just 
refuse to have anything to do with the program.
    Mr. MCCRERY. So, what can we do about that? Does anybody 
have any suggestions as to how we can----
    *Mr. WAITSMAN. What doctors and hospitals have asked for 
was increased reimbursements so that they get more than $10 for 
giving years worth of medical records.
    Mr. MCCRERY. Ms. Ford.
    *Ms. FORD. The representatives that we work with in our 
coalition have indicated that, once they get involved in the 
case, they do some very practical things that SSA ought to look 
at doing. One of them is in fact, paying more for those 
records.
    Another thing is providing better explanations to the 
providers, the medical providers or whomever, exactly what the 
case is about and what evidence is needed. In addition, SSA 
should do a bit more targeted questioning when they know what 
the issues are. Further, more should to be done with the 
claimants in terms of explaining to them the process and why it 
is so important that they let SSA know all of the doctors and 
hospitals and providers that they have seen, and let SSA know 
everything that there is going on with the individual so that 
those impairments that are revealed at the last minute can come 
out earlier in the process.
    In addition, SSA must address training of adjudicators to 
ensure that they are all working from the same rules, and that 
they understand properly the evaluation of childhood 
disability, the use of the Social Security rulings, and the 
evaluation of the mental impairments, and pain and other 
subjective symptoms.
    These are some very practical things that need to happen, 
and there is a good bit of that in my written testimony. Thank 
you.
    Mr. MCCRERY. Thank you.
    Mr. MCDERMOTT. Mr. Johnson will inquire. Excuse me, Mr. 
Lewis will inquire.
    *Mr. LEWIS. Thank you very much Mr. Chairman. Mr. Chairman, 
let me thank each Member of the panel for being here today. I 
would just like to take a moment to welcome Judge Waitsman for 
being here. I know you are a graduate of Emory University, 
located in the heart of my district, and thank you for all of 
your work, and thank each of you for your good work.
    Judge Waitsman, you know from firsthand experience the huge 
problem we are having with Social Security disability appeals 
in Atlanta. You know that people are dying, literally dying 
waiting for disability benefits that they deserve.
    Ms. Ford listed a dozen, unbelievable in your written 
testimony, are heartbreaking stories of people losing 
everything while they wait for benefits they deserve.
    These people who are too sick to work, too disabled to 
work, in Atlanta in my office, more than anything else, more 
than any other case or problem we have, the caseworkers, is 
dealing with Social Securities, Social Security disability. 
They call my office asking how they will pay their rent, how 
they will pay for medicine, how they are going to pay for food, 
or some people losing their homes while they wait for benefits. 
I don't think it is fair, I don't think it is right, I don't 
think it is just in a society such as ours.
    I appreciate all the work that you are doing, Judge 
Waitsman in Atlanta, as an administrative law judge. I know, as 
a human being, not just as a judge, you know that people 
shouldn't wait any longer. You heard the Commissioner talk 
about the steps they are taking in Atlanta. In your opinion, 
what needs to be done in Atlanta to really reduce the backlog? 
What does the Social Security Administration need from Congress 
to make sure that people get the benefits they need and get it 
now? I don't understand it, I really don't understand why 
people have to wait 600, 700, 800, 900 days. You talked about 
what happened during Katrina. If for some emergency, why can't 
we make the government work in such a fashion that we can 
transfer people from one part of the country to another part of 
the country to intervene. Can we hire more administrative law 
judges or hire more Social Security Employees to make it work?
    *Mr. WAITSMAN. Congressman, thanks for the kind 
introduction. We just don't have enough resources in Atlanta, 
and I think when you have four cases coming in every day for 
every judge and average productivity is about two to two and a 
half cases, it is a resource issue above everything else. So, 
we have technologies that we can transfer cases around the 
country, we need more hearing space. For example, we hear cases 
in Atlanta, Gainesville, Augusta, and Athens. To the extent we 
get help in Augusta, we have only got one room, so we need more 
help. If we had a second room--we could hear more cases.
    *Mr. LEWIS. Do you travel? You travel from one--Do you 
actually travel?
    *Mr. WAITSMAN. Yes.
    *Mr. LEWIS. From one office to another office to hear a 
case?
    *Mr. WAITSMAN. Yes, we call them remote sites, and so we 
travel to all of those, plus we can do it by video. So, I think 
some of those offices--We are doing it to some degree, I don't 
think sufficient level, having judges from California and other 
areas that don't have enough work load, who receive less than 
two cases per day per judge, so they hear some cases. Part of 
the issue is if they do it by video, it is a three hour time 
change, so----
    *Mr. LEWIS. How do you feel as a human being when you hear 
that someone came before you, they were trying to get their 
benefits, and a few weeks later, maybe a month later, a year 
later, you heard that they passed and never got their benefits?
    *Mr. WAITSMAN. It is extremely frustrating. It used to be 
unusual that we would have a death while a claim was pending. 
Now it is very common. It is not just the individual, it is a 
whole family that is affected for the one that doesn't--if it 
is not a death, it is a family problem and issue. People are 
losing their homes. Many of the homeless shelters aren't set up 
for families or couples, and so you are splitting up a family.
    You will have diseases such as an uncontrolled diabetic 
that maybe could be controlled if they had their insulin. If 
they don't have their insulin, you see that case progress. 
Eventually, it is going to be a loss of vision, kidney failure, 
peripheral neuropathy. It is just a heartrending situation, 
that you know that the person that is not getting their 
hearing. And not getting their benefits. You are picking up 
that file that has been sitting around for two to 3 years, that 
it is a matter of time, before a tragedy and maybe that time 
arose before you even got the file.
    Mr. MCDERMOTT. I'm going ask Mr. McNulty to take the chair 
again [continuing]. I have a commitment I've got to go do. But 
I want to say that I think your last comments really raise the 
issue of why we can't deal with poor people. We watched 
Katrina. We can't seem to get that figured out. But we sure do 
spend a lot of time trying to speed up the licensing over at 
the FDA and a lot of other places when we can't seem to put the 
resources in to deal with really what are the terrible.
    When you read these cases that this floor brought before us 
and you see people dying in the waiting room, you have got a 
serious failure of a system which I don't think anybody--maybe 
no one deliberately sets out to do, but by our actions--and I 
think we can fix them--we can restore some integrity to the 
system.
    So, I appreciate all of you coming here and testifying 
before the Committee.
    Mr. McNulty?
    Mr. MCNULTY [presiding]. Thank you, Dr. McDermott. Mr. 
Johnson may inquire.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Mr. Schieber, you talked about a Federal Times article. 
I've got a copy of that article. It can be distributed, and I 
request it be inserted into the hearing record.
    Mr. MCNULTY. Without objection.
    [The information follows:]
    **********COMMITTEE INSERT**********
    Mr. JOHNSON. Both the government and private sector have 
abysmal records on computer security breeches, along with 
protecting Social Security number, and preventing ID theft. 
This Committee is trying to stop that through legislation. Even 
our veterans have had their information stolen.
    What I'd like to know is why are we allowing employees to 
work from home? Personal information must be protected and not 
carried home. Can you tell us what you think about that?
    Mr. SCHIEBER. Well, I think protecting personal information 
should be of the highest order of concern. The reasons why 
people work at home, I think partly tie to history, partly tie 
to evolving social acceptance of work at home in not only 
government sector but in the private sector. There is a sense 
that in many regards it may be more efficient. It may be green. 
We're in Earth Week, I think. That if we can allow people to do 
their job without having to commute, it saves them time, it 
saves resources, it doesn't spew things into the atmosphere 
that would be spewed if they came to work.
    But the issue, though--I managed people in the private 
sector for 30 years, and we had some work at home flex 
schedules that we allowed our employees. But it's always a bit 
of a challenge. It seems to me the important thing is that we 
should do it if people can do the work at home and can be as 
efficient, and in many cases maybe even more efficient than 
they are by coming to the office.
    Mr. JOHNSON. Well, how do you protect the information that 
way?
    Mr. SCHIEBER. Well, I'm guess I'm getting to the punchline 
here. If you have to come to the office to do the work, then it 
seems to me that's where you do the work, and going back to the 
fact that security here is of the highest order of importance, 
it may require that we rethink the way we were handling these 
files. Maybe that's where work has to be done. Maybe moving 
into this more efficient environment is going to require some 
changes to work policies. We need some flexibility to get 
there, or we're not going to be able to realize the 
efficiencies that Commissioner Astrue was talking about.
    Mr. JOHNSON. You know, Mr. Skwierczynski--is that close?
    *Mr. SKWIERCZYNSKI. Skwierczynski.
    Mr. JOHNSON. Sorry.
    *Mr. SKWIERCZYNSKI. Skwierczynski. Thank you. Stated that 
we should not believe people about their birth dates when 
they're applying for retirement benefits. It seems to me that 
if a guy's been working forever and using a birth date for 50-
60 years, he shouldn't have to provide a birth certificate for 
somebody to look at before he gets his retirement. What's your 
opinion on that?
    Mr. SCHIEBER. Well, I was just sitting here thinking about 
my situation.
    Mr. JOHNSON. Yeah, and do you know where your birth 
certificate is?
    Mr. SCHIEBER. Well, at the moment I don't.
    [Laughter.]
    Mr. JOHNSON. I didn't think so.
    Mr. SCHIEBER. I think I applied for my Social Security card 
it probably in 1960, and I have consistently told the Social 
Security Administration since then that I was born on July 24, 
1946. You know, if I file for Social Security benefits, 
retirement benefits when I reach normal retirement age, they'll 
have had that birth date on record for more than a half 
century.
    I think what the Commissioner is trying to do is look at 
the situation that he's facing. This overwhelming burden of the 
baby boomers about to descending upon them, applying for 
benefits. Even if they can electrify the application process, 
so I can apply for my benefits online, under the old rules I 
was going to have to find my birth certificate and I was going 
to have to take it to a Social Security office. Well, we've 
been hearing here about how hard it is to get into the Social 
Security office, how overburdened the Social Security offices 
are, what the Commissioner is trying to do is find some 
practical ways that to deal with these issues.
    We have talked to him extensively about some of these 
things, about the application process. He's taking things out 
of the application process that he thinks are peripheral to 
making a realistic and adequate and careful determination in 
most cases. He thinks that if I have been telling him I was 
born on July 24, 1946 for a half century, that, you know, if I 
came in and I told him that today, so I could qualify for 
benefits, then maybe they'd be suspect. But I surely wouldn't 
have thought of that 50 years ago, so I could qualify for 
benefits today.
    Mr. JOHNSON. Well, you know, a lot of states are going 
automatic on all that stuff. I mean you could even get licenses 
for your car on a computer nowadays. They believe what you put 
in there. I mean they don't ask you for a piece of paper. I 
think that's enough said on that.
    Thank you for the time, Mr. Chairman.;
    Mr. MCNULTY. Thank you, Mr. Johnson.
    Mr. Brady may inquire.
    Mr. BRADY. Thank you, Mr. Chairman. I appreciate you all 
being here today and offering your insight. Clearly, the Social 
Security disability process needs dramatic improvement. We all 
have different suggestions on how to do it, but your insight as 
users and providers of the system is a huge help.
    I will note, Sam, that I decide earlier that even if I had 
a question for Mr. Skwierczynski, I wasn't going to ask it 
anyway, just for fear of mangling the name.
    So, I appreciate you having a----
    Mr. MCNULTY. It's phonetic.
    Mr. BRADY. So, thank you. Mr. McCrery asked my question. I 
too think that we have a continuing problem on the accuracy, 
completeness, and the timing of the medical records. I have 
always assumed that because the Social Security claimant 
representatives are skilled, that there would be a huge 
difference between the medical records of a claimant and one of 
those represented by a representative.
    But my question to you--and maybe I'll ask Ms. Ford this--
to your knowledge, have we ever measured the difference between 
the completeness and the timeliness of the medical records for 
claimants who have representatives and those who don't? I mean 
you talked about some of the areas that representatives helped 
claims provided; that makes to me perfect sense. But have you 
ever measured the difference? Because clearly the more complete 
and more timely that medical record, my assumption is the more 
accurate and hopefully the quicker the system would render an 
accurate decision for that person.
    *Ms. FORD. Just a couple of points in response to that. I 
don't think that we have done any studies on the development of 
evidence. One thing I would want to know is, of those people 
who are represented, whether representation, for different 
lengths of time prior to the hearing; makes a difference. And 
it depends on the individual and how soon they find somebody as 
to how long that representative has had to help develop the 
record.
    I'm being reminded by my colleague that the GAO is 
currently working on a report on the development of evidence. 
Hopefully there will be something helpful that comes out of 
their work. But, the representatives have said for years that 
there are some very practical things that can be done, that 
should be done by SSA, and perhaps these cases wouldn't even 
reach the appeals level if the evidence was gathered earlier in 
the process.
    Mr. BRADY. No, it seems to me to make sense. I was just 
wondering if we need to try to find some way to measure that, 
so we can find out what those best practices are. You know what 
I mean? Because obviously I think that is one of the many keys 
to improving the whole process.
    So, Mr. Chairman, again, thank you all for being here. 
Thank you, Chairman.
    Mr. MCNULTY. Thank you, Mr. Brady.
    If there are not further questions, I want to thank the 
panel on behalf of Chairman Rangel and Ranking Member McCrery 
and all the Members of the Committee.
    I want to thank all of you, not just for your testimony 
today, but for your advocacy on behalf of our constituents and 
the American people. Sometimes we have these hearings to try to 
figure out what the problem is. We know what the problem is. We 
know, we are painfully aware of what the problem is. You have 
given us some good ideas about solutions. The ball is now in 
our court. We need to do these things in cooperation with the 
Administration and the Social Security Agency.
    So we have made some modest progress in the last couple of 
years, and the extra $150 million last year. We've got $240 
million extra in our House budget resolution this year. We're 
hiring 175 new administrative law judges. We're making some 
modest progress.
    But I thank particularly Mr. Skwierczynski for referring to 
a possible problem with continuing with the progress, and 
that's some of us getting together and passing new laws, 
creating new additional massive workloads for the Social 
Security Administration that don't have anything directly to do 
with Social Security. We need to guard against that, because I 
think you will agree that if we do something like that, it 
blows that progress we've made so far to smithereens.
    So, we need to keep our eye on the ball. We need to 
continue to make more progress beyond what we have done so far. 
Thank you for steering us in the right direction, and we look 
forward to working with each and every one of you to make more 
and more progress on this issue in the weeks, the months, and 
the years ahead.
    The hearing is adjourned.
    [Whereupon, at 2:09 p.m., the hearing was adjourned.]
    [Questions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] T8116A.028
    
    [GRAPHIC] [TIFF OMITTED] T8116A.029
    
    [GRAPHIC] [TIFF OMITTED] T8116A.030
    
    [GRAPHIC] [TIFF OMITTED] T8116A.031
    
    [GRAPHIC] [TIFF OMITTED] T8116A.032
    
    [GRAPHIC] [TIFF OMITTED] T8116A.033
    
    [GRAPHIC] [TIFF OMITTED] T8116A.034
    
    [GRAPHIC] [TIFF OMITTED] T8116A.035
    
    [GRAPHIC] [TIFF OMITTED] T8116A.036
    
    [GRAPHIC] [TIFF OMITTED] T8116A.037
    
    [GRAPHIC] [TIFF OMITTED] T8116A.038
    
    [GRAPHIC] [TIFF OMITTED] T8116A.039
    
    [GRAPHIC] [TIFF OMITTED] T8116A.040
    
    [GRAPHIC] [TIFF OMITTED] T8116A.041
    
    [GRAPHIC] [TIFF OMITTED] T8116A.042
    
    [GRAPHIC] [TIFF OMITTED] T8116A.043
    
    [GRAPHIC] [TIFF OMITTED] T8116A.044
    
    [GRAPHIC] [TIFF OMITTED] T8116A.045
    
    [GRAPHIC] [TIFF OMITTED] T8116A.046
    
    [GRAPHIC] [TIFF OMITTED] T8116A.047
    
    [GRAPHIC] [TIFF OMITTED] T8116A.048
    
    [GRAPHIC] [TIFF OMITTED] T8116A.049
    
    [GRAPHIC] [TIFF OMITTED] T8116A.050
    
    [GRAPHIC] [TIFF OMITTED] T8116A.051
    
    [GRAPHIC] [TIFF OMITTED] T8116A.052
    
    [GRAPHIC] [TIFF OMITTED] T8116A.053
    
    [GRAPHIC] [TIFF OMITTED] T8116A.054
    
    [GRAPHIC] [TIFF OMITTED] T8116A.055
    
    [GRAPHIC] [TIFF OMITTED] T8116A.056
    
    [GRAPHIC] [TIFF OMITTED] T8116A.057
    
    [GRAPHIC] [TIFF OMITTED] T8116A.058
    
    [GRAPHIC] [TIFF OMITTED] T8116A.059
    
    [GRAPHIC] [TIFF OMITTED] T8116A.060
    
    [GRAPHIC] [TIFF OMITTED] T8116A.061
    
    [GRAPHIC] [TIFF OMITTED] T8116A.062
    
    [GRAPHIC] [TIFF OMITTED] T8116A.063
    
    [GRAPHIC] [TIFF OMITTED] T8116A.064
    
    [GRAPHIC] [TIFF OMITTED] T8116A.065
    
    [GRAPHIC] [TIFF OMITTED] T8116A.066
    
    [GRAPHIC] [TIFF OMITTED] T8116A.067
    
    [GRAPHIC] [TIFF OMITTED] T8116A.068
    
    [GRAPHIC] [TIFF OMITTED] T8116A.069
    
    [GRAPHIC] [TIFF OMITTED] T8116A.070
    
    [GRAPHIC] [TIFF OMITTED] T8116A.071
    
    [GRAPHIC] [TIFF OMITTED] T8116A.072
    
    [GRAPHIC] [TIFF OMITTED] T8116A.073
    
    [GRAPHIC] [TIFF OMITTED] T8116A.074
    
    [GRAPHIC] [TIFF OMITTED] T8116A.075
    
    [GRAPHIC] [TIFF OMITTED] T8116A.076
    
    [GRAPHIC] [TIFF OMITTED] T8116A.077
    
    [GRAPHIC] [TIFF OMITTED] T8116A.078
    
    [GRAPHIC] [TIFF OMITTED] T8116A.079
    
    [GRAPHIC] [TIFF OMITTED] T8116A.080
    
    [GRAPHIC] [TIFF OMITTED] T8116A.081
    
    [GRAPHIC] [TIFF OMITTED] T8116A.082
    
    [Submissions for the Record follow:]

             Statement of America's Health Insurance Plans

I. Introduction
    America's Health Insurance Plans (AHIP) is the national association 
representing approximately 1,300 health insurance plans that provide 
coverage to more than 200 million Americans. Our members offer a broad 
range of products, including private disability income insurance to 
help consumers replace lost income in the event that a disabling 
condition forces them to leave the workforce for an extended period of 
time.
    We appreciate the Committee's interest in reducing the backlog of 
pending claims for Social Security Disability Insurance (SSDI) benefits 
and ensuring that this important Federal program is meeting the needs 
of Americans with disabilities in a timely manner. As the Committee 
reviews these issues, we believe it is important to keep in mind the 
important role that private disability insurers play in offering 
products that protect consumers against the financial risk of a 
disabling illness or injury that prevents an individual from working 
for an extended period of time. Our statement provides an overview of 
private disability insurance, while also discussing the value this 
coverage offers to policyholders and a national education campaign we 
have launched to increase awareness about the importance of disability 
income protection. The statement also includes a brief description of 
steps that AHIP and our disability insurer members have undertaken to 
help the Social Security Administration (SSA) speed and improve SSDI 
claim adjudication.

II. Overview of Disability Income Insurance
    Private disability income insurance provides tens of millions of 
Americans with protection that complements the safety net provided by 
the SSDI program. Approximately 38 percent of U.S. workers in private 
industry are covered by employer-sponsored short-term disability 
coverage, while 30 percent receive long-term disability insurance 
through their employers\1\. In addition to extending benefits to many 
persons who are not eligible for SSDI, or during the time the SSA is 
adjudicating an SSDI claim, this coverage provides a level of 
disability income benefits that spares many Americans from financial 
hardship.
---------------------------------------------------------------------------
    \1\ National Compensation Survey: Employee Benefits in Private 
Industry in the United States, 2006, U.S. Department of Labor, Bureau 
of Labor Statistics
---------------------------------------------------------------------------
    Short-term disability coverage typically pays benefits for 13 to 26 
weeks based on a specified percentage of the employee's pre-disability 
income--typically 60 percent--after sick leave has been exhausted. 
Circumstances that may trigger the payment of short-term disability 
benefits include temporary musculoskeletal or connective tissue 
conditions, pregnancies, and other illnesses or conditions that are 
resolved within a relatively short timeframe, thus allowing the 
employee to return to work before benefits are exhausted. The valuable 
protection offered by short-term disability coverage can be purchased 
at a reasonable price--an average of $174 annually, according to one 
study based on 2001-2003 data, when purchased as group coverage by 
employers\2\. This short-term protection can be purchased in 
combination with long-term disability coverage as part of a seamless 
package, with the short-term and long-term benefits coordinated to 
ensure that disabled workers can meet their daily expenses and avoid 
financial hardship.
---------------------------------------------------------------------------
    \2\ An Employer's Guide to Disability Income Insurance, AHIP
---------------------------------------------------------------------------
    Additional protection is offered by long-term disability coverage 
that begins to pay benefits when an individual's sick leave and short-
term benefits are exhausted. These long-term disability benefits 
continue anywhere from five years to the remainder of an individual's 
life. Long-term disability insurance allows policyholders to sustain 
themselves financially if a catastrophic illness, injury, or disability 
takes them out of the workplace for an extended period of time.

III. Value for Consumers
    In 2006, more than 500,000 individuals received long-term 
disability payments from private insurers. One-third of these 
individuals did not qualify for SSDI. Moreover, 95 percent of reported 
disabilities were not work-related and, therefore, not eligible for 
coverage under workers compensation.\3\
---------------------------------------------------------------------------
    \3\ 2006 Council for Disability Awareness Claims Review
---------------------------------------------------------------------------
    Private disability insurers resolve claims within 30 days or less 
for approximately 75 to 80 percent of claimants, thus ensuring that 
benefits can be paid promptly to replace an eligible claimant's lost 
wages. Our members' track record exceeds the requirements set by 
Federal regulations, which establish a 45-day timeframe for the initial 
resolution of private disability claims and allow an extension--of up 
to a total of 105 days--if, for reasons beyond the control of the 
insurer, more time is required to gather information.
    In addition to replacing lost income for claimants in a timely 
fashion, private disability insurers play a key role in restoring 
disabled workers to financial self-sufficiency and maintaining 
productivity for America's businesses. By investing in rehabilitation 
and return-to-work programs, private disability insurers are actively 
engaged in helping workers with disabilities return to the workforce. 
In fact, a survey by Milliman, Inc. found that private disability 
insurers spent an average of $3,200 in 2005 on each disabled employee 
receiving rehabilitation and return-to-work services.\4\
---------------------------------------------------------------------------
    \4\ Survey of Rehabilitation and Return-to-Work Practices Among 
U.S. Disability Carriers, Milliman, Inc., May 2007
---------------------------------------------------------------------------
    These innovative programs include a wide range of strategies in 
recognition of the fact that persons with disabilities are highly 
diverse and face varying circumstances. Services offered by 
rehabilitation and return-to-work programs include medical case 
management, vocational and employment assessment, worksite 
modification, purchase of adaptive equipment, business and financial 
planning, retraining for a new occupation, and education expenses. The 
Milliman survey found that annual budgets for these programs, which 
vary by size of company, range from $450,000 to more than $10 million.
    Additionally, private disability insurers have been very proactive 
in designing policies that help claimants return to work. As a result, 
persons receiving private disability payments often have access to work 
incentive benefits, rehabilitation benefits, workplace accommodation 
benefits, and child or dependent care benefits during rehabilitation. 
These innovative benefits reflect our members' strong commitment to 
promoting employment and self-sufficiency among persons with 
disabilities.
    Disability insurers also help consumers exercise their rights under 
the Social Security program. Specifically, disability insurers provide 
assistance in the application process to beneficiaries who may be 
eligible to apply for SSDI benefits. Claimants with expected long-term 
disabilities are encouraged to apply for SSDI benefits and, according 
to one study, two-thirds of individuals receiving private long-term 
disability income benefits also qualify for SSDI benefits.\5\
---------------------------------------------------------------------------
    \5\ Council for Disability Awareness, 2006 Long-Term Disability 
Claims Review
---------------------------------------------------------------------------
    By encouraging and assisting claimants in pursuing SSDI benefits, 
disability insurers help them gain access to benefits beyond disability 
income payments. This includes additional benefits for a spouse and/or 
dependents, access to vocational assistance and other support from the 
SSA, and eligibility for Medicare benefits after a period of 24 months.
    A similar approach is taken by the Federal Employee Retirement 
System, which requires disabled beneficiaries to file for SSDI 
benefits. A requirement to apply for SSDI benefits is also part of many 
states' workers' compensation systems, as well as public employee 
retirement systems.

IV. National Education Campaign
    AHIP has launched a national education campaign to promote 
awareness about the importance of disability income protection and to 
highlight the value disability insurance provides for workers, 
employers, and taxpayers.
    Recognizing that more than 100 million Americans lack private 
disability income protection, our campaign has created a Web site--
www.yourincomeatrisk.org--focused on educating consumers about a wide 
range of disability-related issues. The need for such education is 
highlighted by survey findings showing that many American workers have 
misunderstandings about their likelihood of experiencing a disability.
    AHIP released survey findings in March 2008 indicating that most 
baby boomers underestimate their risk of suffering a disability that 
would cause them to miss work for an extended period of time. The 
survey, conducted by Harris Interactive on behalf of AHIP, found that 
just over a third of baby boomers think the chances of becoming 
disabled due to illness or injury is 5 percent or less, a slight 
majority think the chances are 10 percent or less, and two-thirds think 
the chances are 20 percent or less. In reality, a worker has a 30 
percent chance of suffering a disabling injury or illness causing him 
or her to miss three or more months of work before reaching retirement, 
according to the SSA.
    The survey also found that 47 percent of baby boomers say they are 
not too concerned about their chances of suffering a disabling illness 
or injury. One of the reasons baby boomers underestimate their risk is 
because they are unaware of the most common causes of disability, 
mistakenly believing that injuries cause more disabilities than 
illnesses. According to the survey, baby boomers believe the most 
common causes of disability are back, muscle, or joint problems (26%), 
injuries on the job (18%), and injuries off the job (16%). In 
actuality, research shows that the most common causes of disability are 
illnesses such as cancer, heart disease, and diabetes.
    In the coming months, AHIP will be taking additional steps to 
continue our national education campaign. These steps include a 
retooling of our ``Your Income At Risk'' Web site, an updated consumer 
guide on disability income insurance, a new publication for 
policymakers and the media, and additional research on key disability 
issues.

V. Private Disability Insurers Partnering with SSA to Help Speed SSDI 
        Claim Adjudication
    AHIP and its disability insurer members are well aware of the 
challenges facing SSA and the SSDI program, and believe that the Agency 
needs more resources. Applications for SSDI benefits have increased 
steeply in recent years--and now arrive at the rate of more than 2.5 
million each year. The increased SSDI workload also comes at a time of 
very serious limits on the Agency's budget for administering its 
retirement income security and disability income security programs; 
attrition of the Agency workforce; and the addition of new 
responsibilities supporting the Medicare program and homeland security 
efforts.
    Congress has recognized SSA's need for additional resources, and 
took steps last year to increase the Agency's administrative funding. 
The Commissioner and his staff are also moving aggressively to reduce 
SSDI claim delays and backlogs through steps such as hiring additional 
Administrative Law Judges.
    AHIP and its private disability insurer members are also reaching 
out to offer assistance to help SSA speed and improve SSDI claim 
adjudication. For privately-covered workers who become short-term 
disability and/or long-term disability claimants, private disability 
insurers compile extensive disability claim information that is also of 
significant potential relevance and value to the SSDI claim 
adjudication process. SSA and a group of AHIP's private disability 
insurer members are currently working to test new procedures that will 
facilitate SSA access to key claim information that will help SSA speed 
and improve the adjudication of private claimants who apply for SSDI. 
The test is initially focused on providing the Agency with objective 
medical evidence, such as attending physician statements and lab and 
test results, for claims expedited based on presumptive diagnoses and/
or terminal prognosis.
    By providing the SSA with quality medical evidence already resident 
in private disability claim files, we can begin to demonstrate the 
benefits of enhanced cooperation between private disability insurers 
and the nation's primary public disability income assistance program. 
These steps can lead to even more robust information sharing and other 
enhanced public-private cooperation in the future.
VI. Conclusion
    AHIP and our members look forward to maintaining a dialogue with 
Committee Members about the challenges facing the SSDI program and the 
role of private disability insurance in providing consumers with 
financial protection against the high costs associated with disability.

                                 <F-dash>
               Statement of the American Bar Association

Dear Mr. Chairman:

    On behalf of the American Bar Association (``ABA'') and its more 
than 400,000 members nationwide, I write to present the views of the 
American Bar Association on clearing the Social Security 
Administration's backlog of disability claims and providing the agency 
with the resources it needs to provide the benefits earned by workers 
in this country. The American Bar Association commends the House 
Committee on Ways and Means for maintaining a sharp focus on working to 
solve a set of agency problems that inflict a terrible human toll on 
hundreds of thousands of Americans who are disabled and suffering 
financially due to the loss of their income and who are unable to 
obtain timely and fair determinations of their disability claims. The 
unprecedented backlog of cases was created because for many years SSA 
was severely under-funded.
    The ABA has a long-standing interest in the Social Security 
Administration's disability benefits decision-making process, and we 
have worked actively for over two decades to promote increased 
efficiency and fairness in this system. As a diverse organization 
representing the legal profession in the United States, the ABA has 
been able to draw upon the considerable expertise of our membership--
claimants' representatives, administrative law judges, academicians and 
agency staff--to develop a wide-ranging body of recommendations on the 
disability adjudication process. The Section of Administrative Law, the 
Judicial Division and the Commission on Law and Aging have worked to 
develop our ABA recommendations, the goals of which are to improve the 
quality of decision-making, increase fairness and efficiency for 
claimants, help alleviate the backlog, encourage clarity in 
communications with claimants, promote procedural due process 
protections, and seek the application of appropriate, consistent legal 
standards at all stages of the adjudication process.
    At its April 2008 meeting, the ABA's Board of Governors adopted 
policy pertaining to the Social Security Administration's 
administrative budget. The policy states:
    RESOLVED, That the American Bar Association urges Congress to enact 
a level of administrative funding for the Social Security 
Administration that permits the Social Security Administration to 
provide its mandated services in a timely manner, promptly and fairly 
adjudicate applications for disability insurance and supplemental 
security income benefits, overcome significant disability claims 
processing times and backlogs, and build the infrastructure necessary 
to manage the expanding workload challenges presented by serving the 
aging baby boomers filing disability and retirement claims.
    The President's FY 2009 budget proposes administrative resources of 
$10.460 billion for the SSA, a six percent increase over FY 2008. While 
this represents a praiseworthy step forward toward reducing the 
backlogs and improving services to the public, it is inadequate to 
provide mandated services in a timely manner and to promptly and fairly 
adjudicate applications for disability insurance and supplemental 
security income benefits. As Commissioner Astrue testified at your 
April 23rd hearings, SSA requires a minimum increase of $400 million to 
meet increases in personnel and infrastructure costs alone for the 
fiscal year that starts in October 2008. The President's budget is 
insufficient to maintain an adequate number of administrative law 
judges and support staff and continue reducing the backlog, and does 
not address the inadequate levels of service provided to the public in 
SSA field offices and customer service centers. It is up to Congress to 
determine the responsible measure of support needed above and beyond 
the President's proposal. We commend this Committee for pursuing the 
tough fiscal and strategic question of determining a level of funding 
that will ensure that the agency does the job that the American people 
and their elected representatives expect it to do.
    The ABA urges Congress, now and in future years, to provide SSA 
with sufficient administrative funding to continue to work to reduce 
the significant backlog of initial claims and appeals of disability 
cases, to reverse crippling cuts in services to the public, and to 
provide a sustained level of administrative funding that permits the 
agency to provide its mandated services in a timely manner, promptly 
and fairly adjudicate applications for disability insurance and 
supplemental security income benefits, overcome significant disability 
claims processing times and backlogs, and build the infrastructure 
necessary to manage the significant workload challenges presented by 
serving the aging baby boomers filing disability and retirement claims.
    We appreciate the opportunity to submit our comments and would be 
pleased to offer our assistance to the Committee as it addresses the 
backlog in disability claims

and other declines in service to the public resulting from years of 
under-funding of the agency's administrative expenses.
    Thank you for considering our views on this important matter.

            Sincerely, 
            [GRAPHIC] [TIFF OMITTED] T8116A.027
            

Denise A. Cardman
Acting Director

cc. Members, Committee on Ways and Means

                                 <F-dash>
                        Statement of Barbara Gay

    The American Association of Homes and Services for the Aging 
(AAHSA) is pleased to submit this comment on the need to include long-
term care in any legislated reform of the U.S. healthcare system. AAHSA 
members (www.aahsa.org) help millions of individuals and their families 
every day through mission-driven, not-for-profit organizations 
dedicated to providing the services that people need, when they need 
them, in the place they call home. Our 5,800 member organizations, many 
of which have served their communities for generations, offer the 
continuum of aging services: adult day services, home health, community 
services, senior housing, assisted living residences, continuing care 
retirement communities and nursing homes. AAHSA's commitment is to 
create the future of aging services through quality people can trust.
    In his April 15 testimony, former Senator David Durenberger said 
that addressing long-term care financing would be a first step toward 
an income security policy for this country. We would add our voice to 
his in calling on policymakers not to overlook long-term care in 
developing a more rational system of healthcare coverage for Americans.
    On November 2, 1993, the Ways and Means Health Subcommittee held a 
hearing on healthcare reform. At that time, we testified that, ``the 
demographic imperative is upon us,'' and pointed out that the lack of 
coverage for long-term care can be just as catastrophic for families as 
the lack of general health insurance.
    Sadly, little has changed in the intervening fourteen years in the 
way long-term care is financed. In 1993, private insurance covered only 
three percent of long-term care costs. The annual cost of long-term 
care far outstripped the ability of most individuals and families to 
pay for it. The cost of long-term care for those who had spent down 
their financial resources and become eligible for Medicaid was a 
substantial and growing burden on Federal and state governments. Family 
members often exhausted their physical and financial abilities to 
provide care at home and businesses experienced growing costs of 
employee sickness, absenteeism, and diminished productivity due to this 
``major unfunded liability,'' as our testimony termed the lack of long-
term care coverage.
    Today, Medicaid continues to be the primary governmental source of 
coverage for long-term care, and the cost to states in particular 
supplants spending on other important state responsibilities such as 
education and transportation. Individuals and families cover 52% of 
long-term care costs out of pocket. The cost of paid long-term care is 
only the tip of the iceberg; approximately 75% of long-term services 
and supports are provided by family members on an unpaid basis, often 
at a heavy physical and financial cost, including lost opportunities 
for employment, health insurance, and retirement savings. Despite 
almost three decades of marketing and generous Federal tax incentives, 
the ``take-up'' of private long-term care insurance has been sluggish, 
and this coverage is unavailable to the thousands of Americans who have 
experienced a serious illness or other ``pre-existing condition.'' As a 
result, private long-term care insurance continues to cover only a 
fraction of long-term care costs.
    Consumers often are surprised that nursing home care and services 
provided in the home and community are not covered either by private 
health insurance or for the most part by Medicare. In fact, it makes no 
intrinsic sense to separate coverage of long-term services and supports 
from other kinds of healthcare coverage. Long-term care involves many 
of the same healthcare providers--nurses, doctors, hospitals, 
pharmacists--who provide other forms of healthcare. Services that in 
the past were provided primarily in hospitals now often are provided in 
nursing homes or in community-based settings. The line between long-
term care and the rest of healthcare was never bright and the evolution 
of healthcare over the last generation has obscured it even more.
    Costs do not disappear if they are not covered by government 
programs or private insurance. The burden of covering them simply 
shifts to different levels of government, to private businesses, and to 
individuals and their families, often at a time when they are least 
prepared to handle them. Including long-term care in healthcare reform 
is essential to integrate services for consumers and to prevent the 
inefficiencies that result from hidden cost-shifting.
    Recognizing the need for a new approach to financing long-term 
care, AAHSA has spent the last few years researching and developing a 
proposal for an equitable and affordable system of long-term care 
coverage. Our plan calls for a public insurance program, with 
participation on an ``opt-out'' basis to make it as universal as 
possible, financed by participants' premium payments. Benefits would be 
paid on the basis of disability, assessed according to the level of 
need for assistance with activities of daily living. Our Long-Term Care 
Financing Cabinet issued its recommendations last year, and we have 
since completed economic modeling that demonstrates the feasibility of 
our financing proposal. More information on our proposal and on the 
need for a better system of long-term care financing is available on 
our website, at http://www.thelongtermcaresolution.org/LearnMore.aspx.
    A consensus on the need for long-term care financing reform along 
these lines is emerging among many organizations that represent elders 
and people with disabilities. Recently, the Leadership Council of Aging 
Organizations and the Coordinating Council for Disabilities jointly 
endorsed the principles underlying our proposal. Together, the two 
coalitions represent over 150 organizations of elders, people with 
disabilities, and providers of health, housing and supportive services.
    In another fourteen years, the oldest of the baby boomers will 
reach age 76. We no longer have the luxury of predicting a future 
train-wreck in financing long-term care; the trains are now within 
sight of each other. To truly protect American families against 
catastrophic healthcare expenditures, Congress must include long-term 
care in whatever healthcare reform plan it considers.
    Every family faces the potential costs of long-term care, and every 
family needs a structure for personal planning with the protection of a 
public program as well. AAHSA and our members look forward to working 
with the Ways and Means Committee on a comprehensive and badly-needed 
reform of our entire healthcare system that will address long-term 
supports and services along with other health issues and give Americans 
a healthy, ethical, and affordable system of which we can all be proud.

                                 <F-dash>
                     Statement of Colleen M. Kelley

    Good morning Chairman Rangel, Ranking Member McCrery and Members of 
the Committee on Ways and Means. My name is Colleen M. Kelley and I am 
National President of the National Treasury Employees Union (NTEU). 
NTEU represents over 150,000 Federal employees in 31 agencies. Among 
them are the nine hundred Attorney-Advisers and other staff members in 
approximately 110 Office of Disability Adjudication and Review (ODAR) 
Hearing and Regional Offices across the United States. Our union has 
long been troubled by the unacceptable backlog of cases before ODAR and 
believes that prompt congressional action is needed to resolve this 
crisis in service to the American public, particularly those disabled 
Americans applying for earned social insurance benefits.
    Disability adjudication at SSA has a long and troubled history. The 
current problems with the SSA disability program began in the early 
1990s when the cases pending at OHA hearing offices rose from 
approximately 180,000 in 1991 to approximately 550,000 in mid-1995. 
Currently over 750,000 cases are pending at ODAR hearing offices and 
processing times in 85% of all hearing offices are in excess of one 
year. However, a quick review of the history of the number of cases 
pending at ODAR demonstrates that the backlog problem is not altogether 
intractable.

[GRAPHIC] [TIFF OMITTED] T8116A.026


    The number of cases pending at OHA hearing offices declined from 
1995 through 1999, and in fact by the end of FY 1999 there was no 
longer a backlog, since 300,000 cases was deemed to be the optimum 
number of pending cases for efficient adjudication. The decline in 
pending during that time period is the direct result of the over 
220,000 decisions produced by initiatives included in the Short Term 
Disability Program (STDP), the vast majority of which were produced by 
Senior Attorneys. The Hearing Process Improvement program (HPI) ended 
the Senior Attorney Program. The demise of the Senior Attorney Program 
and the rise of the backlog were not coincidental and are illustrative 
of the management deficiencies that have plagued the disability 
program.
    Over 750,000 cases are currently pending at ODAR hearing offices. 
This translates into an average processing time of 510 days at ODAR. 
Even this is somewhat misleading. Currently, the average processing 
time for a case that proceeds through an ALJ hearing decision is 553 
days. In the Chicago Region the average processing time through an ALJ 
hearing decision is 727 days; 3 days short of two years. Even these 
unconscionable numbers do not include the time the case was at the 
State Agency for an initial and reconsideration determination. To 
further darken the picture is the specter of significantly increased 
receipts resulting from the aging ``baby boomers'' and the less than 
robust national economy. Unless decisive action is taken now, the 
dysfunction of the disability system may lead to the public's loss of 
faith in Social Security.
    The salient fact about the current SSA disability adjudication 
process is that it is unconscionably slow causing untold harm to some 
of the most vulnerable members of society. None will dispute that the 
public deserves far better service than SSA is presently providing. The 
current situation is both a failure of adequate funding and of proper 
planning and management.
    Additional resources are very much needed as well as a reform of an 
inefficient adjudicatory process characterized by an insufficient 
number of adjudicators and the misuse of those adjudicators. Requiring 
an Administrative Law Judge (ALJ) to adjudicate each and every case at 
ODAR hearing offices is grossly inefficient and extremely expensive. 
Many cases (dismissals, fully favorable on-the-record cases, and 
requested closed period cases) can be disposed of without ALJ 
involvement.
    Given the underfunding of the agency, SSA is under an absolute duty 
to use what funding it has as efficiently as possible. This year 
Congress has provided greater funding, and SSA has decided to use part 
of that increase to hire 175 new Administrative Law Judges; 
unfortunately, SSA has not seen fit to provide adequate staff to 
support these new ALJs. Recently, SSA conducted the largest hiring of 
ALJs (135 ALJs) in this nation's history, and intends to hire at least 
40 more ALJs before the end of the fiscal year. Certainly, the hiring 
of such a large number of new adjudicators will have an impact on SSA's 
disability backlog. However, the number of support staff for ALJs in 
ODAR was critically low before the recent hiring. While it is not 
altogether clear how many additional support staff SSA intends to hire 
this year, even the most optimistic projections (143) are grossly 
inadequate. Hearing offices were critically understaffed before the 
acquisition of as many as 135 new ALJs (and 40 more to be added this 
fiscal year) and are in far worse position now.
    In his recent response to questions from the House Appropriations 
Committee, the Honorable Ronald G. Bernoski, President of the 
Association of Administrative Law Judges, stated that a judge could not 
perform his/her work in isolation and the support of sufficient 
competent and trained staff is essential. He further indicated that 
adequate staff included 2.5 attorneys and 2.0 clericals for each ALJ. 
While hiring a large number of new ALJs ``looks good'', unless they and 
the current ALJs are properly supported, a reasonable return for the 
expenses incurred simply will not happen.
    Without sufficient staff, SSA cannot prepare enough cases to fill 
the dockets of the ALJs or timely prepare and issue the written 
decisions. More ALJs without more staff will mean even more unfilled 
dockets, decreased ALJ productivity and wasted SSA assets. It is 
prudent, if nothing else, to use remaining funds to hire the necessary 
staff to make current ALJs productive.
    No doubt part of the reluctance to properly staff ODAR hearing 
offices is the Administration's commitment to ``contracting out'' many 
inherently governmental activities. Additionally, the Agency places a 
great deal of emphasis on the benefits of automation in improving 
Agency operations. The GAO Report of December 2007 reported that many 
SSA senior managers and ALJs recommended a staffing ratio of 5.25 
support staff to administrative law judge. It also indicated that the 
recommended staffing ratio could change as SSA implemented planned 
automation initiatives intended to improve the hearing process and 
increase efficiency. In many instances this emphasis on automation may 
well be justified, but in other areas experience has shown its relative 
merits are questionable. Automation may improve the situation over 
time, but the fact of the matter is that SSA automation initiatives 
rarely, if ever, come in on time, and even more rarely deliver what was 
promised.
    SSA is also committing funds to establishing ``National Hearing 
Centers''. The first is already operational in Falls Church, VA; the 
Commissioner recently announced a second to be situated in Albuquerque, 
NM, a city that already has a hearing office. It is not clear what 
operational efficiencies are achieved through the establishment of 
these adjudicating entities that are not already and better served at 
hearing offices. Certainly the capacity for conducting video-conference 
hearings already exists in nearly every current hearing office to 
facilitate conducting remote hearings and for adjudicating temporary 
excess workloads. The centralized nature of National Hearing Centers 
will alienate the public and further damage the Agency's credibility. 
For more than seventy years SSA has strived to maintain face-to-face 
contact at the local level with the public it serves. This is one of 
the factors that separate SSA from the majority of Federal agencies. 
National Hearing Centers would significantly weaken the bond between 
SSA and the public it serves.
    The advent of the electronic hearing folders facilitates movement 
of cases to other hearing offices as easily as to a National Hearing 
Center. There is no operational justification for the establishment of 
such centers. Moreover, their unique staffing structure emphasizes the 
Agency's commitment to achieving its political goals over providing 
high quality service to the public.
    Interestingly enough, in addition to hiring new ALJs, SSA has 
already commenced a program that if properly implemented will eliminate 
the backlog. Commissioner Astrue has reinstituted a version of the old 
Senior Attorney Program that was responsible for eliminating the 
disability backlog in the 1990's. Not surprisingly, the current 
program, the Attorney Adjudicator Program, is proving to be a success 
in spite of some ill-founded limitations. However, since its 
commencement, improvements have been authorized and its scope expanded. 
Nonetheless, it is this program with further modifications and 
additions that shows the way to an adjudicatory process at ODAR that is 
both effective and fiscally responsible.
    Judge Bernoski has noted on numerous occasions the necessity of 
reducing the number of cases that proceed to an ALJ hearing. In his 
response to questions from the Appropriation Committee he stated, 
``Social Security can no longer have over 90% of its disability cases 
continuing on to a full hearing before an administrative law judge.'' 
Judge Bernoski further stated ``nowhere in our judicial system is a 
judge required to take to hearing such a high percentage of cases 
compared to the total docket.'' NTEU absolutely concurs.
    The simple fact of the matter is that neither a hearing nor an ALJ 
is needed to dispose of every case. By relieving ALJs of the 
responsibility for adjudicating cases which do not require an ALJ, the 
ability of ALJs to focus on those cases requiring their expertise can 
be enhanced. That is the rationale behind the Attorney Adjudicator 
Program.
    Attorney Adjudicators, who have limited decisional authority, 
augmenting the ALJ corps constitute an effective and fiscally 
responsible adjudicative process. The one area of controversy involving 
the former Senior Attorney Program, decisional accuracy, is not a 
problem with the current program. Initial accuracy figures for the 
Attorney Adjudicator Program show an accuracy rate of 95%.
    Experience has demonstrated that between 25-40% of claims appealed 
to ODAR hearing offices could result in fully favorable decisions 
without an ALJ hearing. Additionally, 15-17% of cases appealed to 
hearing offices are dismissed, many because of abandonment by the 
claimant or technical defects. Very few of these cases require ALJ 
involvement. Such dismissals should be handled by Attorney Adjudicators 
thereby freeing the ALJ to adjudicate cases requiring an ALJ decision. 
Consequently, 40-50% of appeals to ODAR can potentially be adjudicated 
without the involvement of an ALJ.
    The success of the former Senior Attorney Program in eliminating 
the backlog of the 1990's and the very favorable beginning of the 
current Attorney Adjudicator Program render arguing the merits of the 
concept of attorney adjudication unnecessary. Management has recently 
announced a significant increase in the number of Senior Attorneys that 
will further increase the capacity of the current Attorney Adjudicator 
Program.
    Nonetheless, despite the promise of the Attorney Adjudicator 
Program, the current crisis is of such magnitude that additional 
changes are required if SSA is to get control of the backlog problem 
within an acceptable timeframe. Recently, the Agency announced an 
increase in the number of Senior Attorneys to 450; a net increase of 81 
positions. However, the time allocated to case adjudication is 
typically 25% or less. At this rate, the Agency expects approximately 
30,000 fully favorable adjudications this fiscal year. While this may 
temporarily stem the increase in the pending cases, its long term 
effect, even considering the augmentation of the ALJ Corps to 1,250 
ALJs, will not eliminate the backlog.
    By increasing the number of Senior Attorneys to 700 and permitting 
them to spend 50% of their time reviewing every disability case 
appealed to ODAR and adjudicating the 40-50% of cases that do not 
require ALJ participation, SSA can immediately reduce its pending cases 
by well over 100,000 cases a year in spite of the increased receipts 
expected.
    The Attorney Adjudicator Program does involve decreasing the 
availability of the attorney advisers for their traditional role of 
drafting ALJ decisions. However, several other efficiencies are 
promoted by the Attorney Adjudicator Program. Attorney Adjudicators 
work on ``unpulled'' or ``unassembled'' files. Those that result in 
fully favorable decisions do not have to be ``pulled''. The benefit 
from not having to ``pull'' these cases cannot be overstated. Today 
there are approximately 442,000 cases pending pulling; a workload that 
will require over 200 days to complete if no new cases were received by 
ODAR during that 200 days. Most ALJs will not hold hearings on 
``unpulled'' cases and ODAR's difficulty pulling sufficient cases to 
maintain ALJ dockets is a significant factor in the creation and 
maintenance of the current backlog. Each disposition by an attorney 
adjudicator is one less case that must be pulled.
    Attorney Adjudicators would continue to draft ALJ decisions in 
addition to handling their own adjudicatory dockets. Skilled decision 
drafting remains a vital component of the ALJ adjudicatory process. 
Retaining ODAR's most skilled staff to perform that duty is essential 
if ODAR is to continue to produce quality decisions. Assigning decision 
making duties to attorneys whose primary duty now is to advise ALJs and 
draft decisions is obviously going to result in a decrease in decision 
drafting capacity. SSA now has the assets to hire an additional 200 
attorneys to maintain sufficient decision drafting capacity and 100 
additional technical staff to process the increased number of 
decisions. Even considering the cost of the promotions of current 
employees consistent with their new duties, the total expense is far 
less than that involved with hiring the massive number of ALJs and the 
staff that would otherwise be necessary to support the ALJs.
    In addition to increasing the number of attorney adjudicators, 
small procedural adjustments would further enhance operational 
efficiency. Currently, Attorney Adjudicators may conduct pre-hearing 
conferences. Currently they can issue interrogatories to secure 
vocational and medical expert input. Often this is all that is required 
to perfect the record and allow for a fully favorable decision. While 
written interrogatories significantly expand the number of cases for 
which Attorney Adjudicators can issue fully favorable decisions, they 
can be cumbersome and time consuming. ODAR should authorize the 
attendance of medical and vocational experts at the pre-hearing 
conference thereby increasing decisional accuracy while decreasing 
processing time.
    If the current Attorney Adjudicator Program is expanded as detailed 
above, ODAR attorneys could dispose of 100,000 fully favorable 
decisions and dismissals or more each year, while still spending nearly 
half their time drafting ALJ decisions and advising ALJs. These cases 
would not require the expenditure of any ALJ resources and would 
involve relatively little staff time. This would allow the Agency to 
commit a greater amount of its resources to the cases that required ALJ 
adjudication.
    Let me also address the situation with OFEDRO. SSA has suspended 
further expansion of the Office of Federal Reviewing Officer (OFEDRO). 
OFEDRO has the potential to meaningfully help with the disability 
determination backlog if properly implemented. If SSA intends to resume 
hiring of new staff for FEDRO, it should give preference to the 
existing, high qualified and experienced staff at ODAR. In order to 
recruit the best and brightest staff for any expansion of the program, 
it should provide relocation allowances for all new hires recruited 
from elsewhere in the agency. This is a common recruitment tool in the 
Federal sector for highly qualified professionals and has been 
underused by the agency.
    Mr. Chairman, I thank you for this opportunity to present NTEU's 
statement on this important matter. NTEU remains ready to work with the 
Ways and Means Committee to do all that we can to address the crisis in 
the disability determination backlog. Thank you.

                                 <F-dash>
                      Statement of Connie Plemmons

    As project manager for the Disabled Homeless Project at Catholic 
Social Services of Baldwin County, I see the backlog of Social Security 
Disability cases first hand. The HUD grant I administer targets those 
who are backlogged in this system. These people are being told by the 
local SSA office they will get a determination within 90 days. Most of 
them believe they will get a check following those 90 days. They are 
devastated when they learn most cases are denied within 90 days, and 
then they must wait 18 months before they are scheduled for a hearing, 
then another 60 to 90 days before they get a check. My question is; 
what is the office of Determination doing? Why are these cases being 
denied by Determination just to be approved later by the ALJ? Has 
anyone looked at the cases denied at the Determination level and 
compared them to the cases approved at the ALJ level? Now I am being 
told that a new level of bureaucracy is being created with an 
``assumptive approval'' being allowed by folks not employed by the 
Office of Determination and Appeals. How can people who are not trained 
to do this job do a better job than the folks at Determination? It is a 
classic case of waste on the part of the United States Government! My 
tax dollars must be better spent. Fix the system we have. Do not create 
more levels of bureaucracy to use resources that could be helping the 
folks that really need the help, the disabled folks!

    Yours in service to God and our country,

    Connie Plemmons

                                 <F-dash>
                       Statement of David Hansell

    The New York State Office of Temporary and Disability Assistance 
(OTDA) is the state agency charged with helping New York's most 
vulnerable citizens achieve and maintain economic security through a 
range of work supports and services. OTDA's mission is multi-faceted: 
Assist those who are working but still struggling to meet basic needs; 
help work-capable individuals find and maintain employment; and assist 
those individuals with special needs for whom engaging in work is not a 
realistic priority. In order to fulfill this complex mission, OTDA 
oversees a range of programs that together weave a web of services and 
benefits to help families who often face more than one barrier to 
economic independence. These programs include employment and training 
services, food stamps, child support, home energy assistance, 
immigration services, public assistance, and SSI state supplementation. 
Additionally, OTDA includes the Division of Disability Determinations 
(DDD), the entity which serves as the Disability Determination Service 
in New York, and as such is responsible for making Federal disability 
determinations for claims filed with the Social Security Administration 
(SSA).
    Since OTDA's oversight includes Federal disability determinations, 
the state's public assistance programs and SSI state supplementation, 
our perspective encompasses both our successful relationship with the 
Social Security Administration with regard to disability determinations 
and the troubling impact the SSA backlog has on New Yorkers generally, 
and on public assistance clients awaiting an appeal in particular.
    DDD makes medical determinations on disability claims filed with 
the Social Security Administration (SSA) for Supplemental Security 
Income (SSI) and/or Social Security Disability Insurance (SSDI). The 
office collects all relevant medical evidence, and if needed, arranges 
for the claimant to have an examination to gather further information. 
A decision regarding medical eligibility is then made by DDD based on 
all of the evidence. These two programs represent the major economic 
support systems for the disabled. Additionally, individuals receiving 
Federal disability benefits also become eligible for essential health 
insurance through Medicare and Medicaid.
    New York's DDD has long had a strong partnership with the SSA. We 
value this relationship greatly, as it is beneficial for our State, for 
the Federal government, and most importantly for disability claimants. 
In addition, the DDD has a solid performance record, meeting and often 
exceeding performance standards. Indeed, in addition to its standard 
responsibilities, DDD often takes on extra tasks such as working with 
SSA on pilot projects or helping other locations with reviewing their 
disability applications. For example, DDD is currently working to 
assist SSA with addressing the backlog through the Informal Remand 
Initiative. Under this initiative, the SSA sends certain cases to DDD 
to review in an effort to reduce the workload of the hearing officers.
    Despite this initiative and other efforts by the SSA, the backlog 
in appeals cases persists, and the impact on New York is enormous, both 
at the individual and state government levels. Nearly 38,000 New 
Yorkers are waiting for an appeal. These individuals wait 21 months on 
average, a delay that in many cases results in a tragic loss of 
savings, home or even life for some of the chronically ill or 
critically disabled individuals seeking Federal benefits. Of this 
total, more than 17,000 individuals awaiting an appeal are on public 
assistance. This state-funded assistance is intended to be a short-term 
stopgap. However, because of the long waiting period resulting from the 
backlog, the state is providing months, sometimes more than a year of 
assistance for individuals who, but for the backlog, are truly the 
responsibility of the Federal government. More importantly, since the 
public assistance grant is typically less than the disability payment, 
the long delay means that disabled individuals are not getting the 
level of financial support to which they are entitled and need from the 
Federal government.
    Moreover, the long wait places the state in a troubling position 
with regard to the Federal rules governing the Temporary Assistance for 
Needy Families (TANF) program. In cases where it has been determined by 
the TANF program that a public assistance client meets the Federal 
requirements for a disability and the appropriate application has been 
filed to receive SSI, New York exempts the individual from TANF work 
requirements, and provides him or her with public assistance for the 
duration of the disability determination. However, while the state 
exempts these individuals from TANF work requirements, Federal TANF 
rules do not. Therefore, while the state is providing income support to 
these individuals who are not able to engage in full-time work due to 
their disability, we are at risk of penalties for not meeting the 
required TANF work participation rate. This policy is extremely 
problematic for states attempting to balance the conflicting demands of 
these two Federal programs, and New York has been vigorously advocating 
for a common sense solution through changes in TANF regulation. 
However, not only is this problem not resolved, it has been exacerbated 
by the long waits for Federal assistance resulting from the enormous 
backlog.
    By reducing the backlog in appeals and, therefore, reducing the 
waiting period, individuals whose appeals are accepted would begin 
timely receipt of appropriate Federal assistance, therefore freeing up 
scarce state public assistance dollars for other pressing needs. And 
for all who are waiting, reducing the waiting period would minimize the 
potential for loss, both financial and personal, and help these people 
on a path to economic stability.
    Through the strong relationship between the DDD and SSA, OTDA 
recognizes that SSA is making a valiant effort to address the backlog 
despite a difficult combination of circumstances: years of insufficient 
funding, expansion of responsibilities, and an overstretched staff. 
This problem is due in part to an inadequate number of Administrative 
Law Judges (ALJ) and support staff at the SSA to conduct hearings and 
make determinations. However, despite repeated requests for increased 
funding to address this issue, the SSA has not received adequate 
funding to address this staffing shortage. While Congress provided an 
increase in the FFY 2008 omnibus appropriations with language directing 
that the funds be used for this purpose, given the size of the backlog 
and the extensive wait times, more funding will certainly be needed. We 
urge Congress to provide the SSA with sufficient funding to address 
this backlog and prevent it from happening again in the future.
    Given the increase in funding for FFY 2008, OTDA commends SSA for 
hiring 135 new ALJs this year. However, we join Senators Charles 
Schumer (D-NY) and Hillary Clinton (D-NY) in asking that the 
geographical allocation of the new ALJs be revisited. We understand 
from the testimony at the House Ways and Means Committee hearing on the 
disability backlog that the allocation was intended to help offices 
carrying a significant backlog caseload, yet only 10 of the 135 new 
ALJs were assigned in New York, and to only four of the State's nine 
hearing offices. Furthermore, no new ALJs were assigned to the Buffalo 
office, even though that office currently has one of the longest wait 
times in the country. The explanation that the allocation was made in 
this manner due to the lack of office space for additional staff is 
troubling. Thousands of individuals should not be made to wait for 
disability assistance to which they are entitled because SSA cannot 
find office space. OTDA urges SSA to reconsider the allocation plan, 
and stands ready to offer assistance in finding adequate office space 
if necessary.
    In addition to increased funding and a reallocation of new ALJs, 
OTDA recommends that Congress consider changing the criteria currently 
used to determine eligibility at the time of the initial application. 
ALJs are allowed significantly more discretion in allowing cases at 
appeal, and DDD can often tell when a case that is being rejected based 
on the standard of evidence for the initial application will be 
approved upon appeal. If the DDD were allowed similar discretion to the 
ALJs, then the process would be expedited without impacting the 
integrity of the decision process, thereby reducing the number of cases 
going to appeal, and reducing the backlog.
    For the millions of individuals dealing with disabilities, SSI and 
SSDI are the lifeline that helps them maintain economic stability and 
security. With sufficient funding and other changes, the SSA will be 
able to eliminate the backlog and provide this critical support to many 
vulnerable people eligible for and entitled to Federal disability 
assistance.
    We hope hearings like this one will catalyze changes for the SSA. 
We thank you for the opportunity to comment on this important issue.

                                 <F-dash>
                       Statement of Harry Wanous
Committee Chairman Charles B. Rangel
    Representative Rangel there is a Bill that seats in the House Ways 
and Means Committee it is, H.R. 2943. The Title of the Bill is ( To 
amend titles II and XVI of the Social Security Act to provide for 
treatment of disability rated and certified as total by the Secretary 
of Veterans Affairs as disability for purposes of such titles.)
    The short Title is (This Act may be cited as the `Benefit Rating 
Acceleration for Veteran Entitlements Act of 2007'.) I think this is a 
very good Bill, I don't understand why we have two Government agencies 
wasting tax payers dollars fighting over the disability of veterans, 
even when the Secretary of Veterans Affairs has certified the veteran 
as totally Disabled.
    I would hope that you could get this Bill H.R. 2943 out of 
Committee and back to the floor for a Vote; at last look on the 
internet this Bill has about 105 Cosponsors. I'm asking you as a 
veteran fighting with the Social Security system for Disability sense 
2006 I had to finally hire a Lawyer to help me fight the system.

                                                       Harry Wanous

                                 <F-dash>
                      Statement of James F. Allsup

    Chairman Rangel and Members of the Committee, thank you for 
considering my written testimony regarding the Social Security 
Administration's growing disability claim backlog.
    My name is James Allsup and I am the founder, president and CEO of 
Allsup Inc., a Social Security Disability Insurance representation 
company that has helped more than 100,000 Americans with disabilities 
obtain Social Security disability benefits. For more than 30 years, I 
have experienced firsthand the challenges facing the SSDI system. I am 
a former SSA claims and field representative. I left the agency and 
founded Allsup 24 years ago because I wanted to help people with 
disabilities collect the insurance benefits they paid for.
    Our nation's disability insurance system is bursting at the seams. 
As Commissioner Astrue himself has stated, people are dying while 
awaiting an SSDI decision. I am not going to go into detail with the 
appalling backlog numbers and SSA staffing problems because this 
Committee already knows that the SSDI system is in crisis. Instead, I 
want to offer solutions.
Problems and Solutions
    As many have acknowledged, the core problem is that the SSA does 
not have the staff or the technology to process the exploding number of 
SSDI applications. Hiring additional administrative law judges is a 
step in the right direction, but it is similar to using a Band-Aid to 
fix a leaking dam. It is simply too little, too late. The agency and 
this Committee can effectively attack this crisis on two fronts: (1) 
Move more quickly to embrace modern technology to move claimants 
through the process faster, and, (2) Form professional relationships 
with third-party SSDI representatives.
    The SSA is moving forward on improving its technology initiatives. 
These include:

    <bullet>  Appeals--This new Web-based appeals process has 
supplanted the traditional paper appeals form. Allsup uses iAppeals for 
all its filings and we have seen faster processing times and improved 
accuracy. We strongly support the agency's proposal to require all 
claimants with representation to use iAppeals.
    <bullet>  Electronic Records Express--Secure, online submission of 
health records and claims evidence. Allsup uses this system to 
electronically submit evidence in support of cases pending at the 
hearing level. A typical claim that reaches the hearing level consists 
of 700 to 800 pages of medical evidence, Activities of Daily Living 
reports, denial letters and a multitude of Social Security 
Administration application documents. Everyone, especially the agency, 
benefits when third-party representatives are allowed to submit 
evidence electronically.

    Other technological improvements would help reduce the overload of 
interactions between SSA and its claimants. An example would be giving 
third-party representatives access to claimant data to confirm 
application status. This would include forms that have been received, 
status of medical records and earnings information.
    Allsup supports these and other initiatives to streamline the SSDI 
process. There is, however, no substitute for the hands-on, personal 
service that experienced third-party representatives offer. Even with 
the aforementioned technological advances, the application process is 
still unwieldy, complex and bewildering to the typical applicant. They 
still need help to properly complete the forms and a professional to 
guide them through the process.
    I respectfully submit that the agency and this Committee should 
look for ways to increase awareness that professional assistance is 
available. Most SSDI applicants simply do not know help is available 
when they begin the process. By the time they reach the hearing level, 
about 84 percent of them have such help, but why not earlier in the 
process when it is so desperately needed and can reduce the number of 
people who end up in the hearing backlog? The effectiveness of third-
party representatives has been proven in recent years.
    We screen potential claimants to help ensure they will meet SSDI 
criteria, accumulate the necessary medical evidence, and we work 
closely with applicants to ensure that all documents are properly 
completed in a timely manner; furthermore, we provide our customers 
valuable program education and set realistic expectations. Hundreds of 
thousands of worker-hours would be saved if every application processed 
by the SSA was professionally documented before it was submitted.
    We primarily work with claimants on the telephone and through the 
mail, so they do not have to travel to SSA field offices. We help pre-
qualify claimants, we ensure eligibility and we develop accurate, 
comprehensive and factual records that save the agency many hours of 
claim development.
    When an on-the-record hearing decision is warranted, we prepare all 
the evidence, write the legal brief and submit everything as a package 
to a judge for a decision. Our process is so effective that more than 
70 percent of our claims that reach the hearing level are approved on 
the record, which cuts months from the waiting process for the disabled 
individual. About 85 percent of our claimants are awarded benefits 
without ever having to speak to an SSA employee. Furthermore, our call-
center employees respond to tens of thousands of client inquiries about 
the status of their claims and the SSDI claims process each month. 
These are calls that would otherwise be handled by an overworked SSA 
staff.
    Third-party representation would be even more effective if the SSA 
could electronically exchange claimant and case status information. The 
result would be faster decisions, fewer backlogged claims, and 
certainly less personal and financial stress. In turn, the SSA could 
focus its overstretched resources on making application decisions.
    I emphasize that this proposal is not a step toward privatization. 
It is simply a strategic partnership between the government and 
industry to meet the demands of the people with disabilities, today and 
well into the future. Allsup is on the front lines of the disability 
backlog challenge. Everyday, we work with individuals and their 
families who are desperate because they have fallen on hard economic 
times because a serious injury or illness is preventing them or a 
family member from working.
    Chairman Rangel and Members of the Committee, I commend you for 
holding this hearing to raise awareness of these issues. Thank you 
again for the opportunity to provide testimony. I look forward to 
working with you to address this growing crisis.

                                 <F-dash>
                      Statement of Linda Fullerton

Members of the Committee:
    My name is Linda Fullerton, and I currently receive Social Security 
Disability Insurance/SSDI and Medicare. I have an inoperable blood clot 
and tumor in my brain, and several incurable autoimmune disorders, 
which have caused me to become permanently disabled. Social Security 
Disability is an insurance policy which was created to be a safety net 
for millions of disabled Americans, and for many such as myself, it has 
become their only lifeline for survival. I have personally suffered 
from the affects of the severe hearing backlogs (Buffalo NY OHA), due 
to the enormous waiting time I endured, and I am very discouraged to 
know that conditions are continuing to decline. It is hard enough to 
deal with all the illnesses that I have, but then to have my entire 
life destroyed with the stroke of pen by a neglectful government 
employee, to whom I was just an SS number, is more than I can bear. So 
now, not only will I never recover from my illnesses, but now I also 
will never recover from the permanent financial devastation this has 
had on my life. I don't know how I am going to survive without some 
miracle like winning the lottery. I lost all my resources, life 
savings, and pension money during the 1\1/2\ year wait for my SSDI 
claim to be processed. I know first hand about the pain, financial, 
physical and emotional permanent devastation that the SSDI process can 
cause. My ``American Dream'' will never be realized. I have now been 
forced to live the ``American Nightmare'' for the rest of my days, 
because I happened to get sick, and file a claim for Social Security 
Disability benefits, a Federal insurance policy that I paid into for 
over 30 years. As a result, I will never be able to own a home, replace 
my lost financial resources, or replace my only means of 
transportation--a failing 11 year old car, and several other 
necessities that have now broken down. I currently live strictly on the 
inadequate, monthly SSDI check I receive, teetering on the brink of 
disaster. I am now doomed to spend what's left of my days here on 
earth, living in poverty, in addition to all my medical concerns. When 
things break down now, I cannot fix them and have to do without. I 
struggle every day to pay for food, medicines, healthcare, gas etc, and 
this totally unbearable, continuing source of stress and frustration, 
along with my worsening health conditions, is killing me. I did not ask 
for this fate and Congress and the SSA are totally responsible for it. 
My personal horror stories can be found on my websites at:

A Bump on the Head

http://www.frontiernet.net/lindaf1/bump.html

Social Security Disability Nightmare--It Could Happen to You!

http://www.frontiernet.net/lindaf1/
SOCIALSECURITYDISABILITYNIGHTMARE.html

    Please know that in spite of my horrible experience, I am committed 
to joining forces with Congress and the SSA to fix the problems with 
this disability benefits program. I am devoting whatever is left of my 
life to make sure that nobody else will ever have to endure the hell 
that I have been forced to live with every day, and I hope you will 
join me in that quest. I also ask that you forgive the harshness in the 
tone at times of the this testimony, but I feel it is the only way to 
fully, and accurately describe the severity of this issue.
    It is also important to note that I am also President/Co-Founder of 
the Social Security Disability Coalition, which is made up of thousands 
of Social Security Disability claimants and recipients from all over 
the nation, and our membership increases by the day. It was born out of 
my frustration with my own experience and the notion that others may be 
dealing with that same frustration. Our group is a very accurate 
reflection and microcosm of what is happening to millions of Social 
Security Disability applicants all over this nation. If you visit the 
Social Security Disability Coalition website, or the Social Security 
Disability Reform petition website:

Social Security Disability Coalition--offering FREE information and 
support with a focus on SSD reform:

http://groups.msn.com/SocialSecurityDisabilityCoalition

Sign the Social Security Disability Reform Petition--read the horror 
stories from all over the nation:

http://www.petitiononline.com/SSDC/petition.html

    You will read over five years worth of documented horror stories on 
our Messageboard (over 18,000 messages), and see thousands of 
signatures (over 7600) and comments on our petition, from disabled 
Americans whose lives have been harmed by the Social Security 
Disability program. You cannot leave without seeing the excruciating 
pain and suffering that these people have been put through, just 
because they happened to become disabled, and went to their government 
to file a claim for disability insurance that they worked so very hard 
to pay for. I must take this opportunity to tell you how very proud I 
am of all our members, many like myself, whose own lives have been 
devastated by a system that was set up to help them. In spite of that, 
they are using what very little time and energy they can muster due to 
their own disabilities, to try and help other disabled Americans 
survive the nightmare of applying for Social Security Disability 
benefits. There is no better example of the American spirit than these 
extraordinary people!
    This organization fills a void that is greatly lacking in the SSDI/
SSI claims process. While we never represent claimants in their 
individual cases, we are still able to provide them with much needed 
support and resources to guide them through the nebulous maze that is 
put in front of them when applying for SSDI/SSI benefits. In spite of 
the fact that the current system is not conducive to case worker, 
client interaction other than the initial claims intake, we continue to 
encourage claimants to communicate as much as possible with the SSA in 
order to speed up the claims process, making it easier on both the SSA 
caseworkers and the claimants themselves. As a result we are seeing 
claimants getting their cases approved on their own without the need 
for paid attorneys, and when additional assistance is needed we connect 
them with FREE resources to represent them should their cases advance 
to the hearing phase. We also provide them with information on how to 
access available assistance to help them cope with every aspect of 
their lives, that may be affected by the enormous wait time that it 
currently takes to process an SSDI/SSI claim. This includes how get 
Medicaid and other State/Federal programs, free/low cost healthcare, 
medicine, food, housing, financial assistance and too many other things 
to mention here. We educate them in the policies and regulations which 
govern the SSDI/SSI process and connect them to the answers for the 
many questions they have about how to access their disability benefits 
in a timely manner, relying heavily on the SSA website to provide this 
help. If we as disabled Americans, who are not able to work because we 
are so sick ourselves, can come together, using absolutely no money and 
with very little time or effort can accomplish these things, how is it 
that the SSA which is funded by our taxpayer dollars fails so miserably 
at this task?
Social Security Disability Claimants Face Death and Destruction When 
        Applying for Benefits
    I must report with great sadness and disgust, that there is blood 
and destruction on the hands of both the Social Security Administration 
and Congress. Both have been systematically killing and devastating the 
lives of the most vulnerable citizens of this nation for decades. I 
firmly believe (while nobody from the SSA or Congress will ever admit 
this), the Social Security Disability program is structured to be very 
complicated, confusing, and with as many obstacles as possible, in 
order to discourage and suck the life out of claimants, hoping that 
they ``give up or die'' trying to get their SSDI benefits!

    During 2006 and 2007, at least 16,000 people fighting for Social 
Security Disability benefits died while awaiting a decision (CBS News 
Report--Disabled And Waiting--1/14/08). NOTE: This is more than 4 times 
the number of Americans killed in the Iraq war since it began.

    During 2007, two-thirds of all applicants that were denied--nearly 
a million people--simply gave up after being turned down the first time 
(CBS News Report--Failing The Disabled--1/15/08)

    In 2007 there were 2,190,196 new applications for SSDI benefits, 
and as of March 2008 there have already been 563,769 new applications.

    As of April 2008 there are about 1,327,682 total pending cases and 
out of that number, 154,841 are veterans.

    Nationally as of March 2008, over 64% of disability cases were 
denied at the initial stage of the disability claims process and it 
took from 104.5-114 days for claimants to receive the initial decision 
on their claim.

    If a claimant appeals the initial denial asking for 
reconsideration, in all but 10 test states where the reconsideration 
phase has been removed, 86.5% of cases were denied and the waiting time 
for this phase was an average of 88.8 days.

    As of April 2008 over 756,000 are waiting for hearings with an 
average wait time of 517 days

    As of April 2008 over 286,000 (38%) hearings have already been 
pending over a year, and there are only 951 Administrative law judges 
(ALJ's), to hear all those cases, with an average of 738.02 cases 
pending per judge nationwide.

    Source: Social Security Administration Reports

    Two-thirds of those who appeal an initial rejection eventually win 
their cases (New York Times 12/10/07)

    According to Health Affairs, The Policy Journal of the Health 
Sphere, 2 February 2, 2005: Disability causes nearly 50% of all 
mortgage foreclosures, compared to 2% caused by death.

    MarketWatch: Illness and Injury As Contributors To Bankruptcy--
February 2, 2005--found that: Over half of all personal U.S. 
bankruptcies, affecting over 2 million people annually, were 
attributable to illness or medical bills. Fifteen percent of all 
homeowners who had taken out a second or third mortgage cited medical 
expenses as a reason.

    According to an insurance survey, conducted by the International 
Communications Research of Media, PA from Jan 10-14th 2007, on behalf 
of the National Association of Insurance Commissioners, researchers 
found 56% of U.S. workers would not be able pay their bills or meet 
expenses if they become disabled and unable to work. 71% of the 44% who 
had insurance, stated it was employer provided, so if they lose or 
change jobs they would no longer have disability coverage.

    In April 2006, Parade Magazine in an article called ``Is The 
American Dream Still Possible?''--published the results of their survey 
of more than 2200 Americans who earned between $30,000 and $99,000 per 
year, most stating that they were in reasonably good health. Sixty-six 
percent say they tend to live from paycheck to paycheck and nearly 83% 
say that there is not much money left to save after they have paid 
their bills.
Other Important Disability Statistics:
    Nearly 1 in 2 (133 million) Americans live with a chronic 
condition.

    20.6% of the population, about 54 million people, have some level 
of disability

    9.9% (26 million people) have a severe disability

    Note: The sources for these statistics and even more information is 
listed here:

    http://www.mychronicillness.com/invisibleillness/statistics.htm

    This is totally unacceptable and there is absolutely no excuse for 
this!

    On behalf of the Social Security Disability Coalition, our response 
to Congress and the SSA for this situation is:

    For everyone of us that starves, becomes homeless or loses our 
healthcare during this process--we blame you!

    For everyone of us who files for bankruptcy during this process--we 
blame you!

    For the unfathomable stress and suffering we have inflicted upon us 
during this process--we blame you!

    For everyone of us who becomes more ill or worse yet dies during 
this process--we blame you!
Horrendous Customer Service On The Part Of SSA And Congress
    A January 2007 Harris poll designed to evaluate the services 
provided by 13 Federal agencies, the public rated SSA at the bottom of 
the list and it was the only agency that received an overall negative 
evaluation. At one time in the recent past SSA was viewed by the public 
as one of the best Federal agencies in delivering service. Now after 
substantial staffing cuts, SSA is at the bottom of the public 
acceptance list. SSA Field Offices have lost over 2,500 positions since 
September 2005 and nearly 1,400 positions since September 2006. In 2007 
SSA Field Offices are averaging about 850,000 visitors a week. 
Constituents visiting these local Field Offices continue to experience 
lengthy waiting times and the inability to obtain assistance via the 
telephone.
    In our country you're required to have auto insurance in order to 
drive a car, you pay for health insurance, life insurance etc. If you 
filed a claim against any of these policies, after making your 
payments, and the company tried to deny you coverage when you had a 
legitimate claim, you would be doing whatever it took, even suing, to 
make them honor your policy. Yet the government is denying Americans 
their right to legitimate SSDI benefits everyday. This is outrageous 
when something this serious, and a matter of life and death, could be 
handled in such a poor manner. No other company or other government 
organization that I know of operates with such horrible results and 
turn around times. If any other corporation in this country did 
business like this, the majority of employees would be fired on the 
spot, and the company would be shut down within a year, yet these 
problems have been growing worse for decades.
    Congressional offices as part of their functions, contact Social 
Security on behalf their constituents going through the SSDI process 
all the time, so you must be fully aware of all the problems, and are 
the ones who can help correct many of them. I find it incredulous that 
almost nothing has been done to initiate reform of the system that is 
wreaking havoc on the disabled citizens of this nation. While the 
majority of Americans were shocked at the reaction of the Federal 
government in the aftermath of hurricane Katrina, I wasn't surprised at 
all to see people dying in the streets. I shudder to think of how many 
more lives will be further ruined or lost, when the mentally and 
physically disabled victims of Katrina, other natural disasters, 9/11 
victims who survived that day, but are now disabled and facing a 
similar fate, Veterans and the millions of other disabled Americans, 
encounter their next experience with the Federal government as they 
apply for their SSDI benefits. Little or nothing is heard about the 
service men and women who are injured and have to go through this 
nightmare to get their SSDI benefits, in addition to their struggles 
with the VA. Horrible treatment for those who give of their lives to 
protect our country. We are all being abused at the hands of our 
government, and to date our cries for help have continually been 
ignored. This apathetic, negligent attitude towards this crisis must be 
changed immediately. I am sad to say that you have failed us miserably, 
doing us a grave injustice in this area. It's time that you speak out 
about the crimes being committed against your constituents, and create 
the legislation needed to correct decades of abuse and corruption of 
this Federal program. Keep in mind a country is only as strong as the 
citizens that live there, yet the current Social Security Disability 
program preys on the weak, and decimates the disabled population even 
further.
Permanent Devastation Resulting From The SSDI Claims Process
    Many are under the mistaken notion that once the SSDI benefit 
checks come, if one is finally approved for disability benefits, that 
everything will be OK. Often the devastation caused while waiting for 
SSDI claims to be processed leaves, permanent scars on one's health and 
financial wellbeing as it did for me. Unbearable stress, severe 
depression and suicidal thoughts are very common side effects of the 
disability claims process. I know this not only from my own personal 
experience, but from thousands of others that have contacted me to 
relate their personal experiences with the SSDI claims process. The 
abuse and worry that applicants are forced to endure, causes even 
further irreparable damage to their already compromised health, and is 
totally unacceptable. Due to the total devastation on their lives and 
health as a result of the SSDI claims process, use of the SS Ticket to 
Work program, or any future chance of possibly getting well enough to 
return to the workforce, even on a part time basis, becomes totally out 
of the question. Plus there is always the stress of having to deal with 
the SS Continuing Disability Review Process every few years, where the 
threat of having your benefits suddenly cut off constantly hangs over 
your head.
Call For Open Congressional/SSA Disability Hearings
    I also find it deeply disturbing, and glaringly obvious, that at 
this latest hearing, and at past hearings over the last several years 
on this issue, that not one panelist/witness selected to appear, has 
been a disabled American, and one who has actually experienced this 
nightmare first hand. Something is severely wrong with that picture! 
You continually choose the same panelists from the legal, disability 
advocate community etc when there is any representation at all. Unless 
you personally have experienced these problems yourself, you cannot 
even begin to fully understand how devastating they really are, and 
therefore are not fully qualified to be the only authority on these 
issues. It is my understanding that there are also those within the SSA 
itself, who have wanted to testify for several years, and until 
recently have also been shut out of these hearings as well. In my 
opinion, it seems that you don't want to know what is really going on. 
If you don't actually have to face us in person, we remain a bunch of 
SS numbers whose lives can be destroyed without guilt. We are in fact, 
your mothers, fathers, sisters, brothers, children, grandparents, 
honorable veterans who have served this country, your friends and 
neighbors.
    How you get an accurate handle on this situation without all the 
facts and possible witnesses who wish to testify in person? I find it 
hard to believe that these hearings cannot be scheduled in such a way 
that more appropriate witnesses could be chosen to testify. As an 
actual disabled American, I ask again as I have in the past, that in 
future Congressional hearings on these matters, that I be allowed to 
actively participate instead of being forced to always submit testimony 
in writing, after the main hearing takes place. I often question 
whether anybody even bothers to read the written testimony that is 
submitted when I see the results of hearings that were held in the 
past. I am more than willing to testify before Congress, to risk my 
very life for the opportunity, and I should be permitted to do so. I 
want a major role in the Social Security Disability reformation 
process, since any changes that occur have a direct major impact on my 
own wellbeing and that of our members. Who better to give feedback at 
these hearings than those who are actually disabled themselves, and 
directly affected by the program's inadequacies! A more concerted 
effort needs to be utilized when scheduling future hearings, factoring 
in enough time to allow panelists that better represent a wider cross 
section of disabled Americans, to testify in person. It seems to me if 
this is not done, that you are not getting a total reflection of the 
population affected, and are making decisions on inaccurate 
information, which can be very detrimental to those whom you have been 
elected to serve. I also propose that Congress immediately set up a 
task force made up of SSDI claimants, such as myself, who have actually 
gone through the SSDI system, that has major input and influence on the 
decision making process before any final decisions/changes/laws are 
instituted by the SSA Commissioner or Members of Congress. This is 
absolutely necessary, since nobody knows better about the flaws in the 
system and possible solutions to those problems, then those who are 
forced to go through it and deal with the consequences when it does not 
function properly.
    There are three key reasons why the Social Security Disability 
program has been broken for decades, lack of proper funding for the 
SSA, apathy on the part of Congress and the SSA to fix the problems, 
and lack of oversight on all crucial parts of the program.
SSA Commissioner Improperly Allocates ALJ's For SS Disability Hearings
    Recently SSA Commissioner Michael Astrue asked Congress to approve 
extra funding in order to hire additional ALJ's to try and reduce the 
severe SS Disability hearings backlogs across the country. While I 
agree that the SSA does need more funding, in fact way more than was 
actually finally given to them, there must be some major oversight by 
independent entities to ensure that these funds in fact are actually 
used/allocated appropriately. Here is a recent example that raises a 
red flag for such oversight and an immediate investigation. At the link 
below you will find a spreadsheet that shows the locations where the 
newly acquired ALJ announced by the SSA Commissioner have been 
allocated
    As of March 2008:
    It takes 669 days (nearly two years) for the average Western New 
Yorker to have their SSA case heard and processed in the Buffalo 
Hearing Office. This office is the worst in NY State for SS Disability 
hearing backlogs and out of 145 hearing offices nationwide, Buffalo 
ranks at 126, as one of the worst processing times in the country.
    It ranks at 111 out of 145 hearing offices, at 47%, for the number 
of SSA hearings SSA cases in the Buffalo Hearing Office have been 
pending for over a year, among the highest percentages in the country.
    Administrative Law Judges in Buffalo have some of the largest 
caseloads in the country, with an average of 895 cases pending before 
each judge.
Source: Compiled from various SSA reports March 2008
    Commissioner Astrue used the Argument that there was not enough 
office space in the Buffalo hearing office but that was immediately 
refuted by Congressman Brian Higgins:
    Congressman Higgins Says Lack of Space Is Poor Argument for 
Staffing Shortfalls in Local Social Security Disability Office--4/24/08
    http://higgins.house.gov/newsroom.asp?ARTICLE3116=7715
    ``If the problem is office space, I would be happy to find them 
available space in downtown Buffalo tomorrow,'' Higgins added, pointing 
out that according to a Militello Realty report on downtown Buffalo 
property, as of January 779,228 square feet of Class A office space was 
vacant in the immediate downtown area. Congressman Higgins noted that 
staffing shortages aren't exclusive to the Administrative Law Judges. 
Staffing at Western New York field offices have decreased 
substantially--by approximately 170 employees--over the past 25 years, 
even though the need for services has increased.''

How many other states is this happening to? Where is the much needed 
        oversight on this issue?
Severe under staffing of SSA workers at all levels of the program

Claimants waiting for weeks or months to get appointments, and hours to 
be seen by caseworkers at Social Security field offices

Extraordinary wait times between the different phases of the disability 
claims process

Very little or no communication between caseworkers and claimants 
throughout the disability claims process before decisions are made.

Employees being rude/insensitive, not returning calls, not willing to 
provide information to claimants or not having the knowledge to do so

Complaints of lost files and in some states, case files being purposely 
thrown in the trash rather than processed properly

Security Breaches--Complaints of having other claimants information 
improperly filed/mixed in where it doesn't belong and other even worse 
breaches

Fraud on the part of DDS/OHA offices, ALJ's, IME's--purposely 
manipulating or ignoring information provided to deny claims, or 
doctors stating that they gave medical exams to claimants that they 
never did.

Claimants being sent to doctors that are not trained properly, or have 
the proper credentials in the medical field for the illnesses which 
claimants are being sent to them for.

Complaints of lack of attention/ignoring--medical records provided and 
claimants concerns by Field Officers, IME doctors and ALJ's.

Employees greatly lacking in knowledge of and in some cases purposely 
violating Social Security and Federal Regulations (including Freedom of 
Information Act and SSD Pre-Hearing review process).

Claimants cannot get through on the phone to the local SS office or 800 
number (trying for hours even days)

Claimants getting conflicting/erroneous information depending on whom 
they happen to talk to at Social Security--causing confusion for 
claimants and in some cases major problems including improper payments

Proper weight not being given to claimants treating physicians 
according to SSA Federal Regulations when making medical disability 
determinations on claims.

Complaints of ALJ's ``bribing'' claimants to give up part of their 
retro pay (agreeing to manipulation of disability eligibility dates) or 
they will not approve their claims

Poor/little coordination of information between the different 
departments and phases of the disability process

Complaints of backlogs at payment processing centers once claim is 
approved

Federal Quality Review process adding even more wait time to claims 
processing, increasing backlogs, no ability to follow up on claim in 
this phase

NOTE: These complaints refer to all phases of the SSDI claims process 
        including local field offices, state Disability Determinations 
        offices, CE/IME physicians, Office of Hearings and Appeals, the 
        Social Security main office in MD (800 number).

States Of Denial--Federalize State DDS Offices
    Since Social Security Disability is a Federal program, where you 
live should not affect your ability to obtain benefits. Sadly this is 
not the case. The only way to solve this inconsistency is to Federalize 
the State DDS's and we are in agreement with AFGE on this. The first 
problem that must be addressed, and major cause for the huge backlog of 
disability hearing claims, is the overwhelming denial rate at the 
initial DDS level of the claims process. If claims were processed 
properly at this stage of the process there would be no need for the 
claimant to appeal to the ALJ hearing phase in the first place, and 
that would be a huge factor in reducing the hearing backlogs. It seems 
that this fact has been greatly ignored.
    The SSDI/SSI process is bogged down with tons of paperwork for both 
claimants and their treating physicians, and very little information is 
supplied by Social Security, as to the proper documentation needed to 
process a claim properly and swiftly. When you file a claim for 
benefits, you are not told that your illness must meet standards under 
the Disability Evaluation Under Social Security ``Blue Book'' listing 
of medical impairments, or about the Residual Functional Capacity 
standards that are used to determine how your disability prevents you 
from doing any sort of work in the national economy, or daily 
activities, when deciding whether or not you are disabled. In other 
words since the process is so nebulous from beginning to end, the deck 
is purposely stacked against a claimant from the very start. Many times 
when medical records are supplied by the claimant, they are lost or 
ignored.

Excerpts from GAO Report GAO-04-656--SSA Disability Decisions: More 
        Effort Needed To Assess Consistency of Disability Decisions--
        Washington--July 2004 which can found at:
http://www.gao.gov/new.items/d04656.pdf
    ``Each year, about 2.5 million people file claims with SSA for 
disability benefits . . . About one-third of disability claims denied 
at the state level were appealed to the hearings level; of these, SSA's 
ALJ's have allowed over one-half, with annual allowance rates 
fluctuating between 58 percent and 72 percent since 1985. While it is 
appropriate that some appealed claims, such as those in which a 
claimant's impairment has worsened and prohibits work, be allowed 
benefits, representatives from SSA, the Congress, and interest groups 
have long been concerned that the high rate of claims allowed at the 
hearing level may indicate that the decision makers at the two levels 
are interpreting and applying SSA's criteria differently. If this is 
the case, adjudicators at the two levels may be making inconsistent 
decisions that result in similar cases receiving dissimilar 
decisions.''
    ``Inconsistency in decisions may create several problems . . . SSA 
rulings are binding only on SSA adjudicators and do not have to be 
followed by the courts . . . Adjudicators currently follow a detailed 
set of policy and procedural guidelines, whereas ALJ's rely directly on 
statutes, regulations, and rulings for guidance in making disability 
decisions . . . If deserving claimants must appeal to the hearings 
level for benefits, this situation increases the burden on claimants, 
who must wait on average, almost a year for a hearing decision and 
frequently incur extra costs to pay for legal representation. . .SSA 
has good cause to focus on the consistency of decisions between 
adjudication levels. Incorrect denials at the initial level that are 
appealed increase both the time claimants must wait for decision and 
the cost of deciding cases. Incorrect denials that are not appealed may 
leave needy individuals without a financial or medical safety net. . .
    What would be an incentive for states to deny Federal claims? Since 
many Social Security Disability claims are SSI or both SSI/SSDI 
combined claims and many states offer to supplement SSI payments at a 
higher benefit amount, therefore they want to keep as many off the 
rolls as possible so they do not have to pay out this supplement. Also 
since there is a different pay scale for government vs state employees 
who are often underpaid, lack training, are overworked, and must meet 
quotas of cases processed, the tendency is greater to rubber stamp 
denials to move it off their desk when a case need too much 
development. Thus the explanation for the fluctuation in denial/
approval/backlog rates by state. Unfortunately there is very little if 
any training or oversight on the state DDS offices to make sure they 
are making the proper decisions on disability claims. This is why so 
many claimants appeal to the hearing level where a huge percentage of 
bad claims decisions are overturned and cases are finally approved. 
Anyone who doesn't see that a ``Culture Of Denial'' has become a 
pervasive part of an SSDI claimants encounter with the SSA, is either 
totally out of touch with reality or is reacting evasively to the 
subject.

Social Security Disability Program Problems--Contributing Burden Factor 
        on Medicaid/Social Service Programs For States
    There seems to be a relationship, between SSDI claims processing 
issues/backlogs, and the need for claimants to also apply for state 
funded Medicaid/Social Service programs. Many are forced to file for 
Medicaid, food stamps and cash assistance, another horrendous process. 
Those who file for these programs while waiting to get SSDI benefits, 
in many states, have to pay back the state out of their meager benefit 
checks once approved. As a result they're often kept below the poverty 
level, almost never able to better themselves since they can't work, 
and now are forced to rely on both state and federally funded programs 
instead of just one of them. This practice should be eliminated.

Improper CE/IME Medical Exams Ordered By Social Security Result In 
        Higher Rate Of Denials/Appeals
    CE/IME examiners are paid a fee by Social Security for each person 
they see, so the more claimants they process, the more money they make. 
Often times they are caught saying they performed exams that they in 
fact never performed, or make mistakes, even false statements about 
claimants. Many times the DDS offices or ALJ's are sending claimants to 
doctors that have very limited knowledge of their specific health 
conditions, who are not specialists, or even the proper type of doctor, 
to be examining a claimant for the type of medical conditions that they 
have. Even though a claimant's treating physicians are supposed to be 
given greater weight in decision making, this is often not the case. 
These doctors see you once for a few minutes, and yet their opinion is 
given greater authority than a claimant's own treating physician who 
sees them in a much greater capacity? Something is way out of line with 
that reasoning, yet it happens every day. It therefore results in a 
waste of time, money and energy, for both the claimants and the SSA, 
when the claimant ends up appealing a denial based on these improper 
SSA ordered examinations.

Detrimental Regulations
    There are some very detrimental, regulations that SSDI applicants 
are subject to as well, and are a great shock to them. Under Federal 
law, there's a five month benefit waiting period, and five months of 
back money withheld, which claimants will never see again. It was 
originally six months but Congress voted to reduce it to five. 
Apparently it is assumed that disabled Americans do not need that 
money. Studies have shown that most Americans have about two weeks of 
financial resources to live on. SSDI recipients must also wait another 
24 months, in addition to the 5 month waiting period from disability 
date of eligibility (the date that SS determines that you were 
officially disabled) in order to qualify for Medicare benefits. Keep in 
mind that if you let any sort of health insurance policies lapse for 
too long, and don't maintain continuous health coverage, you may have a 
very difficult time getting a new insurance carrier, since they may 
hold your poor health against you, and consider many things as ``pre-
existing conditions'' so you may not be covered for those illnesses. 
Congress expects a population who can no longer work, to go without 
five months of retro pay, have no health insurance, and wait several 
months to several years to have their disability claims processed. In 
my state when a healthy person loses their job, provides the necessary 
documents and files for Unemployment Insurance, their payments 
automatically start within a few weeks. It is blatantly obvious that 
those who find this to be acceptable standards are totally out of touch 
with reality and have no regard for human life.

Ticket To Work Program--Catch 22--Fear and Mistrust of the SSA
    According to SSA disability guidelines: Social Security pays only 
for total disability. No benefits are payable for partial disability or 
for short-term disability. You have a valid claim if you have been 
disabled or are expected to be disabled for 12 consecutive months, or 
your condition will result in your death. Your condition must interfere 
with basic work-related activities for your claim to be considered. If 
your condition is severe but not at the same or equal level of severity 
as a medical condition on the list, then they must determine if it 
interferes with your ability to do the work you did previously. If it 
does not, your claim will be denied. If you cannot do the work you did 
in the past, the SSA looks to see if you are able to adjust to other 
work. They consider your medical conditions and your age, education, 
past work experience and any transferable skills you may have. If you 
cannot adjust to other work, your claim will be approved. If you can 
adjust to other work, your claim will be denied. Currently the SSA 
forces the disabled to go through years of abuse trying to prove that 
they can no longer work ANY job in the national economy due to the 
severity of their illnesses in order to be approved for benefits. The 
resulting devastation on their lives, often totally eliminates the 
possibility of them ever getting well enough to ever return to the 
workforce, even on a part time basis, in order to utilize the SS Ticket 
to Work program. Yet ironically once they are approved they are allowed 
to earn up to $900 and still receive benefits. Confusing to say the 
least. Then sometimes weeks after they are finally approved for SSD/SSI 
benefits, after their health and finances have been totally destroyed 
beyond repair, they receive a ``Ticket To Work'' packet in the mail, 
another waste of SSA funds. A cruel joke to say the least and it is no 
wonder that they fear utilization of the Ticket to Work Program, and 
distrust the Federal Government! The Ticket to Work Program is often 
viewed as a carrot and stick it to the disabled approach. I recommend 
in addition to the current Ticket to Work Program, funding for the 
creation of an Interim (transitional) SSDI disability program for those 
who are chronically ill, but still may be able to work a few hours a 
week/month. They would apply for interim disability benefits to start 
and for every month they could not work they would get a full check. 
For any full month or portion of a month that they could work they 
would be paid the difference or nothing based on the amount of the SSDI 
benefit they would earn by not working that month. They would be 
eligible for full Medicare benefits from the onset. When their 
illnesses progressed to a point that working is no longer an option, 
full SSDI benefits would automatically kick in. This would continue to 
increase benefits for the SSA trust fund, since these part time workers 
would still be contributing to the fund.

Continuing Disability Review/CDR Process Must Be Changed
    Many people suffer from conditions acquired at birth or chronic 
conditions that have NO cures and over time these diseases grow 
progressively worse with no hope of recovery or ever returning to the 
workforce. The threat of possible benefits cut off, and stress of a 
review by Social Security again is very detrimental to a recipients 
health. This factor needs to be taken into consideration when reforming 
the CDR process. In those cases total elimination of the tedious 
medical component of CDR's should be considered, only requiring 
verification of contact info, or a longer period of time between 
reviews such as 10-15 years rather then every 3-7 years, as is 
currently the case. This would save the SSA a great deal of time, money 
and paperwork which could then be used to get new claimants through the 
system faster.

Eliminate Need For Proposed Third Party Claims/Paid Legal 
        Representation
    First of all the SSDI claims process should be set up so there is 
very little need for cases to advance to the hearing and appeal stage 
since that is where the major backlog and wait time exists. I feel 
strongly that an SSDI claimant should not have to pay for legal 
representation to get benefits that they have already paid for with 
their taxes. I am also highly opposed to the possibility of a claimant 
having to pay a third party for assistance to file a claim at the 
onset. Congress must intervene immediately to prevent this from 
happening, and in fact change the law that the claimant has to pay for 
legal representation at all. This adds an additional financial burden 
to the claimant. The current SSDI claims process is set up to line the 
pockets of the legal system, as you are encouraged from the minute you 
apply for benefits to get a lawyer. The need of lawyers/reps to 
navigate the system and file claims, and the SSD cap on a lawyer's 
retro commission is also a disincentive to expeditious claim 
processing, since purposely delaying the claims process will cause the 
cap to max out--more money to the lawyer/rep for dragging their feet 
adding another cost burden to claimants. In other words the system is 
structured so that it is in a lawyer's best interest for your case to 
drag on since they get paid 25% of a claimant's retro pay up to $5300--
the longer it takes the more they get. From the horror stories I hear 
from other claimants, many attorneys are definitely taking advantage of 
that situation. The SSA should instead provide claimants with access to 
FREE resources that can help in the process of filing SSDI claims and 
keep the legal community out of it.

Americans Most Sensitive Data in Jeopardy
    The following article discusses the SSA employee work at home 
situation.

Concern Over Federal Times Article: Arbitrator Tells SSA To Restore 
        Telework, Negotiate Changes--Federal Times--Courtney Mabeus--
        4/16/08
http://www.federaltimes.com/index.php?S=3482166

    I am very concerned with the increased possibility of identity 
theft if SSA employees are allowed to take work home because they are 
too overloaded on their jobs. Employees should never be allowed to take 
this sensitive data home for any reason. Sensitive data has already 
been compromised at the VA, and this should not be allowed to happen 
ever again, especially jeopardizing our most vulnerable citizens to 
this very real and stressful possibility. I have personally caught the 
SSA in some major security breaches already, and this practice will 
only make those incidents even more common. Every effort must be made 
to properly secure this most sensitive information for the American 
people. In order to properly protect citizen's identities ALL sensitive 
data should only be able to be accessed on government secure systems at 
the job site only. This is obviously going to require more manpower and 
financial resources, and Congress must make sure that the SSA has every 
resource it needs to protect this data, at their disposal immediately.

Influx Of Improper SS Disability Claim Filings Due To State And Private 
        Insurance Company Policies
    There is a growing number of claims being filed by people who may 
not actually qualify for disability benefits under SSDI guidelines, but 
are being forced to file SSDI claims by their private disability and 
state disability carriers or risk not being eligible for benefits under 
those programs. Recently there was an article on this issue in the NY 
Times which can be found here:
    Insurers Faulted As Overloading Social Security--NY Times--Mary 
Williams Walsh--4/1/08
    http://www.nytimes.com/2008/04/01/business/01disabled.html
    Congress and the SSA needs to immediately look into this issue and 
this practice needs to be stopped immediately as this greatly adds to 
the disability backlog problem.

Reinstate DCM
    Currently, the most crucial part of a disability claim, the medical 
portion, is reviewed by a state DDS caseworker/adjudicator and medical 
doctor on their staff who never sees you, and in most cases never even 
communicates with you at all. Then they make a critical life changing 
decision as to whether or not they feel you are disabled based on the 
information that you and your doctors have provided. It is absolutely 
necessary for a claimant to be able to communicate with the decision 
maker and to be able to provide updated information on their medical 
conditions, especially before a decision is made on a claim. It is 
common sense, that proper communication at the initial level, would 
definitely result in a reduction of appeals at all further levels of a 
disability claim. The high decision reversal rate at the hearing (ALJ) 
level is concrete proof of that. It is recommended that the Disability 
Claims Manager (DCM) pilot, where DCMs were responsible for making both 
the entitlement and disability decisions for initial disability claims, 
be reinstated, and eventually extended to the entire country. With 
proper staffing to allow for communication between decision maker and 
claimant, this would definitely result in time and cost savings, for 
both the SSA and the claimants if this were reinstated.

Excerpts from GAO Report GAO-04-656--SSA Disability Decisions: More 
        Effort Needed To Assess Consistency of Disability Decisions--
        Washington--July 2004 which can found at:
    http://www.gao.gov/new.items/d04656.pdf

    An appeal adds significantly to costs associated with making a 
decision. According to SSA's Performance and Accountability Report for 
fiscal year 2001, the average cost per claim for an initial DDS 
disability decision was about $583, while the average cost per claim of 
an ALJ decision was estimated at $2,157. . .An appeal also 
significantly increases the time required to reach a decision. 
According to SSA's Performance and Accountability Report for fiscal 
year 2003, the average number of days that claimants waited for an 
initial decision was 97 days, while the number of days they waited for 
an appealed decision was 344 days.

Changes/Proper Funding Necessary For SSA
    SSA should not have to compete each year for funding with the 
Departments of Labor, HHS and Education which are more publicized and 
often popular programs. As stated in the previous testimony provided by 
Witlold Skierwczynski--President--National Council Of Social Security 
Administration Field Operation Locals to this Committee on 4/23/08 it 
is recommended that:
    Congress should enact off budget legislation including SSA 
administrative expenses with benefits which are already off budget. 
Congress should retain appropriations and oversight authority albeit 
unencumbered by artificial budget caps and scoring restrictions.
    Congress should enact legislation requiring the Commissioner to 
submit the SSA appropriation request directly to Congress.
    Congress should support the House Budget Committee recommendation 
to increase the SSA administrative budget by $240 million over the 
President's budget request.

Concern Regarding SSA's Future Movement Away From Personalized Customer 
        Service
    I totally disagree with the agency's goal of eliminating an SSA 
employee to assist with the filing of a claim. I am very concerned 
about recent changes that emphasize the use of the internet for filing 
Social Security Disability claims. In fact I always urge our members to 
file in person rather than use the internet to file their disability 
claims. Many disabled Americans do not have access to the internet or 
their disabilities prevent them from using it properly. This can result 
in improper filing of a claim and delay or result in a denial of 
benefits. Since we encourage our members to provide as much medical 
information as possible to the SSA at the initial filing of their claim 
in order to speed up the process, it is impossible to provide this 
information if a claimant chooses to use the internet instead. I agree 
with previous testimony provided by Witlold Skierwczynski--President--
National Council Of Social Security Administration Field Operation 
Locals to this Committee on 4/23/08, that here are several flaws with 
this proposed movement as follows:

    Programming flaws that do not correctly identify the ``protected 
filing date/disability date of eligibility.''

    Identity and privacy concerns

    Incorrect payments

    High volume of errors, resulting in re-contacts.

    Creation of a new backlog at Social Security

    No review process of the public's accuracy in completing 
applications

    I am very concerned about the loss of protected filing for internet 
claims and this should never be allowed. This could result in a major 
loss of much needed benefits which is not acceptable. Immediate efforts 
must be made to look into and correct this situation.
    Lag earnings must also continue to be properly developed so that a 
claimant's wages can be easily added to the benefit computation at the 
initial interview and to make sure that proper payments are made to 
claimants right from the start. The encouragement of internet claims 
filing will make this almost impossible. This will cause a dramatic 
increase in improper payments, and unnecessary wasted time for both the 
claimants and SSA resources.
    I am totally against the implementation of the Accept Allegation of 
Month of Entitlement--Effective September 2008. The majority of the 
general public, and especially Americans with disabling conditions, are 
in no way knowledgeable enough to properly make this life altering 
decision without full disclosure and human assistance. This again will 
cause many unnecessary under and over payments and could result in 
permanent harm to disability claimants.
    The American people must always be given the option to file their 
claims using whatever method best suits their capabilities, and be 
ensured that the results will be accurate and in their best interest, 
no matter what option they choose. It must become mandatory that every 
internet claim submitted, must be fully reviewed and followed up by 
personal contact between an SSA employee and the claimant to ensure its 
total accuracy. Every effort must be made on the part of the SSA to 
continue provide personal customer service to the most vulnerable 
citizens of this nation. Anything less than that is unconscionable and 
totally unacceptable.

Unacceptable Office Closures
    I am very discouraged by the number of SSA Office closures that I 
continually hear about. It is another example of poor customer service 
to the American people when the need for that service is only going to 
increase over time as the population ages. In fact a record number of 
offices were closed in 2007 and more closures are on the horizon. This 
puts more stress and strain on the health of disability applicants, and 
increased financial burden, when they have to travel several miles just 
to do business with Social Security. They often have to wait months for 
claim processing appointments, and have to stand in lines for hours as 
well when they can get to the nearest SS office at all. There is no 
good excuse for this. Where is the oversight?
    I support the Social Security Customer Service Improvement Act, 
H.R. 5110, which was introduced by Representative Brian Higgins (D/NY), 
on January 24, 2008, which contains procedures that the SSA 
Commissioner must follow before closing an office. I urge Congress to 
quickly pass this proposed legislation and pass additional legislation 
putting a moratorium on all office closures, before more disabled 
Americans are harmed and inconvenienced.
    I highly recommend that for the best, most efficient customer 
service to the American people, that ALL SSA operations be federalized, 
and that ALL phases of the Social Security Disability program, initial 
decisions, reconsiderations, hearings and appeals be moved to, and 
handled out, of the individual field offices throughout the country. I 
also recommend that more offices be opened to properly serve the public 
and to implement the changes properly.
The Nightmare Continues--Excerpts From Social Security Administration: 
        Inadequate Administrative Funding Contributes to the Disability 
        Claims Backlog Crisis and Service Delivery Challenges--Prepared 
        by the National Council of Social Security Management 
        Associations (NCSSMA) March 13, 2008
    Due to budget constraints in recent years the amount of 
administrative funding the Social Security Administration (SSA) has 
received through the appropriations process has been significantly 
below the level necessary to keep up with the agency's workloads.
    As a result, the backlog of unprocessed disability claims has grown 
to unprecedented levels and the system is now in a state of crisis. As 
the backlog grows, claimants face multi-year delays for hearings on 
their claims for benefits. The long wait for their day in court often 
leads to homelessness, lack of medical care and the loss of family and 
friends. And sadly, thousands die while waiting for a hearing.
    The effects of the backlog also extend throughout the agency. As 
SSA works to address the crisis, the agency is forced to divert its 
limited resources away from its day-to-day operations in Field Offices 
and Payment Processing Centers in order to try to manage the disability 
backlog. SSA disability claims and hearings continue to grow and 
hearing processing times are at record highs. If SSA does not receive 
funding above the President's Budget Request for FY 2009, the hearings 
backlog will still be quite significant.
    The 800 Number had a busy rate of 7.5% in FY 2007 and handled about 
59 million calls through agents and automation. At the same time over 
60 million phone calls are directed to SSA Field Offices each year. In 
FY 2006, 51% of callers who tried to reach a Field Office received a 
busy signal.
    Staffing is at its lowest level in 35 years: Staffing at SSA will 
reach its lowest level since 1972, before SSI was established; yet, SSA 
today has about twice the number of beneficiaries it had in 1972. Since 
the beginning of Fiscal Year 2006, SSA Field Offices have lost nearly 
1,800 Claims Representatives and over 460 Service Representatives. The 
Teleservice Centers have lost about 560 Teleservice Representatives. In 
Fiscal Year 2008 Field Offices will not be able to adequately address 
staffing losses. The Disability Determination Services (DDSs) have lost 
over 1,200 positions since the beginning of Fiscal Year 2006, as a 
result their staffing levels are down nearly 8%. The Program Center 
that handles disability actions (Office of Disability Operations) has 
about 750,000 actions pending. This compares to 511,000 actions pending 
at the beginning of FY 2007. The average amount of time it takes for a 
Benefit Authorizer to process a Post Eligibility case they are assigned 
as of the end of February 2008 is 327 days. For Claims Authorizers it 
is 378 days.
    SSA's workloads continue to rise: Congress continues to add to 
SSA's workloads--for example, by assigning SSA responsibility for 
administering portions of Medicare Parts B and D, and conducting Social 
Security Number verifications and other immigration-related activities. 
However, SSA's administrative funding has not kept pace with the 
agency's increased responsibilities. 870,000 people on average visit 
SSA Field Offices each week. Since the beginning of the year, SSA Field 
Offices have been averaging about 950,000 visitors per week. In two 
separate weeks at the beginning of Calendar Year 2008, SSA offices set 
all time record highs for visitors. As of FY 2008 SSA has a backlog of 
3,300 work years. This is expected to grow to 8,100 work years in FY 
2009. This backlog includes hearing cases, overpayments and 
underpayments on cases, check problems, earnings record corrections and 
recomputation of benefit, Medicare enrollment actions and returning 
phone messages.

In Closing On Behalf Of The Social Security Disability Coalition:
    The Social Security Disability program, which was originally set up 
to help us is currently failing miserably at this task, and in fact, in 
many cases it is causing devastating, irreversible harm to our health 
and financial wellbeing. We have contributed our hard earned money to 
this system hoping we would never need it until we were ready to 
retire. Where is the money going that has been mandatorily been taken 
from our paychecks every week? Why should we have to become homeless, 
bankrupt, starve, lose our healthcare coverage, suffer untold stress on 
top of our illnesses and even die trying to get our benefits? Why 
should we have to hire lawyers, wait years for hearings, go before 
administrative law judges and be treated like criminals on trial? Why 
have you ignored this crisis for so long, and done virtually nothing to 
reform it? We, the disabled citizens of this nation, have been forced 
to tackle a very daunting system and we challenge you to do the same, 
and correct these problems which have festered for decades. We ask that 
you please start taking care of the U.S. citizens living in this 
country first before the rest of the world, especially the sick and the 
dying, who trust you with their very lives and whom elected you into 
office. It is your duty as elected officials to serve all those that 
voted you into that office, and even those of us who didn't. When the 
next election comes around we will not forget those who have forgotten 
us. We may be disabled but we still have, and will use our right to 
vote. They say you can judge a country by how it treats its most 
vulnerable citizens. Based on current statistics, the USA should hang 
its head in shame! It is our hope, and our right as American citizens, 
to expect that you will come together as elected officials, and finally 
act swiftly to do what is proper to protect and serve us.
    I not only have complaints, but also solutions, so I hope you will 
join me in my quest for total reform of this program. Thank you for 
your time and consideration.

            Sincerely,

Linda Fullerton

President/Co-Founder--Social Security Disability Coalition

<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2d1d1c6c1cdc3cecbd6cbcdcce2cacdd6cfc3cbce8cc1cdcf">[email&#160;protected]</a>

585-225-3019/585-235-8412

PO Box 26378

Rochester NY 14626

Social Security Disability Coalition--offering FREE information and 
support with a focus on SSDI reform:

http://groups.msn.com/Social Security Disability Coalition

Sign the Social Security Disability Reform Petition--read the horror 
stories from all over the nation:

http://www.petitiononline.com/SSDC/petition.html

Please check out my website ``A Bump On the Head'' at:

http://www.frontiernet.net/lindaf1/bump.html

Social Security Disability Nightmare--It Could Happen To You!

http://www.frontiernet.net/lindaf1/
SOCIALSECURITYDISABILITYNIGHTMARE.html

CBS Evening New With Katie Couric--Disabled And Waiting--1/14/08

http://www.cbsnews.com/stories/2008/01/14/cbsnews--investigates/
main3712627.shtml

                                 <F-dash>
  Statement of the National Association of Disability Representatives

    The National Association of Disability Representatives is a 
professional organization comprised of non-attorneys and attorneys who 
assist people in applying for disability income assistance from the 
Social Security Administration. Our members help individuals and their 
families navigate an often complex and lengthy process to demonstrate 
their eligibility for disability benefits. As advocates for claimants, 
we want to commend Chairman Rangel and all of the Committee Members who 
have demonstrated a keen interest in pushing for improvements in the 
SSA disability determination process, and especially in the 
unconscionable delays that are part of the current system.
    Because NADR members are on the ``front lines'' helping persons 
with disabilities complete applications, claimants, gather and submit 
evidence, and attend Administrative Law Judge hearings with applicants, 
we see first-hand the serious toll that the long wait for decisions can 
take on people, most of whom are already experiencing significant life 
changes, traumas, and hardships. The average processing time for cases 
at the hearing level is now 535 days. Beyond this unconscionable 
hearing delay, claimants must again wait for a decision, and if 
successful, must wait still longer for actual payment of their claims. 
Those facing grave or terminal illnesses may not live to see the 
fiduciary promise they paid for each week in their paycheck from their 
Social Security taxes. Families who need care-givers or other 
assistance to provide necessary relief and support in helping their 
loved ones may have to hang on for years, trying to balance family 
needs without any help. This strains marriages, parent/child 
relationships, and impoverishes people at a time when their need is 
greatest.
    As an illustration of the hardship real people have suffered as a 
result of the hearing backlog, following is the story of a claimant 
represented by a NADR member:

    <bullet>  David filed concurrent claims for Social Security 
Disability Insurance Benefits and Supplemental Security Income 
disability benefits on November 9, 2004, alleging onset of disability 
on June 15, 2004. Medical records indicated David suffered from 
diabetes mellitus, hypertension, hypotension, chronic anemia, arterial 
calcification of his left lower extremity and chronic diarrhea. The 
initial claim was denied on February 25, 2005. Upon reconsideration, 
the claim again was denied on June 24, 2005. An ALJ hearing was 
requested July 22, 2005. On March 13, 2008, nearly 3\1/2\ years after 
David filed his initial claim, a fully favorable decision was issued. 
Unfortunately, at that point David had been dead for almost a year and 
a half.

    Other NADR members have reported the following examples of 
claimants who died while waiting for a hearing:

    <bullet>  Chiquita filed her claim on January 25, 2006. She 
requested a hearing on April 26, 2006. She died on March 22, 2007 while 
awaiting a hearing.
    <bullet>  Barry filed his claim on March 3, 2005. He requested a 
hearing on June 6, 2006. He died on April 27, 2007 while awaiting a 
hearing.
    <bullet>  Alex filed his claim on September 13, 2006. He requested 
a hearing on December 29, 2007. He died on January 17, 2008 while 
awaiting a hearing.

    Amazingly, these stories are happening to individuals who are 
``insured'' for disability, having paid their Social Security taxes, 
including those that fund SSA disability benefits. Most assume that 
these benefits will only be needed at retirement. Yet, when accidents 
or illness strike, people reasonably expect to receive the critical 
support that disability payments can offer. And, they most certainly 
expect to get it within a reasonable timeframe. Unfortunately, many 
Americans are not finding the government reliable in this arena.
Scope of Problem
    The hearing level backlog has increased dramatically from the FY 
1999 level of 311,968 cases, reaching 752,000 cases in FY 2008.
Cases Pending
    2002: 468,262 requests for a hearing
    2007: 717,000 (300,000 requests over a year old).
    2008: 752,000

    We applaud Congress' effort last year to address the backlog by 
appropriating, for the first time in 15 years, not just the President's 
budget request, but an additional $148 million for SSA administrative 
expenses. While this is an important first step, sustained increases in 
funding over several years are needed to get the backlog under control. 
The President has requested an additional $600 million for SSA's 
administrative expenses for FY 2009, bringing total funding to $10.327 
billion. NADR believes that, at a minimum, SSA should be funded at the 
level of the President's request plus $240 million for integrity work. 
We recommend that Congress provide SSA with $11 billion in FY 2009 in 
order to truly have an impact on the disability backlog, while 
continuing to carry on other related administrative functions to serve 
beneficiaries and applicants.
    That said, it will take more than additional funding to address the 
issues SSA faces as a result of the dwindling resources and increased 
workload it has sustained over the past decade.
    NADR Supports Earlier Decisions by Expanding QDD, by Developing the 
Technology Necessary to Allow for Compassionate Allowances and by 
Prioritizing Backlog Cases for Quick Decisions
    NADR believes SSA can expedite movement through the backlog by 
targeting certain claims that can be resolved quickly--i.e. that have a 
high likelihood for ``on the record'' decisions. These same criteria 
can also be applied to SSA's Quick Disability Determinations (QDD) and 
the Commissioner's proposed new screening mechanism for Compassionate 
Allowances so that cases with a likely outcome of disability are 
processed fastest. Prioritizing of select cases can be started 
nationally, or in two or three demonstration projects that target areas 
with both ``medium'' and ``high'' backlogs.
    What are the cases that can be culled from initial applications and 
backlogs for speedy review?
1. Claimants 55 and Older & Cases Involving Claimants with Limited 
        Education
    (Age/Grid Issues)

    Currently SSA evaluates claims using criteria that include age and 
education. In a nutshell, the older a claimant (particularly those who 
attain age 55 and over) and the more limited the education that a 
claimant has, the greater the latitude allowed to obtain a favorable 
determination. When an individual achieves age 55, the grids will find 
a person disabled when they have a limited education, have only 
performed unskilled work in the past 15 years, and are limited in their 
ability to sit for six hours in an eight hour day and lift more than 10 
pounds occasionally. There are certainly additional nuanced issues 
which must be considered in many cases but we believe that a cursory 
review, based upon a computer run of persons who are over age 55 or 
have attained age 55 during the application process, have a limited 
education, and are physically limited in their capacity to lift, sit 
and/or stand, may provide an expedited conclusion of disability with 
reduced processing time. If a person has turned age 55 while awaiting a 
hearing, this may further increase the potential of a favorable finding 
based upon the grids.
2. Cases Denied Because the Claimant Did Not Meet the Requirement of 
        Being Impaired for 12 Consecutive Months (Durational Denial)
    The definition of disability requires that a person cannot be found 
disabled unless their disabling condition has lasted or can be expected 
to last for 12 consecutive months, or that the condition is expected to 
result in their death (durational requirement). Oftentimes individuals 
with various impairments have applied for benefits within a month or 
two after they have discontinued work. Many are quickly found to be 
``not disabled,'' as there is a projection or expectation that the 
impairment, while severe, will be resolved within the 12 month window. 
These cases, when appealed, are then placed into the queue with all 
other persons who have requested such. Since it typically takes nearly 
a year to have a case heard by an Administrative Law Judge, persons 
with durational denials may be easily screened after the 12th month, 
given a quick review, and with minor updates of medical information, 
found either eligible or continue to wait for the hearing
3. Back Cases with Multiple Spinal Surgical Interventions
    Severe back pain significantly limits an individual's capacity to 
sustain substantial gainful activity. Persons who have had more than 
three back surgeries or have been diagnosed with ``failed back 
syndrome'' are oftentimes deemed eligible for disability due to this 
impairment. Yet, at the DDS levels, reviewers often do not adequately 
consider how pain, fatigue, and the side effects of pain medication 
impact an individual's capacity to sustain work. In our experience, 
persons with a diagnosis of ``failed back syndrome''--those who have 
had several surgical interventions that have left the individual with 
significant pain, requiring regular utilization of pain medication or 
the need for additional surgery--will ultimately be found disabled. 
These cases make sense to prioritize.
4. Claimants with a Significant History of Mental Health Impairments
    Individuals with severe mental health difficulties will oftentimes 
but periodically have problems caring for themselves effectively. They 
may meet Social Security's ``C'' criteria at times but due to the 
cyclical nature of their disease, not at others. Individuals with 
mental health impairments that wax and wane, that are usually widely 
recognized as disabled, such as those with repeated hospitalizations or 
those who have been institutionalized, can be quickly and efficiently 
identified as persons who have disabling mental health conditions. For 
example, a longitudinal history of the following would provide trusted 
markers that demonstrate serious mental health impairments:

    <bullet>  Consistently low ``Global Assessment of Functioning 
(GAF)'' scores (rating criteria determined by a mental health 
professional in accordance with the DSM-IV);
    <bullet>  Necessity to live in structured living environments;
    <bullet>  Special education placements throughout their school 
career.

    SSA should pull and review from the backlog all cases that match 
these criteria.
5. Improve Communication Between Representative and Administrative Law 
        Judge
    There are periods of time subsequent to a file being reviewed or 
``pulled'' that a claim sits, simply waiting for administrative action. 
During this time the issues that need clarification have been 
identified but not revealed to the representative. There is little to 
no communication from the Administrative Law Judge to the 
representative thus, when entering a hearing, the representative rarely 
knows the specific reasons that the ALJ believes the hearing was 
necessary. It would be valuable and highly cost effective if a 
statement of issues could be presented at the time the file is pulled 
or the hearing is scheduled so the representative can investigate and 
provide documentation that addresses the judge's concerns. This may 
reduce or even eliminate the need for some hearings. As an example, 
oftentimes it only becomes evident when before the ALJ, that the only 
reason a hearing is being held is because earnings have been identified 
that are over substantial gainful activity and after the person says 
they are disabled. This can be anything from incorrect earnings--to 
insurance payments--to supported work. A brief discourse before the 
hearing asking for clarification of this issue may preclude the need 
for a hearing by the representative obtaining the necessary 
documentation.

Conclusion
    We appreciate the opportunity to present our views on ways to 
reduce the social security backlog. Our goal is to help our clients get 
the assistance they need in the most efficient way possible. We have a 
long way to go in transforming SSA's disability program into a more 
timely and responsive safety net, but your leadership and attention 
gives many of us reason to hope for improvements. We look forward to 
continuing to work with Congress and with SSA Commissioner Michael 
Astrue to assure that SSA is able to provide people with disabilities 
the benefits to which they are entitled in a timely fashion.

                                 <F-dash>
       Statement of National Law Center on Homelessness & Poverty

    This testimony is submitted on behalf of the National Law Center on 
Homelessness & Poverty and the National Policy and Advocacy Council on 
Homelessness. The National Law Center on Homelessness & Poverty (NLCHP) 
serves as the legal arm of the national movement to prevent and end 
homelessness. The National Policy and Advocacy Council on Homelessness 
is a grassroots, anti-poverty organization. NLCHP and NPACH work with 
legal services attorneys, healthcare providers, case managers, and 
social service and housing agencies that assist homeless persons with 
disabilities who are seeking Supplemental Security Income (SSI) or 
Social Security Disability Insurance (SSDI) benefits.
    Serving homeless people poses a tremendous challenge to the already 
overburdened SSI/SSDI applications process. However, relatively small 
regulatory changes combined with effective outreach would grant a 
lifeline to America's most vulnerable citizens while freeing up SSA 
resources to focus on the remainder of the SSI/SSDI application 
backlog.
    Each year more than three million Americans experience 
homelessness. Many homeless people are likely eligible for SSI or SSDI. 
According to the largest and most rigorous Federal study of 
homelessness ever done in the U.S.--the National Survey of Homeless 
Assistance Providers and Clients (NSHAPC)--at least 32% of the overall 
homeless population had serious mental health problems and at least 46% 
had one or more chronic health conditions, such as AIDS, cancer, or 
lost limbs.
    At present, the SSI/SSDI application process has largely failed 
these people.
    According to the NSHAPC data, only 11% of homeless people received 
SSI benefits, compared to 29% of formerly homeless people surveyed. 
Further, two local studies found that only 10-15% of homeless 
applicants were initially approved, compared to 37% of all applicants 
nationwide. Lengthy appeals, costly in time and dollars, follow initial 
denials.
    Barriers that prevent eligible homeless persons from receiving SSI 
and SSDI benefits include: (i) difficulty staying in contact with SSA; 
(ii) difficulty in retaining or researching necessary documents and 
information; (iii) lack of an approved, state-issued ID to allow access 
to SSA offices in Federal buildings or to prove identity, and (iv) 
difficulty obtaining medical records for purposes of documenting a 
disability. Even when medical records are available, they may not be 
from the limited types of healthcare professionals recognized as 
``acceptable medical sources'' by SSA for the purpose of providing 
primary medical evidence of a disability.
    SSI and SSDI benefits provide more than a source of income for 
homeless people. In many states, receipt of SSI benefits provides 
access to medical care through the Medicaid program. In many 
communities, receipt of benefits also makes clients eligible for 
supportive housing, providing a permanent route out of homelessness.
    We believe that SSA has the authority to make regulatory changes 
and issue directives that could significantly address some or all of 
these barriers. Some SSA offices have implemented processes that have 
helped improve access for homeless people. However, these steps are 
incomplete, apply only in a few places and allow significant barriers 
to remain.
    An examination of these points shows that positive changes are 
possible.
Barriers and Problems that Contribute to SSA Backlog
    Homeless applicants for SSI and/or SSDI face many bureaucratic 
barriers that are extraordinarily difficult to overcome. These barriers 
needlessly contribute to denials and lengthy appeals that continue 
while an individual remains living on the street without any source of 
income.
    Studies have shown that persons with disabilities who are homeless 
for long periods of time often consume disproportionate amounts of 
emergency medical services, law enforcement resources, and social 
service agency time and attention.
    Homeless applicants for SSI/SSDI also may have difficulty 
navigating the complex SSI/SSDI application process, resulting in 
incomplete or technically incorrect applications, filing repeatedly and 
failing to follow appeals processes in ways that allow accurate 
outcomes. Lack of an address also makes it difficult for SSA offices to 
follow-up with clients to obtain additional information.
    These injuries are compounded when the homeless applicant is left 
with no access to the services or housing that could help end 
homelessness for the individual and long-term homelessness for states 
and communities. The record is rife with stories of otherwise eligible 
SSI/SSDI applicants, faced with delays that may last from 1-3 years, 
simply succumbing to worsened or terminal health conditions.
    In short, the current process is a systemic and personal disaster--
a disaster made all the worse because it is avoidable.
    Over the years, community providers, homeless advocates, and those 
focused specifically on assisting homeless individuals through the SSI/
SSDI process have developed an intimate familiarity with the problems 
in the system and in so doing have identified an array of potential 
solutions.
    (1) SSI/SSDI application procedures fail to recognize unique needs 
of different target populations. The SSI/SSDI application process 
presumes that communication by mail is a sufficient means of notifying 
applicants of appointments, requests for information and their progress 
through the system. Homeless applicants along with those marginally or 
transiently housed are thus left unserved.
    Applicants are expected to provide comprehensive and complete non-
medical or non-disability information as well as medical histories. But 
roughly half of SSI/SSDI applicants allege a mental impairment. This 
impairment by its very nature complicates the document collection and 
retention process.
    A few local programs have succeeded in addressing some of these 
barriers. A cooperative program between SSA and the Massachusetts' 
Disability Determination Services ensures that homeless applications 
are ``flagged'' and referred to a special team that processes homeless 
applications. Creation of this special unit has resulted in increased 
approvals of homeless applications.
    Through demonstration projects such as the Baltimore SSI Outreach 
Project and the SSA funded HOPE grants, SSA recognized the need to 
provide greater assistance to homeless individuals. These demonstration 
projects have been successful in improving the quality of the 
applications submitted to SSA and improving results for applicants. 
Unfortunately, however, these programs' processes have not been 
integrated nationally into SSA's instructions to their field offices, 
and as a result of the end of the demonstration projects, funding has 
largely stopped for these community providers. What is needed is 
funding not for demonstration projects but rather for changed 
institutionalized processes.
Recommendation:
    Require SSA to form partnerships and to establish flexible 
processes nationally for the populations applying for SSI/SSDI who 
require special assistance to navigate the process. Require SSA to work 
with State Disability Determination Services offices to establish teams 
that will specialize in serving the mixed populations of applicants who 
need additional help and services. These specialists could work 
collaboratively with community groups to ensure the kinds of 
collaboration needed to process claims efficiently and accurately on 
initial application.
    Require SSA to report housing status along with data already 
reported on the applicant population and outcomes (included in SSA 
homelessness plan and not yet done).
    (2) SSA offices are not able to maintain field representative 
staff, making it harder to reach homeless persons with disabilities. As 
the demand on SSA has increased and staffing has decreased, many SSA 
offices no longer have field representatives. These staff were able to 
go out in the community to assist the populations of individuals, such 
as homeless adults, to apply for benefits. In addition, these 
representatives often formed collaborative relationships with community 
providers who could assist with locating people and providing 
information. The reduction in field representative staffing has 
contributed to greater difficulty in processing claims for this very 
heterogeneous population.
Recommendation:
    Restore hiring of field representatives to SSA offices.
    (3) Photo identification required to access Federal buildings 
prevents homeless persons from getting to the SSA office. Many homeless 
adults lack photo IDs needed to enter Federal buildings. Although the 
application process per se does not require a photo ID, accessing the 
SSA office often does.
Recommendation:
    Federal buildings with SSA offices should establish procedures for 
acceptance of alternative ID, such as a letter of introduction from a 
shelter or community service provider. A process under which people 
without ID can be escorted from a building entrance to an SSA office 
within should be implemented.
    (4) Limits on communication with SSA other than by mail make it 
difficult to reach homeless applicants. As noted above, people without 
fixed address are not going to be served by the SSA policy of generally 
communicating by mail. But even for applicants who are willing to go to 
SSA offices (if they are allowed in), the reduced staffing in SSA 
offices means that staff are not readily available to answer questions. 
Waits to meet with staff in person are long. Rarely can one contact a 
claims representative by phone. As a general practice, applicants are 
not given the phone number for their claims representative. Rather, 
people are urged to contact a toll-free number at a different location 
where staff are often unfamiliar with the details of particular claims. 
Information provided through this service thus is often inaccurate.
    Because of this poor communication, homeless applicants often do 
not know how and when to follow up and frequently receive a technical 
denial because of their lack of follow-through. Without an advocate to 
assist with applications, many homeless adults simply cannot navigate 
the process. Tenacious homeless applicants will frequently re-apply 
over and over again but because of their reliance on incorrect 
information and the barriers described herein their efforts remain 
futile and simply serve to clog the system.
Recommendation:
    Require local SSA offices to provide phone contact information for 
claims representatives to applicants whom they assist. Provide phone 
information on the SSA website for supervisors and managers in these 
offices.
    Staff the SSA local offices sufficiently so that long waits, 
communication only by mail can be avoided and so that partnerships with 
the community are fostered and established on an ongoing basis.
    (5) Documentation for non-medical criteria is difficult for 
homeless persons to obtain. The application process with SSA is 
dependent on an applicant's ability to provide necessary documentation 
such as birth certificates, immigration papers, any and all 
documentation of any assets, etc. Most homeless adults do not have 
these papers and cannot afford even the minimal fees required to obtain 
copies of such papers. Once again, this leads to technical denials, 
which means wasted time on the part of the applicant and wasted time 
and resources of the SSA staff--waste that contributes to backlogs.
Recommendation:
    Provide SSA with the ability to access birth certificates and other 
needed documents without cost to the applicant, especially for 
individuals in dire need such as homeless applicants.
    (6) Cognitive impairments may make it more difficult for homeless 
persons to complete the application process. Homeless applicants often 
have serious mental health problems and other health issues that may 
impair their ability to think clearly and to provide clear and 
comprehensive medical information. Information that may exist is missed 
without anyone to ask for it and obtain it. Critical aspects of 
disability such as histories of trauma, histories of brain damage, and 
learning problems are often missed as the applicant is unaware or does 
not know how to describe such problems in a way that doesn't feel 
demeaning or stigmatizing. Often, a person with these problems has 
simply adapted to them and, therefore, is not able to report them in a 
useful way for the disability determination process.
Recommendation:
    Encourage SSA to develop a culture whereby the agency is part of a 
community network and is seen as receptive to suggestions and requests 
from those who are assisting applicants.
    Fully fund the low-cost programs that collaborate with SSA to help 
homeless applicants through the process. Outreach programs such as HOPE 
and the highly successful SOAR initiative have shown promise in 
developing procedures wherein case workers can help applicants assemble 
the requisite documentation and present the material in a form 
acceptable to DDS staff. SOAR trained sites have increased rates of 
initial approval for homeless applicants to an average of 62%. 
Technical denials and the need for appeals are reduced when homeless 
people are helped through the system and into housing. SSA also 
benefits as this most challenging segment of their client population is 
removed from the backlog.
    (7) Sporadic, incomplete, transient treatment histories make it 
difficult to obtain medical records. Many homeless applicants have not 
had consistent treatment for their medical problems. Emergency room 
visits are common; notes from these visits are cursory. Serious and 
ongoing health problems are treated on an acute basis only. Putting 
together a true picture of impact on functioning and ability to work is 
extraordinarily challenging and beyond the means of already overtaxed 
SSA staff.
    Many communities do not provide regular access to physicians and/or 
psychologists who are viewed as the only acceptable medical sources for 
diagnostic information for most health problems. Nurse practitioners, 
physicians' assistants, and social workers are often the main providers 
of treatment and yet are considered collateral sources who cannot 
provide diagnoses. In most public care settings, individuals spend very 
little time with physicians. Yet, physicians are the professionals 
asked to provide comprehensive information about applicants.
Recommendation:
    Expand the list of acceptable medical sources for applicants 
identified as homeless to include nurse practitioners, physicians' 
assistants, and licensed clinical social workers. These are the staff 
who provide much of the care to uninsured individuals in physical 
health and mental health settings. In many rural settings, these are 
the only healthcare providers available to low-income and homeless 
people.
    (8) Reliance on consultative examinations results in underreporting 
of disabilities. In the absence of comprehensive medical histories from 
an acceptable medical source, consultative exams are scheduled with 
physicians and/or psychologists who contract with DDSs to complete such 
evaluations. Because notification for these appointments is by mail, 
homeless applicants often miss their examination. This lack of follow 
through has been identified as the principal cause of technical denials 
for homeless applicants.
    In addition, people who go to these evaluations often deny their 
mental health problems or do not recognize them as such and, therefore, 
do not discuss their impact. The examinations are often cursory. They 
are always costly.
    In some communities, access to a consultant is extraordinarily 
limited. For example, in parts of Montana, applicants must travel 70 
miles to receive a consultative examination--clearly a challenge for 
homeless applicants.
Recommendation:
    To reduce the need for consultative examinations, SSA should expand 
the list of acceptable medical sources for applicants identified as 
homeless to include nurse practitioners, physicians' assistants, and 
licensed clinical social workers. SSA also should ensure current 
medical providers are contacted and all records obtained prior to 
scheduling a consultative exam. Most homeless applicants have complex 
histories that are unlikely to be adequately presented to a complete 
stranger in the brief amount of time allotted to a consultative 
examination. National licensing criteria could be established for this 
purpose with the support of both the newly eligible medical sources and 
traditional medical sources who would benefit from having those in need 
enrolled in Medicare and Medicaid programs rather than receiving costly 
uninsured care in emergency rooms.
    Additionally, SSA should encourage state Disability Determination 
Services to expand their consultative evaluators' list to include 
programs and physicians that serve people who are homeless, e.g., 
Health Care for the Homeless clinics and Federally Qualified Health 
Centers.
    (9) ``Everyone is denied two times and has to go to a hearing.'' 
The high rates of denials of homeless applications leads many service 
providers to believe the process is futile and discourages some groups 
from assisting homeless clients to apply for SSI/SSDI benefits. Lack of 
awareness by SSA representatives of how homelessness impacts 
disabilities further exacerbates the problem.
Recommendation:
    SSA should involve community service providers in the training of 
SSA claims representatives and DDS claims examiners about specialty 
issues and populations who are applicants. For example, homeless 
advocates or service providers should provide training on the 
demographics of homelessness, and the impact of homelessness on 
substance use and co-occurring disorders, HIV/AIDS, and developmental 
disabilities.
    (10) Lack of understanding of disability determination process by 
community service providers impairs their ability to assist homeless 
applicants in preparing applications. Despite SSA's provision of 
ongoing training, many service providers are not knowledgeable about 
the requirements that a person must meet to be eligible for SSI/SSDI. 
Therefore, the information that SSA and the DDS need to process claims 
may not be provided to those agencies. For many social service 
agencies, translating the collection of information in a client's case 
file into what SSA and DDS need can be daunting.
Recommendation:
    As discussed above, SSA should be enabled to hire specialists to 
work collaboratively with community groups to ensure the kinds of 
collaboration needed to process claims efficiently and accurately on 
initial application.
    SSA should also form partnerships and establish flexible processes 
nationally for the populations applying for SSI/SSDI who require 
special assistance to navigate the process.
    Additionally, SSA should update their Plan on Homelessness, a 
document that has not been reviewed since 2002. The revised plan should 
include procedures for identifying and including key homeless agencies 
and their representatives in efforts to implement the updated and 
revised plan.
    (11) Inherent disconnect in the disability determination process 
between information required to make a disability determination and the 
information normally contained in medical records. In general, the 
information provided to make disability determinations is in the form 
of medical records. The purpose of medical records is to assess 
symptoms, provide a diagnosis, and prescribe treatment. Rarely do these 
records contain the functional impairment information that is part of 
the disability determination process, especially for people with mental 
impairments. Additional information is often needed to answer the 
questions in this process and may not be available without additional 
work on the part of community providers
Recommendation:
    SSA should bring together a workgroup to develop strategies to 
address this inherent disconnect in the process. Such a workgroup 
should include direct service providers, community clinicians, 
professional school representatives (e.g., medical and other graduate 
schools), medical records department representatives and others who are 
involved in compiling the information needed to address the SSA 
disability criteria.
    The solutions outlined here will take time, effort and in many 
cases additional Federal investments. However, the payoff in reducing 
the SSI/SSDI backlog and the ensuing human toll will ultimately reduce 
costs in cities and states that currently must cope with people who are 
eligible SSI/SSDI applicants living without assistance for their 
disabling conditions. Homeless people with disabling conditions consume 
an enormous and disproportionate share of local healthcare and public 
safety resources.
    Beyond the fiscal argument lies the moral imperative of providing 
concrete steps to end homelessness in the United States. Any 
examination of reforms to the SSI/SSDI application process should 
include improvements to address the barriers presented above. As 
advocates working to eliminate homelessness in America we are committed 
to working with Congress and all relevant agencies to refine and 
implement these ideas.

                                 <F-dash>
         Statement of the Service Employees International Union

    Dear Chairman Rangel and Members of the Committee: On behalf of our 
Members, the Service Employees International Union (SEIU) Local 1000 
urges the esteemed Members of the House Ways and Means Committee to 
increase funding to reduce the backlog in disability claims that are 
determined at the Disability Determination Services Division (DDSD) 
operating under the Social Security Administration. While we commend 
Commissioner Astrue's hiring of 144 Administrative Law Judges at the 
hearings level, resources need to be directed to the earlier levels of 
the determinations process. Commissioner Michael Astrue admits that 
they are working with the lowest staffing levels in over thirty years. 
To process claims effectively with a decreased number of staff is 
especially untenable in California, where we process 10 percent of the 
nation's claims. Thus, the workloads at the branches of the Disability 
Determinations Service Division (DDSD) are at an unprecedented high, 
and the department expects another increase in disability claims as 
baby boomers begin to reach retirement and disability-prone age. SEIU 
Local 1000 represents over 1,400 Disability Determination Service 
workers in 8 offices across the state. Our members in these offices 
deeply believe in the service they provide. They know that receiving 
SSI and SSDI is often a life or death situation. Yet the Department 
continues to focus on the number of closures of cases, not quality. On 
more than one occasion, analysts have been told by their managers that 
they ``are not social workers,'' and that ``the priority is closing 
cases.'' Instead, the workers believe, the priority should be accurate 
and compassionate disability determinations. Nor do they have the tools 
to process claims efficiently. In California, for example, they have 
fewer physicians to refer claimants to than they did in the past. 
Program technicians in several DDSD branches statewide have informed us 
of having to schedule appointments for people into the next year. They 
also don't have enough in-house medical consultants to refer 
psychiatric cases to. As a result, cases are farmed out to other 
states, thereby lengthening the processing time of cases. Furthermore, 
the fairly recent implementation of the electronic claims processing 
system (eDIB) is grossly unpredictable and unreliable. Many support 
staff haven't been given the equipment necessary to complete their work 
in a paperless environment (i.e., scanners, computer screens, etc). A 
report generated by the California DDSD showed that between May 3 and 
September 17 of this year, the system incurred slow downs, complete 
shut downs, and other problems totaling hundreds of hours. Yet, 
analysts are forced by their managers to process the same amount of 
cases they would in a regular eight hour day. The caseload is so high 
at the California DDSD offices that an alarming number DDSD workers 
have gone on leave due to stress, work related injuries or have had 
nervous breakdowns. Yet when a worker is out sick, it is the 
Department's policy to still assign those person cases, which then go 
untouched for days. The policy is absurd because it is impossible for 
individuals out on sick leave to physically process claims and to ask 
those employees recovering from an illness to perform work assigned to 
them during their leave. DDSD workers speak to claimants on a daily 
basis. They talk to claimants--veterans, the elderly, and the parents 
of disabled children who struggle to make ends meet while they wait for 
a decision on their claim. We've seen DDSD workers work through their 
lunch hours and breaks. We've seen them come in early and leave late 
because they took the time to carefully review people's claims. Yet, 
they are facing pressure to close cases as quickly as possible. The SSA 
plans to hire more appeals judges, but they also need to hire more 
field office staff. Increased staff in the field offices could reduce 
the number of appealed decisions reversed. We urge you to increase 
funding to California to address the disability backlog at the early 
stages of the disability process and protect thousands of individuals 
who have no other means of income. If you have any questions about the 
disability backlog in California or this letter, please contact Joanna 
Gin at (916) 554-1231. Thank you.

                                 <F-dash>
            Statement of the American Civil Liberties Union

    The American Civil Liberties Union (``ACLU'') commends the House 
Ways and Means Committee (``Committee'') for holding a hearing on the 
Backlog of Social Security Disability Claims and appreciates the 
opportunity to submit testimony for the record. The current Social 
Security disability claims backlog is both unreasonable and violates 
due process. At a time when the Social Security Administration 
(``SSA'') is struggling to fulfill one of its principal functions of 
administering disability claims, Congress is now seriously considering 
imposing a new radical duty on SSA--the checking and verification of 
all workers in the U.S. Two bills pending in the House of 
Representatives--Secure America Through Enforcement and Verification 
Act of 2007 (``SAVE'' Act, H.R. 4088) and the New Employee Verification 
Act of 2008 (H.R. 5515)--would impose a mandatory electronic employment 
verification system (``EEVS'') on all employers and would place that 
verification duty squarely on the SSA. There is no doubt that the 
imposition of such a sweeping national mandate would exacerbate the 
already unreasonable delays in processing claims for Social Security 
disability benefits under Title II of the Social Security Act, 42 
U.S.C. Sec. Sec. 401, et seq., and the Supplemental Security Income 
Program, Title XVI of the Social Security Act, 42 U.S.C. 
Sec. Sec. 1381, et seq. While the ACLU has serious privacy, due 
process, and civil rights concerns with these proposals, we urge the 
Committee to reject any type of mandatory EEVS proposal primarily in 
order to ensure that the SSA can focus on performing its historic and 
critical function of processing disability claims in a timely and fair 
manner.
    The ACLU is a nonpartisan public interest organization dedicated to 
protecting the constitutional rights of individuals. The ACLU consists 
of more than half a million members, countless activists and 
supporters, several national projects, and 53 affiliates nationwide. 
The ACLU has been active in protecting the rights of people with 
disabilities for over 35 years. At the dawn of the disability rights 
movement the ACLU challenged the institutionalization of people with 
mental illness in cases in Alabama (Wyatt v. Rodgers, Wyatt v. 
Stickney), New York (Willowbrook State School on Staten Island, Index 
No. 72 Civ. 356, 357 (JRB) and Florida (O'Connor v. Donaldson, 422 U.S. 
563 (1975)). In recent years the ACLU has participated in landmark 
litigation under the Americans with Disabilities Act (``ADA'') 
including Bragdon v. Abbott, 524 U.S. 624 (1998); Sutton v. United 
Airlines, Inc., 527 U.S. 471 (1999); Chevron, USA, Inc. v. Echazabal, 
122 S. Ct. 2045 (2002). The ACLU has also played a national leadership 
role in drafting and negotiating the ADA of 1990 and the ADA 
Restoration Act of 2007.
    Delays in processing and deciding Social Security disability claims 
have been held to violate the Due Process Clause of the Constitution 
and the Administrative Procedures Act (``APA''), 5 U.S.C. 
Sec. 706(1).\1\ Although the Supreme Court has rejected ``the 
imposition of mandatory deadlines on agency adjudication of disputed 
disability claims,'' Heckler v. Day, 467 U.S. 104, 119 (1984) and 
prevented courts from imposing class-wide mandatory deadlines, courts 
retain other traditional equitable powers where delay is unreasonable 
and ``where, in the particular case, the court finds that the interest 
of justice so require[s].'' \2\ As a general matter, courts have not 
definitively determined what length of time constitutes ``unreasonable 
delay.'' However, the Supreme Court in Day left standing the undisputed 
trial court finding that the delays suffered by the named respondents 
were unreasonable,\3\ which was not disputed by the Federal 
government.\4\ In analyzing claims of unreasonable delay under the APA, 
the courts have noted that ``delays that might be reasonable in the 
sphere of economic regulation are less tolerable when human health and 
welfare are at stake,'' and Social Security disability claims clearly 
involve ``human health and welfare.'' \5\
---------------------------------------------------------------------------
    \1\ See White, et al., v. Mathews, 434 F.Supp. 1252 (D. Conn. 
1977), aff'd 559 F.2d 852 (2d Cir. 1977), cert. denied 435 U.S. 908; 
Caswell, et al. v. Califano, 435 F Supp 127 (D. Me. 1977), aff'd (1st 
Cir.) 583 F. 2d 9.
    \2\ Rivera v. Apfel, 99 F.Supp.2d 358 (S.D.N.Y. 2000), vac't on 
other grounds, No. 00-6241, 2000 WL 33647061 (2d Cir. Nov 14, 2000) 
(citing Day, 467 U.S. at 119 n. 33, 104 S.Ct. 2249).
    \3\ Respondent Day was forced to wait 340 days between his hearing 
request and reconsideration determination; respondent Maurais waited 
280 days between his hearing request and reconsideration determination. 
See Day, 467 U.S. at 107 nn. 6-7.
    \4\ See Id. 467 U.S. at 111 & n. 15. ``[T]he District Court's 
declaratory judgment that the plaintiff class is entitled to relief is 
not at issue.'' Id. at 120, (Marshall, J., dissenting). See also, 
Barnett v. Bowen, 794 F.2d 17, 22 (2d Cir. 1986) (``The [Supreme] Court 
stated that the Secretary did not challenge the district court's 
determination that hearings must be held in a reasonable time or that 
the delays encountered by plaintiffs violated that requirement.'').
    \5\ Telecommunications Research and Action Ctr., et al. v. FCC, 750 
F.2d 70, 80 (citing with approval Blankenship v. Secretary of HEW, 587 
F.2d 329 (6th Cir. 1978).
---------------------------------------------------------------------------
    The current delays in Social Security disability hearings and 
determinations are clearly unreasonable. The SSA's ``data as of the end 
of January 2008 indicate that the number of cases waiting for a hearing 
decision was 751,767, leading to average waiting times for FY 2008 of 
499 days.'' \6\ ``In fiscal year 2006, 30 percent of [disability] 
claims processed at the hearings stage alone, took 600 days or more.'' 
\7\ Between 2000 and 2006, Social Security disability claims processing 
times for hearing and decisions nearly doubled.\8\ These delays are 
undoubtedly unreasonable and infringe on disability claimants' due 
process rights. According to a Governmental Accountability Office 
Report published in December 2007, approximately 60 million phone calls 
are placed to SSA Field Offices each year, and over half of these 
callers receive a busy signal.\9\ The SSA's staffing is at its lowest 
level since 1972. Despite the shortage of personnel, the SSA is facing 
an extremely heavy workload with the recently added duties of 
processing Medicare Part D and prescription drug claims, as well as 
processing retirement claims for the baby boomer generation now hitting 
retirement age. Social Security retirement benefits claims are expected 
to increase by 13 million over the next decade.\10\ As the SSA 
struggles to administer its primary duties of processing retirement and 
disability claims, Congress is now considering heaping yet another duty 
on the SSA--the verification of all workers in the U.S.
---------------------------------------------------------------------------
    \6\ The Disability Backlog at the Social Security Administration, 
Before the H. Comm. on Appropriations, Subcomm. on Labor, Health and 
Human Services, Education, and Related Agencies, 110th Cong., 2d Sess. 
(2008) (statement of Patrick P. O'Carroll, Jr., Inspector General, 
SSA), February 28, 2008. Available at http://www.ssa.gov/oig/
communications/testimony_speeches/02282008testimony.htm.
    \7\ United States Government Accountability Office, Social Security 
Disability, Better Planning, Management, and Evaluation Could Help 
Address Backlogs at 3 (December 2007). (``GAO Management Report''.) 
Available at http://www.gao.gov/new.items/d0840.pdf.
    \8\ Id. at 14.
    \9\ Id.
    \10\ The Disability Backlog at the Social Security Administration, 
Before the H. Committee on Appropriations, Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies, 110th 
Cong., 2d Sess. (2008) (statement of Richard Warsinskey, National 
Council of Social Security Management Associations, Inc.) Feb. 8, 2008. 
Available at http://socsecperspectives.blogspot.com/2008/02/social-
security-advocacy-group-written.html.
---------------------------------------------------------------------------
II. A Recipe for Exacerbating the Social Security Disability Processing 
        Backlogs--Adding Mandatory Electronic Employment Verification 
        to SSA's Mandate
    Two bills (H.R. 4088, H.R. 5515) introduced in this Congress would 
impose a mandatory electronic employment verification system (``EEVS'') 
on all employers in the U.S. Both mandatory EEVS bills propose that the 
SSA would play the critical function of checking and verifying work 
authorization for all workers in the U.S. This massive overhaul calls 
for sweeping changes to SSA's historic functions of processing 
disability and retirement benefits claims. The SSA has never performed 
the complicated task of verifying people's immigration status. The ACLU 
urges Congress to reject any type of mandatory EEVS proposal, in order 
to ensure that people with disabilities are not further harmed by the 
already unreasonable delays in Social Security disability claims 
processing.
    In addition to having to screen everyone in the U.S. for work 
authorization, the SSA would be tasked with responding to the majority 
of erroneous EEVS findings, which would include fielding telephone 
calls and responding to in-person queries at SSA Field Offices. The SSA 
has testified numerous times before Congress that approximately 10 
percent of the 240 million Wage and Tax Statements (W-2 forms) received 
annually by SSA do not match the names and Social Security numbers in 
SSA's records. According to the SSA's Office of Inspector General, the 
Social Security database has a 4.1 percent error rate. The vast 
majority of errors involve U.S. citizens. The mandatory EEVS proposal 
contained in the SAVE Act (H.R. 4088) would strip workers of Social 
Security credit for their earnings if they work more than one job 
during a year--unless they visit a SSA field office to prove with 
documentation that they, in fact, worked two jobs. This provision will 
apply to anyone who works more than one job, who changes jobs, or whose 
employer changes ownership in a calendar year.
    By its own estimates, the SSA calculates that making EEVS mandatory 
would result in an additional 3.6 million visits or telephone calls to 
SSA field offices per year, which would result in 2,000 to 3,000 more 
work years for the SSA. Considering that currently over half of all 
telephone calls placed to SSA field offices do not get answered, moving 
to a mandatory EEVS regime would result in a practical shutdown of SSA 
field offices as SSA is swarmed by irate workers who are desperate to 
fix their Social Security records in order to work.
    Furthermore, in April 2008 the Congressional Budget Office released 
a score report for the SAVE Act (H.R. 4088) and estimated that the SAVE 
Act would decrease Social Security trust fund revenue by more than $22 
billion over 10 years by increasing increase the number of employers 
that will pay workers in the cash economy, outside of the tax system.
III. Mandatory Electronic Employment Verification Poses Serious 
        Privacy, Due Process, and Civil Rights Concerns.
    In addition to crippling the SSA's ability to process disability 
claims, a mandatory employment verification system raises serious 
privacy, due process, and civil rights concerns. A mandatory EEVS would 
require the creation of a new data-exchange system between the SSA and 
the Department of Homeland Security (``DHS''). SSA would be required to 
share data with DHS based on discrepancies in SSA's database that have 
nothing to do with immigration status. According to SSA, reasons for 
errors in its database include clerical errors made by employers in 
completing their W-2's; the fact that workers might have used one name 
convention (such as a hyphenated name or multiple surnames) when 
applying for a Social Security card and a different one when applying 
for a job; or name changes due to marriage, divorce, religious 
conversion, or other reasons. The SSA database does not contain 
complete information about workers' immigration status, and the limited 
immigration status information that does exist in the database is not 
automatically updated when a worker's immigration status or work 
authorization status changes.
    According to the Office of the Inspector General at SSA, by 
conservative estimates, at least 3.3 million non-citizen records in the 
SSA database contain incorrect citizenship status codes. A mandatory 
EEVS regime would result in the SSA erroneously divulging the private 
information of U.S. citizens (including their Social Security numbers) 
to the DHS because SSA is unable to accurately identify an individual's 
citizenship status via its databases. And the DHS has proven that it 
cannot be trusted with private information. The House Oversight and 
Government Reform Committee gave a ``D'' to the DHS in computer 
security for 2006 (up from an ``F'' for the previous three years). The 
DHS's failure to comply with Federal Information Security and 
Management Act standards since its inception demonstrates that it 
cannot be relied upon to make significant improvements in this area, 
which translates down the road into workers' private information being 
left vulnerable to hackers and other cyber-threats.
    Furthermore, the information-sharing provisions set forth in both 
H.R. 4088 and H.R. 5515 do not require independent review, monitoring 
of disclosure, privacy protections, notice to workers that their 
private information or records have been disclosed, or recourse if 
overbroad information is sought or misused.
    Finally, moving to a mandatory EEVS would subject many lawful 
workers to illegal employment discrimination on the basis of race and/
or national origin. Some employers facing a mandate of verifying all 
workers will fire workers or refrain from hiring candidates on the 
basis of their race, surname, accent, or other proxies for unlawful 
discrimination.
    The ACLU appreciates the opportunity to submit this written 
statement and urges the Committee to reject imposing the new radical 
duty of mandatory electronic employment verification on the SSA.

                                 <F-dash>
             Statement of the Federal Managers Association

    Chairman Rangel, Ranking Member McCrery and Members of the House 
Ways and Means Committee:
    On behalf of the Federal Managers Association (FMA) and the nearly 
1,000 managers in the Social Security Administration's Office of 
Disability Adjudication and Review (ODAR), please allow us to take a 
moment and thank you for this opportunity to present our views before 
the Committee. As Federal managers, we are committed to carrying out 
the mission of our agency in the most efficient and cost effective 
manner while providing those necessary services to millions of 
Americans.
    Established in 1913, the Federal Managers Association is the 
largest and oldest association of managers and supervisors in the 
Federal government. FMA was originally organized to represent the 
interests of civil service managers and supervisors in the Department 
of Defense and has since branched out to include some 35 different 
Federal departments and agencies including many managers and 
supervisors within the Social Security Administration (SSA). We are a 
nonprofit professional membership-based organization dedicated to 
advocating excellence in public service and committed to ensuring an 
efficient and effective Federal government. FMA members and their 
colleagues in the SSA Office of Disability Adjudication and Review are 
responsible for ensuring the success of the administration of Social 
Security's disability determination process and in providing needed 
services to American customers.
    As you are keenly aware, the Social Security Administration plays a 
vital role in serving over 160 million American workers and their 
families. Each month, SSA pays out benefits to 48 million 
beneficiaries. Over 7 million low-income Americans depend on the 
agency's Supplemental Security Income (SSI) program to stay afloat in a 
cost-inflating world, and nearly 7.2 million disabled Americans receive 
benefit payments through Social Security Disability Insurance (SSDI). 
At the February 28, 2008 hearing, Commissioner Astrue testified that 
SSA's productivity has increased over 15% since fiscal year 2001. 
Considering the magnitude of its mission, the Social Security 
Administration does a remarkable job administering critical programs.
    In the Office of Disability Adjudication and Review, however, there 
currently exists a backlog of over 757,000 requests for a hearing. It 
already takes over 500 days to process a typical request for hearing 
and these delays tarnish SSA's otherwise strong record of service to 
the American public. At the beginning of 2002, SSA had 468,262 pending 
hearing requests. In six years, that number increased to over 750,000, 
despite the fact that dispositions are at record levels. Although 
clericals in hearing offices prepared 472,168 cases in FY07, claimants 
submitted almost 557,970 new requests during the same period. As such, 
the backlog of files simply awaiting preparation for review by an 
Administrative Law Judge (ALJ) at the close of January 2008 totaled 
442,399 cases; an increase of 3,116 cases since the beginning of fiscal 
year 2007. Unless something is done to reverse this trend, the backlog 
could realistically reach one million by 2013 with the aging Baby Boom 
generation.
    As managers and supervisors within ODAR, we are acutely aware of 
the impact these backlogs are having on our ability to deliver the 
level of service the American public deserves. We are here to confirm 
what you've heard several times before--that the ongoing lack of 
adequate staffing levels and resources have contributed to these 
backlogs. If these inadequacies continue, clearing the backlogs will be 
impossible and service delivery will continue to deteriorate.
    We at FMA appreciate the attention the Committee is placing on 
examining the reasons for the backlog and addressing remedies to the 
problem. ODAR began fiscal year 2008 with 419,752 pending cases 
awaiting preparation for a hearing. In all likelihood, those cases will 
realistically wait at least one year before any action is even 
initiated to prepare the case for review and hearing in front of an 
Administrative Law Judge. In January, processing times across the 
nation ranged from a low of 343 days in the Boston region to a high of 
649 days in the Chicago region. The American public deserves better 
service.
    Within ODAR, production is measured by the number of dispositions 
completed per day by an Administrative Law Judge. In FY05 and FY06, 
this record-level figure was 2.2 dispositions per day per ALJ. A work 
year is approximately 250 work days, yielding a reasonable expectation 
that an ALJ can produce an estimated average of 550 dispositions a year 
given the current staffing limitations. At the end of January 2007, SSA 
employed 1,088 ALJs, resulting in a best case scenario of 557,150 
dispositions for FY07, which is about the same number of new cases 
filed in a given year.
    Earlier this year, hiring letters went out to 144 of the 175 
administrative law judges SSA plans to employ this fiscal year. Already 
136 judges have accepted. A total of 175 ALJs could translate into an 
additional 82,500 dispositions, but only if adequate staff is available 
to prepare the cases for review. While this is certainly a step in the 
right direction, Administrative Law Judges alone will not solve the 
problem. Without additional staffing, the current level of prepared 
work would be distributed among more judges, essentially resulting in 
the same dispositional outcome. Without adequate support staff to 
prepare cases for the judges, both existing and new, we will not 
achieve an increase in hearing dispositions--the only solution to 
reducing the backlog.
    Undoubtedly, adequate clerical support is necessary to prepare 
cases for hearing. As it stands, hearing offices do not even have the 
staff to accommodate the current judges, let alone enough staff to 
process the nearly new 47,000 cases the Office of Disability 
Adjudication and Review receives each month. If receipts remained flat, 
the backlog will remain at over 700,000 cases, almost one-third of 
which are over 365 days old. At the beginning of FY07, ODAR had over 
63,000 cases which were over 1,000 days old; a number which is both 
unacceptable to the agency as well as the American people it serves. 
Commissioner Astrue identified these cases as ODAR's number one 
priority and this backlog has since been eliminated. FMA applauds the 
Commissioner for his efforts; however, the 900 day old cases are now 
approaching this milestone. Currently, just fewer than 54,000 cases 
will be over 900 days old by the close of FY08. We are committed to 
working with the Commissioner as he tackles this challenge.
    With the aging Baby Boom population, it is reasonable to assume 
that receipts will continue to out-pace dispositions. As the requests 
for hearings continue to rise, more is demanded from ODAR staff on all 
levels. The bottom line is that the hearing offices lack sufficient 
staff to process the work on hand much less even begin to work on new 
cases. It should be evident that under the best case scenario, the 
current staffing levels in ODAR barely maintain the status quo. That 
means that the backlog stays the same and processing times continue at 
an estimated 500 days.
    The existing staff must make room for the new cases as they attempt 
to address the backlog. In recent years, however, budgetary constraints 
have forced the agency to hire additional Administrative Law Judges 
without providing adequate support staff to prepare the cases for 
hearing. We recognize that the Commissioner is trying to address the 
backlog by adding these judges; however, additional ALJs without the 
supporting clerical staff to prepare cases in a timely manner will not 
solve the problem. By following in his predecessor's footsteps, 
Commissioner Astrue will encounter the same problems--no matter how 
many new judges come on board, without clerical staff to prepare cases 
for them, the backlog cannot be addressed.
    As previously stated, there is currently insufficient support staff 
to ensure optimal ALJ productivity and to handle the backlog. The 
accepted staff to ALJ ratio has been four to four and one half 
production staff per ALJ. However, this only ensures productivity 
necessary to handle incoming work, not the backlog. For offices with 
heavy backlogs, the four and one half to one standard is inadequate. 
Management and administrative employees should not be included in these 
figures, as they are not the employees performing the production work 
on hearing requests. And, of course, staffing shortfalls cannot be 
remedied without adequate funding.
    The solutions to the backlog problem are simply adequate staffing 
levels and timely budgets which will allow us to address the pending 
cases. As of last month, the backlog was at 757,221 requests for a 
hearing. However, it is worth noting that the agency can reasonably 
process 400,000 cases at any given time. As such, the actual 
``backlog'' is around 350,000 cases. As noted earlier, a trained, 
productive ALJ, with adequate support staff, should be able to produce 
about 550 dispositions in a given year. Approximately 1,000 additional 
ALJs and 5,000 additional support staff would allow ODAR to work down 
the backlog in one year while providing timely processing of new cases 
as they arrive. We at FMA recognize that these numbers present a large 
funding challenge for Congress.
    To enable SSA to meet the goals set forth in Commissioner Astrue's 
testimony before your Subcommittee on February 28, 2008, Congress must 
approve a sufficient level of funding for the agency. The Continuing 
Resolution (CR) which was signed into law in March 2007 was severely 
inadequate to address both the staffing and backlog problem at SSA for 
fiscal year 2007, despite the meager increase SSA received above the 
fiscal year 2006 appropriation. Since 2001, Congress has appropriated, 
on average, $180 million less than the President has requested each 
year. The dollar value of this differential is equivalent to processing 
an additional 177,000 initial claims and 454,000 hearings. Over the 
last ten years (FY98--FY07), Congress has appropriated nearly $1.3 
billion less than the President's request. Without a doubt, this has 
had a devastating effect on the services provided to the American 
public, as evidenced by the situation we are in today.
    Recognizing the needs of SSA, Congress appropriated $150 million 
above the President's request for FY08 in an effort to bring down the 
backlog. Congress should be applauded for their commitment to serving 
the American people in this capacity. In fact, it is this increase 
which is allowing the agency to hire the additional 175 ALJs.
    The President requested $10.327 billion for SSA's administrative 
expenses in FY09, only $100 million below Commissioner Astrue's request 
and six percent more than Congress appropriated this fiscal year. 
Furthermore, the House Budget Resolution (H.Con.Res. 312) provided for 
an additional $240 million for SSA's administrative expenses. We 
applaud these efforts.
    To remedy the unprecedented backlog situation, Congress should at a 
minimum pass the President's 2009 budget request of $10.327 billion for 
SSA's Limitation on Administrative Expenses account. Under his budget, 
the agency would be able to process 85,000 more hearings in FY09 than 
in FY08. In FY06 and FY07, SSA replaced one worker for every three that 
retired. The President's budget will allow for a 1 replacement ratio.
    In addition to having an immediate impact on the current backlog, 
underfunding the Social Security Administration will negatively impact 
every service area of the agency. Staffing at SSA will soon reach its 
lowest level since 1972; however, SSA today has nearly twice the number 
of beneficiaries it had in 1972. SSA officials estimate that more than 
40% of its 65,000 employees will retire by 2014. Reversing this trend 
is a necessary step to reducing the backlog.
    While the President's budget request for FY09 is a start, it is 
certainly not a cure all solution. Throwing money at the problem will 
not fully solve it without a well-trained, dedicated staff of Federal 
employees willing to avert a crisis in the coming years. We believe 
this is the workforce we have now, strengthened under the leadership of 
former-Commissioner Barnhart and Commissioner Astrue. By fully funding 
the President's request, we can continue this tradition.
    In this era of shrinking budgets, SSA has attempted to maximize its 
use of scarce resources to provide the best possible service to the 
American public. The challenges faced by the managers and supervisors 
are not short term; they are a demographic reality. The same citizens 
putting stress on the Social Security trust fund because they are 
approaching retirement are also entering their most disability-prone 
years. ODAR is struggling to handle the current workload and will be 
hard pressed to manage the anticipated increase in hearing requests 
without additional staff.
    We are the men and women who work with disabled Americans everyday. 
We see people of all ages come in and out of our offices seeking the 
services they depend on for survival from the Social Security 
Administration. We are committed to serving a community of Americans in 
need, but we need you to provide us with the necessary resources to 
help them. Thank you for your time and consideration of our views.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
